Audit Report




OIG-13-012
Audit of the Department of the Treasury’s Fiscal Years 2012 and
2011 Financial Statements
November 15, 2012




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Memorandum for the Secretary


Section I – Independent Auditors’ Report and Management’s Response


Section II - Department of the Treasury Fiscal Year 2012
             Agency Financial Report
THIS PAGE INTENTIONALLY LEFT BLANK
                                          DEPARTMENT OF THE TREASURY
                                                 W ASHINGTON, D.C. 20220


                                                    November 15, 2012
     OFFICE OF
INSPECTOR GENERAL




            INFORMATION MEMORANDUM FOR SECRETARY GEITHNER

            FROM:                      Eric M. Thorson
                                       Inspector General

            SUBJECT:                   Audit of the Department of the Treasury’s Financial Statements for
                                       Fiscal Years 2012 and 2011


            INTRODUCTION

            I am pleased to transmit KPMG LLP’s report on the Department of the Treasury’s (the
            Department) financial statements as of and for the fiscal years (FY) ending September 30, 2012
            and 2011.

            The Chief Financial Officer’s Act, as amended, requires the Department of the Treasury Office
            of Inspector General or an independent auditor, as determined by the Inspector General, to audit
            the Department’s financial statements. Under a contract monitored by my office, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the Department’s FY 2012
            and 2011 financial statements. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards issued by the Comptroller General of the
            United States; Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            RESULTS OF INDEPENDENT AUDIT

            In its audit of the Department, KPMG LLP reported the following:

                •   the financial statements were fairly presented, in all material respects, in conformity with
                    U.S. generally accepted accounting principles;

                •   a material weakness related to unpaid tax assessments and a significant deficiency related
                    to financial reporting systems identified by the auditor of the Internal Revenue Service
                    collectively represent a material weakness for the Department as a whole;

                •   weaknesses related to information systems controls at the Bureau of the Fiscal Service
                    represent a significant deficiency for the Department as a whole;

                •   the Department’s financial management systems did not substantially comply with the
                    requirements of the Federal Financial Management Improvement Act of 1996 (FFMIA)
                    related to Federal financial management systems requirements and applicable Federal
                    accounting standards; and
Page 2

   •     no instances of reportable noncompliance with laws and regulations , exclusive of
         FFMIA, that are required to be reported under government auditing standards and Office
         of Management and Budget Bulletin No. 07-04;

   •     an instance of a potential Anti-deficiency Act violation related to voluntary services
         provided to the Departmental Offices, also reported in the prior year report.

EVALUATION OF AUDITORS’ PERFORMANCE

To ensure the quality of the audit work performed, we reviewed KPMG LLP’s approach and
planning of the audit, evaluated the qualifications and independence of the auditors, monitored
the progress of the audit at key points, reviewed and accepted KPMG LLP’s audit report, and
performed other procedures that we deemed necessary. Additionally, we provide oversight of the
audits of financial statements and certain accounts and activities conducted at 12 component
entities of the Department. Our review, as differentiated from an audit performed in accordance
with generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or on whether the Department’s financial management systems
substantially complied with the Federal Financial Management Improvement Act or conclusions
on compliance with laws and regulations. KPMG LLP is responsible for the attached auditors’
report dated November 15, 2012, and the conclusions expressed in that report. However, our
review disclosed no instances where KPMG LLP did not comply, in all material respects, with
generally accepted government auditing standards.

I appreciate the courtesies and cooperation extended to KPMG LLP and my staff during the
audit. Should you or your staff have questions, you may contact me at (202) 622-1090 or
Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc: Nani A. Coloretti
    Acting Assistant Secretary for Management

   Dorrice C. Roth
   Deputy Chief Financial Officer
         SECTION I –

INDEPENDENT AUDITORS’ REPORT
 AND MANAGEMENT’S RESPONSE
THIS PAGE INTENTIONALLY LEFT BLANK
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the
Treasury (Department) as of September 30, 2012 and 2011, and the related consolidated
statements of net cost and changes in net position, combined statements of budgetary resources,
and statements of custodial activity (hereinafter referred to as “consolidated financial
statements” or “basic consolidated financial statements”) for the years then ended. The objective
of our audits was to express an opinion on the fair presentation of these consolidated financial
statements.

We did not audit the amounts included in the consolidated financial statements related to the
Internal Revenue Service (IRS) and the Office of Financial Stability (OFS), component entities
of the Department. The financial statements of IRS and OFS were audited by another auditor
whose reports have been provided to us. Our opinion, insofar as it relates to the amounts
included for IRS and OFS, is based solely on the reports of the other auditor.

In connection with our fiscal year 2012 audit, we also considered the Department’s internal
control over financial reporting and tested the Department’s compliance with certain provisions
of applicable laws, regulations, contracts, and grant agreements that could have a direct and
material effect on these consolidated financial statements. This report includes our consideration
of the results of the other auditor's testing of internal control over financial reporting and
compliance and other matters for IRS and OFS that are reported on separately by the other
auditor. However, this report, insofar as it relates to the results of the other auditor, is based
solely on the reports of the other auditor.

Summary
As stated in our opinion on the consolidated financial statements, based on our audits and the
reports of the other auditor, we concluded that the Department’s consolidated financial
statements as of and for the years ended September 30, 2012 and 2011, are presented fairly, in
all material respects, in conformity with U.S. generally accepted accounting principles.

As discussed in our Opinion on the Financial Statements:

•   The Department is a participant in significant legislation and transactions whose purpose is
    to assist in stabilizing the financial markets. The consolidated financial statements do not
    include the assets, liabilities, or results of operations of commercial entities in which the
    Department has a significant equity interest. The value of certain investments, loans,
    commitments, and asset guarantees is based on estimates that are inherently subject to




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
U.S. Department of the Treasury
November 15, 2012
Page 2 of 10



    substantial uncertainty. As such, there will be differences between the net estimated value of
    these investments, loans, commitments, and asset guarantees at September 30, 2012, and the
    amounts that will ultimately be realized from these assets or be required to pay to settle these
    commitments and guarantees.


•   The Department changed the accounting for certain debt related budgetary transactions in
    fiscal year 2012.

•   The Department changed its presentation for reporting the Combined Statement of
    Budgetary Resources in fiscal year 2012.

Our, and the other auditor’s, consideration of internal control over financial reporting resulted in
identifying certain deficiencies that we consider to be a material weakness and other deficiencies
that we consider to be a significant deficiency, as defined in the Internal Control Over Financial
Reporting section of this report, as follows:

A. Material Weakness in Internal Control Over Financial Reporting at the IRS (Repeat
   Condition)

B. Significant Deficiency in Internal Control in Information Systems Controls at the Bureau of
   the Fiscal Service (Repeat Condition)

The results of our tests, and the tests performed by the other auditor, of compliance with certain
provisions of laws, regulations, contracts, and grant agreements disclosed the following instance
of noncompliance and other matter that are required to be reported under Government Auditing
Standards, issued by the Comptroller General of the United States, and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

C. Noncompliance with Federal Financial Management Improvement Act of 1996 (Repeat
   Condition)

D. Other Matter of Potential Violation of the Anti-Deficiency Act (Repeat Condition)

The following sections discuss our opinion on the Department’s consolidated financial
statements; our, and the other auditor’s, consideration of the Department’s internal control over
financial reporting; our, and the other auditor’s tests of the Department’s compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements; and
management’s and our responsibilities.
U.S. Department of the Treasury
November 15, 2012
Page 3 of 10



Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the U.S. Department of the
Treasury as of September 30, 2012 and 2011, and the related consolidated statements of net cost
and changes in net position, the combined statements of budgetary resources, and statements of
custodial activity for the years then ended.

We did not audit the amounts included in the consolidated financial statements related to IRS, a
component entity of the Department, which consist of total assets of $46.8 billion and $43.3
billion, net cost of operations of $12.8 billion and $13.0 billion before applicable eliminating
entries, budgetary resources of $13.2 billion and $13.5 billion, and custodial revenues of $2,528
billion and $2,415 billion, as of and for the years ended September 30, 2012 and September 30,
2011, respectively. The IRS financial statements were audited by another auditor whose report
dated November 5, 2012 has been furnished to us, and our opinion, insofar as it relates to the
amounts included for IRS, is based solely on the report of the other auditor.

We did not audit the amounts included in the consolidated financial statements related to OFS, a
component entity of the Department, which consist of total assets of $116.7 billion and $164.2
billion, net cost of (income from) operations of ($7.7) billion and $9.5 billion before applicable
eliminating entries, and budgetary resources of $67.8 billion and $103.0 billion, as of and for the
years ended September 30, 2012 and September 30, 2011, respectively. The OFS financial
statements were audited by another auditor whose report dated November 5, 2012 has been
furnished to us, and our opinion, insofar as it relates to the amounts included for OFS, is based
solely on the report of the other auditor.

In our opinion, based on our audits, and the reports of the other auditor, the consolidated
financial statements referred to above present fairly, in all material respects, the financial
position of the U.S. Department of the Treasury as of September 30, 2012 and 2011, and its net
costs, changes in net position, budgetary resources, and custodial activity for the years then
ended, in conformity with U.S. generally accepted accounting principles.

As discussed in Notes 7, 8, 11 and 26, the Department is a participant in significant legislation
and transactions whose purpose is to assist in stabilizing the financial markets. Also as discussed
in note 1A, the consolidated financial statements do not include the assets, liabilities, or results
of operations of commercial entities in which the Department has a significant equity interest as
it has determined that none of these entities meet the criteria for inclusion as a federal entity and
are therefore not included in the consolidated financial statements. Furthermore, as discussed in
notes 1V, 7, 8, and 11, the value of certain investments, loans, commitments, and asset
guarantees is based on estimates. These estimates are inherently subject to substantial
uncertainty arising from the likelihood of future changes in general economic, regulatory, and
market conditions. In addition, there are significant uncertainties related to the amounts that the
Department will realize from its investments. As such, there will be differences between the net
estimated value of these investments, loans, commitments, and asset guarantees at September 30,
2012, and the amounts that will ultimately be realized from these assets or be required to pay to
U.S. Department of the Treasury
November 15, 2012
Page 4 of 10



settle these commitments and guarantees. Such differences may be material and will also affect
the ultimate cost of these programs.

As discussed in Note 22 to the consolidated financial statements, the Department changed the
accounting for certain debt related budgetary transactions based on guidance from OMB.

As discussed in Note 1B to the consolidated financial statements, the Department changed its
presentation for reporting the Combined Statement of Budgetary Resources in fiscal year 2012,
based on new reporting requirements under OMB Circular No. A-136, Financial Reporting
Requirements. As a result, the Department’s Combined Statement of Budgetary Resources for
fiscal year 2011 has been reclassified to conform to the current year presentation.

U.S. generally accepted accounting principles require that the information in the Management’s
Discussion and Analysis, and Required Supplemental Information sections be presented to
supplement the basic consolidated financial statements. Such information, although not a part of
the basic consolidated financial statements, is required by the Federal Accounting Standards
Advisory Board who considers it to be an essential part of financial reporting for placing the
basic consolidated financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information
in accordance with auditing standards generally accepted in the United States of America, which
consisted of inquiries of management about the methods of preparing the information and
comparing the information for consistency with management’s responses to our inquiries, the
basic consolidated financial statements, and other knowledge we obtained during our audits of
the basic consolidated financial statements. We do not express an opinion or provide any
assurance on the information because the limited procedures do not provide us with sufficient
evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic consolidated
financial statements as a whole. The information in the Message from the Secretary of the
Treasury, the Message from the Acting Assistant Secretary for Management and the Deputy
Chief Financial Officer, and Other Accompanying Information section is presented for the
purposes of additional analysis and is not a required part of the basic consolidated financial
statements. Such information has not been subjected to the auditing procedures applied in the
audits of the basic consolidated financial statements, and accordingly, we do not express an
opinion or provide any assurance on them.

Internal Control Over Financial Reporting
Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify all
deficiencies in internal control over financial reporting that might be deficiencies, significant
deficiencies, or material weaknesses and therefore, there can be no assurance that all
deficiencies, significant deficiencies, or material weaknesses have been identified.
U.S. Department of the Treasury
November 15, 2012
Page 5 of 10



A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

In our fiscal year 2012 audit, the other auditor identified deficiencies in internal control over
financial reporting that we consider to be a material weakness and we identified other
deficiencies that we consider to be a significant deficiency that are described below.

A. Material Weakness in Internal Control Over Financial Reporting at the IRS (Repeat
   Condition)

IRS needs to establish internal controls for financial reporting and systems in accordance with
OMB Circular A-123, Management’s Responsibility for Internal Control to ensure reliable and
timely financial information is obtained, maintained, and reported. IRS continued to make
progress in addressing its deficiencies in internal control over financial reporting. However, a
material weakness in internal control over unpaid tax assessments and significant deficiency in
internal control over financial reporting systems continued to exist in fiscal year 2012 and are
collectively considered a material weakness at the Department level. The other auditor
performed an audit of IRS’s internal control over financial reporting for the purpose of providing
an opinion on the effectiveness of internal controls. Because of the material weakness, the other
auditor’s opinion on IRS’s internal control over financial reporting stated that IRS did not
maintain effective internal control over financial reporting as of September 30, 2012, and thus
did not provide reasonable assurance that losses and misstatements that were material in relation
to the IRS’s financial statements would be prevented or detected and corrected on a timely basis.
The deficiencies are summarized as follows:

•   Internal control deficiencies continued to exist that caused errors in unpaid tax assessment
    amounts. Specifically, the IRS was unable to 1) rely on its general ledger system for tax
    transactions and underlying subsidiary records to report federal taxes receivable, compliance
    assessments, and write-offs in accordance with federal accounting standards without
    significant compensating procedures, 2) trace reported balances for taxes receivable from its
    general ledger to underlying source documents, and 3) effectively prevent or timely detect
    and correct errors in taxpayer accounts.

•   Internal control deficiencies over financial reporting systems continued to exist, including 1)
    access control weaknesses and database software issues related to its procurement system,
    and 2) inadequate database security for various systems. In addition, IRS had not performed
    sufficient monitoring of internal control over its financial reporting system. Furthermore,
U.S. Department of the Treasury
November 15, 2012
Page 6 of 10



   IRS did not always set sufficiently restrictive security-related parameters and users’ rights
   and privileges for certain operating environments, including a key financial application;
   allowed inappropriate and unlogged access to system files; and did not effectively manage
   certain privileged accounts on servers. Finally, IRS did not effectively implement all aspects
   of its information security program framework, and did not update the security standards
   policy for IRS’s main tax processing environment, to include current software versions and
   control capabilities.

Additional details related to the material weakness identified above have been provided
separately to IRS management by the auditor of the IRS’s financial statements.

Recommendation
The other auditor separately provided IRS management with recommendations to address the
above material weakness. We recommend that the Acting Assistant Secretary for Management
(ASM) and Deputy Chief Financial Officer (DCFO) ensure that the IRS takes corrective action
to improve controls over financial reporting.

B. Significant Deficiency in Internal Control in Information Systems Controls at the
   Bureau of the Fiscal Service (Repeat Condition)

The Bureau of the Fiscal Service (BFS) was established on October 7, 2012, by consolidating
the Financial Management Service and the Bureau of the Public Debt. BFS relies on an
extensive array of information technology (IT) systems to perform its primary mission. Effective
information system controls and security programs over its financial systems is essential to
protecting information resources in accordance with OMB Circular No. A-130, Management of
Federal Information Resources. BFS made progress in several areas in its efforts to address prior
year deficiencies in its information systems controls. Despite these improvements, our tests
revealed that the necessary policies and procedures to detect and correct control and
functionality weaknesses have not been consistently documented, implemented, or enforced.
Specifically, deficiencies continue to exist in the areas of 1) security management program, 2)
access to computer resources (i.e., data, equipment, and facilities), 3) changes to information
system resources and system configurations, 4) segregation of duties, and 5) contingency plans.
These deficiencies could compromise BFS’s ability to ensure security over sensitive financial
data and reliability of the financial systems.

Recommendation
We separately provided BFS management with recommendations to address the above
significant deficiency. We recommend that the ASM and DCFO ensure that BFS takes
corrective action to improve controls over its information system controls.

Exhibit I presents the status of the prior year findings. We noted certain additional matters that
we will report to management of the Department in a separate letter.
U.S. Department of the Treasury
November 15, 2012
Page 7 of 10




Compliance and Other Matter
The results of our tests of FFMIA, and the tests performed by the other auditor, disclosed
instances, described below, where the Department’s financial management systems did not
substantially comply with the (1) federal financial management systems requirements, and (2)
applicable Federal accounting standards. The results of our tests of FFMIA, and the tests
performed by the other auditor, disclosed no instances in which the Department’s financial
management systems did not substantially comply with the United States Government Standard
General Ledger at the transaction level.

C. Noncompliance with Federal Financial Management Improvement Act of 1996 (Repeat
   Condition)

The Department’s financial management systems did not substantially comply with the
following FFMIA requirements:

1. Federal Financial Management Systems Requirements
As discussed in finding A. Material Weakness in Internal Control Over Financial Reporting at
the IRS (Repeat Condition), the Department continues to have deficiencies in the IRS’s
automated systems for tax-related transactions.

2. Federal Accounting Standards
As discussed in finding A. Material Weakness in Internal Control Over Financial Reporting at
the IRS (Repeat Condition), the Department has a material weakness related to the IRS that
affected the Department’s ability to prepare its financial statements in accordance with federal
accounting standards. Specifically, IRS automated systems for tax-related transactions did not
support the net federal taxes receivable amount on the consolidated balance sheet and required
supplementary information disclosures for uncollected taxes – compliance assessments and
write-offs – as required by Statement of Federal Financial Accounting Standards No. 7,
Accounting for Revenue and Other Financing Sources and Concepts for Reconciling Budgetary
and Financial Accounting.

Recommendation
The other auditor separately provided IRS management with recommendations to address the
above noncompliance with FFMIA. We recommend that the ASM and DCFO ensure that the
IRS implements its remediation plan outlining actions to be taken to resolve noncompliance with
the FFMIA requirements and the resources and responsible organizational units for such planned
actions. Many of the IRS’s planned actions are long term in nature and are tied to IRS’s systems
modernization efforts.

The results of certain of our tests, and the tests performed by the other auditor, of compliance as
described in the Responsibilities section of this report, exclusive of those referred to in the
Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed the following
U.S. Department of the Treasury
November 15, 2012
Page 8 of 10



other matter that is required to be reported herein under Government Auditing Standards or
OMB Bulletin No. 07-04.

D. Other Matter of Potential Violation of the Anti-Deficiency Act (Repeat Condition)

As stated in our prior year auditors’ report, the Department informed us of an instance of a
potential violation of the Anti-Deficiency Act related to voluntary services provided to the
Departmental Offices in the prior year. The Department is reviewing this matter to determine
whether or not the matter is a violation of the Anti-Deficiency Act.

The results of our other tests, and the tests performed by the other auditor, of compliance as
described in the Responsibilities section of this report, exclusive of those referred to in FFMIA,
disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

Department’s Response to Internal Control and Compliance Findings
The Department indicated in a separate letter immediately following this report that it concurs
with the findings presented in our report. Further, the Department responded that it will take
corrective action, as necessary, to ensure the respective component management within the
Department address the matters presented. We did not audit the Department’s response and,
accordingly, we express no opinion on it.

                                          *******

Responsibilities

Management’s Responsibilities. Management is responsible for the consolidated financial
statements; establishing and maintaining effective internal control over financial reporting; and
complying with laws, regulations, contracts, and grant agreements applicable to the Department.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012
and 2011 consolidated financial statements of the Department based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-
04, as amended. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
the audits to obtain reasonable assurance about whether the consolidated financial statements are
free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the Department’s internal
control over financial reporting. Accordingly, we express no such opinion.
U.S. Department of the Treasury
November 15, 2012
Page 9 of 10



An audit also includes:
•    Examining, on a test basis, evidence supporting the amounts and disclosures in the
     consolidated financial statements;
•    Assessing the accounting principles used and significant estimates made by management;
     and
•    Evaluating the overall consolidated financial statement presentation.

We believe that our audits, and the reports of the other auditor related to the amounts included
for IRS and OFS, provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the Department’s internal
control over financial reporting, by obtaining an understanding of the design effectiveness of the
Department’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of the Department’s internal control over financial reporting. We
did not test all controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the Department’s fiscal year 2012
consolidated financial statements are free of material misstatement, we performed tests of the
Department’s compliance with certain provisions of laws, regulations, contracts, and grant
agreements, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to
in Section 803(a) of FFMIA. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and
grant agreements applicable to the Department. However, providing an opinion on compliance
with laws, regulations, contracts, and grant agreements was not an objective of our audit and,
accordingly, we do not express such an opinion.
                             ______________________________

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than
these specified parties.



November 15, 2012
U.S. Department of the Treasury
November 15, 2012
Page 10 of 10



                                                                                        Exhibit I

                               U.S. Department of the Treasury

                                  Status of Prior Year Findings

                                      September 30, 2012


          Fiscal Year 2011 Findings                     Status of Fiscal Year 2011 Findings

Material Weakness: Financial Systems and           This condition has not been corrected and is
Reporting at the IRS                               repeated in fiscal year 2012. See finding A.

Significant Deficiency: Financial Reporting
Practices at the Departmental Level                This condition has been corrected.

Significant Deficiency: Financial Accounting
and Reporting at the Office of Financial
Stability                                          This condition has been corrected.

Significant Deficiency: Information Systems        This condition has not been corrected and is
Controls at the Financial Management Service       repeated in fiscal year 2012. See finding B.

Noncompliance with Internal Revenue Code
Section 6325                                       This condition has been corrected.

Substantial noncompliance with Federal
Financial Management Improvement Act of            This condition has not been corrected and is
1996                                               repeated in fiscal year 2012. See finding C.

Other Matter of Potential Violation of the Anti-   This condition has not been resolved and is
Deficiency Act                                     repeated in fiscal year 2012. See finding D.
                                                           U.S. Department of the Treasury | Fiscal Year 2012


MANAGEMENT’S RESPONSE TO INDEPENDENT AUDITORS’
REPORT



                                                     November 15, 2012



KPMG LLP
1801 K Street, NW
Washington, DC 20006

Ladies and Gentlemen:

On behalf of Secretary Geithner, we are responding to your draft audit report on the Department of the
Treasury’s fiscal year 2012 consolidated financial statements. Our bureaus and program offices are proud of
the Department’s success in achieving an unqualified audit opinion on the Department’s financial statements
for the thirteenth consecutive year. We are also proud of the fourth unqualified audit opinion from the
Government Accountability Office (GAO) on the Office of Financial Stability’s (OFS) financial statements.

The high level of professionalism, technical expertise, and partnership demonstrated by KPMG in conducting
this year’s audit contributed greatly to Treasury’s successful fiscal year 2012 results. We also appreciate the
expertise and commitment demonstrated by the other organizations involved in the audit process – the
Office of the Inspector General, GAO, and the firm that audited several of our bureaus.

We made substantial progress this past year in enhancing our internal controls and eliminating two
significant deficiencies – a significant deficiency in financial reporting practices at the Departmental level
and a significant deficiency in accounting and financial reporting processes at OFS. Additionally, as reported
by GAO, the Internal Revenue Service continued to make important progress this past year in addressing its
internal control deficiencies. GAO downgraded the material weakness in computer security at the Internal
Revenue Service (IRS) to a significant deficiency, and IRS corrected an Internal Revenue Code compliance
issue. We are very proud of these accomplishments.

We acknowledge the one material weakness and one significant deficiency at the Department level, and
instances of noncompliance with laws and regulations described in your report. We agree with your
recommendations, and will focus on necessary corrective actions to address each of the issues.




Nani A. Coloretti                                                  Dorrice C. Roth
Acting Assistant Secretary for Management                          Deputy Chief Financial Office




                                                      55
THIS PAGE INTENTIONALLY LEFT BLANK
        SECTION II –

DEPARTMENT OF THE TREASURY
     FISCAL YEAR 2012
  AGENCY FINANCIAL REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
    U.S. Department of the Treasury | Fiscal Year 2012




i
             November 15, 2012
     U.S. Department of the Treasury | Fiscal Year 2012




ii
    U.S. Department of the Treasury | Fiscal Year 2012




i
                             U.S. Department of the Treasury | Fiscal Year 2012




For the online version of this report, please see:
           http://www.treasury.gov
           and search for “2012 AFR”




                        ii
                                                                                                             U.S. Department of the Treasury | Fiscal Year 2012

TABLE OF CONTENTS
Message from the Secretary of the Treasury........................................................................................................................................ iv


Part 1: Management’s Discussion and Analysis (Unaudited)
Executive Summary ............................................................................................................................................................................... 3
Organization ........................................................................................................................................................................................... 3
Treasury's Fiscal Year 2012-2015 Strategic Framework ...................................................................................................................... 6
Treasury's Fiscal Year 2012 Performance By Strategic Goal................................................................................................................ 8
Treasury's Fiscal Year 2012-2013 Agency Priority Goals and Status................................................................................................. 23
Department's Key Performance Measures for 2012 ........................................................................................................................... 27
Highlights of Management and Performance Challenges .................................................................................................................. 29
Financial Highlights............................................................................................................................................................................. 30
Management Assurances ..................................................................................................................................................................... 34


Part 2: Annual Financial Report
Message from the Acting Assistant Secretary for Management and Deputy Chief Financial Officer ...............................................41
Inspector General’s Transmittal Letter ............................................................................................................................................... 43
Independent Auditors’ Report on the Department’s Financial Statements ...................................................................................... 45
Management’s Response to Independent Auditors’ Report............................................................................................................... 55
Financial Statements............................................................................................................................................................................ 56
Notes to the Financial Statements....................................................................................................................................................... 64
Required Supplemental Information (Unaudited) ...........................................................................................................................143


Part 3: Other Accompanying Information (Unaudited)
Section A: Schedule of Spending ........................................................................................................................................................149
Section B: Tax Gap and Tax Burden...................................................................................................................................................150
Section C: Management and Performance Challenges Identified by the Inspectors General and the Secretary’s Responses.......152
Section D: Summary of Financial Statement Audit and Management Assurances ........................................................................ 202
Section E: IPIA (as amended by IPERA) Reporting Details ............................................................................................................ 203
Section F: Material Weaknesses and Audit Follow up ...................................................................................................................... 211
Appendix: Glossary of Acronyms .......................................................................................................................................................217




                                                                                                   iii
                                                                       U.S. Department of the Treasury | Fiscal Year 2012

MESSAGE FROM THE SECRETARY OF THE TREASURY
                                   Over the past four years, our main focus has been on helping to pull the U.S. economy out of
                                   the depths of the worst financial crisis since the Great Depression and to strengthen and
                                   sustain the economic recovery. While we’ve seen significant progress – including 32 straight
                                   months of job growth, increased access to credit, an improved housing market, and expanded
                                   opportunities for America’s workers and businesses – we still face serious challenges.

                                   Americans continue to live with the scars caused by the crisis. The unemployment rate is still
                                   too high, and our fiscal deficits are unsustainable. President Obama has proposed additional
                                   measures to accelerate economic growth and job creation and get our fiscal house in order.
                                   He has put forward a plan that will maintain tax cuts for middle class families, encourage
                                   manufacturing in the United States, increase domestic energy production, and reduce the
                                   deficit in a balanced way so that we can preserve room to make investments in infrastructure
                                   and education.

In addition to these challenges, we will continue to put in place financial reforms and consumer protections. We will move
ahead with steps to further strengthen the housing market. The Treasury Department will also continue to work closely with our
international partners, as well as the IMF and other international financial institutions, to support a strong and comprehensive
response to Europe’s financial crisis and to continue expanding export markets for our workers and businesses. We will
continue to lead the global effort to impose tough sanctions on Iran, Syria, and terrorist organizations that pose a threat to our
security, and we will collaborate internationally and domestically to protect financial systems around the globe from abuse. And
the Treasury Department will continue to play an important role as key provisions of the Affordable Care Act are implemented
and more Americans get access to health care.

The Treasury Department again received an unqualified opinion on its consolidated financial statements, and we also received
another unqualified opinion on the financial statements of the Office of Financial Stability/Troubled Asset Relief Program.
Rather than providing a single Performance and Accountability Report for fiscal year 2012, we are producing separate financial
and performance reports. The Annual Performance Report will be included in the Congressional Budget Justification in
February 2013.

We have validated the accuracy, completeness, and reliability of the financial and performance data in this report. Maintaining
our commitment to continuous program and operational improvement, the Department also made progress in reducing
management control weaknesses and in efforts to achieve federal financial systems and control objectives.




Timothy F. Geithner
November 15, 2012




                                                                 iv
    U.S. Department of the Treasury | Fiscal Year 2012




(UNAUDITED)




2
    U.S. Department of the Treasury | Fiscal Year 2012




3
                                                                          U.S. Department of the Treasury | Fiscal Year 2012

EXECUTIVE SUMMARY
In fiscal year 2012, the Department of the Treasury                     prosperity, and monitor risk in the financial system.

undertook a multitude of actions that helped strengthen the             Treasury has also driven a departmental management agenda

U.S. economy, increase job opportunities, and improve the               focused on governing strategically, working smarter, and

housing market by taking important steps to restore                     leveraging advances in technology to gain greater cost savings

confidence in the financial system while reinforcing U.S.               for the American public, increase productivity, modernize

international competitiveness. The Department continued to              operations, and support the Administration’s management

implement the Dodd-Frank Wall Street Reform and                         agenda.

Consumer Protection Act (the Dodd-Frank Act); took                      This Agency Financial Report documents Treasury’s
aggressive actions in the fight against financial crimes,               operational and financial performance during fiscal year
money laundering, and threats to national security;                     2012, including Treasury’s steady progress on its five
continued its pursuit of comprehensive tax and fiscal reform;           Strategic Goals and two Agency Priority Goals (APGs), with
and strengthened efforts to improve stewardship over the                positive results in support of the Department’s 2012 - 2015
U.S. Government’s financial resources. Treasury worked to               Strategic Plan.
encourage lending to small businesses, promote economic


ORGANIZATION
The Department of the Treasury is the executive agency responsible for promoting economic prosperity and ensuring the
financial security of the United States. The Department is organized into the Departmental Offices, eight operating bureaus, and
three inspectors general. The Departmental Offices are primarily responsible for policy formulation, while the bureaus are
primarily the operating units of the organization.


DEPARTMENTAL OFFICES
Domestic Finance advises and assists in areas of domestic               regulatory standards, and a level playing field for U.S.
finance, banking, and other related economic matters. In                businesses and financial institutions internationally; to
addition, this office develops policies and guidance for                encourage foreign investment in the U.S. while protecting
Treasury Department responsibilities in the areas of financial          national security; and to enhance U.S. competitiveness and
institutions, federal debt finance, financial regulation, capital       job creation.
markets, financial management, fiscal policy, and cash
                                                                        Terrorism and Financial Intelligence (TFI) marshals
management decisions. The staffs of the Financial Stability
                                                                        the Department’s intelligence, enforcement, and economic
Oversight Council, Office of Financial Research (OFR) and
                                                                        sanction functions with the twin aims of safeguarding the
the Federal Insurance Office (FIO), created under the Dodd-
                                                                        financial system against illicit use and combating rogue
Frank Act, reside within Domestic Finance, as does the Office
                                                                        regimes, terrorist facilitators, weapons of mass destruction
of Financial Stability (OFS), which is responsible for
                                                                        (WMD) proliferators, money launderers, drug kingpins, and
overseeing the Troubled Asset Relief Program (TARP). The
                                                                        other national security and foreign policy threats.
Office of Financial Institutions oversees the Community
Development Financial Institutions (CDFI) Fund, the Small               Economic Policy reports on current and prospective

Business Lending Fund (SBLF), and the State Small Business              economic developments and assists in the determination of

Credit Initiative (SSBCI) within Domestic Finance.                      appropriate economic policies. The office is responsible for
                                                                        the review and analysis of domestic economic issues and
International Affairs protects and supports U.S.
                                                                        developments in the financial markets.
economic prosperity by working bilaterally and multilaterally
to foster strong and balanced global growth; to promote                 Tax Policy develops and implements tax policies and

stable international financial markets, high-quality financial          programs, reviews regulations and rulings to administer the

                                                                    3
                                                                      U.S. Department of the Treasury | Fiscal Year 2012
Internal Revenue Code and the tariff laws, negotiates tax           The Bureau of Engraving and Printing (BEP)
treaties, and provides economic and legal policy analysis for       develops and produces U.S. currency notes that are trusted
domestic and international tax policy decisions. Tax Policy         worldwide.
also provides revenue estimates for the President’s Budget.
                                                                    The Bureau of the Public Debt (BPD) borrows the
Treasurer of the United States has direct oversight                 money needed to operate the U.S. Government through the
over the United States Mint and the Bureau of Engraving and         sale of marketable, savings, and special purpose U.S.
Printing, and is a key liaison with the Federal Reserve. In         Treasury securities. It accounts for and services the public
addition, the Treasurer serves as a senior advisor to the           debt and provides reimbursable administrative support
Secretary in the areas of community development and public          services to federal agencies.
engagement.
                                                                    The Financial Management Service (FMS) provides
                                                                    central payment services to federal program agencies,
Other Offices
                                                                    operates the U.S. Government’s collections and deposit
Internally, Treasury’s Departmental Offices are responsible
                                                                    systems, provides government-wide accounting and
for overall management of the Department. The Office of
                                                                    reporting services, and manages the collection of delinquent
Management and the Chief Financial Officer is responsible
                                                                    debt owed to the U.S. Government.
for managing the Department’s financial resources and
oversees Treasury-wide programs, including human capital,           Effective October 2012, the BPD and FMS operating bureaus

information technology (IT), and minority and women                 consolidated to form the Bureau of the Fiscal Service. The

inclusion.                                                          Department anticipates Congress to enact legislation to fund
                                                                    the new bureau’s salaries and expenses through a single
Other support offices include General Counsel, Legislative
                                                                    appropriation.
Affairs, and Public Affairs. Also, three inspectors general—
the Office of the Inspector General (OIG), the Treasury             The Financial Crimes Enforcement Network

Inspector General for Tax Administration (TIGTA), and the           (FinCEN) enhances the integrity of the financial system by

Special Inspector General for the Troubled Asset Relief             facilitating the detection and deterrence of financial crime.

Program (SIGTARP) — provide independent audits,                     The Internal Revenue Service (IRS) is the largest of
investigations, and oversight of the Department of the              the Department’s bureaus and determines, assesses, and
Treasury and its programs. While SIGTARP is                         collects tax revenue for the U.S. Government.
organizationally placed in Treasury, it is not under the
                                                                    The United States Mint designs, mints, and issues
general supervision of the Secretary.
                                                                    circulating and bullion coins, prepares and distributes

BUREAUS                                                             numismatic coins and other items, and strikes Congressional
                                                                    Gold Medals and other medals of national significance. The
Bureaus employ 98 percent of Treasury’s workforce and are
                                                                    United States Mint maintains physical custody and
responsible for carrying out specific operations assigned to
                                                                    protection of most of the nation’s gold and all of its silver
the Department.
                                                                    reserves.
The Alcohol and Tobacco Tax and Trade Bureau
                                                                    The Office of the Comptroller of the Currency
(TTB) collects federal excise taxes on alcohol, tobacco,
                                                                    (OCC) charters, regulates, and supervises all national banks
firearms, and ammunition, and assures compliance with
                                                                    and federal savings associations to help ensure that they
tobacco permitting and alcohol permitting, labeling, and
                                                                    operate in a safe and sound manner and in compliance with
marketing requirements to protect consumers.
                                                                    laws requiring fair treatment of their customers and fair
                                                                    access to credit and financial products.




                                                                4
                               U.S. Department of the Treasury | Fiscal Year 2012

THE DEPARTMENT OF THE TREASURY ORGANIZATIONAL CHART




                           5
                                                                                     U.S. Department of the Treasury | Fiscal Year 2012

TREASURY’S FISCAL YEARS 2012-2015 STRATEGIC FRAMEWORK
The Treasury’s Strategic Framework is a summary of the department’s goals and objectives. This framework provides the basis
for performance planning and continuous improvement.

           Strategic Goals                   Strategic Objectives                                     Indicators and Measures

           Goal 1                Lead the Administration’s efforts to          TARP lifetime cost estimate
                                 continue to implement comprehensive
           Repair and                                                          Income received from dividends, interest, warrants, and repayments of
                                 regulatory reform to increase stability and
           Reform the                                                          TARP investments
                                 strengthen accountability in the financial
           Financial System                                                    Rolling percent of investments remaining (overall and bank-only)
                                 system
           and Support the
                                 Effectively manage and exit emergency         Monthly mortgage-backed securities statement
           Recovery of the
           Housing Market        programs                                      Housing scorecard indicators
                                 Reform and strengthen the housing
                                 finance system

                                 Help prevent avoidable foreclosures and
                                 support the availability of affordable
                                 mortgage credit


           Goal 2                Protect global economic and financial         Timely review of Committee on Foreign Investment in the United
                                 stability and encourage market-               States (CFIUS) cases
           Enhance U.S.
                                 determined exchange rates
Economic




           Competitiveness                                                     Percentage of grant and loan proposals containing performance
           and Promote           Promote strong international financial        measures
           International         standards and a level playing field for
                                                                               Percentage of timely reviews of Multilateral Development Bank (MDB)
           Financial Stability   U.S. financial institutions
                                                                               grant and loan proposals
           and Balanced          Pursue free trade and open markets
                                                                               Percentage of timely reviews of International Monetary Fund (IMF)
           Global Growth
                                 Encourage foreign investment in the U.S.      lending proposals
                                 economy
                                                                               Traction and impact of technical assistance
                                 Enter into bilateral and multilateral tax
                                 agreements that encourage cross-border
                                 trade and investment

                                 Use leadership positions in the
                                 multilateral development banks and the
                                 International Monetary Fund to advance
                                 U.S. national security and economic
                                 interests

                                 Provide direct assistance to developing
                                 countries working to improve public
                                 financial management and strengthen
                                 their financial systems




                                                                               6
                                                                                    U.S. Department of the Treasury | Fiscal Year 2012

            Strategic Goals               Strategic Objectives                                         Indicators and Measures

            Goal 3              Collect, analyze, and disseminate           Impact of economic sanctions
                                financial and other information
            Protect our                                                     Impact of policymaking, outreach, and diplomacy
                                concerning illicit financing and national
            National Security                                               Impact of activities to create safer and more transparent financial
                                security threats
            through Targeted                                                systems
            Financial Actions   Disrupt and dismantle the financial
                                networks of those who threaten national     Ability to effectively collect, disseminate, and analyze financial
                                security or engage in illicit financing     intelligence

                                Shape policy, laws, and regulations to
Security




                                safeguard the U.S. and international
                                financial systems

                                Coordinate with partners, both at home
                                and abroad, including the foreign policy,
                                law enforcement, and intelligence
                                communities, to combat illicit finance

                                Assist partner countries in developing
                                and implementing anti-money
                                laundering and counter terrorist
                                financing regimes compliant with
                                international standards




            Strategic Goals               Strategic Objectives                                         Indicators and Measures

            Goal 4              Develop comprehensive proposals to          Voluntary tax compliance
                                reform and simplify the tax code
            Pursue                                                          Number of tax proposals partially or completely enacted into law
            Comprehensive       Increase voluntary tax compliance
                                                                            Number of administrative initiatives implemented
            Tax and Fiscal      Promote policies to ensure a sound fiscal
                                                                            Effects of fiscal policy
            Reform              footing over the medium term


            Goal 5              Optimize the cash and debt portfolio to     Percentage of Treasury payments made electronically
                                manage the Government’s borrowing
            Manage the                                                      Percentage of vendor invoices processed electronically by Treasury
                                costs effectively
Financial




            Government’s                                                    Percentage of total federal government receipts collected electronically
            Finances in a       Expand the use of electronic transactions
                                                                            Percentage of individual tax returns filed electronically
            Fiscally            Modernize financial systems and
            Responsible         standardize accounting practices            Amount of delinquent debt collected
            Manner
                                Continuously improve our operations         Mean absolute monthly forecast error on a cumulative basis for budget
                                and processes to generate efficiency        receipts, outlays, and non-marketable debt and mean absolute daily error
                                savings                                     in cash balance projections

                                Attract and retain an exceptional           Percentage of small business procurement targets met
                                workforce                                   Best Places to Work ranking

                                                                            Percentage of new hires retained after two years




                                                                             7
                                                                       U.S. Department of the Treasury | Fiscal Year 2012

TREASURY’S FISCAL YEAR 2012 PERFORMANCE BY STRATEGIC GOAL
                                                                         
GOAL #1: REPAIR AND REFORM THE                                                Restoring investor confidence in the American
                                                                              financial system so that it can support savings and
FINANCIAL SYSTEM AND SUPPORT                                                  investment
THE RECOVERY OF THE HOUSING
                                                                             Leveling the playing field in the U.S. to permit
MARKET                                                                        community banks to compete fairly with the
In late 2008 and early 2009, the Department of the Treasury                   nation’s largest financial firms
put in place a set of emergency programs to help break the
back of a historic financial crisis, restore confidence, and                 Promoting and strengthening complementary

restart economic growth.                                                      financial regulatory policies with G-20 member
                                                                              countries to support the resilience of the
In 2010, Congress passed and the President signed into law
                                                                              international financial system, enhance U.S.
comprehensive financial regulatory reform: The Dodd-Frank
                                                                              competitiveness and level the playing field
Act. Those reforms led by Treasury are helping to make
                                                                              internationally
future financial shocks less likely and less damaging by
addressing key gaps and weaknesses in the pre-crisis                         Educating and protecting consumers, through

financial system and helping to better protect consumers                      authority granted to Treasury and to the new

against fraud and abuse.                                                      Consumer Financial Protection Bureau (whose
                                                                              mission is to implement and enforce federal
Treasury also worked to support the process of repair and
                                                                              consumer financial laws, including the prohibition
recovery of the housing market. The Department has worked
                                                                              against unfair, deceptive, or abusive practices
with the White House and the Department of Housing and
                                                                              relating to consumer financial products and
Urban Development (HUD) on the development of loan
                                                                              services)
modification and refinancing programs designed to help
prevent avoidable foreclosures and reduce mortgage costs for         FINANCIAL STABILITY OVERSIGHT COUNCIL
responsible homeowners as well as on reforms to help
                                                                     The Dodd-Frank Act established the Financial Stability
transition to a housing market where the private sector is the
                                                                     Oversight Council (Council), comprised of federal financial
predominant source of mortgage credit.
                                                                     regulators, state regulators, and other financial experts, to
                                                                     identify risks to the financial stability of the United States,
DODD-FRANK ACT
                                                                     promote market discipline, and respond to emerging threats
During fiscal year 2012, Treasury continued to focus on
                                                                     to the stability of the U.S. financial system. The Council,
building a more efficient, transparent, and stable financial
                                                                     chaired by the Secretary of the Treasury, monitors threats to
system that contributes to the nation’s economic strength
                                                                     financial stability and facilitates coordination across the
and enhances its resiliency. The Dodd-Frank Act addressed
                                                                     financial regulatory community. To that end, the
key gaps and weaknesses in the financial regulatory structure
                                                                     Department of the Treasury has played an important role in a
that contributed to the onset and severity of the financial
                                                                     number of Dodd-Frank Act rulemakings.
crisis.
                                                                     The Secretary of the Treasury, as Chairperson of the Council,
These reforms were designed to help better protect taxpayers,
                                                                     is coordinating the federal regulators’ risk retention
businesses, and American families by:
                                                                     rulemaking process. This rule will help align interests among
         Constraining excessive risk taking to prevent              mortgage originators, securitizers (i.e. firms that create and
          financial instability from threatening the health of       sell groups of mortgage loans as securities), and other
          the economy as a whole                                     investors that participate in the housing finance market. The
                                                                     Secretary is also coordinating the rulemaking to implement
                                                                     the Volcker Rule, which prohibits banking entities from
                                                                 8
                                                                          U.S. Department of the Treasury | Fiscal Year 2012
engaging in certain proprietary trading activities and limits                   Support the Council through the secure provision of
hedge fund and private equity fund investments. The Council                      high-quality financial data and analysis needed to
has been actively engaged in activities to identify risks,                       monitor threats to financial stability
promote market discipline, and respond to emerging threats
                                                                                Develop and promote data-related standards and
to U.S. financial stability. It released its second annual report
                                                                                 best practices
on financial market and regulatory developments and
potential emerging threats to financial stability in July 2012,                 Establish a center of excellence for research on
and made progress on two of its direct responsibilities under                    financial stability and promote best practices for
the Dodd-Frank Act – designating certain financial market                        financial risk management
utilities (FMUs) as systematically important and publishing a
                                                                                Provide the public with key data and analysis while
final rule and interpretive guidance on the designation of
                                                                                 protecting sensitive information
nonbank financial companies for Federal Reserve Board
supervision and enhanced prudential standards. In April                         Establish the OFR as an efficient organization and
2012, the Council issued a final rule and interpretive                           world-class workplace

guidance describing quantitative and qualitative criteria and           The OFR also defined more specific priorities focused on
procedures for designations of nonbank financial companies.             establishing mechanisms to support transparency and
In July 2012, the Council unanimously voted to designate                accountability; investing in core analytic, information
eight FMUs as systemically important. The Council has been              security, and data management infrastructures; reinforcing
working to apply the process described in the rule and                  protocols for efficient and secure collaboration and data-

guidance, and in September 2012 voted to advance an initial             sharing; and deepening and expanding its research and data

set of nonbank financial companies to stage three of the                related outputs.
process, which involves an analysis of quantitative and                 In fiscal year 2012, the OFR has made significant and
qualitative information collected directly from the nonbank             accelerating progress in meeting its goals and priorities.
financial company in addition to the information considered
                                                                        Council Support: The OFR is providing data for use by the
during stages one and two.
                                                                        Council for its Annual Report, as well as data and analysis
The Council also actively facilitated information-sharing and           relating to the designation of nonbank financial companies
coordination among its members regarding rulemakings,                   for supervision by the Federal Reserve Board and enhanced
examinations, reporting requirements, and enforcement                   prudential standards. The OFR is also continuing to enhance
actions. Through meetings among its principals, as well as              its Financial Stability Monitor—a dashboard of financial
among the deputies and staffs of the Council members and                stability metrics and indicators—in collaboration with staff
their agencies, the Council has served as an important forum            from Council members and their agencies. Consistent with
for increasing coordination among the member agencies.                  its objectives to avoid duplicating existing efforts and to
                                                                        create new efficiencies, the OFR has completed the first two
OFFICE OF FINANCIAL RESEARCH
                                                                        phases of an initial inventory of metadata among Council
The Dodd-Frank Act established the Office of Financial                  member agencies, and a third phase is underway. The OFR
Research (OFR) within the Treasury Department to serve the              has established data sharing agreements with a number of
Council, its member agencies, and the public by improving               Council member agencies and is working on new ones, where
the quality, transparency, and accessibility of financial data          needed. It is also supporting the Council’s Data Committee,
and information, conducting and sponsoring research related             which supports data collection and information sharing.
to financial stability, and promoting best practices in risk
management. The OFR has established five strategic goals as
part of its Fiscal Year 2012-2014 Strategic Plan:



                                                                    9
                                                                          U.S. Department of the Treasury | Fiscal Year 2012
Standards: The OFR has played a central role in the                     coordinating and developing federal policy on prudential
international initiative to establish a global Legal Entity             aspects of international insurance matters; and contributing
Identifier (LEI), a code that uniquely identifies parties to            expertise to the Council.
financial transactions, with a planned launch of the global
                                                                        Until the establishment of FIO, the United States was not
system in March 2013.
                                                                        represented by a single, unified federal voice in the
Center of Excellence for Research: In July 2012, the                    development of international insurance supervisory
OFR issued its first Annual Report assessing the state of the           standards. FIO now provides important leadership in
U.S. financial system, the status of the efforts by the OFR to          developing international insurance policy. In fiscal year
meet its mission, and key findings of the OFR’s research and            2012, FIO assumed a seat on the executive committee of the
analysis. In addition, during fiscal year 2012, the new office          International Association of Insurance Supervisors (IAIS).
launched a Research Seminar Series, initiated a Working                 The IAIS, in cooperation with the Financial Stability Board
Paper Series, co-sponsored with the Council a December 2011             (FSB), is developing the methodology and indicators to
conference, “The Macroprudential Toolkit: Measurement and               identify global systemically important insurers. FIO is
Analysis,” and hosted an August 2012 workshop on stress-                actively engaged in that process. Additionally, FIO
testing. The Financial Research Advisory Committee is being             established and has provided necessary leadership in the
established to provide advice, recommendations, analysis,               European Union-U.S. insurance dialogue regarding such
and information to the OFR, with a first meeting scheduled              matters as group supervision, capital requirements,
for December 2012.                                                      reinsurance, and financial reporting. FIO has and will
                                                                        continue to work closely and consult with state insurance
Public Information: To support transparent, accountable
                                                                        regulators and other federal agencies in its work.
operations, the OFR has published key information on its
website, including its inaugural Annual Report, its Strategic
                                                                        HOUSING FINANCE, GOVERNMENT SPONSORED
Framework, two working papers, and broader information                  ENTERPRISES (GSES)
about its core outputs and operations.
                                                                        Treasury is committed to strengthening the economy,
Building the Institution: The OFR has made substantial                  including its work with the broader administration on
progress in its hiring (with 120 staff by the end of fiscal year        housing finance reform to:
2012), building its institutional framework, establishing
                                                                                Ensure access to credit
secure IT and business systems needed to carry out its
mandate, and putting in place policies and procedures to                        Strengthen consumer protection
support sound and efficient operations. As part of these                        Increase transparency for investors
efforts, the OFR has established, and is continuing to
enhance, a comprehensive strategic planning and                                 Improve underwriting standards

performance management system, with a foundational set of                       Strengthen taxpayer protections
performance measures to be published as part of the
                                                                        These reforms will help repair fundamental flaws in the
President’s fiscal year 2014 Budget.
                                                                        mortgage market and provide support to creditworthy but
                                                                        underserved families who want to own or rent their own
FEDERAL INSURANCE OFFICE
                                                                        homes.
Treasury’s Federal Insurance Office (FIO), also established
by the Dodd-Frank Act, is monitoring all aspects of the                 Capital support for the GSEs while those firms are in
insurance industry, identifying issues or gaps in regulation            conservatorship has played an important role in preserving
that could contribute to a systemic crisis in the insurance             access to mortgage credit for American families in the wake
industry or financial system. It is also monitoring the                 of the financial crisis. However, Treasury also believes it is
accessibility and affordability of non-health insurance                 important to responsibly shrink the government’s role in
products to traditionally underserved communities;                      housing finance over time. The Administration is committed
                                                                   10
                                                                        U.S. Department of the Treasury | Fiscal Year 2012
to working with Congress to foster the return of private              part of the Capital Purchase Program (the largest bank
capital to the housing market, subject to stronger oversight          program) has been reduced substantially through
and standards for consumer and investor protection.                   repayments, restructuring transactions, and sales.
Treasury has sold its Fannie Mae and Freddie Mac Mortgage
                                                                      Working with the Federal Reserve Bank of New York
Backed Securities (MBS) commensurate with improved
                                                                      (FRBNY), Treasury made substantial progress winding down
mortgage availability and recovery in the housing market.
                                                                      the investments in American International Group. Inc. (AIG).
During fiscal year 2012 the Treasury restructured its Senior
                                                                      AIG drew a total of $160.2 billion in Federal assistance and
Preferred Stock Purchase Agreements (SPSPAs) to
                                                                      has fully repaid the FRBNY with proceeds in excess of cost of
accomplish faster wind-down and better protect taxpayer
                                                                      $17.7 billion. In addition, Treasury has sold a total of 1.4
interests in the GSEs. Treasury also believes that a reformed
                                                                      billion AIG shares resulting in proceeds in excess of costs for
housing finance market should maintain targeted,
                                                                      non-TARP shares of $15.0 billion and proceeds less cost of
transparent support for creditworthy lower-income families
                                                                      $11.8 billion for TARP shares and still holds 15.9 percent of
who are underserved by the private market, as well as a range
                                                                      AIG’s outstanding common stock of which OFS holds 10.5
of options for the one-third of Americans who are renters.
                                                                      percent.
Treasury is committed to working with Congress to help
                                                                      Treasury reduced the overall amount that remains
ensure that all communities and families – including those in
                                                                      outstanding in TARP’s credit market programs by closing the
rural and economically-distressed areas, and those with low
                                                                      SBA 7(a) Securities Purchase Program and making further
or moderate incomes – have access to sustainable mortgage
                                                                      progress winding down both the Term Asset Backed
credit and adequate rental options.
                                                                      Securities Loan Facility (TALF) and the Public-Private
                                                                      Investment Program (PPIP). Additionally, OFS continued to
TROUBLED ASSET RELIEF PROGRAM
                                                                      manage the remaining investments in the Automotive
The actions taken under TARP, along with other emergency
                                                                      Industry Financing Program (AIFP). Finally, using authority
measures put in place by the Board of Governors of the
                                                                      granted under the Emergency Economic Stabilization Act
Federal Reserve System and the Federal Deposit Insurance
                                                                      (EESA), Treasury established two central housing programs
Corporation (FDIC) helped prevent the collapse of the U.S.
                                                                      under TARP.
financial system and stabilize the broader economy. TARP’s
direct fiscal cost is also expected to be much lower than many                  The Making Home Affordable (MHA) program,
had anticipated during the financial crisis. TARP’s authority                    which includes the Home Affordable Modification
to purchase troubled assets or make new commitments                              Program (HAMP) and several additional programs
expired on October 3, 2010. Today, Treasury is focused on                        to help homeowners facing foreclosure
winding down TARP by exiting the remaining TARP                                 The Hardest Hit Fund (HHF) which provides funds
investments as soon as practicable in a manner consistent                        to the 18 hardest hit states, plus the District of
with the duty to promote financial stability and protect                         Columbia, to develop locally-tailored programs to
taxpayers’ interests. Treasury is also continuing to                             assist struggling homeowners in their communities
implement the various housing programs under TARP to
                                                                      In addition, Treasury provided support for the Federal
support the housing market and prevent avoidable
                                                                      Housing Administration’s (FHA) Short Refinance Program
foreclosures.
                                                                      that assists borrowers who are current on their mortgage (or
Taxpayers have already realized a significant positive return         complete a trial payment plan) but owe more than their home
on TARP’s investments in banks. As of September 2012,                 is worth, to refinance into an FHA-insured loan.
taxpayers have recovered more than $267 billion in
                                                                      While the housing market remains fragile, there have been
repayments and other income - more than $21.5 billion above
                                                                      more than 1.2 million homeowner assistance actions taken
the total funds that were invested under TARP’s bank
                                                                      through MHA to assist struggling homeowners. In addition,
programs. The number of institutions that are remaining as
                                                                      TARP’s housing programs have helped transform the

                                                                 11
                                                                          U.S. Department of the Treasury | Fiscal Year 2012
mortgage servicing industry by changing industry standards              Since capital was disbursed to banks in October 2011,
and practices and have helped to make mortgage                          Treasury reports in the October 2012 SBLF “Use of Funds
modifications become more sustainable and affordable.                   Report” that institutions participating in SBLF have made
                                                                        important progress in increasing their small business
OFS committed $45.6 billion to fund Treasury’s housing
                                                                        lending, helping to support small businesses and local
programs under TARP. From inception through September
                                                                        economies across the nation. As of June 30, 2012,
30, 2012, $5.5 billion has been disbursed under these
programs. Based only on MHA permanent modifications in                          In total, SBLF participants have increased their
place as of September 30, 2012, OFS estimates that $10.5                         small business lending by $6.7 billion over a $36.0
billion in incentive fees out of the $29.9 billion originally                    billion baseline Increases in small business lending
committed to the program will ultimately be disbursed if all                     are widespread across SBLF participants, with 89
active modifications were to remain current and receive                          percent of participants having increased their small
incentives for five years. More funds will be spent as                           business lending over baseline levels
additional homeowners enter into new modifications through
                                                                                A substantial majority of SBLF participants – more
December 31, 2013, the termination date of the program.
                                                                                 than 76 percent – have increased their small
The Hardest Hit Fund has disbursed $1.5 billion out of $7.6
                                                                                 business lending by 10 percent or more
billion as of September 31, 2012, and is expected to continue
to disburse funds until December 31, 2017.                                      SBLF banks have increased business lending by
                                                                                 substantially greater amounts than the comparison
As of September 30, 2012, TARP investment programs
                                                                                 group of non-SBLF banks across median measures
(including additional Treasury AIG shares) taken as a
                                                                                 of size, geography, and loan type
whole—including financial support for banks, the domestic
auto industry, the targeted initiatives to restart the credit           Investments made through the SBLF program are presently
markets, and the investments in AIG—are expected to result              expected to cost less than the originally projected cost of $1.3
in a positive lifetime return of $3.5 billion excluding the cost        billion. In addition, Treasury is currently projected to incur
related to housing programs. As of September 30, 2012,                  $23.6 million in fiscal year 2012 operating expenses for the
TARP investment programs are expected to cost $14.1 billion             SBLF program, $2 million less than the fiscal year 2012
excluding the cost related to housing programs. Additional              operating expense estimate of $25.6 million included in the
proceeds from non-TARP Treasury AIG shares are expected                 President’s Budget for fiscal year 2013.
to more than offset TARP investment programs costs as they
are projected to total $17.6 billion of which $15.0 billion has         STATE SMALL BUSINESS CREDIT INITIATIVE
already been collected. The lifetime cost inclusive of TARP             The Small Business Jobs Act of 2010 also created the SSBCI,
housing programs and Treasury AIG shares is estimated to be             which was funded with $1.5 billion to strengthen State
$42.1 billion.                                                          programs that support lending and investing to small
                                                                        businesses and small manufacturers. The SSBCI Program is
SMALL BUSINESS LENDING FUND                                             expected to help spur up to $15 billion in new lending to and
Established by the Small Business Jobs Act of 2010, the SBLF            investment in small businesses. The SSBCI program builds
is a dedicated fund designed to provide capital to qualified            on new and existing models for state small business
community banks (banks, thrifts, and bank and thrift holding            programs, including Capital Access Programs (CAPs), loan
companies with consolidated assets of less than $10 billion)            participation programs, loan guarantee programs, collateral
and community development loan funds in order to                        support programs, and state-run venture capital programs.
encourage small business lending. The purpose of the SBLF
is to encourage Main Street banks and small businesses to
work together, help create jobs, and promote economic
growth in communities across the nation.

                                                                   12
                                                                         U.S. Department of the Treasury | Fiscal Year 2012
                                                                       Supporting Consumers
GOAL #2: ENHANCE U.S.
COMPETITIVENESS AND PROMOTE                                            The Office of Consumer Policy advances developments that
                                                                       provide opportunities for the financial well-being of
INTERNATIONAL FINANCIAL                                                American consumers, especially in regard to financial
STABILITY AND BALANCED GLOBAL                                          products and services, including new and emerging ones.
GROWTH                                                                 The office leads the Department’s work to promote access to
                                                                       safe and affordable financial products and services, as well as
ENABLING DOMESTIC ECONOMIC GROWTH
                                                                       clear information that enables individuals to make sound
Supporting Distressed Communities                                      financial decisions. The office is engaged in policy
                                                                       development in the areas of consumer financial education
In fiscal year 2012, the Community Development Financial
                                                                       and capability; emerging payments platforms; technology to
Institutions Fund’s core program (the CDFI Program)
                                                                       improve consumers’ financial choices; systems to further
awarded $175.3 million in funding to 177 CDFIs to provide
                                                                       privacy and data security; and related topics. In support of
loans, investments, financial services, and technical
                                                                       this work, the office provides leadership for the Federal
assistance to underserved populations and low-income
                                                                       Financial Literacy and Education Commission, Federal
communities (LICs), including $23.1 million to 12 Healthy
                                                                       interagency Task Force on Smart Disclosure, and coordinates
Food Financing Initiative awardees and $3 million to 33
                                                                       the President’s Advisory Council on Financial Capability.
technical assistance awardees. CDFI Program awardees
reported originating 17,547 loans or investments totaling
                                                                       INTERNATIONAL STABILITY AND GLOBAL GROWTH
nearly $1.3 billion, based on their portfolio of activities in
                                                                       The Office of International Affairs maintains close
2011. In addition, the Native American CDFI Assistance
                                                                       communications with its bilateral and multilateral
(NACA) Program awarded $11.4 million in financial and
                                                                       counterparts to monitor and respond to evolving risks in the
technical assistance to 33 Native CDFIs and other Native
                                                                       global economic and financial systems to prevent financial
entities seeking to become or create Native CDFIs. Native
                                                                       instability abroad from spreading to the U.S. economy. To
CDFIs originated 1,170 loans or investments totaling
                                                                       this end, Treasury engaged bilaterally with its counterparts in
$21,701,092 based on their portfolio of activities in 2011. The
                                                                       ministries of finance and through such forums as the U.S.-
Bank Enterprise Award (BEA) Program, which provides
                                                                       China Strategic & Economic Dialogue (S&ED) and the U.S.
monetary awards to CDFIs and banks for increasing their
                                                                       India Economic and Financial Partnership, and multilaterally
investments in LICs, received 71 eligible applications
                                                                       through such forums as the G-7, the G-20, the FSB, the Basel
requesting a total of approximately $88.5 million.
                                                                       Committee on Banking Supervision, and international
The fiscal year 2012 performance information provided                  financial institutions such as the International Monetary
above pertains to each awardee’s performance results for               Fund (IMF) and the World Bank.
program year 2011. It should also be noted that the lag in
                                                                       Continued concerns in fiscal year 2012 about financial
performance reporting reflects the time it takes to deploy
                                                                       stability in Europe posed a particular risk to the strength of
funds and make investments for which actual and projected
                                                                       the U.S. and global recoveries. Drawing on lessons learned
results can be estimated and are based on information
                                                                       from the U.S. response to the global financial crisis in 2008
reported by CDFI Program awardees.
                                                                       and 2009, Treasury continued to assist and encourage its
The New Markets Tax Credit (NMTC) Program, which                       European counterparts to put in place a robust policy
provides tax credit allocation authority to Community                  framework with sufficient firepower to stem the contagion to
Development Entities (CDEs) for targeted investments in                the larger economies in Europe and to restore confidence in
LICs, competitively awarded $3.623 billion based on 2011 tax           the European banking system. By fall of 2012, Europe moved
credit allocation authority.                                           forward on establishing a stronger and larger firewall that
                                                                       supports sovereign access to sustainable market financing.

                                                                  13
                                                                        U.S. Department of the Treasury | Fiscal Year 2012
The Europeans also made progress on outlining a road map              financial stability, and promote more inclusive economic
toward banking union and Spain took important steps on                growth—especially for young people and women. We led the
banking system repair.                                                successful effort to provide Tunisia with a U.S. Government
                                                                      loan guarantee and conceived of and launched a Transition
Going forward, Treasury will continue to engage bilaterally
                                                                      Fund to provide financing for transformational reforms in
and multilaterally to address problems that pose a risk to the
                                                                      economic governance in transitioning countries in the Middle
U.S. economy and its continued growth, wherever and
                                                                      East and North Africa region. By supporting these political
whenever they arise.
                                                                      and economic transitions in the region, Treasury can support
To support robust global growth, the countries of the G-20            U.S. national security goals and boost global growth.
need to implement economic policies that are consistent with
the overarching goal of strong, sustainable, and balanced             PROMOTING STABLE INTERNATIONAL FINANCIAL
global growth. Treasury continues to encourage proactive              MARKETS
near-term support for stability, growth, and jobs for                 The United States is best served by the adoption and
economies with sufficient fiscal space to support the global          enforcement of high-quality financial standards that protect
recovery. Treasury also continues to work through the G-20            and strengthen our financial system and set an example for
to encourage countries with external surpluses to implement           other nations. We actively engage and take a leading role in
policies that boost domestic demand. These actions should             international discussions and forums, such as the G-20 and
be reinforced by G-20 countries’ commitments to move more             the FSB, and in negotiations with other major and emerging
rapidly toward market-determined exchange rates that better           financial centers. Our objectives continue to be to lead a
reflect underlying economic fundamentals, to avoid                    “race to the top” in the area of financial regulation that must
persistent exchange rate misalignments, to refrain from               be coordinated globally and to achieve consensus on strong
competitive devaluation of currencies, and to refrain from            and sensible reforms while protecting the competitiveness of
excessive foreign reserves accumulation.                              U.S. firms.

These matters are of particular concern in Asia, where                Treasury’s international financial regulatory agenda
imbalances are most acute. Through the S&ED and related               continues to focus on:
forums, including the Joint Economic Committee, the
                                                                              Assuring international implementation of a global
Investment Forum, and the U.S.-China Initiative on City-
                                                                               capital and liquidity standard that requires banks to
Level Economic Cooperation, we will continue to encourage
                                                                               maintain robust balance sheets that will withstand
China to move from an economy based on exports to one
                                                                               future financial shocks without government
driven to a greater degree by domestic demand, and to
                                                                               assistance
provide a more level playing field for U.S. workers and firms.
By September 2012, the renminbi had appreciated on real                       Working with finance ministries and foreign
bilateral basis over 11 percent against the U.S. dollar since                  regulators from key jurisdictions, as well as through
June, 2010. Through the S&ED, we secured new financial                         the FSB, to enforce higher prudential standards,
sector commitments to reduce market access barriers, boost                     including additional internationally consistent
consumption, reduce the unfair competitive advantage of                        capital requirements for Global Systemically
state-owned enterprises, and began to loosen the chokehold                     Important Financial Institutions (G-SIFIs)

that state-owned banks have on China’s financial sector.                      Working with other countries so that they adopt
More broadly, Treasury seeks to promote sound economic                         strong national resolution authorities for G-SIFIs, as
policies among our trading partners. As chair of the G-7/G-                    well as establishing a set of principles to develop an
8, Treasury led the multilateral Deauville Partnership for                     effective cross-border resolution system
Arab Countries in Transition to help transitioning countries
in the Middle East and North Africa maintain economic and

                                                                 14
                                                                       U.S. Department of the Treasury | Fiscal Year 2012
        Establishing international convergence across               Initiative to double exports over five years. In the last year
         derivatives markets to prevent risk in these markets        alone, exports have reached historic highs and represent an
         from moving to jurisdictions with lower standards           increase of nearly 36 percent over the 2009 levels. We also
                                                                     will continue efforts to pursue a level playing field with
        Establishing a global LEI system to uniquely
                                                                     China, including a focus on aligning export credit practices
         identify counterparties to financial transactions in
                                                                     with international best practices standards, and will work to
         order to increase transparency and facilitate the
                                                                     ensure that U.S. trade agreements and trade laws are
         cross-border assessment of risk
                                                                     enforced rigorously.

ENCOURAGING FOREIGN INVESTMENT IN THE U.S.
ECONOMY                                                              ENTERING INTO BILATERAL AND MULTILATERAL TAX
                                                                     AGREEMENTS
Foreign investment in the U.S. economy is vital to economic
                                                                     Treasury also negotiated international tax agreements that
growth, job creation, and productivity. Treasury is strongly
                                                                     promote cross-border trade and investment. Income tax
committed to an open investment policy with our
                                                                     treaties and tax information exchange agreements (TIEAs)
counterparts around the world. Our objective is for the
                                                                     eliminate tax barriers to cross-border trade and investment
United States to continue to be the most attractive place for
                                                                     by providing greater certainty to taxpayers regarding foreign
businesses to locate, invest, grow, and create jobs. At the
                                                                     tax liabilities, and by reducing the risk of double taxation.
same time, Treasury works to ensure that foreign
                                                                     The Department will strengthen its network of tax treaties
investments in U.S. businesses do not compromise national
                                                                     and TIEAs by modernizing existing agreements and by
security through our lead role on the CFIUS. We are
                                                                     negotiating agreements with new treaty partners that will
committed to maintaining a CFIUS review process that is
                                                                     foster cross-border trade and investment and facilitate
timely and efficient.
                                                                     enforcement of U.S. tax laws.

PURSUING FREE TRADE AND OPEN MARKETS
                                                                     USE LEADERSHIP POSITIONS IN THE MULTILATERAL
Treasury continues to work with the U.S. Trade                       DEVELOPMENT BANKS AND THE IMF TO ADVANCE
Representative and other U.S. Government agencies to                 U.S. NATIONAL SECURITY AND ECONOMIC
                                                                     INTERESTS
pursue a strong international trade and investment agenda to
help the economy grow, increase U.S. exports, and support            In fiscal year 2012, the United States contributed to general

job creation.                                                        capital increases at the multilateral development banks
                                                                     (MDBs), which were necessitated by the landmark actions
In fiscal year 2012, the President signed legislation
                                                                     taken by the MDBs to help stabilize the global economy
implementing the bilateral trade agreements with Korea,
                                                                     during the recent economic crisis. These resources reached
Colombia, and Panama, and Congress renewed a strong and
                                                                     countries representing 31 percent of U.S. export markets.
robust Trade Adjustment Assistance program for American
                                                                     The United States continues to use its leadership position in
workers displaced by trade. The Administration also created
                                                                     the MDBs to: (1) mitigate emerging threats to the U.S. and
a new Interagency Trade Enforcement Center to coordinate
                                                                     global economies, support trade and investment, and open
enforcement and focus tirelessly on challenging unfair trade
                                                                     new opportunities for American firms, thus helping to
practices around the world. This step will open up new
                                                                     promote job creation in the United States; (2) further
opportunities for U.S. businesses to compete in the global
                                                                     reinforce our national security interests in fragile and war-
marketplace
                                                                     torn countries, reducing the dangers inherent in economic
Our current priorities include pursuing normal trade                 instability; and (3) advocate for MDB assistance in countries
relations with Russia as it joins the World Trade                    that are undergoing profound economic and political
Organization, continuing to negotiate a high-standard 21st           transitions, such as those in the Middle East and North
century Trans-Pacific Partnership trade agreement, and               Africa, in order to foster freedom, opportunity, and greater
continuing to support the President’s National Export

                                                                15
                                                                         U.S. Department of the Treasury | Fiscal Year 2012
economic growth, thus fighting global poverty and providing            programs such as the Partnership for Growth countries of
critical support.                                                      Philippines, El Salvador, and Tanzania, and strengthened its
                                                                       engagement with countries in transition in the Middle East
We have placed a special focus on addressing the global
                                                                       and North Africa.
challenges of food security and environmental concerns.
Treasury plays an important role in addressing food
                                                                       GOAL #3: PROTECT OUR NATIONAL
insecurity through its leadership in the Global Agriculture
and Food Security Program (GAFSP), an innovative multi-
                                                                       SECURITY THROUGH TARGETED
donor food trust fund called for by G-20 leaders. In fiscal            FINANCIAL ACTIONS
year 2012, we successfully brought three new donor countries           Treasury is devoted to deploying its full range of financial
into GAFSP and contributed to GAFSP’s new private sector               authorities to track, degrade, and disrupt threats to national
lending window.                                                        security from state and non-state actors, including terrorists,
                                                                       Weapons of Mass Destruction (WMD) proliferators, drug
In fiscal year 2012, Treasury also held the first annual
                                                                       traffickers, rogue regimes, and transnational criminal
Development Impact Honors competition to recognize and
                                                                       organizations.
promote excellence and effectiveness at the MDBs.
                                                                       As the Department works to enhance the accessibility of the
The United States continues to use its leadership position in
                                                                       financial system to legitimate users, it also works to prevent
the IMF to promote global economic and financial stability,
                                                                       its exploitation by illicit actors. Financial and other forms of
which supports U.S. economic growth and job creation. The
                                                                       intelligence information, whether from the U.S. Government,
IMF’s crisis-response efforts continue to be critical for
                                                                       law enforcement, administrative, regulatory, or proprietary
promoting the global and domestic economic recoveries. The
                                                                       sources, has been critical to Treasury efforts to stem the flow
United States will use its leadership position in the IMF to
                                                                       of funding to terrorist groups and disrupt weapons
promote consistent IMF surveillance over its members’
                                                                       proliferation and other illicit networks around the world.
exchange rate policies and to support our G-20 objectives of
                                                                       Money is the common denominator in these networks, and
encouraging flexible, market-determined exchange rates, and
                                                                       hence understanding how it moves and is used to support
achieving strong, sustainable, and balanced global growth.
                                                                       their endeavors creates new opportunities for Treasury
Fiscal year 2012 saw advancements in the IMF’s score
                                                                       action.
surveillance function through the establishment of a new
Integrated Surveillance Decision.
                                                                       NEW SECURITY COUNCIL RESOLUTIONS AND
                                                                       EXECUTIVE ORDERS
DIRECT ASSISTANCE TO DEVELOPING COUNTRIES
                                                                       Through the Executive Order on Assignment of National
The Department of the Treasury’s Technical Assistance
                                                                       Security and Emergency Preparedness Communications
program (OTA) continues to provide direct assistance to
                                                                       Functions, the U.S. Government must be able to
developing countries that have demonstrated strong
                                                                       communicate domestically and internationally, at all times
commitments to reforming their financial systems or public
                                                                       and under all circumstances, to implement critical and time
financial management. This work encourages prosperity and
                                                                       sensitive missions. An Executive Committee was established
stability in other parts of the world and supports broader U.S.
                                                                       to:
Government international objectives — such as increasing
transparency and accountability, reducing corruption, and                       Advise and make policy recommendations to the

strengthening the development of market-based policies and                       President to enhance the survivability, resilience,

practice — while helping to create more stable international                     and future architecture of national security and

markets for U.S. exports.                                                        emergency preparedness (NS/EP) communications

In fiscal year 2012, Treasury made special investments                          Develop a long-term strategic vision for NS/EP
through technical assistance in Administration priority                          communications and propose funding requirements


                                                                  16
                                                                      U.S. Department of the Treasury | Fiscal Year 2012
          and plans to the President and the Director of the        E-FILING
          Office of Management and Budget (OMB)                     FinCEN enhanced data quality and significantly reduced

         Coordinate the planning for, and provision of,            costs for the U.S. Government, financial institutions, and U.S.

          NS/EP communications for the U.S. Government              taxpayers by requiring mandatory electronic filing of most

          under all hazards                                         FinCEN forms. This new requirement became effective on
                                                                    July 1, 2012. Mandatory E-Filing has enhanced the quality of
EFFORTS TO COMBAT MORTGAGE FRAUD                                    FinCEN’s electronic data, improved its analytical capabilities,

FinCEN continues its work to combat mortgage                        and ultimately made it quicker and easier for law

fraud. FinCEN closed a gap in the regulatory sector by              enforcement to track criminal money.

issuing a final rule that made non-bank regulatory mortgage         Several years ago, FinCEN started encouraging financial
lenders and originators (RMLOs) subject to FinCEN's                 institutions to use its free, Web-based system known as the
reporting and recordkeeping regulations. As of August 13,           Bank Secrecy Act Electronic Filing System (BSA E-Filing) in
2012, RMLOs must comply with FinCEN’s final rule                    an attempt to cut down on paper reports. FinCEN is no
requiring the establishment of anti-money laundering                longer accepting most paper filings and has considered
programs and the filing of suspicious activity reports              extensions and exemptions only in certain
(SARs). To help RMLOs identify and report suspicious                circumstances. Over the past 20 years, banks, casinos,
activity related to potential mortgage fraud, FinCEN issued         brokerages, and many other financial businesses have filed
an advisory on red flags that may signal mortgage fraud, and        millions of paper forms with FinCEN. Last year alone,
has updated its website with numerous resources for the             financial institutions and individuals filed more than 17
industry. The new requirements for RMLOs will augment the           million separate reports with FinCEN and more than 2
information available to law enforcement about suspicious           million of those were on paper.
activity in this sector.
                                                                    FinCEN reports create a financial trail that law enforcement
FinCEN also continues to work with its law enforcement              and intelligence agencies use to track criminal and terrorist
partners to combat mortgage fraud. Law enforcement                  networks and their activities and assets. These reports help
authorities used FinCEN reports extensively in an                   detect and deter illicit activity, including money laundering,
investigation that involved a large-scale mortgage fraud            the financing of terrorist activity, and many other types of
scheme resulting in major financial losses and numerous             fraud.
foreclosures. Investigators queried FinCEN data and found
                                                                    Mandatory E-Filing supports Treasury’s flagship initiative of
multiple SARs, which assisted in obtaining search warrants
                                                                    moving toward a paperless Treasury. It also allows for
and led to multiple interviews with borrowers. Federal and
                                                                    greater data security and privacy compared with paper forms,
local authorities arrested more than a dozen individuals
                                                                    ensures compatibility with future versions of FinCEN reports,
linked to mortgage fraud schemes that involved the filing of
                                                                    and allows quicker access to investigators. E-Filing is
fraudulent loan applications with several banks and other
                                                                    positively impacting the public by reducing government and
lenders, generated millions of dollars in loan fees and real
                                                                    industry costs and the environmental waste of paper forms,
estate commissions, and caused millions of dollars in losses
                                                                    potentially saving the U.S. Government millions of dollars
when homes went into foreclosure.
                                                                    per year through the reduction of expenditures associated
As a participant in the federal loan modification and               with paper processing, in particular the physical intake and
foreclosure rescue fraud initiative, FinCEN has supported           sorting of incoming reports and the manual keying of
more than 150 mortgage fraud cases with more than 1,200             reported information into FinCEN’s database.
subjects and has disseminated more than 190 analytical
reports since April 2009.                                           EFFORTS TO COMBAT HEALTH CARE FRAUD
                                                                    Continuing its successful collaboration with the Department
                                                                    of Health & Human Services, Office of Inspector General, and
                                                               17
                                                                          U.S. Department of the Treasury | Fiscal Year 2012
the Department of Justice, FinCEN provided support to the               sanctions against various foreign threats to protect U.S.
Health Care Fraud Prevention and Enforcement Action Team                national security and foreign policy interests. Through these
(HEAT) Task Force. The Task Force was formed in 2009 to                 means, Treasury seeks to degrade the financial and other
combat health care fraud abuse in the Medicare and                      support networks of terrorists, weapons proliferators, drug
Medicaid programs.                                                      traffickers, rogue regimes, and other illicit actors. The
                                                                        Treasury Department’s identification of these networks
FinCEN researched and analyzed data collected under the
                                                                        reinforces foreign or domestic efforts against these targets.
provisions of the Bank Secrecy Act (BSA) pertaining to
subjects identified by the Task Force as suspects in health             The Department of the Treasury administers and enforces
care fraud schemes. These schemes have been defrauding                  economic and trade sanctions based on U.S. foreign policy
the U.S. Government of an estimated $98 billion dollars per             and national security goals through the Office of Foreign
year.                                                                   Assets Control (OFAC).

FinCEN has provided analytical support to more than 200                 The United States is imposing additional sanctions and
cases and continues to develop intelligence to further disrupt          publicly exposing numerous Iranian front companies, in
and dismantle major health care fraud networks in cities such           order to convince Iran to address the international
as Miami, Tampa, Brooklyn, Los Angeles, Houston, Detroit,               community’s concerns about its nuclear program and to
and Atlanta. By identifying commonalities and shared                    prevent the circumvention of international sanctions on Iran.
entities in these cases, FinCEN, the Department of Justice’s            Continuing to target Iran’s nuclear and missile proliferation
Asset Forfeiture and Money Laundering Section, and the                  activities, the Treasury Department has issued successive
Federal Bureau of Investigation initiated a project to identify         rounds of aggressive designations under Executive Order
third party money launderers who service the perpetrators of            13382, with significant impact on proliferation networks.
health care fraud and other crimes. Through this initiative,            Treasury is leading efforts to bring an end in Syria to the
FinCEN will be able to provide the investigators with an                Assad regime’s abhorrent campaign of violence against the
overall assessment of the targeted jurisdictions, individuals,          Syrian people by working to apply sanctions on those
and sophisticated and complex organizations that are                    involved in human rights abuses. Treasury hosted the
suspected of being engaged in health care fraud schemes.                Friends of the Syrian People International Working Group on
                                                                        Sanctions, a working session in which countries strove to
TREASURY EXECUTIVE OFFICE FOR ASSET                                     harmonize restrictive measures against the Syrian regime.
FORFEITURE
                                                                        The Treasury.gov website is the main source providing the
TEOAF manages the Treasury Forfeiture Fund (TFF). The
                                                                        OFAC sanctions information to banks, financial institutions,
mission of the TFF is to promote the strategic use of asset
                                                                        and the public. This information is the most commonly
forfeiture in order to disrupt and dismantle criminal
                                                                        sought content on Treasury.gov according to data from
enterprises. TEOAF and its member agencies focus on
                                                                        ForeSee and Google Analytics measured from April through
investigations that result in high impact forfeitures, leading
                                                                        September 2012:
to the greatest disruption to criminal organizations that
engage in money laundering, financial fraud and a myriad of                     28 percent of all visits to the Treasury.gov website
other illegal acts. Accordingly, through its efforts to protect                  went to sanctions pages
the integrity of the U.S. financial system, the TFF supports
                                                                                20 percent of customer satisfaction survey
Treasury’s goal to protect U.S. national security through
                                                                                 respondents specifically cite the purpose of their
targeted financial actions.
                                                                                 visit was to find content related to
                                                                                 OFAC/Sanctions/Specially Designated Nationals
FINANCIAL SANCTIONS (IRAN AND SYRIA)
Treasury exercises a broad range of intelligence, regulatory,
policy, and enforcement authorities to track and disrupt illicit
finance networks. Treasury also implements economic
                                                                   18
                                                                           U.S. Department of the Treasury | Fiscal Year 2012
                                                                         reducing record keeping requirements and expanding the use
GOAL #4: PURSUE COMPREHENSIVE
                                                                         of simplified “safe harbor” rules that eliminate liability for
TAX AND FISCAL REFORM                                                    unintentional tax underpayment. Treasury has also
The Treasury Department leads the Administration’s efforts               published administrative guidance that clearly explains the
to create a tax system that is simpler, fairer, and more fiscally        tax law and illustrates its application to common situations.
responsible. Treasury is committed to comprehensive reform
of the tax laws that lowers rates while broadening the base,             NEW COLLABORATIONS WITH INTERNATIONAL
makes the system fairer, improves incentives for investment              PARTNERS
and production in the United States, and helps contribute to             The Treasury Department has jointly issued statements with
a balanced deficit reduction plan over the medium-term.                  Japan, Switzerland, the United Kingdom, France, Spain,
                                                                         Italy, and Germany expressing mutual intent to pursue a
Addressing the nation’s fiscal challenges requires reforms
                                                                         framework for intergovernmental cooperation to facilitate the
and fiscal policies that go beyond streamlining the tax code.
                                                                         implementation of the Foreign Account Tax Compliance Act
The Administration has committed to pursuing a balanced
                                                                         (FATCA) and to improve international tax compliance. The
approach to deficit reduction that strengthens the fiscal
                                                                         Treasury and the United Kingdom have already signed a
position of the United States, and helps ensure that there is
                                                                         bilateral agreement and the Treasury will continue to work
room to invest in education, infrastructure, and other areas
                                                                         with other governments to conclude bilateral agreements.
critical to long term economic growth.
                                                                         FATCA is an important part of the U.S. Government’s effort
                                                                         to improve tax compliance. The Treasury and the IRS
TAX REFORM EFFORTS
                                                                         continue to move forward with joint efforts to combat
Treasury, in conjunction with the White House, has
                                                                         offshore tax evasion and make our tax systems more efficient
developed a framework for business tax reform that reduces
                                                                         and fair by implementing FATCA in a way that is targeted
the statutory tax rate, eliminates provisions that are
                                                                         and effective.
inefficient, increases the incentives for job creation and
retention in the United States, simplifies the tax system, and
                                                                         GOAL 5: MANAGE THE
does this in a fiscally responsible manner. Treasury is also
committed to utilizing traditional and innovative ways to
                                                                         GOVERNMENT’S FINANCES IN A
improve communication with policymakers, interested
                                                                         FISCALLY RESPONSIBLE MANNER
parties, and the public about matters related to tax policy.             The Treasury Department is responsible for managing the
                                                                         finances of the U.S. Government and strives to maintain
INCREASE VOLUNTARY TAX COMPLIANCE                                        public trust and confidence in U.S. and international
The tax gap is the difference between taxes paid and taxes               economic and financial systems. The Department’s ability to
owed in any given year. Reliance on a voluntary compliance               be efficient, effective, accountable, and transparent enables
tax system requires effective taxpayer services to enable                the smooth, continuous operation of essential governmental
taxpayers to understand and meet their tax obligations as                services and meeting the U.S. Government’s financial
well as effective enforcement to ensure that all businesses              obligations. To that end—and while supporting and
and individuals pay the tax they owe. Improvement of both                maintaining governmental operations—during fiscal year
service and enforcement, along with reforms to simplify the              2012, the Department has focused on achieving greater cost
tax law, are essential to ensure that the U.S. tax system                savings for the American public, increasing productivity,
remains the most effective and fairest voluntary compliance              modernizing operations, and supporting the Administration’s
system in the world. This goal is one of Treasury’s two APGs             management agenda. It has done this by developing systems,
and is discussed more thoroughly later in this report.                   tools, and a culture of governing strategically, working
                                                                         smarter, and leveraging technologies.
To encourage voluntary compliance with the tax laws,
Treasury has sought to reduce the burden of compliance by

                                                                    19
                                                                       U.S. Department of the Treasury | Fiscal Year 2012
GOVERNING STRATEGICALLY                                              again in fiscal year 2012, demonstrating the continuing

Treasury has employed a robust suite of tools and processes          success of the quarterly performance reviews.

to perform data-driven, performance-focused, and outcome-
                                                                     Shared Services Council
based strategic oversight and management of all its
component organizations. These continually evolving                  In addition to the quarterly performance reviews, Treasury’s

processes are embedded in the way the Department does its            “shared services first” approach to managing across

business and within its corporate culture. They serve as the         organizational boundaries has resulted in increased

foundation for Treasury’s leadership and stewardship                 transparency, cost savings, and improved operational

agenda.                                                              effectiveness as management support services are provided
                                                                     by those with demonstrated expertise and Treasury bureaus
Treasury’s Quarterly Performance Reviews                             focus on mission accomplishment. The Treasury Shared

Treasury’s management and performance agenda are set by              Services Council (SSC) provides a portfolio-wide approach to

the Deputy Secretary serving as the Chief Operating Officer          shared services across the Department, optimizing capability

who, with the Assistant Secretary for Management and                 stewardship and services delivery and driving accountability

Performance Improvement Officer, conducts quarterly                  for performance and risk management.

performance reviews of each bureau. These quarterly reviews          In addition to providing additional accountability for cost
were recognized by OMB as a best practice and codified in            and performance issues, the SSC provides a common
law as part of the Government Performance Results Act                governance structure for Treasury’s multiple shared services
Modernization Act.                                                   programs and advocates for and promotes the value of shared

These sessions bring key Treasury leaders together for               services. This group has tackled numerous issues, including

regular, formal discussions with the Deputy Secretary to             discussing how to reduce Treasury’s office space footprint as

focus on management challenges and priority projects. These          well as providing insight into the strategic direction of

meetings drive accountability to make and sustain                    Treasury’s various shared services providers—notably the

improvements, align expectations and priorities across               Bureau of Public Debt’s Administrative Resource Center

Treasury bureaus and offices, and encourage data-driven              (ARC) and HR Connect (both government-wide shared

decision-making. The Department has strengthened its                 service providers).

partnership with OMB and the federal Performance
                                                                     Cost Savings Guidance
Improvement Council through open dialogue and
consultative problem-solving on numerous government                  Treasury’s Office of Financial Innovation and Transformation

performance matters, including Treasury’s two APGs: (1)              (OFIT) aims to achieve government-wide financial

increasing voluntary tax compliance, and (2) increasing              management savings by leveraging new technologies and the

electronic transactions with the public to improve services,         shared service provider model. For example, the Centralized

prevent fraud, and reduce costs.                                     Receivables Service (CRS), an end-to-end billing and
                                                                     collections capability for federal agency receivables in the
An example of a positive outcome from these reviews is that
                                                                     pre-delinquency stage (e.g., fees and penalties due to an
Treasury earned an A+ rating from the Small Business
                                                                     agency) allows agencies to focus on their core mission by
Administration (SBA) for small business contracting
                                                                     outsourcing certain receivables collection activities. Once
achievement in fiscal year 2011. Treasury was the only
                                                                     fully implemented, CRS will deliver an estimated $350
federal agency to achieve and substantially exceed all five
                                                                     million in annual cost savings government-wide from
statutory small business goals—Small Business, Women
                                                                     increased collections and reduced financial systems costs.
Owned Small Business, Small Disadvantaged Business,
Service Disabled Veteran Owned Small Business, and                   WORKING SMARTER
Historically Underutilized Business (HUB) Zones. By all
                                                                     Treasury is reducing spending and improving the way
indications, Treasury has exceeded these small business goals
                                                                     business is conducted at all levels—from reduction of the
                                                                20
                                                                           U.S. Department of the Treasury | Fiscal Year 2012
Department’s real estate footprint to improving how                      and targeted contract actions are directed to the most
information is being managed; and from the employment of                 appropriate strategic sourcing methodology. Approximately
Treasury’s Procurement Savings Program and strategic                     16 procurement spending categories were targeted for
sourcing efforts, to taking the lead role in implementing the            improvement and $80 million in savings were achieved
President’s initiative to reduce improper payments through               through the Department’s strategic sourcing efforts.
the Do Not Pay Business Center.
                                                                         Treasury Procurement exceeded its fiscal year 2011 OMB-
                                                                         mandated goals for acquisition-related savings and reduction
Improper Payments
                                                                         of high-risk contracting obligations. The Department
Following the President’s June 2010 memorandum directing
                                                                         achieved $326 million in acquisition savings versus its goal of
agencies to improve payment accuracy by using a “Do Not
                                                                         $319 million and decreased high risk contracting by 21
Pay List,” the Department of the Treasury established the Do
                                                                         percent, well above the targeted 10 percent reduction. In
Not Pay Business Center for all federal agencies to prevent
                                                                         fiscal year 2012, Treasury elected to continue both the
ineligible recipients from receiving federal payments or
                                                                         acquisition savings and high risk contracting reduction
awards. Do Not Pay uses key data sources to review
                                                                         initiatives in the absence of a continuing OMB mandate. The
eligibility, including data to verify that the beneficiary is not
                                                                         Department exceeded its internal savings goal of $92 million
deceased or debarred and meets employment/income
                                                                         by achieving over $240 million in acquisition-related savings
requirements and provides trend analysis and fraud alert
                                                                         (including strategic sourcing savings).
capabilities. In the short time since the Do Not Pay Business
Center was launched in fiscal year 2012, significant progress            Treasury made significant advancement against its internal

has been made towards providing agencies with a one-stop-                goal of ten percent reduction in high risk contracting

shop to verify eligibility prior to issuing a payment. To date,          obligations. The Department achieved a ten percent or

all 24 CFO Act agencies have finalized and submitted plans to            greater reduction in two of four high risk categories. Based

Treasury and OMB specifically describing how they will use               on cumulative achievements in fiscal year 2011-2012, the

Do Not Pay to prevent payments from being made to dead                   average annual reduction in high risk contracting exceeded

people, debarred contractors, or incarcerated individuals.               ten percent.

In its ongoing efforts to combat tax refund fraud, the IRS is            In fiscal year 2012, Treasury launched a strategic initiative
using data analytics to help identify tax preparers who submit           for a single Department-wide contract writing system and
incorrect or fraudulent tax returns. This year, the IRS                  enhanced communication between contract and financial
conducted a pilot which identified tax preparers from the                systems. The effort will be developed and implemented
previous year that were associated with the most erroneous               through a multi-year phased approach as funding becomes
tax returns claiming refundable credits.                                 available.

Procurement                                                              LEVERAGING TECHNOLOGY
The Department has launched multiple initiatives to broaden              Treasury has a long history of identifying and leveraging
efficiency within its procurement operations. In fiscal year             commodity IT opportunities. In 1996, the Administrative
2011, Treasury established an enterprise-wide strategic                  Resource Center (ARC) began operation, offering commodity
sourcing program governed by a Quad Council comprised of                 business services across organizations. Since that time,
Department-wide representatives from procurement, IT,                    Treasury has launched several enterprise initiatives,
human resources, and financial organizations and chaired by              including: (1) HR Connect, a government HR Line of
the Assistant Secretary for Management. In fiscal year 2012,             Business; (2) Treasury Enterprise Identity Credential and
the Department brought all procurement spend under                       Access Management (TEICAM), which has expanded to other
management by designated category leaders. Procurement                   departments including Homeland Security; and (3)
obligations are analyzed, opportunities for consolidation and            Enterprise Content Management, which has already garnered
leveraging of the Department’s buying power are identified,
                                                                    21
                                                                         U.S. Department of the Treasury | Fiscal Year 2012
interest from other departments. Other commodity IT                    of the workforce regularly teleworking. Advancements in
initiatives are ongoing such as developing an Invoice                  TTB’s IT network completed in 2012 have both furthered the
Processing Platform (IPP), formerly known as Internet                  effectiveness of its telework program and contributed to the
Payment Platform and a Do Not Pay platform as a                        Administration’s goals under the “Bring Your Own Device”
government-wide shared services.                                       (BYOD) initiative of improving mobile work capabilities and
                                                                       reducing IT costs across government.
Information Technology
                                                                       TTB achieved significant savings by reducing the cost of
Implementation of Mobile Treasury, Treasury’s technology
                                                                       refreshing employee IT hardware, such as PCs and laptops.
modernization campaign, has been the key enabler for
                                                                       Replacing desktop and laptop computers every 3 to 4 years
transforming Treasury’s business and services delivery
                                                                       costs TTB about $2 million and disrupts the IT program and
systems, resulting in streamlined business processes, costs
                                                                       business users for several months.
savings, and employee empowerment. Through a
combination of governance and management oversight                     TTB determined that the best solution was to create a “virtual

initiatives, the Department has developed innovative E-                desktop” by centralizing all computing power, applications,

Government enterprise architecture for bridging the gap                user data, and user settings and allow access to TTB

between business processes and their supporting IT. As a               resources by thin client computing devices. A thin client is a

result, numerous opportunities for performance                         computing device or program that relies on another device

improvement and business transformation have been                      for computational power. Currently about 70 percent of TTB

identified, including the elimination of redundant and                 personnel use thin client devices to access all TTB

duplicative IT investments. This has focused Treasury’s lines          applications and data.

of businesses to facilitate better business alignment and              In August, TTB’s virtual desktop implementation was cited by
cross-bureau collaboration in investments.                             the White House as a case study for the federal BYOD

Treasury’s investment in leading and planning these efforts            initiative. TTB’s virtual desktop solution is a major

has already yielded results, both in terms of financial savings        achievement that resulted in $1.2 million in IT savings, as

and operational efficiencies, allowing the Department to               well as additional savings in phone and fax lines and

further leverage other opportunities for improvement. For              potential reductions to dedicated office space. Additional

example, the Department’s footprint reduction efforts have             benefits include enhanced IT security, as the virtual

led to business process redesign, which is leading to                  desktop/thin client infrastructure eliminates the need to have

installation of collaborative office spaces and even greater           information stored locally on a user’s machine, and reduced

ability to leverage the federal telework program. TTB has              data loss, as the virtual desktop provides for the

established one of the most robust telework programs at the            centralization of information.

Department. TTB’s workforce is widely dispersed, with many
personnel working from home full time and over 80 percent




                                                                  22
                                                                       U.S. Department of the Treasury | Fiscal Year 2012

TREASURY’S FISCAL YEAR 2012-2013 AGENCY PRIORITY GOALS
AND STATUS
The Treasury Department established two APGs to support              the IRS can reach these taxpayers and provide important
improvements in near-term outcomes related to the Strategic          service and compliance messages. In February 2012, the IRS
Plan.                                                                released a new version of IRS2Go, a Smartphone application
                                                                     that lets taxpayers check on the status of their tax refund and
INCREASE VOLUNTARY TAX                                               obtain tax information including requesting their tax return
COMPLIANCE                                                           or account transcripts. Since its February 2012 release, the

Helping taxpayers understand their obligations under the tax         new features helped attract more than 6.2 million application

law is critical to improving compliance and addressing the           launches from IRS2GO.

tax gap. Therefore, the IRS is committed to making tax law           In October 2011, the IRS began a pilot of Virtual Service
easier to access and understand. The IRS remains committed           Delivery (VSD) to test a new means of service delivery in
to improving voluntary compliance and reducing the tax gap           Taxpayer Assistance Centers (TACs) and partner sites. VSD
through both taxpayer service and enforcement programs.              provided face-to-face contact with more than 16,000

The IRS continued to increase the amount of tax information          taxpayers at 15 IRS locations using video communication

and services available to taxpayers online and through social        technology. Preliminary participant feedback from the

media. IRS.gov provides alternative online and self-help             survey through December 31, 2011 indicated they were very

service options. Through September 30, 2012, taxpayers               satisfied with VSD technology and 92 percent reported they

viewed IRS.gov web pages more than 1.7 billion times as they         would be willing to use video assistance again during a future

used the website to:                                                 visit.

        Get forms and publications. Beginning in fiscal year        During the 2012 filing season, through September 30, 2012,

         2011, the IRS reduced the number of forms and               the IRS received more than 147.6 million individual returns

         publications that were mailed to taxpayers. For this        (113.8 million electronically filed) and issued more than 121.6

         reason, during the fiscal year 2012 filing season,          million refunds totaling $333 billion.

         more than 347 million tax products were                     In fiscal year 2012, the IRS continued to implement its
         downloaded, an increase of 51 percent from fiscal           Return Preparer Initiative, the foundation of which is
         year 2011                                                   mandatory registration for all paid tax return
                                                                     preparers. Through September 2012, more than 860,000
        Link to the Electronic Federal Tax Payment System
                                                                     preparers requested Preparer Tax Identification numbers
         (EFTPS). EFTPS processed more than 132.4 million
                                                                     (PTINs) using the online registration system. The process
         electronic tax payments totaling $2.1 trillion
                                                                     gives the IRS an important and improved view of the return
        Get answers. More than 1.1 million visits to the            preparer community from which the IRS can leverage
         Interactive Tax Assistant introduction page where           information to improve communications, analyze trends,
         taxpayers can receive answers to tax law questions          spot anomalies, and detect potential fraud. The IRS also

        Use “Where’s My Refund?” Taxpayers used                     leveraged real time data during the 2012 filing season to

         “Where’s My Refund?” more than 132.3 million                improve the compliance of more than 1,400 preparers with

         times to check on the status of their tax refunds           high numbers of Earned Income Tax Credit (EITC) errors.

The IRS is increasing communications with taxpayers who              The IRS also launched the Registered Tax Return Preparer

may not get their information from traditional sources, such         (RTRP) competency test in November 2011 for all paid tax

as newspapers and broadcast cable news. By employing                 return preparers except attorneys, certified public

social and new media, such as YouTube, Twitter, and iTunes,          accountants, and enrolled agents. More than 31,000 tests
                                                                     were conducted, and applications from approximately 570
                                                                23
                                                                        U.S. Department of the Treasury | Fiscal Year 2012
continuing education providers were approved. All RTRPs
                                                                      INCREASE ELECTRONIC
are also required to complete 15 hours of Continuing
Education (CE) courses annually beginning in 2012. To
                                                                      TRANSACTIONS WITH THE PUBLIC
address this requirement, the IRS deployed a registration             TO IMPROVE SERVICE, PREVENT
system for CE providers, issued Revenue Procedures                    FRAUD, AND REDUCE COSTS
outlining the IRS standards for CE accreditors and providers,         The safety, security, efficiency, and reliability of Treasury
and launched a webpage for CE accreditors, providers, and             transactions are paramount to maintaining public trust.
preparers.                                                            Billions of transactions, including payments to federal

In January 2012, the IRS announced a third Offshore                   benefits recipients, savings bonds purchases, and tax

Voluntary Disclosure Program due to continued interest from           collections, are executed by Treasury each year. The paper

taxpayers after the closure of the 2011 and 2009 programs.            processes associated with these transactions can be slow,

As part of an overall strategy to improve offshore compliance,        unsecure, inaccurate, and wasteful. In an effort to improve

taxpayers who voluntarily come forward and file all original          customer service, decrease the public’s vulnerability to fraud,

and amended tax returns and pay taxes, interest, and                  and efficiently manage resources, the Secretary of the

accuracy-related and/or delinquency penalties, can avoid              Treasury approved several initiatives to move towards
criminal prosecution. The offshore voluntary disclosure               electronic transactions, including discontinuing the sale of
programs have resulted in over 38,000 disclosures and the             paper savings bonds, increasing electronic benefit payments,
collection of more than $5.5 billion in back taxes, interest,         and increasing electronic tax collection. Treasury has already
and penalties.                                                        discontinued the issuance of paper savings bonds through

The IRS modernization efforts focus on building and                   traditional employer-sponsored payroll savings plans, and

deploying advanced IT systems, processes, and tools to                the sale of over-the-counter paper savings bonds ended on

improve efficiency and productivity. In 2012, the IRS                 December 31, 2011. Treasury will continue to make progress

delivered the most significant update to its core tax                 toward a fully paperless set of processes by paying benefits

processing system in decades with the deployment of the               electronically and encouraging businesses to pay taxes

initial phase of the Customer Account Data Engine 2 (CADE             electronically rather than by paper coupon. This priority goal

2), modernizing tax processing. After more than 50 years of           is related to the strategic goal of “Manage the Government’s

posting returns and transactions on a weekly batch cycle, in          Finances in a Fiscally Responsible Manner.”

January 2012, CADE 2 moved the IRS to a daily cycle for tax
processing of individual taxpayer accounts. For the first
                                                                      PAYMENTS

time, the IRS processing systems are accepting all 1040-              In support of the goal to increase electronic payments

related schedules and forms electronically through a                  government-wide, the FMS has a number of efforts

modernized e-filing capability, which will feed into a single         underway. In December 2010, Treasury announced a final

consolidated taxpayer account database, and reduce the                rule to extend the safety and convenience of electronic

handling/mailing of voluminous paper returns. In the                  payments to all Americans receiving federal benefit and non-

coming years CADE 2 will provide the IRS with significantly           tax payments. Anyone who applied for benefits on or after

expanded service and enforcement capabilities that will drive         May 1, 2011, was required to begin receiving their payments

additional voluntary compliance.                                      electronically, while those who were already receiving paper
                                                                      checks need to switch to direct deposit by March 1, 2013.
                                                                      This important change will provide significant savings to
                                                                      American taxpayers who will no longer incur the price tag
                                                                      associated with paper checks.

                                                                      As a result of the final rule, the Go Direct® campaign shifted
                                                                      from a marketing focus to a national public education effort

                                                                 24
                                                                         U.S. Department of the Treasury | Fiscal Year 2012
building on previous successes to provide federal benefit              operations that were necessary to support cash and cash
recipients with the tools and resources they need to transition        equivalents. The SVC Program has saved the Government
to Electronic Funds Transfer payments. The campaign                    more than $48 million in operating costs.
reaches current check recipients as well as people who will
                                                                       Treasury is also exploring the feasibility of extending E-
apply for federal benefits soon. Benefit checks have declined
                                                                       Wallet and mobile payment technology to our payments area.
from 10.3 million per month in January 2011 to 5.5 million as
                                                                       As payment technology advances, Treasury is looking to meet
of August 2012, saving millions of dollars for the United
                                                                       the expectations of citizens in how they wish to interact with
States Treasury and taxpayers in the years to come.
                                                                       the U.S. Government.
A big part of the success of the All-Electronic Treasury is the
                                                                       Also in support of President Obama’s “Campaign to Cut
Direct Express® card. The Direct Express® card offers the
                                                                       Waste” across the U.S. Government, Treasury has mandated
convenience and security of receiving benefit payments
                                                                       the IPP for all Treasury offices and bureaus. IPP will reduce
electronically for those who prefer a debit card or do not have
                                                                       Treasury’s invoice processing costs by 50 percent, saving
a bank account. Instead of receiving a paper check, the
                                                                       approximately $7 million annually. Implementation by all
benefit payment is automatically deposited into the
                                                                       Treasury bureaus will be complete by November 2012. OFIT
recipient’s card account on the payment date. It is currently
                                                                       estimates that adopting electronic invoicing across the U.S.
available to Social Security, Supplemental Security Income,
                                                                       Government will reduce the cost of entering invoices and
Veterans, and other federal benefit types. To date, more than
                                                                       responding to invoice inquiries by $450 million annually. In
3.8 million benefit recipients have signed up for the Direct
                                                                       addition to Treasury, IPP currently supports 45 agencies,
Express® card.
                                                                       with eight additional agencies beginning implementation.
The U.S. Debit Card Program has expanded to 36 separate                The program continues to advocate its cloud-based shared
and distinct uses by federal agencies, including uses in               service government-wide to improve government efficiency
criminal investigations, Native American trust                         and cut costs for taxpayers.
disbursements, and international student per diem
reimbursements, since program inception in 2000. At                    COLLECTIONS
present, the program that has delivered the largest savings to         As part of this effort to increase electronic collections, FMS
the taxpayer has been the Department of Transportation’s               has undertaken the Non-Tax Paperless Initiative (NTPI),
TRANServe debit card for the disbursement of federal transit           aimed at moving all collections and remittances processed by
subsidies encouraging federal workers to utilize public                FMS to electronic means, resulting in greater efficiencies for
transportation. Since Program inception (July 2011)                    FMS and its agency partners and greater convenience for the
TRANServe has deployed 60,000 cards and has recouped                   public. Working with the Federal Reserve Banks and a
$11.9 million in unspent funds.                                        consultant, cash flows (including both collections and
                                                                       remittances, processes, and remitter databases) will be
The Stored Value Card (SVC) Program is a joint program by
                                                                       analyzed to develop a transition strategy. Best practices in
the Departments of Treasury and Defense with major goals to
                                                                       government and the private sector and emerging payment
enhance security, improve processing of financial
                                                                       technologies (online banking, mobile payments, E-Wallets)
transactions, and reduce the float loss associated with the
                                                                       will be investigated as part of the project. NTPI also will
coin and currency in circulation at military bases in the U.S.
                                                                       include a high-level communications strategy.
and overseas, on ships at sea, and at other "closed"
Government locations around the world. SVCs reduce the
                                                                       Debt Collections
high costs of securing, transporting, and accounting for cash.
                                                                       FMS collects delinquent Government and child support debt
Through fiscal year 2012, SVCs have replaced more than $6
                                                                       by providing centralized debt collection, oversight, and
billion in cash or other paper payment mechanisms used in
                                                                       operational services to Federal Program Agencies (FPAs) and
military environments. Additionally, SVCs streamline and
                                                                       states pursuant to the Debt Collection Improvement Act of
help automate the otherwise manually intensive back end
                                                                  25
                                                                      U.S. Department of the Treasury | Fiscal Year 2012
1996 and related legislation. FMS uses two debt collection
programs: Treasury Offset Program and Cross Servicing.

In fiscal year 2012, FMS increased debt collections by (1)
repurposing the Austin Payment Center as a debt collection
center, (2) undertaking three management and
administrative reforms, which include improving the offset
match process, improving analytic tools, and expanding
Administrative Wage Garnishment, (3) enhancing the
FedDebt system, and (4) expanding offset services by
increasing debt referral, adding new debt types such as
unemployment insurance compensation debts and expanding
the usage to federal agencies and states.

Finally, FMS, in partnership with OFIT, is developing a CRS
Pilot. Treasury’s long-term vision is to provide a centralized
receivables service to federal agencies that will increase
collections on current receivables and delinquent debt.


Government-wide Accounting (GWA) and Reporting

The GWA Program supports the FMS’s strategic goal to
produce timely and accurate financial information that
contributes to the improved quality of financial decision
making by operating and overseeing the Government’s
central accounting and reporting system. The GWA Program
also works with FPAs to adopt uniform accounting and
reporting standards and systems. It provides support,
guidance, and training to assist FPAs in improving their
Government-wide accounting and reporting responsibilities.
The FMS collects, analyzes, and publishes Government-wide
financial information, which is used by the U.S. Government
to establish fiscal and debt management policies and by the
public and private sectors to monitor the Government’s
financial status. Publications include the Daily Treasury
Statement, the Monthly Treasury Statement, the Treasury
Bulletin, the Combined Statement of the United States
Government, and the Financial Report of the U.S.
Government.




                                                                 26
                                                                                U.S. Department of the Treasury | Fiscal Year 2012

DEPARTMENT’S KEY PERFORMANCE MEASURES FOR 2012
The following table contains key performance metrics providing a representative overview of the department’s performance for
2012. Discussion of the factors contributing to each measure’s performance results, and plans to improve the measure’s results
in future years, follows the table.

    Performance
       Measure                         2008      2008      2009       2009          2010    2010      2011      2011     2012     2012
     Official Title        Bureau     Target     Actual   Target      Actual       Target   Actual   Target     Actual   Target   Actual

Percentage Collected
Electronically of Total
Dollar Amount of            FMS        79.0       80.0     80.0           84.0      80.0     85.0     82.0       96.0     96       97
Federal Government
Receipts (%)

Percentage of Treasury
Payments and
                            FMS        79.0       79.0     80.0           81.0       81.0    82.0     83.0       84.0     85       88
Associated Information
Made Electronically (%)

Amount of Delinquent
Debt Collected Through      FMS         3.4       4.41      3.9           5.03       4.65    5.45     4.84       6.17     6.67     6.17
All Available Tools

Customer Service
Representative (CSR)        IRS        82.0       52.8     70.0           70.0       71.0    74.0      71.0      70.1     61.0     67.6
Level of Service (%)

Taxpayer Self-
                            IRS         51.5      66.8     64.7           69.3       61.3    64.4     68.7       70.1     72.2     78.5
Assistance Rate

Percentage of Business
Returns Processed           IRS        20.8       19.4      21.6          22.8       24.3    25.5     27.0       31.8     32.0     36.7
Electronically (%)

Percentage of Individual
Returns Processed           IRS        61.8       57.6     64.0           65.9       70.2    69.3     74.0       76.9     79.0     80.5
Electronically (%)

Affordable Housing
Units Created by CDFI       CDFI
                                         -         -         -             -          -       -      Baseline   19,083   16,419   27,433
Fund Programs (data         Fund
starting 2011)

OTA Scope and
Intensity of                DO        Baseline    3.6       3.6           3.7        3.6     3.5       3.6       3.7      3.6      3.9
Engagement (Traction)

Impact of TFI Programs
                            DO           -         -      Baseline        7.81       7.4     7.4       7.6       8.4      7.8      8.1*
and Activities

Note: Performance measures were not audited.
*Estimated value.




                                                                     27
                                                                        U.S. Department of the Treasury | Fiscal Year 2012


On December 7, 2010, Treasury published a regulation that             increased popularity of IRS web-based applications. The self-
required businesses with an annual tax liability of at least          assistance rate is expected to increase in future years as more
$10,000 to pay their taxes electronically. The new                    taxpayers choose automated customer service methods over
requirement, combined with FMS’s efforts to transition                more traditional methods such as telephone and paper
taxpayers to electronic payments, resulted in FMS processing          correspondence.
over 132.5 million payments electronically during fiscal year
                                                                      The IRS achieved an electronic-filing rate of 36.7 percent for
2012. Accordingly, Treasury significantly exceeded its
                                                                      business returns, exceeding its performance target by more
performance target on the measure: “Percentage collected
                                                                      than four percentage points. The IRS also exceeded the target
electronically of total dollar amount of federal government
                                                                      on its electronic filing metric, “Percentage of Individual
receipts.” With continued emphasis on the All Electronic
                                                                      Returns Processed Electronically.” Performance in this area
Treasury initiative, FMS has undertaken the NTPI, aimed at
                                                                      continues to be driven by increased demand for the overall
moving all collections and remittances processed by FMS to
                                                                      benefits of e-file, such as its accuracy; quick
electronic means, resulting in greater efficiencies for FMS
                                                                      acknowledgement of receipt; the ability to file amended,
and its agency partners and greater convenience for the
                                                                      and/or prior year returns.
public.
                                                                      The CDFI Fund programs developed or produced 27,433
In support of the All Electronic Treasury initiative, FMS also
                                                                      housing units across all programs, reflecting the impact of
continued to expand and market the use of electronic funds
                                                                      Recovery Act investments in 2012. Targets will be adjusted
transfer to deliver federal payments, improve service to
                                                                      upward for fiscal year 2014 based on the increase in housing
payment recipients, and reduce government program costs.
                                                                      portfolio loans to reflect the results of new awardee
In fiscal year 2012, FMS made 88 percent of payments
                                                                      reporting.
electronically, exceeding its performance goal of 85 percent.
FMS attributes the performance outcome to considerable                OTA developed its Traction goal based on project evaluations

success in implementing its nationwide Go Direct®                     to measure the degree to which financial technical assistance

campaign to encourage current check recipients to switch to           programs bring about changes in behavior of counterpart

direct deposit. As a result, benefit checks have declined from        countries. In fiscal year 2011, OTA slightly exceeded its

10.3 million per month in January 2011 to 5.5 million as of           target. The nature of the OTA program is such that country

August 2012, saving millions of dollars for the United States         projects that reach performance goals and objectives are

Treasury and the taxpayers in the years to come.                      concluded and new projects are begun where the challenges
                                                                      are significant. The effect of this dynamic keeps the target
In fiscal year 2012, the IRS achieved a 67.6 percent -
                                                                      goal always challenging but reachable if performance remains
“Customer Service Representative Level of Service,”
                                                                      high across all teams and projects.
exceeding its performance target of 61 percent. The IRS
answered more than 30 million assistor calls and 59.2 million         TFI created a composite measure that consists of three

automated calls, with an accuracy rate of 93.2 percent of tax         overall program office focus areas related to its mission and

law and 95.6 percent of account questions received via the            strategic goals. TFI estimated that it exceeded its

telephone. Moving forward, the IRS will staff telephone               performance target of 7.81 on its composite measure, “Impact

service as effectively as possible to meet anticipated                of TFI Programs and Activities.” Note that the fiscal year

telephone demand.                                                     2012 outcome is an estimate as of the publication of this
                                                                      report because a customer service survey that contributes to
The IRS exceeded its performance target and achieved a 78.5
                                                                      the composite score has not been fully completed.
percent “Taxpayer Self Assistance Rate,” as a result of the




                                                                 28
                                                                      U.S. Department of the Treasury | Fiscal Year 2012

HIGHLIGHTS OF MANAGEMENT AND PERFORMANCE CHALLENGES
Annually, in accordance with the Reports Consolidation Act          continue to focus on resolving them during fiscal year 2013
of 2000, OIG and TIGTA identify the most significant                and beyond. Refer to Section C of Part 3, Other
management and performance challenges facing the                    Accompanying Information, for a detailed discussion of these
Department. These challenges do not necessarily indicate            challenges, listed below.
deficiencies in performance; rather, some represent inherent
                                                                    Note: SIGTARP does not provide the Secretary with an
risks that must be monitored continuously. Treasury made
                                                                    annual report on management and performance challenges.
much progress on these issues in fiscal year 2012, and will




TREASURY-WIDE MANAGEMENT CHALLENGES – AS IDENTIFIED BY OIG
        Transformation of Financial Regulation

        Management of Treasury’s Authorities Intended to Support and Improve the Economy

        Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement

        Gulf Coast Restoration Trust Fund Administration (new)


IRS MANAGEMENT CHALLENGES – AS IDENTIFIED BY TIGTA
        Security for Taxpayer Data and Employees

        Tax Compliance Initiatives

        Modernization

        Implementing the Affordable Care Act and Other Tax Law Changes

        Fraudulent Claims and Improper Payments

        Providing Quality Taxpayer Service Operations

        Human Capital

        Globalization

        Taxpayer Protection and Rights

        Achieving Program Efficiencies and Cost Savings




                                                               29
                            U.S. Department of the Treasury | Fiscal Year 2012


FINANCIAL HIGHLIGHTS




Figure 1                      Figure 2




Figure 3                      Figure 4




Figure 5                      Figure 6




Figure 7                      Figure 8




                       30
                                                                           U.S. Department of the Treasury | Fiscal Year 2012

The financial highlights below are an analysis of the                    and the formats prescribed by OMB, the consolidated
information included in the Department’s consolidated                    financial statements are in addition to the financial reports
financial statements which appear within the “Annual                     used to monitor and control budgetary resources, which are
Financial Report” section of this report. The Department’s               prepared from the same books and records. The financial
principal financial statements have been prepared to report              statements should be read with the realization that they are
the agency’s financial position and results of operations,               for a component of the U.S. Government, a sovereign entity.
pursuant to the requirements of 31 USC 3515(b). While these
                                                                         The chart below presents changes in key financial statement
financial statements have been prepared from the books and
                                                                         line items as of and for the fiscal year ended September 30,
records of the Department in accordance with generally
                                                                         2012 compared to September 30, 2011.
accepted accounting principles (GAAP) for federal entities

                                     Summary Financial Information (dollars in billions)
                                                                                                                   $           %
                                                                       2012                    2011            Change      Change
Total Treasury Assets                                      $       17,921.9       $       16,590.2      $        1,331.7        8.0%
Total Treasury Liabilities                                 $       17,532.5       $        16,510.1     $      1,022.4          6.2%
Net Position                                               $          389.4       $            80.1     $         309.3      386.1%
Net Cost of (Revenue From) Treasury Operations             $        (275.2)       $             4.2     $       (279.4)    6652.4%
Net Federal Debt Interest Costs                            $          399.3       $           426.7     $         (27.4)      (6.4)%
Total Budgetary Resources                                  $          816.1       $        1,089.0      $       (272.9)      (25.1)%
Net Agency Outlays                                         $          241.3       $           313.4     $         (72.1)    (23.0)%
Net Revenue Received (Custodial)                           $        2,256.2       $         2,105.3     $          150.9        7.2%

Financial Overview. The Department’s financial                           result of the SPSPA amendment, which are expected to drive
performance as of and for the fiscal year ended September                downward the amount of future draws needed by the GSEs.
30, 2012 reflects several major trends. Most significantly, the
                                                                         The Department’s 2012 financial performance also reflects
outstanding federal debt, including interest, rose by $1.3
                                                                         the ongoing wind-down of both the GSE MBS and TARP
trillion to finance the U.S. Government’s budget deficits.
                                                                         credit programs, principally through sales of securities and
Additionally, the Department amended its Senior Preferred                principal repayments of loans made under these programs.
Stock Purchase Agreements (SPSPAs) with the two GSEs in                  In fiscal year 2012, the Department completed the sale of its
2012 which, among other things, changes the basis by which               entire MBS portfolio; these sales commenced in mid-2011.
quarterly dividends are paid by the GSEs to the U.S.                     TARP’s wind-down activity included, among other things,
Government commencing with the quarter ending March 31,                  continued sales of its AIG common stock held. The wind-
2013. This amendment impacted the end-of-year valuation                  down of the GSE MBS and TARP programs drove significant
of the Department’s senior preferred stock investment and                fluctuations in the subsidy costs associated with these
contingent liability associated with the GSE program. At the             programs during both fiscal years 2012 and 2011 caused by
end of 2012, the Department reduced its estimated future                 program modifications and end-of-year reestimates. Subsidy
liability to the GSEs over the life of the SPSPA program by              costs recorded in connection with each credit program
$307.2 billion, and reduced the fair value of its GSE senior             represent the difference between the projected costs of the
preferred stock and other related investment holdings by                 program and the future cash flows anticipated to be received
$42.2 billion. This compares to the $22.9 billion reduction in           from the program. Reestimates may occur due to changes in
the estimated liability and $3.1 billion increase in the fair            a program’s estimated future cash flows caused by changes in
value of the GSE investment holdings recorded at the end of              market conditions and actual program performance, thereby
2011. The declines in both the asset and liability at the end of         resulting in an upward or downward reestimate in the credit
2012 were primarily due to lower anticipated future quarterly            program receivable to reflect an increase or decrease,
dividend payments by the GSEs to the Department, as a                    respectively, in the estimated total cost of the program.

                                                                    31
                                                                          U.S. Department of the Treasury | Fiscal Year 2012

Total Treasury Assets of $17.9 trillion at September 30,                Total Treasury Liabilities of $17.5 trillion at September
2012 consist of a receivable due from the General Fund of the           30, 2012 principally consist of the federal debt held by the
U.S. Government of $16.2 trillion, intra-governmental loans             public, including interest, of $11.3 trillion which were mainly
and interest receivable of $914.3 billion, and fund balance             issued as Treasury Notes and Bills (Figure 10). Liabilities
and various other assets which totaled $805.4 billion (Figure           also include intra-governmental liabilities totaling $6.1
9). The $1.3 trillion (or 8.0 percent) increase in total assets         trillion (of which $4.9 trillion represent principal and interest
at the end of fiscal year 2012 over the prior year is primarily         of federal debt in the form of Treasury securities held by
due to a $1.3 trillion rise in the federal debt and related             federal agencies), and various other liabilities totaling $98.4
interest payable, which caused a corresponding rise in the              billion. The $1.0 trillion (or 6.2 percent) increase in total
“Due from the General Fund of the U.S. Government”                      liabilities at the end of fiscal year 2012 over the prior year is
account. This account represents future funds required from             attributable to a $1.3 trillion increase in federal debt,
the General Fund of the U.S. Government to pay borrowings               including interest, held by the public and federal agencies
from the public and other federal agencies.                             that was needed to finance the U.S. Government’s budget
                                                                        deficits. This was partially offset by a $307.2 billion decrease
Intra-governmental loans and interest receivable represent
                                                                        in the estimated future liability to the GSEs.
loans issued primarily by the BPD to other federal agencies
for their own use or for the agencies to loan to private sector
borrowers whose loans are guaranteed by the federal
agencies. This receivable grew by $185.7 billion (or 25.5
percent) to $914.3 billion at the end of fiscal year 2012 due to
increased borrowings by various federal agencies – such as
the Departments of Education, Agriculture, and Energy – to
fund their existing programs.

Other assets include, among other things, TARP and non-
TARP credit program receivables due from, and other
investments in, certain financial institutions for which the
                                                                        Figure 10
Department provided financial assistance in an effort to
stabilize financial markets. Other assets decreased by almost           Net Position of $389.4 billion at September 30, 2012
$153.5 billion primarily due to the ongoing wind-down of                represents the combined total of the Department’s
these programs through sales of securities or principal                 cumulative results of operations and unexpended
repayments of loans made under these programs, as well as               appropriations at the end of the fiscal year. The $309.3
from declines in the fair value of the GSE preferred stock              billion increase in the net position at the end of fiscal year
investments held principally due to the SPSPA amendment.                2012 was principally attributable to a$279.4 billion increase
                                                                        in net revenue from Treasury operations, combined with a
                                                                        $27.4 billion decrease in net federal debt interest costs, as
                                                                        discussed below.

                                                                        Net Revenue From Treasury Operations, as presented
                                                                        on the Department’s Consolidated Statements of Net Cost,
                                                                        represents the Department’s gross and net costs by strategic
                                                                        program. There are three main categories of strategic
                                                                        programs: financial, economic, and security. The
                                                                        Department generated $275.2 billion in total net revenue
                                                                        from its operations for 2012 compared to a net cost of $4.2
Figure 9
                                                                   32
                                                                           U.S. Department of the Treasury | Fiscal Year 2012

billion in the prior year, primarily due to increased net                Total Budgetary Resources of $816.1 billion were lower
revenue associated with the Department’s economic                        in fiscal year 2012 by $272.9 billion (or 25.1 percent)
programs, and lower net costs from its financial programs.               primarily due to decreases in both borrowing authority and
                                                                         appropriations. Borrowing authority resources decreased
Economic programs generated net revenue of $288.8 billion
                                                                         $146.0 billion principally related to the IMF and TARP
in 2012 compared to $9.9 billion in fiscal year 2011 (Figure
                                                                         programs. IMF established two new credit reform programs
11). The $278.9 billion increase in economic program net
                                                                         in fiscal year 2011 for which it received $107.5 billion in
revenue in fiscal year 2012 is primarily due to a $307.2
                                                                         borrowing authority in that year when compared to fiscal
billion reduction in the Department’s estimated future
                                                                         year 2012. Additionally, TARP’s borrowing authority
liability to the GSEs in 2012, via a reduction in expense, as a
                                                                         requirement fell by $32.9 billion for fiscal year 2012 due to a
result of the SPSPA amendment, as compared to a $22.9
                                                                         reduction in downward reestimates of credit reform subsidies
billion reduction in this liability in 2011. Fiscal year 2012 net
                                                                         associated with certain of its programs. Total budgetary
revenue was also favorably impacted by changes in subsidy
                                                                         resources also reflect reduced appropriations of $66.7 billion
costs associated with the ongoing wind-down of both the GSE
                                                                         primarily due to less funding needed in fiscal year 2012 to
MBS and TARP programs, offset by increased foreign
                                                                         service the federal debt.
currency exchange losses incurred by ESF due to the
strengthening of the U.S. dollar in the world market.                    Net Agency Outlays of $241.3 billion were lower in fiscal
                                                                         year 2012 by $72.0 billion (or 23.0 percent) primarily due to
The net cost of financial programs was $11.8 billion, down
                                                                         fewer program disbursements associated with the TARP, GSE
$1.8 billion from fiscal year 2011. Fiscal year 2012 reflects
                                                                         MBS, and SBLF programs due to the wind-down of certain of
increased interest earnings on higher levels of intra-
                                                                         these programs.
governmental loans issued to other federal agencies, as
discussed under the section “Total Treasury Assets” above.               Net Revenue Received (Custodial), representing net
                                                                         revenue collected by Treasury on behalf of the U.S.
                                                                         Government, includes various taxes, primarily income taxes,
                                                                         as well as user fees, fines and penalties, and other revenue.
                                                                         Over 90 percent of these revenues are related to income and
                                                                         social security taxes. Net revenue received was $2.3 trillion
                                                                         for fiscal year 2012, an increase of $150.9 billion (or 7.2
                                                                         percent) over the prior fiscal year. This increase is attributed
                                                                         mainly to an overall improvement in individual and
                                                                         corporate income tax collections, coupled with a reduction in
                                                                         tax refunds.



Figure 11

Net Federal Debt Interest Costs primarily reflect interest
expense on the federal debt. Federal interest costs declined
by $27.4 billion (or 6.4 percent) in fiscal year 2012 despite
the rise in the federal debt, due to a decline in the average
interest rate on the Treasury debt securities.




                                                                    33
                                                                    U.S. Department of the Treasury | Fiscal Year 2012


MANAGEMENT ASSURANCES

                               The Secretary’s Assurance Statement
The Department of the Treasury’s management is responsible for establishing and maintaining effective internal control and
financial management systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). Treasury
has evaluated its management controls, internal controls over financial reporting, and compliance with federal financial
systems standards. As part of the evaluation process, Treasury considered results of extensive testing and assessment across
the Department and independent audits.

Treasury provides assurance that the objectives of Section 2 of the FMFIA (Financial Reporting and Operations) have been
achieved, except for the material weaknesses noted below. Treasury is in substantial conformance with Section 4 (Financial
Management Systems) of the FMFIA. Also, in accordance with Office of Management and Budget Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A, Internal Control over Financial Reporting, Treasury
provides qualified assurance that internal control over financial reporting was operating effectively based on the results of the
assessment as of June 30, 2012. Treasury’s financial management systems are not in substantial compliance with the Federal
Financial Management Improvement Act (FFMIA) due to the Internal Revenue Service’s (IRS’s) material weaknesses related
to unpaid tax assessments and information security.

As of September 30, 2012, Treasury had three FMFIA material weaknesses as follows (with origination/planned resolution
timeframes indicated):


   Operations:

           IRS – Computer Security (Fiscal Year 2001/2014)

           Financial Management Service – Systems, Controls, and Procedures to Prepare the Government-wide Financial
            Statements (Fiscal Year 2001/2014)

   Financial Reporting:

           IRS – Unpaid Tax Assessments (Fiscal Year 1995/2015)


Treasury management remains dedicated to the resolution of these weaknesses. Overall, Treasury continues to make progress
in reducing internal control weaknesses and in meeting federal financial management systems requirements.




Timothy F. Geithner
Secretary of the Treasury
November 15, 2012




                                                              34
                                                                        U.S. Department of the Treasury | Fiscal Year 2012


FMFIA
The management control objectives under FMFIA are to                  During fiscal year 2012, Treasury bureaus and offices used a

reasonably ensure that:                                               risk-based approach to assess their financial management
                                                                      systems’ compliance with FFMIA, as required by OMB. The
     Obligations and costs are in compliance with applicable
                                                                      bureaus and offices conducted self-assessments to determine
      law
                                                                      their risk levels. With the exception of the IRS, all Treasury
     Funds, property, and other assets are safeguarded               bureau and office financial management systems are in
      against waste, loss, unauthorized use, or                       compliance with FFMIA. As required, the IRS has a
      misappropriation                                                remediation plan in place to correct the identified
                                                                      deficiencies. The IRS management updates this plan
     Revenues and expenditures applicable to agency
                                                                      quarterly and Treasury management reviews it. In addition,
      operations are properly recorded and accounted for to
                                                                      TIGTA audits the plan annually.
      permit the preparation of accounts and reliable
      financial and statistical reports and to maintain               The IRS made significant progress in fiscal year 2012 toward
      accountability over the assets                                  attaining FFMIA compliance by implementing the splitting of
                                                                      individual unpaid assessment (UA) accounts to improve the
FMFIA requires agencies to evaluate and report on the
                                                                      financial classification. The IRS sub-ledger for UA (i.e.,
effectiveness of controls over operations and financial
                                                                      Custodial Detail Data Base (CDDB)) is now capable of
reporting (FMFIA Section 2), and conformance with financial
                                                                      providing more granularity into Trust Fund Recovery Penalty
management systems requirements (FMFIA Section 4 and
                                                                      (TFRP) multi-officer/multi-corporation accounts.
FFMIA) that protect the integrity of federal programs.
Deficiencies that seriously affect an agency’s ability to meet        To address the Unpaid Tax Assessments material weakness,
these objectives are deemed “material weaknesses.”                    the IRS implemented programming changes in the CDDB in
                                                                      June 2012, to improve the financial classification in
In fiscal year 2012, Treasury continued to make progress on
                                                                      situations when there are: 1) unpaid tax assessments
closing its three material weaknesses, as listed in the
                                                                      requiring amounts to be reported in more than one financial
Secretary’s assurance statement. Treasury includes
                                                                      classification when the taxpayer agrees to a portion of the tax
resolution of material weaknesses as a performance
                                                                      (taxes receivable) but does not agree to the remaining portion
requirement for every executive, manager, and supervisor.
                                                                      (compliance assessment), 2) unpaid tax assessments where a
Additional information on Treasury’s material weaknesses
                                                                      portion of the assessment has expired by statute, 3) TFRP
and progress can be found in Section F of Part 3, Other
                                                                      assessments involving multiple companies and officers, and
Accompanying Information.
                                                                      4) payroll tax assessments where no officers will be assessed

FFMIA AND FINANCIAL                                                   a TFRP. In addition, the IRS is making changes to the
                                                                      Automated Trust Fund Recovery system to increase the
MANAGEMENT SYSTEMS
                                                                      number of TFRP cases that can be completely worked
FFMIA                                                                 without user intervention and eliminate errors inherent to

FFMIA mandates that agencies “... implement and maintain              these complex cases.

financial management systems that comply substantially with           GAO reported a downgrade of the Computer Security
federal financial management systems requirements,                    material weakness to a significant deficiency during the fiscal
applicable federal accounting standards, and the United               year 2012 financial statement audit, based on the results of
States Government Standard General Ledger (USSGL) at the              its audit of the IRS financial statements, which are presented
transaction level.” FFMIA also requires the development of            in conformity with U.S. generally accepted accounting
remediation plans by any entity unable to report substantial          principles. The IRS will continue to track Information
compliance with these requirements.                                   Security internally based on the results of its testing, and
                                                                 35
                                                                       U.S. Department of the Treasury | Fiscal Year 2012

recognizing the larger scope of the IRS’s work as a result of                Joint Audit Management Enterprise System –
FMFIA requirements and management’s responsibility for                        tracks information on open audits and audit report
the integrity of IRS internal controls. As such, IRS will                     findings, recommendations, and planned corrective
continue conducting internal control testing to determine the                 actions
ongoing status of its internal control over information
                                                                     Bureaus submit summary-level financial data to TIER
security.
                                                                     monthly, within three business days of the month-end.
To address the Computer Security material weakness, the              CFOV uses these data to produce financial statements and
Computer Security Material Weakness Program Office                   reports on both a Department-wide and bureau-level basis,
developed continuous monitoring activities to identify risks         including Treasury’s audited annual financial statements and
and confirm compliance with policies and procedures over             monthly management reports.
internal controls, and an executive governance process to            Fourteen Treasury bureaus and offices use centralized
provide sustained improvements during fiscal year 2012               financial operations and budget execution services and
toward downgrading this material weakness. The IRS also              systems support provided by the BPD’s ARC. This cross-
commissioned a cross-functional working group to test and            servicing enables these bureaus to have access to core
validate corrective actions to ensure they fully address the         financial systems without having to maintain the necessary
weakness to prevent premature closure. The group also                technical and systems architectures. BPD/ARC also provides
provided evidence and assurance of continuous monitoring             administrative services in the areas of accounting, travel,
and controls for IT systems owned or operated by external            payroll, human resources, and procurement to Treasury
entities for risks to IRS financial systems or access to             bureaus and offices and to other federal entities to support
taxpayer or other sensitive information the IRS maintains.           core business activities. Using these services reduces the
                                                                     need for Treasury to maintain duplicative financial
FINANCIAL MANAGEMENT SYSTEMS FRAMEWORK
                                                                     management systems; enhances the quality, timeliness, and
The Department of the Treasury’s financial management                accuracy of financial management processes; and provides a
systems framework consists of core financial and mixed               more efficient and cost-effective business model.
systems maintained by the Treasury bureaus, and the
Department-wide Financial Analysis and Reporting System              GOALS AND THE SUPPORTING FINANCIAL SYSTEM
(FARS). The bureau systems process and record detailed               STRATEGIES
financial transactions and submit summary-level data to              Treasury’s financial system goals and supporting strategies
FARS, which maintains the key financial data necessary for           focus on improving and streamlining the current FARS
Treasury-wide consolidated financial reporting. This                 foundation so it will support new financial requirements and
framework satisfies both the bureaus’ diverse financial              continue to provide management with accurate and timely
operational and reporting needs, as well as the Department’s         financial information.
internal and external reporting requirements. It enables             Throughout fiscal year 2012, Treasury updated TIER and
Treasury to receive an unqualified audit.                            CFOV to meet new and evolving reporting requirements.

FARS consists of the following components:                           These include updates to TIER to comply with the data
                                                                     standard reflected in FMS’s planned Government-wide
           Treasury Information Executive Repository (TIER)
                                                                     Treasury Account Symbol Adjusted Trial Balance System
            – a financial data warehouse used to consolidate
                                                                     (GTAS). In addition, Treasury enhanced TIER to improve
            and validate bureau financial data
                                                                     the efficiency of financial reporting activities as well as
           CFO Vision (CFOV) – a tool used to produce               internal control over financial management. Treasury also
            monthly financial statements, notes, and other           enhanced FARS in 2012, to take advantage of emerging
            supporting reports, as well as perform financial         technology and streamline processes by automating the
            analysis                                                 process for tracking, managing, and establishing FARS user

                                                                36
                                                                        U.S. Department of the Treasury | Fiscal Year 2012

accounts and access. The TIER Focus Group continued to                functionality supports the IRS customer service
meet to improve communication with the bureaus and                    representatives with on-line viewing of taxpayer account data
coordinate changes impacting financial management systems             stored in the new CADE 2 modernized database.
and financial operations.
                                                                      In fiscal year 2012, BPD/ARC upgraded one instance of its
Treasury continued and nearly completed its adoption of               core financial management system to meet compliance
FMS’s IPP in fiscal year 2012. IPP automates many manual              expectations, adopt the Common Government-wide
activities related to receiving, verifying, approving, and            Accounting Classification structure, and offer additional
paying invoices. Bureaus will benefit from efficiency                 functionality. BPD/ARC also completed its implementation
improvements as more of their vendors participate in IPP              of IPP.
and as they process more invoices through IPP.
                                                                      In fiscal years 2013 and 2014, the Department and BPD/ARC
In fiscal year 2013, Treasury plans to continue to upgrade its        plan to complete the upgrade to the second instance of the
FARS applications to support new financial reporting                  core financial management system to meet compliance
requirements and improve the technology infrastructure.               expectations, adopt the Common Government-wide
GTAS-related updates will continue throughout fiscal year             Accounting Classification structure, and offer additional
2013, with plans to make FARS fully GTAS-compliant by the             functionality. In addition, BPD/ARC will continue to expand
first quarter of fiscal year 2013.                                    its use of IPP.

After over 50 years of weekly posting of returns, payments,           BEP successfully completed the final phase in the
and other types of transactions, on January 17, 2012, IRS             replacement of its legacy mainframe-based manufacturing
delivered the first component of its CADE 2 program by                system. In 2012, BEP fully implemented a cloud-based, fully
moving the IRS to a daily cycle for tax processing and posting        integrated enterprise resource planning system which
of individual taxpayer accounts and for feeding downstream            included the conversion of supply chain management,
systems. This means application programs that formerly                manufacturing management, project accounting, and
took hours or days to complete now run in minutes or                  contract lifecycle management modules to the new system.
seconds. The new CADE 2 daily processing capability                   BEP plans no major upgrades for fiscal year 2013.
enhances IRS’s tax administration and improves service by             The OCC expanded its management and accountability
enabling faster refunds for more taxpayers. Processing over           reporting application in fiscal year 2012, automating the
20 percent more refunds daily in 2012 than during 2011,               calculation and recording of its semi-annual bank
CADE 2 continues to run without issue. It allows more                 assessment. The OCC plans to continue to integrate its
timely account updates (taxpayer account updates to IRS               applications with its customers and to implement a system-
customer service representatives within 48 hours versus an            based governance, risk, and compliance tool.
average of nine days in Filing Season 2011), and faster
issuance of taxpayer notices (2.7 million notices sent to
taxpayers with accounts processed daily versus 284,000 in
Filing Season 2011).

The second key component of the CADE 2 program is the
implementation of a modernized relational database. The
relational database is a central source of trusted taxpayer
data for the IRS’s 140 million individual taxpayers and over a
billion tax modules. CADE 2 is scheduled to begin live data
feeds directly from the fully loaded database to key
downstream systems (Corporate Files On-Line, Individual
Master File On-Line) in early November 2012. This new
                                                                 37
THIS PAGE INTENTIONALLY LEFT BLANK
s
    THE U.S. DEPARTMENT OF THE TREASURY




              [Pick the date]
     U.S. Department of the Treasury | Fiscal Year 2012




39
                                                                                                             U.S. Department of the Treasury | Fiscal Year 2012

PART II - TABLE OF CONTENTS
Message from the Acting Assistant Secretary for Management and Deputy Chief Financial Officer ............................................... 41
Inspector General’s Transmittal Letter ............................................................................................................................................... 43
Independent Auditors’ Report on the Department’s Financial Statements ...................................................................................... 45
Management’s Response to Independent Auditor’s Report............................................................................................................... 55

Financial Statements
Consolidated Balance Sheets ............................................................................................................................................................... 56
Consolidated Statements of Net Cost .................................................................................................................................................. 58
Consolidated Statement of Changes in Net Position .......................................................................................................................... 59
Combined Statements of Budgetary Resources ................................................................................................................................... 61
Statements of Custodial Activity.......................................................................................................................................................... 63

Notes to the Financial Statements
1. Summary of Significant Accounting Policies.................................................................................................................................. 64
2. Fund Balance ................................................................................................................................................................................... 79
3. Loans and Interest Receivable – Intra-Governmental ...................................................................................................................81
4. Due from the General Fund and Due to the General Fund ........................................................................................................... 82
5. Cash, Foreign Currency, and Other Monetary Assets.................................................................................................................... 84
6. Gold and Silver Reserves, and Gold Certificates Issued to the Federal Reserve Banks ............................................................... 86
7. Troubled Asset Relief Program – Credit Program Receivables, Net ............................................................................................. 87
8. Investments in Government Sponsored Enterprises..................................................................................................................... 98
9. Investments in International Financial Institutions ................................................................................................................... 103
10. Other Investments and Related Interest .................................................................................................................................... 103
11. Credit Program Receivables, Net................................................................................................................................................. 104
12. Reserve Position in the International Monetary Fund and Related Loans and Interest Receivable ....................................... 109
13. Taxes, Interest and Other Receivables, Net................................................................................................................................. 110
14. Property, Plant, and Equipment, Net ...........................................................................................................................................111
15. Non-Entity vs. Entity Assets..........................................................................................................................................................111
16. Federal Debt and Interest Payable............................................................................................................................................... 113
17. Other Debt and Interest Payable .................................................................................................................................................. 115
18. D.C. Pensions and Judicial Retirement Actuarial Liability ........................................................................................................ 115
19. Liabilities....................................................................................................................................................................................... 118
20. Net Position .................................................................................................................................................................................. 119
21. Consolidated Statements of Net Cost and Net Costs of Treasury Sub-Organizations .............................................................. 120
22. Additional Information Related to the Combined Statements of Budgetary Resources ..........................................................126
23. Collection and Disposition of Custodial Revenue...................................................................................................................... 130
24. Earmarked Funds.........................................................................................................................................................................132
25. Reconciliation of Net Cost of Operations to Budget ...................................................................................................................136
26. Non-TARP Investments in American International Group, Inc. ............................................................................................... 137
27. Schedule of Fiduciary Activity .....................................................................................................................................................138
28. Commitments and Contingencies ...............................................................................................................................................139
Required Supplemental Information (Unaudited) ............................................................................................................................143



                                                                                                   40
                                                                           U.S. Department of the Treasury | Fiscal Year 2012

MESSAGE FROM THE ACTING ASSISTANT SECRETARY
FOR MANAGEMENT AND DEPUTY CHIEF FINANCIAL
OFFICER
                                                      In fiscal year 2012, the Department of the Treasury advanced its commitment
                                                      to accomplish the following strategic goals:

                                                          •   Repair and reform the financial system and support the recovery of
                                                              the housing market
                                                          •   Enhance U.S. competitiveness and promote international financial
                                                              stability and balanced global growth
                                                          •   Protect our national security through targeted financial actions

     Nani A. Coloretti          Dorrice C. Roth           •   Pursue comprehensive tax and fiscal reform
Acting Assistant Secretary   Deputy Chief Financial
    for Management                  Officer
                                                          •   Manage the U.S. Government’s finances in a fiscally responsible
                                                              manner
These focus areas, and the continued promise to relentlessly pursue them, have improved the fiscal stewardship of the
American taxpayers’ resources, promoted the security and safety of our people at home and abroad, restored confidence
in our nation’s financial systems and stimulated economic and job growth. Through these efforts, Treasury will continue
to deliver better management of our nation’s finances and better results to the American taxpayer.

With an aggressive set of management programs and initiatives designed to manage the U.S. Government’s finances
responsibly, Treasury has led and supported government-wide financial management efforts to increase productivity,
reduce waste and non-essential expenses, and modernize processes and systems. Our comprehensive approach focused
on governing strategically, working smarter, and leveraging technology to address and support improvements across the
breadth and scope of the Department’s mission and functions. This agenda has led to enhanced decision-making and
ability to innovate and deliver a higher quality and volume of results.

With the economy continuing to recover, Treasury is winding down the Troubled Asset Relief Program (TARP). Treasury
now estimates the lifetime cost of the program will be $60 billion -- less than one-tenth of the $700 billion originally
authorized by Congress. TARP helped stabilize the economy during the financial crisis by helping restore the flow of
credit, save jobs, aid homeowners, and rescue the American auto industry. As of September 30, 2012, American
taxpayers have already recovered more than 88 percent of the TARP funds disbursed.

In efforts to make doing business with the U.S. Government as easy as possible, the Department is leading the U.S.
Government in implementing the use of electronic transactions with the public. In fiscal year 2012, 88 percent of
Treasury payments and associated information was made electronically. Through Treasury’s longstanding push towards
electronic payments, Treasury saved $600 million in costs in one year alone. As the number of Social Security recipients
increases, the savings from electronic payments will also increase while providing beneficiaries a safer, more reliable, and
convenient way to receive their payments.




                                                                      41
                                                                U.S. Department of the Treasury | Fiscal Year 2012
In fiscal year 2012, Treasury demonstrated leadership in fiscal prudence and financial reform by:

•   Advancing engagement of small businesses by exceeding all small business contracting goals to jump-start job
    creation and stimulate local economies
•   Implementing a shared services approach to management by establishing the Shared Services Council which
    provides a portfolio-wide approach to shared services across the Department to optimize services and drive
    accountability
•   Further reducing administrative expenses as directed by the President’s Executive Order to cut waste, in which we
    exceeded the 20 percent reduction goal a year early and garnered more than $241 million in savings
•   Delivering real property savings by better utilization of existing real property through space realignment efforts,
    space reductions from increased employee telework arrangements, and the elimination of expiring leases, resulting
    in an estimated $24 million in cumulative cost savings from fiscal years 2010 through 2012
•   Reducing time and materials/labor hour contracts by over ten percent from fiscal year 2011
•   Driving additional contracting savings estimated at over $240 million in savings in fiscal year 2012, including $80
    million achieved through better leveraging of buying power

The Department again received an unqualified audit opinion on both the Treasury-wide and Office of Financial
Stability/TARP fiscal year 2012 financial statements. Treasury made steady progress toward resolving the three Federal
Managers’ Financial Integrity Act material weaknesses remaining open as of September 30, 2012 (IRS – Computer
Security, IRS – Unpaid Tax Assessments , and FMS – Preparation of the Government-wide Financial Statements). The
complexity of Treasury’s financial systems contributes greatly to these material weaknesses; however, we have made
great strides toward resolving the issues.




Nani A. Coloretti                                                Dorrice C. Roth
Acting Assistant Secretary for Management                        Deputy Chief Financial Officer
November 15, 2012                                                November 15, 2012




                                                           42
PAGES 43-55 INTENTIONALLY LEFT BLANK
                                                              U.S. Department of the Treasury | Fiscal Year 2012
                                          Consolidated Balance Sheets
                                       As of September 30, 2012 and 2011
                                                  (In Millions)

                                                                                            2012               2011
ASSETS
Intra-governmental Assets
Fund Balance (Note 2)                                                             $      344,346     $      381,784
Loans and Interest Receivable (Note 3)                                                   914,304            728,650
Advances to the Unemployment Trust Fund (Note 4)                                          32,932             42,773
Due From the General Fund (Note 4)                                                    16,202,179         14,902,717
Other Intra-governmental Assets                                                            1,495              1,148
Total Intra-governmental Assets                                                       17,495,256         16,057,072

Cash, Foreign Currency, and Other Monetary Assets (Note 5)                                145,551            117,121
Gold and Silver Reserves (Note 6)                                                          11,062             11,062
Troubled Asset Relief Program (TARP) - Credit Program Receivables, Net (Note 7)            40,231            80,104
Investments in Government Sponsored Enterprises (Notes 4 and 8)                          109,342            133,043
Investments in International Financial Institutions (Note 9)                                6,043              5,707
Non-TARP Investments in American International Group, Inc. (Note 26)                         2,611           10,862
Other Investments and Related Interest (Note 10)                                           15,436             15,798
Other Credit Program Receivables, Net (Note 11)                                            19,888            92,820
Loans and Interest Receivable (Note 12)                                                    10,334              6,248
Reserve Position in the International Monetary Fund (Note 12)                               21,573           20,682
Taxes, Interest and Other Receivables, Net (Note 13)                                       41,463            36,690
Property, Plant, and Equipment, Net (Note 14)                                                2,435             2,266
Other Assets                                                                                   637               751
Total Assets (Note 15)                                                            $   17,921,862     $   16,590,226

Heritage Assets (Note 14)

The accompanying notes are an integral part of these financial statements.




                                                         56
                                                                U.S. Department of the Treasury | Fiscal Year 2012
                                           Consolidated Balance Sheets
                                        As of September 30, 2012 and 2011
                                                   (In Millions)


                                                                                          2012               2011
LIABILITIES
Intra-governmental Liabilities
Federal Debt and Interest Payable (Notes 4 and 16)                            $     4,861,005     $     4,720,165
Other Debt and Interest Payable (Note 17)                                                7,194              8,539
Due to the General Fund (Note 4)                                                     1,257,752          1,226,475
Other Intra-governmental Liabilities (Note 19)                                             541                453
Total Intra-governmental Liabilities                                                6,126,492           5,955,632

Federal Debt and Interest Payable (Notes 4 and 16)                                  11,307,583         10,148,963
Certificates Issued to the Federal Reserve (Note 5)                                      5,200               5,200
Allocation of Special Drawing Rights (Note 5)                                           54,463             55,150
Gold Certificates Issued to the Federal Reserve (Note 6)                                 11,037             11,037
Refunds Payable (Notes 4 and 23)                                                          3,255              3,983
D.C. Pensions and Judicial Retirement Actuarial Liability (Note 18)                     10,059                9,671
Liability to Government Sponsored Enterprises (Note 8)                                   9,003            316,230
Other Liabilities (Note 19)                                                               5,374              4,222
Total Liabilities (Note 19)                                                         17,532,466         16,510,088
Commitments and Contingencies (Note 28)

NET POSITION
Unexpended Appropriations:
  Earmarked Funds (Note 24)                                                                200               200
  Other Funds                                                                          317,309            342,778
    Subtotal                                                                           317,509            342,978
Cumulative Results of Operations:
  Earmarked Funds (Note 24)                                                             43,023              43,611
  Other Funds                                                                           28,864           (306,451)
    Subtotal                                                                            71,887          (262,840)
Total Net Position (Note 20)                                                          389,396              80,138
Total Liabilities and Net Position                                            $     17,921,862    $    16,590,226

The accompanying notes are an integral part of these financial statements.




                                                           57
                                                               U.S. Department of the Treasury | Fiscal Year 2012
                                     Consolidated Statements of Net Cost
                           For the Fiscal Years Ended September 30, 2012 and 2011
                                                 (In Millions)

Cost of Treasury Operations: (Note 21)                                                       2012            2011

Financial Program
Gross Cost                                                                         $       14,883    $     16,244
Less Earned Revenue                                                                       (3,100)         (2,690)
Net Program Cost                                                                            11,783         13,554

Economic Program
Gross Cost (Note 8)                                                                    (280,045)             4,704
Less Earned Revenue                                                                       (8,735)         (14,641)
Net Program Revenue                                                                    (288,780)           (9,937)

Security Program
Gross Cost                                                                                  1,059             360
Less Earned Revenue                                                                            (4)             (5)
Net Program Cost                                                                            1,055             355

Total Program Gross Costs (Revenue)                                                     (264,103)           21,308
Total Program Gross Earned Revenues                                                       (11,839)        (17,336)
Total Net Program Cost (Revenue) before Changes in Actuarial
 Assumptions                                                                            (275,942)           3,972
Loss on Pension, ORB, or OPEB Assumption Changes                                              695             195
Total Net Cost of (Revenue From) Treasury Operations (Note 21)                          (275,247)           4,167

Non-Entity Costs
Federal Debt Interest                                                                     432,265         452,616
Restitution of Foregone Federal Debt Interest (Note 16)                                        59              875
Less Interest Revenue from Loans                                                         (33,073)        (26,815)
Net Federal Debt Interest Costs                                                           399,251        426,676
Other Federal Costs (Note 21)                                                              16,290           13,743
GSEs Non-Entity Cost (Revenue) (Note 8)                                                     5,322        (39,415)
Other, net                                                                                  (435)          (1,016)
Total Net Non-Entity Costs                                                               420,428         399,988

Total Net Cost of Treasury Operations and Non-Entity Costs                         $      145,181    $    404,155

The accompanying notes are an integral part of these financial statements.




                                                          58
                                                              U.S. Department of the Treasury | Fiscal Year 2012
                              Consolidated Statement of Changes in Net Position
                                For the Fiscal Year Ended September 30, 2012
                                                 (In Millions)

                                                            Combined             Combined
                                                           Earmarked              All Other        Elimi-   Consolidated
                                                               Funds                 Funds         nation          Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balance                                         $        43,611    $    (306,451)    $        -   $   (262,840)
Budgetary Financing Sources
Appropriations Used (Note 22)                                         492           427,987             -        428,479
Non-Exchange Revenue                                                  423              200            (3)            620
Donations and Forfeitures of Cash/Equivalent                          186                 -             -            186
Transfers In/Out Without Reimbursement                              (129)               129             -              -
Other                                                                  15               133             -            148
Other Financing Sources (Non-Exchange)
Donation/Forfeiture of Property                                        174                 -            -              174
Accrued Interest and Discount on Debt (Note 22)                          -            95,877            -          95,877
Transfers In/Out Without Reimbursement                                (87)                40            -             (47)
Imputed Financing Sources (Note 21)                                     64             1,266        (518)              812
Transfers to the General Fund and Other (Note 20)                      101          (46,442)            -        (46,341)
Total Financing Sources                                             1,239            479,190        (521)        479,908
Net Cost of Treasury Operations and Non-Entity Costs              (1,827)          (143,875)          521       (145,181)
Net Change                                                          (588)            335,315            -         334,727
Cumulative Results of Operations                                  43,023              28,864            -          71,887

UNEXPENDED APPROPRIATIONS
Beginning Balance                                                    200            342,778             -        342,978
Budgetary Financing Sources
Appropriations Received (Notes 20 and 22)                            492            418,638             -          419,130
Appropriations Transferred In/Out                                      -                142             -              142
Other Adjustments                                                      -           (16,262)             -         (16,262)
Appropriations Used (Note 22)                                      (492)          (427,987)             -       (428,479)
Total Budgetary Financing Sources                                      -           (25,469)             -        (25,469)
Total Unexpended Appropriations                                      200            317,309             -          317,509
Net Position                                              $       43,223     $      346,173    $        -   $     389,396

The accompanying notes are an integral part of these financial statements.




                                                         59
                                                              U.S. Department of the Treasury | Fiscal Year 2012
                              Consolidated Statement of Changes in Net Position
                                For the Fiscal Year Ended September 30, 2011
                                                 (In Millions)


                                                           Combined            Combined
                                                          Earmarked             All Other        Elimi-    Consolidated
                                                              Funds                Funds         nation           Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balance                                        $       41,426    $    (340,887)    $         -   $   (299,461)
Budgetary Financing Sources
Appropriations Used                                                 536           547,593             -          548,129
Non-Exchange Revenue                                                230               154           (5)              379
Donations and Forfeitures of Cash/Equivalent                        586                 -             -              586
Transfers In/Out Without Reimbursement                              (51)               51             -                -
Other                                                                  -            4,550             -            4,550
Other Financing Sources (Non-Exchange)
Donation/Forfeiture of Property                                      163                 -             -              163
Accrued Interest and Discount on Debt                                  -            14,042             -           14,042
Transfers In/Out Without Reimbursement                              (97)                37             -             (60)
Imputed Financing Sources (Note 21)                                   75             1,265         (415)              925
Transfers to the General Fund and Other (Note 20)                    249         (128,187)             -        (127,938)
Total Financing Sources                                            1,691          439,505         (420)           440,776
Net Cost of Treasury Operations and Non-Entity Costs                 494        (405,069)           420         (404,155)
Net Change                                                         2,185           34,436              -           36,621
Cumulative Results of Operations                                  43,611         (306,451)             -       (262,840)

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                  200           400,357              -        400,557
Budgetary Financing Sources
Appropriations Received (Note 20)                                    536          498,187              -         498,723
Appropriations Transferred In/Out                                      -              129              -             129
Other Adjustments                                                      -          (8,302)              -         (8,302)
Appropriations Used                                                (536)        (547,593)              -       (548,129)
Total Budgetary Financing Sources                                      -         (57,579)              -        (57,579)
Total Unexpended Appropriations                                     200           342,778              -         342,978
Net Position                                             $        43,811   $       36,327    $         -   $      80,138

The accompanying notes are an integral part of these financial statements.




                                                         60
                                                              U.S. Department of the Treasury | Fiscal Year 2012
                                 Combined Statement of Budgetary Resources
                                 For the Fiscal Year Ended September 30, 2012
                                                  (In Millions)



                                                                                              Non-
                                                                                       Budgetary               2012
BUDGETARY RESOURCES                                              Budgetary             Financing              Total
Unobligated balance brought forward, October 1                 $   340,384         $        28,570    $    368,954
Recoveries of prior year unpaid obligations                           2,818                 10,531           13,349
Other changes in unobligated balance                                (3,542)               (37,484)         (41,026)
Unobligated balance from prior year budget authority, net          339,660                    1,617         341,277
Appropriations (discretionary and mandatory) (Notes 20 and 22)     429,535                        -         429,535
Borrowing authority (discretionary and mandatory) (Note 22)               -                  11,019           11,019
Spending authority from offsetting collections                        9,727                 24,503           34,230
Total Budgetary Resources                                      $   778,922         $        37,139    $     816,061

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 22)                                    $    458,137     $        18,326    $     476,463
Unobligated balance, end of year:
  Apportioned                                                          227,587               3,948         231,535
  Exempt from apportionment                                             23,692                   -          23,692
  Unapportioned                                                         69,506              14,865          84,371
Total unobligated balance brought forward, end of year                 320,785              18,813         339,598
Total Status of Budgetary Resources                               $    778,922     $        37,139    $    816,061

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1             $    148,351     $      123,802     $     272,153
Uncollected customer payments from federal sources, brought
  forward, October 1                                                      (201)              (969)           (1,170)
Obligated balance, net, start of year                                   148,150           122,833           270,983
Obligations incurred (Note 22)                                          458,137             18,326          476,463
Outlays, gross                                                        (461,363)           (20,731)        (482,094)
Change in uncollected customer payments from federal
  sources                                                                    15                151              166
Recoveries of prior year unpaid obligations                             (2,818)           (10,531)         (13,349)
Obligated balance, end of year:
  Unpaid obligations, gross, end of year                               142,307             110,866          253,173
  Uncollected customer payments from federal sources, end
     of year                                                              (186)              (818)          (1,004)
Obligated Balance, End of Year                                    $     142,121    $       110,048    $     252,169

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)             $    439,262     $       35,522     $     474,784
Actual offsetting collections (discretionary and mandatory)             (9,743)          (157,152)        (166,895)
Change in uncollected customer payments from federal sources
  (discretionary and mandatory)                                               15               151              166
Budget Authority, net (Discretionary and Mandatory)               $    429,534     $     (121,479)    $    308,055
Outlays, gross (discretionary and mandatory)                      $     461,363    $        20,731    $    482,094
Actual offsetting collections (discretionary and mandatory)              (9,743)         (157,152)        (166,895)
Outlays, net (discretionary and mandatory)                              451,620          (136,421)          315,199
Distributed offsetting receipts                                        (73,881)                  -         (73,881)
Agency Outlays, Net (Discretionary and Mandatory)                 $     377,739    $     (136,421)    $     241,318

The accompanying notes are an integral part of these financial statements.




                                                         61
                                                              U.S. Department of the Treasury | Fiscal Year 2012
                                 Combined Statement of Budgetary Resources
                                 For the Fiscal Year Ended September 30, 2011
                                                  (In Millions)

                                                                                            Non-
                                                                                      Budgetary               2011
BUDGETARY RESOURCES                                                  Budgetary        Financing              Total
Unobligated balance brought forward, October 1                  $      348,424      $      23,819    $     372,243
Recoveries of prior year unpaid obligations                              11,058             5,671           16,729
Other changes in unobligated balance                                      (329)          (22,697)         (23,026)
Unobligated balance from prior year budget authority, net               359,153             6,793          365,946
Appropriations (discretionary and mandatory) (Note 20)                  508,591          (12,403)          496,188
Borrowing authority (discretionary and mandatory) (Note 22)                   1           157,059          157,060
Spending authority from offsetting collections                           11,048            58,759           69,807
Total Budgetary Resources                                       $      878,793      $    210,208     $   1,089,001

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 22)                                  $       538,409     $     181,638    $    720,047
Unobligated balance, end of year:
  Apportioned                                                           246,296               510          246,806
  Exempt from apportionment                                              23,980                 -           23,980
  Unapportioned                                                          70,108            28,060           98,168
Total unobligated balance brought forward, end of year                  340,384            28,570          368,954
Total Status of Budgetary Resources                             $       878,793     $     210,208    $   1,089,001

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1           $        182,707    $      49,491    $     232,198
Uncollected customer payments from federal sources, brought
  forward, October 1                                                       (192)          (23,817)        (24,009)
Obligated balance, net, start of year                                    182,515            25,674         208,189
Obligations incurred (Note 22)                                          538,409            181,638         720,047
Outlays, gross                                                         (561,707)         (101,655)       (663,362)
Change in uncollected customer payments from federal
  sources                                                                    (9)           22,847          22,838
Recoveries of prior year unpaid obligations                             (11,058)           (5,671)        (16,729)
Obligated balance, end of year:
  Unpaid obligations gross, end of year                                  148,351          123,802          272,153
  Uncollected customer payments from federal sources, end
     of year                                                               (201)            (969)          (1,170)
Obligated balance, End of Year                                  $       148,150     $     122,833    $    270,983

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)           $       519,640     $     203,415    $     723,055
Actual offsetting collections (discretionary and mandatory)             (11,048)        (219,002)        (230,050)
Change in uncollected customer payments from federal
  sources (discretionary and mandatory)                                       (9)           22,847           22,838
Budget Authority, net (Discretionary and Mandatory)             $       508,583     $        7,260   $      515,843
Outlays, gross (discretionary and mandatory)                    $        561,707    $      101,655   $     663,362
Actual offsetting collections (discretionary and mandatory)             (11,048)        (219,002)        (230,050)
Outlays, net (discretionary and mandatory)                              550,659          (117,347)          433,312
Distributed offsetting receipts                                        (119,958)                 -        (119,958)
Agency Outlays, Net (Discretionary and Mandatory)               $       430,701     $    (117,347)   $      313,354

The accompanying notes are an integral part of these financial statements.




                                                         62
                                                              U.S. Department of the Treasury | Fiscal Year 2012
                                       Statements of Custodial Activity
                           For the Fiscal Years Ended September 30, 2012 and 2011
                                                 (In Millions)


                                                                                           2012              2011
Sources of Custodial Revenue (Note 23)
Individual Income and FICA Taxes                                                  $   2,159,990    $    2,102,030
Corporate Income Taxes                                                                  281,462           242,848
Estate and Gift Taxes                                                                     14,450             9,079
Excise Taxes                                                                              79,554            72,794
Railroad Retirement Taxes                                                                  4,773             4,692
Unemployment Taxes                                                                         7,159             6,893
Deposit of Earnings, Federal Reserve System                                               81,957           82,546
Fines, Penalties, Interest, and Other Revenue                                                623               591
Total Revenue Received                                                                2,629,968         2,521,473
Less Refunds                                                                           (373,752)         (416,221)
Net Revenue Received                                                                  2,256,216         2,105,252
Non-Cash Accrual Adjustment                                                                5,543             (150)
Non-TARP Investments in American International Group, Inc. (Note 26):
  Cash Proceeds from Sale of Stock                                                        12,992             1,973
  Non-Cash Market Adjustments                                                            (8,251)           (9,944)
Total Custodial Revenue                                                               2,266,500          2,097,131

Disposition of Custodial Revenue (Note 23)
Amounts Provided to Fund Non-Federal Entities                                               386               462
Amounts Provided to Fund the Federal Government                                       2,255,830         2,104,790
Non-Cash Accrual Adjustment
  Amounts to be Provided to the General Fund                                              4,000                 -
  Accrual Adjustment                                                                       1,543            (150)
Non-TARP Investments in American International Group, Inc. (Note 26):
  Cash Proceeds from Stock Sales Provided to Fund the Federal Government                  12,992             1,973
  Non-Cash Market Adjustment                                                             (8,251)           (9,944)
Total Disposition of Custodial Revenue                                                2,266,500          2,097,131
Net Custodial Revenue                                                             $            -   $             -

The accompanying notes are an integral part of these financial statements.




                                                         63
                                                                   U.S. Department of the Treasury | Fiscal Year 2012

1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
A. REPORTING ENTITY
The accompanying financial statements include the operations of the United States (U.S.) Department of the Treasury
(Department), one of 24 CFO Act agencies of the Executive Branch of the U.S. Government, and certain custodial
activities managed on behalf of the entire U.S. Government. The following paragraphs describe the activities of the
reporting entity.

The Department was created by an Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected the development
of the Department, delegating new duties to its charge and establishing the numerous bureaus and divisions that now
comprise the Department. As a major policy advisor to the President, the Secretary of the Treasury (Secretary) has
primary responsibility for formulating and managing the domestic and international tax and financial policies of the U.S.
Government.

Further, the Secretary is responsible for recommending and implementing United States domestic and international
economic and fiscal policy; governing the fiscal operations of the government; maintaining foreign assets control;
managing the federal debt; collecting income and excise taxes; representing the United States on international monetary,
trade, and investment issues; overseeing Departmental overseas operations; and directing the manufacture of coins,
currency, and other products for customer agencies and the public.

The Department’s reporting entities include Departmental Offices (DO) and eight operating bureaus. For financial
reporting purposes, DO is composed of: International Assistance Programs (IAP), Office of Inspector General (OIG),
Special Office of Inspector General for the Troubled Asset Relief Program (SIGTARP), Treasury Forfeiture Fund (TFF),
Exchange Stabilization Fund (ESF), Community Development Financial Institutions (CDFI) Fund, Office of D.C.
Pensions (DCP), Treasury Inspector General for Tax Administration (TIGTA), Federal Financing Bank (FFB), Office of
Financial Stability (OFS), Government Sponsored Enterprise (GSE) Program, Small Business Lending Fund (SBLF),
Office of Financial Research (OFR), and the DO policy offices.

As of September 30, 2012, the Department’s eight operating bureaus were: Bureau of Engraving and Printing (BEP);
Bureau of the Public Debt (BPD); Financial Crimes Enforcement Network (FinCEN); Financial Management Service
(FMS); Internal Revenue Service (IRS); United States Mint (Mint); Office of the Comptroller of the Currency (OCC); and
the Alcohol and, Tobacco Tax and Trade Bureau (TTB). Effective in October 2012, the BPD and FMS operating bureaus
merged to form one new operating bureau, Bureau of the Fiscal Service, thereby reducing the Department’s total number
of operating bureaus to seven. The President’s Budget for fiscal year 2013 requests Congressional enactment of a single
appropriation to fund the new bureau. The Department’s financial statements reflect the reporting of its own entity
activities comprising both the Department’s operating bureaus and DO that are consolidated with the Department, which
include appropriations it receives to conduct its operations and revenue generated from those operations. They also
reflect the reporting of certain non-entity (custodial) functions it performs on behalf of the U.S. Government and others.
Non-entity activities include collecting federal revenue, servicing the federal debt, disbursing certain federal funds, and
maintaining certain assets and liabilities for the U.S. Government, as well as for other federal entities. The Department’s
reporting entity does not include the General Fund of the U.S. Government (General Fund), which maintains receipt,
disbursement, and appropriation accounts for all federal agencies.

Following generally accepted accounting principles (GAAP) for federal entities, the Department has not consolidated into
its financial statements the assets, liabilities, or results of operations of any financial organization or commercial entity in
which it holds either a direct, indirect, or beneficial majority equity investment. Even though some of the equity
investments are significant, these entities meet the criteria of “bailed out” entities under paragraph 50 of the Statement of

                                                              64
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
Federal Financial Accounting Concepts (SFFAC) No. 2, Entity and Display which directs that such “bailout” investments
should not be consolidated into the Financial Reports of the U.S. Government, either in part or as a whole.

In addition, the Department has made loans and investments in certain special purpose vehicles (SPV) under the
American International Group, Inc. Investment Program, Public-Private Investment Program, and the Term Asset-
Backed Securities Loan Facility. SFFAC No. 2, paragraphs 43 and 44, reference indicative criteria such as ownership and
control over an SPV to carry out government powers and missions as criteria in the determination about whether the SPV
should be classified as a federal entity. The Department has concluded that the lack of control over the SPVs is the
primary basis for determining that none of the SPVs meet the criteria to be classified as a federal entity. As a result, the
assets, liabilities, and results of operations of the SPVs are not included in the Department’s financial statements. The
Department has recorded the loans and investments in private entities and investments in SPVs in accordance with credit
reform accounting, as discussed below. Additional disclosures regarding these SPV investments are included in Note 7.

B. BASIS OF ACCOUNTING AND PRESENTATION
The financial statements have been prepared from the accounting records of the Department in conformity with
accounting principles generally accepted in the United States for federal entities, and the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as revised. Accounting principles generally
accepted for federal entities are the standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).
FASAB is recognized by the American Institute of Certified Public Accountants as the official accounting standards-
setting body for the U.S. Government.

These financial statements consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, the
Consolidated Statements of Changes in Net Position, the Combined Statements of Budgetary Resources, and the
Statements of Custodial Activity. The statements and the related notes are prepared in a comparative form to present
both fiscal years 2012 and 2011 information.

To provide additional clarity to its financial statements, the Department has presented more line items on the
Consolidated Balance Sheets than are required by the guidance in OMB Circular No. A-136. The following summarizes
what the Department's additional balance sheet line items represent in accordance with the financial statement
guidelines of the OMB Circular No. A-136: (i) Advances to the Unemployment Trust Fund and Due from the General
Fund represent other intra-governmental assets; (ii) Gold and Silver Reserves and the Reserve Position in the
International Monetary Fund (IMF) represent other monetary assets; (iii) Loans and Interest Receivables represent other
assets; (iv) Due to the General Fund represent other intra-governmental liabilities; (v) Certificates issued to the Federal
Reserve, Allocation of Special Drawing Right, Gold Certificates Issued to the Federal Reserve, Refunds Payable, and
Liabilities to Government Sponsored Entities, DC Pensions and Judicial Retirement Actuarial Liability represent other
liabilities. For the Statement of Changes in Net Position, the Department has separately presented the Accrued Interest
and Discount on Debt and the Transfers to the General Fund, both line items which represent other non-exchange
financing sources per OMB Circular No. A-136 guidance.

Transactions and balances among the Department’s entities have been eliminated from the Consolidated Balance Sheets,
the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position. The Statements of
Budgetary Resources are presented on a combined basis; therefore, intra-departmental transactions and balances have
not been eliminated from these statements.

While these financial statements have been prepared from the accounting records of the Department in accordance with
the formats prescribed by OMB, these financial statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same accounting records.

                                                             65
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
Intra-governmental assets and liabilities are those due from or to other federal entities. Intra-governmental earned
revenues are collections or accruals of revenue from other federal entities, and intra-governmental costs are payments or
accruals of expenditures to other federal entities.

The financial statements should be read with the realization that the Department is a component of the U.S. Government,
a sovereign entity and, accordingly, its liabilities not covered by budgetary resources cannot be liquidated without the
legislative enactment of an appropriation, and that the payment of all liabilities other than for contracts can be abrogated
by the sovereign entity. Liabilities represent the probable and measurable future outflow or other sacrifice of resources
as a result of past transactions or events. Liabilities represent the probable and measurable future outflow or other
sacrifice of resources as a result of past transactions or events. Liabilities covered by budgetary resources are those
liabilities for which Congress has appropriated funds or funding is otherwise available to pay amounts due. Liabilities
not covered by budgetary or other resources represent amounts owed in excess of available, congressionally appropriated
funds or other amounts, and there is no certainty that the appropriations will be enacted.

Certain fiscal year 2011 activity and balances on the financial statements and related notes to the financial statements
have been reclassified to conform to the presentation in the current year. Specifically, certain fiscal year 2011 activity on
the Consolidated Statements of Net Cost and related notes to the financial statements is reclassified to conform to the
presentation in the current fiscal year, the effects of which are immaterial. Furthermore, in fiscal year 2012, changes to
OMB Circular No. A-136 resulted in changes to the presentation of the Combined Statements of Budgetary Resources. All
fiscal year 2011 activity and balances reported on the Combined Statement of Budgetary Resources are reclassified to
conform to the presentation in the current year.

There are numerous acronyms used throughout the notes herein as well as other sections of this Agency Financial Report
(AFR). Refer to the “Glossary of Acronyms” located in Appendix E of this report for a complete listing of these acronyms
and their related definitions.

C. FUND BALANCE
The Fund Balance is the aggregate amount of the Department’s accounts with the U.S. Government’s central accounts
from which the Department is authorized to make expenditures and pay liabilities. It is an asset because it represents the
Department’s claim to the U.S. Government’s resources. Fund balance is not equivalent to unexpended appropriations
because it also includes non-appropriated revolving and enterprise funds, suspense accounts, and custodial funds such as
deposit funds, special funds, and trust funds.

D. LOANS AND INTEREST RECEIVABLE, INTRA-GOVERNMENTAL
Intra-governmental entity loans and interest receivable from other federal agencies represent loans and interest
receivable held by the Department, through FFB. No credit reform subsidy costs are recorded for loans purchased from
federal agencies or for guaranteed loans made to non-federal borrowers because the outstanding balances are guaranteed
(interest and principal) by those agencies. Intra-governmental non-entity loans and interest receivable from other
federal agencies represent loans issued by the Department, through BPD, to federal agencies on behalf of the U.S.
Government. The Department acts as an intermediary issuing these loans because the agencies receiving these loans will
lend these funds to third parties to carry out various programs of the U.S. Government. Because of the Department’s
intermediary role in issuing these loans, the Department does not record an allowance related to these intra-
governmental loans. Instead, loan loss allowances and subsidy costs are recognized by the ultimate lender, the federal
agency that issued the loans to the public.




                                                             66
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
E. ADVANCES TO THE UNEMPLOYMENT TRUST FUND
Advances are issued to the Department of Labor’s (DOL) Unemployment Trust Fund from the General Fund for states to
pay unemployment benefits. BPD accounts for the advances on behalf of the General Fund. As outlined in the United
States Code (USC) 42 USC §1323, these advances bear an interest rate that is computed as the average interest rate as of
the end of the calendar month preceding the issuance date of the advance for all interest-bearing obligations of the
United States that form the public debt, to the nearest lower one-eighth of one percent. Interest on the advances is due
on September 30th of each year. Advances are repaid by transfers from the Unemployment Trust Fund to the General
Fund when the Secretary, in consultation with the Secretary of Labor, determines that the balance in the Unemployment
Trust Fund is adequate to allow repayment.

F. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Substantially all of the Department’s operating cash is non-entity government-wide cash held in depository institutions
and FRB accounts. Agencies can deposit funds that are submitted to them directly into either a Federal Reserve Treasury
General Account (TGA) or a local TGA depositary. The balances in these TGA accounts are transferred to the Federal
Reserve Bank of New York (FRBNY)’s TGA at the end of each day.

Operating cash of the U.S. Government represents balances from tax collections, customs duties, other revenue, federal
debt receipts, and other various receipts net of cash outflows for budget outlays and other payments held in the FRBs and
in foreign and domestic financial institutions. Outstanding checks are netted against operating cash until they are
cleared by the Federal Reserve System.

The FRBNY maintains the TGA which functions as the government’s checking account for deposits and disbursements of
public funds. Cash in the TGA is restricted for government-wide operations.

The Department’s foreign currency investments having original maturities of three months or less are classified as cash
equivalents. Special Drawing Rights (SDRs) holdings comprise most of the other monetary assets (refer below to “Special
Drawing Rights” accounting policy).

G. INVESTMENTS

Investments in GSEs

The Department holds senior preferred stock and warrants for the purchase of common stock of two GSEs, the Federal
National Mortgage Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie Mac). These
non-federal investment holdings are presented at their fair value as permitted by OMB Circular No. A-136. This circular
includes language that generally requires agencies to value non-federal investments at acquisition cost, but permits the
use of other measurement basis, such as fair value, in certain situations. Changes in the valuation of these investments
are recorded as non-entity exchange transactions on the Consolidated Statements of Net Cost. Dividends are also
recorded as non-entity exchange transactions and accrued when declared; therefore, no accrual is made for future
dividends.

The GSE Senior Preferred Stock Purchase Agreements (SPSPAs) requires the Department to increase its investment in
the GSEs’ senior preferred stock if, at the end of any quarter, the Federal Housing Finance Agency (FHFA), acting as the
conservator, determines that the liabilities of either GSE exceed its respective assets. As funding to the GSEs to pay their
excess liabilities is appropriated directly to the Department, such payments are treated as entity expenses and reflected as
such on the Consolidated Statements of Net Cost and Cumulative Results of Operations. These payments also result in an
increase to the non-entity investment in the GSEs’ senior preferred stock, with a corresponding increase in Due to the
General Fund, as the Department holds the investment on behalf of the General Fund.

                                                             67
                                                                   U.S. Department of the Treasury | Fiscal Year 2012
Investments in International Financial Institutions

The Department, on behalf of the United States, invests in Multilateral Development Banks (MDBs) to support poverty
reduction, private sector development, transitions to market economies, and sustainable economic growth and
development, thereby advancing the United States’ economic, political, and commercial interests abroad. As a
participating member country, the Department, on behalf of the United States, provides a portion of the capital base of
the MDBs, through subscriptions to capital, which allows the MDBs to issue loans at market-based rates to middle
income developing countries. These paid-in capital investments are considered non-marketable equity investments
valued at cost on the Department’s Consolidated Balance Sheets.

In addition, the Department, on behalf of the United States, contributes funding to MDBs to finance grants and extend
credit to poor countries at below market-based interest rates. These U.S. contributions, also referred to as “concessional
window” contributions, are reported as an expense on the Department’s Consolidated Statements of Net Cost.

Non-TARP Investment in American International Group, Inc.

The Department holds American International Group, Inc. (AIG) common stock, a non-federal investment, on behalf of
the General Fund which are considered “available-for-sale” securities and recorded at fair value. Changes in the
valuation of these investments held are non-entity, non-exchange transactions reported on the Statements of Custodial
Activity. The revenue or loss associated with sales of these investments are non-entity, exchange transactions reported
on the Statements of Custodial Activity rather than on the Consolidated Statements of Net Cost as the Department does
not incur costs related to these investments.

Other Investments and Related Interest

ESF holds most of the Department’s foreign currency investments. Other foreign currency denominated assets and
investment securities are considered available-for-sale securities and recorded at fair value. These holdings are normally
invested in interest-bearing securities issued or held through foreign governments or monetary authorities. Interest on
investments, amortization of premiums, and accretion of discounts are recognized on an accrual basis. Premiums and
discounts are amortized or accreted over the life of the related investment security as an adjustment to yield using the
effective interest method.

H. CREDIT PROGRAM RECEIVABLES
The Department accounts for all of its TARP credit program receivables, including investments in common and preferred
stock and warrants of public companies, loans, and loan guarantees or guaranty-like insurance activities, under the
provisions of credit reform accounting (Note 7). In addition to its TARP programs, the Department accounts for all other
of its credit program receivables under the provisions of credit reform accounting, including the loans or equity securities
associated with the Department’s: GSE mortgage-backed securities (MBS) purchase program, state and local Housing
Finance Agency (HFA) Initiative programs, SBLF program, CDFI program, and certain portions of the Department’s
participation in the IMF (Note 11).

To account for the Department’s TARP and other credit program receivables, the Department applies the accounting
provisions of SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18,
Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical
Amendments to Accounting Standards for Direct Loans and Loan Guarantees. SFFAS No. 2, as amended, requires
measurement of the asset or liability at the net present value of the estimated future cash flows. The cash flow estimates
for each credit program transaction reflect the actual structure of the instruments. For each of these instruments, the
Department estimates cash inflows and outflows related to the program over the estimated term of the instrument.


                                                              68
                                                                 U.S. Department of the Treasury | Fiscal Year 2012
Further, each cash-flow estimate reflects the specific terms and conditions of the program, technical assumptions
regarding the underlying assets, risk of default or other losses, and other factors as appropriate. The measurement of
assets within these programs is primarily derived from inputs which generally represent market data and, when such data
is not available, management’s best estimate of how a market participant would assess the risk inherent in the asset.

SFFAS No. 2, as amended, was promulgated as a result of the Federal Credit Reform Act of 1990 (FCRA). The primary
purpose of the FCRA is to more accurately measure the cost of federal credit programs, and to place the cost of such
credit programs on a basis equivalent with other federal spending. The FCRA requires that the ultimate costs of a credit
program be calculated and the budgetary resources obtained before the direct loan obligations are incurred. To
accomplish this, the Department first predicts or estimates the future performance of direct and guaranteed loans when
preparing its annual budget. The data used for these budgetary estimates are reestimated at the fiscal year-end to reflect
changes in actual loan performance and actual interest rates in effect when the loans were issued. The reestimated data
reflect adjustments for market risks, asset performance, and other key variables and economic factors. The reestimated
data are then used to report the cost of the loans disbursed under the direct or guaranteed loan program as a “Program
Cost” in the Department’s Consolidated Statements of Net Cost.

Cash flows associated with the Department’s credit programs generally include disbursements, repayments, repurchases,
fees, recoveries, interest, dividends, proceeds from sales of instruments, borrowings from Treasury, negative subsidy, and
the subsidy cost received from the program accounts. Security-level data and assumptions used as the basis for cash flow
model forecasts and program performance are drawn from widely available market sources, as well as information
published by investees. Key inputs to the cash flow forecasts include:

•   Security characteristics such as unpaid principal balance, coupon rate, weighted-average loan age, issued bond
    balance, credit rating, maturity date, principal and interest payment schedules, priority of payments, and
    performance of underlying collateral
•   Department actions as well as changes in legislation
•   Forecast prepayment rates and default rates
•   Forecast dividend payments
•   Expected escrow conversion and return rates
•   Default and recovery reports published by Moody’s and Standard and Poor’s
•   Other third-party market sources

The recorded subsidy cost associated with each of the Department’s credit programs represents the difference between
the Department’s projected costs of the program and the future cash flows anticipated to be received by the Department.
The subsidy allowance specifically takes into consideration projected repayments and defaults and the projected cost of
borrowings. The allowance is amortized to reflect the difference between projected and actual financing costs.

The Department’s actions, as well as changes in legislation, may impact estimated future cash flows and related subsidy
costs. The cost or cost savings of a modification is recognized in subsidy costs when the terms of a program are modified.
Workouts are actions taken to maximize repayments of existing credit programs, and the expected effects on cash flows
are included in the original estimate and reestimates of the subsidy cost. Subsidy costs are also impacted by reestimates
which may occur as a result of updates to the original program subsidy cost estimates to reflect actual cash flows
experience, as well as changes in forecasts of estimated future cash flows associated with the credit program.

I. TAXES, INTEREST, AND OTHER RECEIVABLES, NET
Federal taxes receivable, net, and the corresponding liability due to the General Fund, are not accrued until related tax
returns are filed or assessments are made by the IRS and agreed to by either the taxpayer or the court. Additionally, the

                                                            69
                                                                    U.S. Department of the Treasury | Fiscal Year 2012
prepayments are netted against liabilities. Accruals are made to reflect penalties and interest on taxes receivable through
the balance sheet date.

Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers. The
existence of a receivable is supported by a taxpayer agreement, such as filing of a tax return without sufficient payment,
or a court ruling in favor of the IRS. The allowance reflects an estimate of the portion of total taxes receivable deemed to
be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the taxpayer owes
to the U.S. Government. Examples include assessments resulting from an IRS audit or examination in which the
taxpayer does not agree with the results. Compliance assessment write-offs consist of unpaid assessments for which the
IRS does not expect further collections due to factors such as taxpayers’ bankruptcy, insolvency, or death. Compliance
assessment and related write-offs are not reported on the balance sheet. Statutory provisions require the accounts to be
maintained until the statute for collection expires.

J. PROPERTY, PLANT, AND EQUIPMENT, NET

General

Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services. It also includes
assets acquired through capital leases, which are initially recorded at the amount recognized as a liability for the capital
lease at its inception. PP&E is stated at full cost, including costs related to acquisition, delivery, and installation, less
accumulated depreciation. Major alterations and renovations, including leasehold and land improvements, are
capitalized, while maintenance and repair costs are charged to expense as incurred. Costs for construction projects are
recorded as construction-in-progress until completed, and are valued at actual (direct) cost plus applied overhead and
other indirect costs.

Internal-use software encompasses software design, development, and testing of projects adding significant new
functionality and long-term benefits. Costs for developing internal-use software are accumulated in work in development
until a project is placed into service, and testing and final acceptance are successfully completed. Once completed, the
costs are transferred to depreciable property.

The Department leases land and buildings from the General Services Administration (GSA) to conduct most of its
operations. Such leases do not meet capital lease requirements for financial reporting purposes. GSA charges a standard
level user fee which approximates commercial rental rates for similar properties.

The Department’s bureaus are diverse both in size and in operating environment. Accordingly, the Department’s
capitalization policy provides minimum capitalization thresholds which range from $25,000 to $50,000 for all property
categories except for internal-use software thresholds which range from $50,000 to $250,000. The Department also
uses a capitalization threshold range for bulk purchases: $250,000 to $500,000 for non-manufacturing bureaus and
$25,000 to $50,000 for manufacturing bureaus. Bureaus determine the individual items that comprise bulk purchases
based on Departmental guidance. In addition, the Department’s bureaus may expense bulk purchases if they conclude
that total period costs would not be materially distorted and the cost of capitalization is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of leasehold
improvements and capital leases. Leasehold improvements are depreciated over the term of the lease or the useful life of
the improvement, whichever is shorter. Capital leases are depreciated over the estimated life of the asset or term of the
lease, whichever is shorter. Service life ranges (2 to 50 years) are wide due to the Department’s diversity of PP&E. Land
and land improvements, construction in progress, and internal-use software in development are not depreciated.

                                                               70
                                                                    U.S. Department of the Treasury | Fiscal Year 2012
Heritage Assets

Multi-use heritage assets are assets of historical significance for which the predominant use is general government
operations. All acquisition, reconstruction, and betterment costs for the Treasury buildings are capitalized as general
PP&E and depreciated over their service life.

K. FEDERAL DEBT AND INTEREST PAYABLE
Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses
when incurred, instead of when paid. Certain Treasury securities are issued at a discount or premium. These discounts
and premiums are amortized over the term of the security using an interest method for all long-term securities and the
straight-line method for short-term securities. The Department also issues Treasury Inflation-Protected Securities
(TIPS). The principal for TIPS is adjusted daily over the life of the security based on the Consumer Price Index for all
Urban Consumers, a widely used measurement of inflation.

L. COMMITMENTS AND CONTINGENCIES
The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose loans
are guaranteed by federal agencies, to extend credit for their own use (refer to the accounting policy above entitled
“Loans and Interest Receivable, Intra-governmental”). The Department establishes loan commitments when the
Department and other parties fully execute promissory notes in which the Department becomes obligated to issue such
loans immediately or at some future date. The Department reduces loan commitments when the Department issues the
loans or when the commitments expire. Most obligations of the Department give a borrower the contractual right to a
loan or loans immediately or at some point in the future within an agreed upon timeframe.

In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, the Department recognizes
material contingent liabilities when the following criteria are met:
 •    A past event or exchange transaction has occurred
 •    A future cash outflow is probable
 •    A future cash outflow is measurable

The estimated liability recorded by the Department is either a specific amount or a range of amounts. If some amount
within the range is a better estimate than any other amount within the range, that amount is recognized. If no amount
within the range is a better estimate than any other amount, the minimum amount in the range is recognized, and the
range and a description of the nature of the contingency are disclosed. The Department records a contingent liability
related to the GSE SPSPA program (Note 8), and also follows this policy for loss contingencies that may arise from
claims, assessments, litigations, fines, penalties, and other sources.

If one or more, but not all, of the above criteria for recognition are met, and there is a reasonable possibility of loss, the
Department will disclose, if material, the nature of the contingent liability, along with a range of possible loss, if
estimable, and a description of the nature of the contingency.

M. SPECIAL DRAWING RIGHTS
The SDR is an international reserve asset created by the IMF to supplement its member countries’ official reserves.
Under its Articles of Agreement, the IMF may allocate SDRs to member countries in proportion to their IMF quotas.
Pursuant to the Special Drawing Rights Act of 1968, as amended, the ESF holds all SDRs allocated to or otherwise
acquired by the United States.




                                                               71
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
Allocations and Holdings

The Department records the SDR holdings as part of “Cash, Foreign Currency, and Other Monetary Assets,” and the SDR
allocations as the “Allocation of Special Drawing Rights” liability when the IMF allocates SDRs to the Department. The
liabilities represent the amount that is payable in the event of liquidation of, or withdrawal by the United States from, the
SDR department of the IMF or cancellation of the SDRs.

SDR holdings increase primarily as a result of IMF SDR allocations. SDR transactions are recorded as incurred. They
include acquisitions and sales of SDRs, interest received on SDR holdings, interest charges on SDRs allocations, and
valuation adjustments. The U.S. Government receives remuneration in SDRs from the IMF based on claims on the IMF
as represented by the U.S. Reserve Position. The remuneration is credited to the ESF which transfers to either the TGA
account or a specified financing account an equivalent amount of dollars plus nominal interest. The allocations and
holdings are revalued monthly based on the SDR valuation rate as calculated by the IMF.

Certificates Issued to the Federal Reserve

The Special Drawing Rights Act of 1968 authorizes the Secretary to issue certificates, not to exceed the value of SDR
holdings, to the FRB in return for dollar amounts equal to the face value of certificates issued. The certificates may be
issued to finance the acquisition of SDRs from other countries or to provide U.S. dollar resources to finance other ESF
operations. Certificates issued are to be redeemed by the Department at such times and in such amounts as the Secretary
may determine, and do not bear interest. Certificates issued to the FRB are reported at their face value which
approximates their carrying value since, under the terms of the agreement, there is no set repayment date and no interest
accrued while certificates remain outstanding.

N. REFUNDS PAYABLE
Refunds payable arise in the normal course of tax administration when it is determined that taxpayers have paid more
than the actual taxes that owe. Amounts that the Department has concluded to be valid refunds owed to taxpayers are
recorded as a liability entitled “Refunds Payable” on the Consolidated Balance Sheets, with a corresponding receivable
from the General Fund. This receivable is included on the Consolidated Balance Sheets within the line entitled “Due from
the General Fund.”

O. FEDERAL EMPLOYEE BENEFITS PAYABLE – FECA ACTUARIAL LIABILITY
The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, and employees who have incurred a work-related injury or occupational disease.
The FECA program is administered by the DOL which pays valid claims and subsequently seeks reimbursements from
the Department for these paid claims. Generally, the Department reimburses the DOL within two to three years once
funds are appropriated. The FECA liability consists of two components. The first component is based on actual claims
paid by the DOL but not yet reimbursed by the Department. The second component is the estimated liability for future
workers compensation as a result of past events. Both components are reported in “Other Liabilities” on the
Consolidated Balance Sheets. These future workers’ compensation estimates are generated by applying actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits
include the expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.

P. ANNUAL, SICK, AND OTHER LEAVE
Annual and compensatory leave earned by the Department’s employees, but not yet used, is reported as an accrued
liability. The accrued balance is adjusted annually to reflect current pay rates. Any portion of the accrued leave for which
funding is not available is recorded as an unfunded liability as reported in “Other Liabilities” on the Consolidated Balance


                                                             72
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
Sheets. Sick and other leave are expensed as taken, and the Department does not record a liability for such amounts
because employees do not vest in sick and other leave benefits.

Q. PENSION COSTS, OTHER RETIREMENT BENEFITS, AND OTHER POST-EMPLOYMENT BENEFITS
The Department recognizes the full costs of its employees’ pension benefits, including recognizing imputed costs for the
difference between the estimated service cost and the contributions made by the Department. However, the assets and
liabilities associated with these benefits are recognized by the Office of Personnel Management (OPM) rather than the
Department.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service Retirement System
(CSRS), to which the Department contributes seven percent of pay. On January 1, 1987, the Federal Employees’
Retirement System (FERS) went into effect pursuant to Public Law (P.L.) 99-335. Employees hired after December 31,
1983 are automatically covered by FERS and Social Security. A primary feature of FERS is that it offers a savings plan to
which the Department automatically contributes one percent of base pay and matches any employee contributions up to
an additional four percent of base pay. For most employees hired after December 31, 1983, the Department also
contributes the employer’s matching share for Social Security. For the FERS basic benefit, the Department contributes
11.2 percent for regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Department, reports the assets and liability for future payments
to retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and Federal
Employees Group Life Insurance (FEGLI) Program. The Department reports the full cost of providing other retirement
benefits (ORB). The Department also recognizes an expense and a liability for other post-employment benefits (OPEB),
which includes all types of benefits, provided to former or inactive (but not retired) employees, their beneficiaries, and
covered dependents. Additionally, one of the Department’s bureaus, OCC, separately sponsors a defined life insurance
benefit plan for current and retired employees, and is the administrator for a private defined benefit retirement plan, the
Pentegra Defined Benefit Plan (PDBP), that provides certain health and life insurance benefits for certain of its retired
employees who meet eligibility requirements.

R. REVENUE AND FINANCING SOURCES
The Department’s activities are financed either through exchange revenue it receives from others or through non-
exchange revenue and financing sources (such as appropriations provided by the Congress and penalties, fines, and
certain user fees collected). User fees primarily include collections from the public for the IRS costs to process
installment agreements and accompanying photocopy and reproduction charges. Exchange revenues are recognized
when earned; i.e., goods have been delivered or services have been rendered. Revenue from reimbursable agreements is
recognized when the services are provided. Non-exchange revenues are recognized when received by the respective
collecting bureau. Appropriations used are recognized as financing sources when related expenses are incurred or assets
are purchased.

The Department also incurs certain costs that are paid in total or in part by other federal entities, such as pension costs,
the FEHBP, and any un-reimbursed payments made from the Treasury Judgment Fund on behalf of the Department.
These subsidized costs are recognized on the Consolidated Statement of Net Cost, and the imputed financing for these
costs is recognized on the Consolidated Statement of Changes in Net Position. As a result, there is no effect on net
position. Other non-exchange financing sources, such as donations and transfers of assets without reimbursements, are
also recognized for the period in which they occurred on the Consolidated Statements of Changes in Net Position.

The Department recognizes revenue it receives from disposition of forfeited property as non-exchange revenue on the
Consolidated Statements of Changes in Net Position. The costs related to the Forfeiture Fund program are reported on

                                                             73
                                                                    U.S. Department of the Treasury | Fiscal Year 2012
the Consolidated Statements of Net Cost. The Treasury Forfeiture Fund is the special fund account for depositing non-
tax forfeiture proceeds received pursuant to laws enforced or administered by law enforcement bureaus that participate
in the Treasury Forfeiture Fund. Forfeited property balances are reported in “Other Assets” on the Consolidated Balance
Sheets.

S. CUSTODIAL REVENUES AND COLLECTIONS
Non-entity revenue reported on the Department’s Statements of Custodial Activity includes cash collected by the
Department, primarily from taxes. It does not include revenue collected by other federal agencies, such as user fees and
other receipts, which are remitted for general operating purposes of the U.S. Government or are earmarked for certain
trust funds. The Statements of Custodial Activity are presented on the “modified accrual basis.” The Department
recognizes revenues as cash is collected, and records a “non-cash accrual adjustment” representing the net increase or
decrease during the reporting period in net revenue-related assets and liabilities, mainly taxes receivable. The
Department also records as revenues non-cash market valuation changes related to the U.S. Government’s holdings in
American International Group, Inc. (Note 26).

T. PERMANENT AND INDEFINITE APPROPRIATIONS
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax credits.
These appropriations are not subject to budgetary ceilings established by Congress. Therefore, refunds payable at year
end are not subject to funding restrictions. Refund payment funding is recognized as appropriations are used.
Permanent indefinite authority for refund activity is not stated as a specific amount and is available for an indefinite
period of time. Although funded through appropriations, refund activity, in most instances, is reported as a custodial
activity of the Department, since refunds are, in substance, a custodial revenue-related activity resulting from taxpayer
overpayments of their tax liabilities.

The Department also has two permanent and indefinite appropriations related to debt activity. One is used to pay
interest on the public debt securities; the other is used to redeem securities that are matured, called, or eligible for early
redemption. These accounts are not annual appropriations and do not have refunds. Debt activity appropriations are
related to the Department’s liability and are reported on the Department’s Consolidated Balance Sheet. Permanent
indefinite authority for debt activity is available for an indefinite period of time.

The Department also has permanent and indefinite appropriations to fund increases in the projected subsidy costs of
credit programs as determined by the reestimation process required by the FCRA. The Department’s renewable energy
project is also covered by permanent indefinite appropriations.

Additionally, the Department has other permanent and indefinite appropriations to make certain payments on behalf of
the U.S. Government. These appropriations are provided to make payments to the FRB for fiscal services provided, and
to the financial institutions for services provided as financial agents of the U.S. Government. They also include
appropriations provided to make other disbursements on behalf of the U.S. Government, including payments made to
various parties as a result of certain claims and judgments rendered against the United States.

U. INCOME TAXES
As an agency of the U.S. Government, the Department is exempt from all income taxes imposed by any governing body,
whether it is a federal, state, commonwealth, local, or foreign government.

V. USE OF ESTIMATES
The Department has made certain estimates and assumptions relating to the reporting of assets, liabilities, revenues,
expenses, and the disclosure of contingent liabilities to prepare its financial statements. Actual results may differ from

                                                               74
                                                                   U.S. Department of the Treasury | Fiscal Year 2012
these estimates. It is possible that the results of operations, cash flows or the financial position of the Department could
be materially affected in future periods by adverse changes in the outlook for the key assumptions underlying
management’s estimates. Significant transactions subject to estimates include loan and credit program receivables,
investments in GSEs and other non-federal securities and related impairment, tax receivables, loan guarantees,
depreciation, liability for liquidity commitment to GSEs, imputed costs, actuarial liabilities, cost and earned revenue
allocations, contingent legal liabilities, and credit reform subsidy costs.

The Department accounts for all of its TARP and non-TARP credit program receivables in accordance with credit reform
accounting (refer to the accounting policy above entitled “Credit Program Receivables,” and Notes 7 and 11). These
receivables are derived using credit reform modeling which is subject to the use of estimates. The Department recognizes
the sensitivity of credit reform modeling to slight changes in certain model assumptions, and uses regular review of
model factors, statistical modeling, and annual reestimates to reflect the most accurate cost of the credit programs to the
U.S. Government. The purpose of reestimates is to update original program subsidy cost estimates to reflect actual cash
flow experience as well as changes in forecasts of future cash flows. Forecasts of future cash flows are updated based on
actual program performance to date, additional information about the portfolio, additional publicly available relevant
historical market data on securities performance, revised expectations for future economic conditions, and enhancements
to cash flow projection methods.

The forecasted cash flows used to determine these credit program amounts are sensitive to slight changes in model
assumptions, such as general economic conditions, specific stock price volatility of the entities in which the Department
has an equity interest, estimates of expected default, and prepayment rates. Forecasts of financial results have inherent
uncertainty. The TARP Credit Program Receivables, Net line item on the Consolidated Balance Sheets is reflective of
relatively illiquid, troubled assets whose values are particularly sensitive to future economic conditions and other
assumptions. Additional discussion related to sensitivity analysis can be found in the Management’s Discussion and
Analysis section of this AFR.

The liabilities to the GSEs related to the SPSPA is a contingent liquidity commitment, predicated on the future
occurrence of an excess of liabilities and minimum capital reserve amounts, as defined, over the assets of either GSE at
the end of any reporting quarter, and are probable liabilities of the Department. The Department performs annual
valuations, as of September 30, on the preferred stock and warrants in an attempt to provide a “sufficiently reliable”
estimate of the outstanding commitments in order for the Department to record the remaining liability in accordance
with SFFAS No. 5.

The valuations incorporate various forecasts, projections and cash flow analyses to develop an estimate of probable
liability. Any changes in valuation, including impairment, are recorded and disclosed in accordance with SFFAS No. 7,
Accounting for Revenue and Other Financing Sources. Since the valuation is an annual process, the change in valuation
of the preferred stock and warrants are deemed usual and recurring. The GSEs contingent liability is assessed annually
and recorded at the gross estimated amount, without considering the increase in preferred stock liquidity preference,
future dividend payments, or future commitment fees, due to the uncertainties involved. Note 8 includes a detailed
discussion of the results of the valuation and the liability recorded.

Estimation of such complex and long-duration contingencies is subject to uncertainty, and it is possible that new
developments will adversely impact ultimate amounts required to be funded by the Department under agreements
between the Department and each GSE (Note 8). Specifically, the occurrence of future shareholder deficits, which
ultimately determines the Department’s liabilities to the GSEs, is most sensitive to future changes in the housing price
index.



                                                              75
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
W. OTHER-THAN-TEMPORARY IMPAIRMENTS
A decline in the market value (either due to credit, price or currency) of any investment below cost that is deemed to be
other-than-temporary is accounted for as an impairment and the carrying value is reduced to fair value for financial
reporting purposes. To determine whether an impairment is other-than-temporary, the Department considers whether it
has the ability and intent to hold the investment until a market price recovery, and considers whether evidence indicating
the cost of the investment is recoverable outweighs evidence to the contrary.

X. CREDIT, MARKET AND FOREIGN CURRENCY RISK
Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or counterparty to
perform in accordance with underlying contractual obligations. The Department takes on possible credit risk when it
makes direct loans or credits to foreign entities or becomes exposed to institutions which engage in financial transactions
with foreign countries (Note 10). The following programs of the Department entail credit risk: monetary assets held;
committed but undisbursed direct loans; liquidity commitment to the GSEs; GSE obligations obtained under the HFA
Initiative (the NIBP and TCLP); investments, loans, and other credit programs of the TARP; programs including the
CDFI Fund, SBLF, and certain portions of the Department’s participation in the IMF; and the Terrorism Risk Insurance
Program.

Except for the Terrorism Risk Insurance Program, the Department’s activities focus on the underlying problems in the
credit markets, and the ongoing instability in those markets exposes the Department to potential costs and losses. The
extent of the risk assumed by the Department is described in more detail in the notes to the financial statements and,
where applicable, is factored into credit reform models and reflected in fair value measurements (Notes 7, 8, and 11).
Given the history of the Department with respect to such exposure and the financial policies in place in the U.S.
Government and other institutions in which the United States participates, the Department’s expectation of credit losses
is nominal.

For Emergency Economic Stabilization Act (EESA) programs, the statute requires that budgetary costs of the troubled
assets and guarantees of troubled assets be calculated by adjusting the discount rate for market risks. Within the TARP
programs, the Department has invested in many assets that would traditionally be held by private investors and their
valuation would inherently include market risk. Accordingly, for all TARP direct loans, equity investments, and other
credit programs, the Department calculates a Market Risk Adjusted Discount Rate (MRADR). Therefore, the
Department’s cost estimates for the TARP programs are adjusted for unexpected loss and the estimated risk of expected
cash flows. Under SFFAS No. 2, including market risk in the cash flow estimates is consistent with the type of assets
being valued. The inclusion of the MRADR is the mechanism for deriving a fair value of the assets. As directed by
Congress, a MRADR is also used in the credit reform model for certain portions of the Department’s participation in the
IMF.

The Department faces certain risks and uncertainties as a result of holding securities denominated in foreign currency.
The price of holdings of such securities may widely fluctuate as a result of volatility in foreign currency markets and
changes in real and perceived credit of the Department’s counterparties.

Y. EARMARKED FUNDS
The Department accounts for revenues and other financing sources for earmarked funds separately from other funds.
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources, which
remain available over time. These specifically identified revenues and other financing sources are required by statute to
be used for designated activities or purposes. SFFAS No. 27, Identifying and Reporting Earmarked Funds, defines the
following three criteria for determining an earmarked fund: (i) a statute committing the U.S. Government to use

                                                             76
                                                                   U.S. Department of the Treasury | Fiscal Year 2012
specifically identified revenues and other financing sources not used in the current period for future use to finance the
designated activities, benefits, or purposes; (ii) explicit authority for the earmarked fund to retain revenues and other
financing sources not used in the current period for future use to finance the designated activities, benefits, or purposes;
and (iii) a requirement to account for and report on the receipt, use, and retention of the revenues and other financing
sources that distinguished the earmarked fund from the U.S. Government’s general revenues.

Z. ALLOCATION TRANSFERS
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity and/or
a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget
authority and outlay funds to another department. A separate fund account (allocation account) is created in the U.S.
Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances
are credited to this account, and subsequent obligations and outlays incurred by the child entity are charged to this
allocation account as they execute the delegated activity on behalf of the parent. Parent federal agencies report both the
proprietary and budgetary activity and the child agency does not report any financial activity related to budget authority
allocated from the parent federal agency to the child federal agency.

The Department allocates funds, as the parent, to the Department of Energy. Also, the Department receives allocation
transfers, as the child, from the Agency for International Development, General Services Administration, and
Department of Transportation.

OMB allows certain exceptions to allocation reporting for certain funds. Accordingly, the Department has reported
certain funds, including the Agency for International Development and Executive Office of the President funds, for which
the Department is the child in the allocation transfer but, in compliance with OMB guidance (Circular No. A-136, II.4.2,
question 5, for three exceptions), will report all activities relative to these allocation transfers in the Department’s
financial statements.

AA. FIDUCIARY ACTIVITIES

Fiduciary activities are the collection or receipt, and the management, protection, accounting, investment, and
disposition by the U.S. Government of cash or other assets in which non-Federal individuals or entities have an
ownership interest that the U.S. Government must uphold. Fiduciary cash and other assets are not assets of the U.S.
Government. These activities are not reported in the Department’s consolidated financial statements, but instead are
reported in Note 27.

AB. RELATED PARTIES AND OTHER ENTITIES
The primary “related parties” with whom the Department conducts business are other federal agencies, mainly through
the normal lending activities of the BPD and the FFB. These activities are disclosed in the consolidated financial
statements. Additionally, the Secretary serves on the FHFA Oversight Board, and consults with the Director of FHFA on
matters involving Fannie Mae and Freddie Mac. This provides the Department a voice in the FHFA’s actions as the
conservator for Fannie Mae and Freddie Mac. The Department has no transactions with FHFA, but rather transacts
directly with the GSEs. The Department also utilizes the services of the FRBs to execute a variety of transactions on
behalf of the BPD and the ESF. Because of the magnitude and variety of services provided, the following provides an
overview of the FRBs’ purpose, governance, and the various services provided on behalf of the Department.




                                                              77
                                                                 U.S. Department of the Treasury | Fiscal Year 2012
Federal Reserve System

The Federal Reserve System (FR System) was created by Congress under the Federal Reserve Act of 1913. The FR System
consists of the Federal Reserve Board of Governors (Board), the Federal Open Market Committee (FOMC), and the FRBs.
Collectively, the FR System serves as the nation’s central bank and is responsible for formulating and conducting
monetary policy, issuing and distributing currency (Federal Reserve Notes), supervising and regulating financial
institutions, providing nationwide payments systems (including large-dollar transfers of funds, automated clearinghouse
(ACH) operations, and check collection), providing certain financial services to federal agencies and fiscal principals, and
serving as the U.S. Government’s bank. Monetary policy includes actions undertaken by the FR System that influence the
availability and cost of money and credit as a means of helping to promote national economic goals. The FR System also
conducts operations in foreign markets in order to counter disorderly conditions in exchange markets or to meet other
needs specified by the FOMC to carry out its central bank responsibilities. The FR System is not included in the federal
budget. It is considered an independent central bank, and its decisions are not ratified by the executive branch of the
U.S. Government.

The Department interacts with the FRBs in a variety of ways, including the following:
•   The FRBs serve as the Department’s fiscal agent and depositary, executing banking and other financial transactions
    on the Department’s behalf. The Department reimburses the FRBs for these services, the cost of which is included on
    the Consolidated Statements of Net Costs
•   The FRBs hold Treasury and other federal securities in the FRBs’ System Open Market Account (SOMA) for the
    purpose of conducting monetary policy (Note 16)
•   The FRBs hold gold certificates issued by the Department in which the certificates are collateralized by gold (Note 6)
•   The FRBs hold SDR certificates issued by the Department which are collateralized by SDRs (Notes 5 and 12)
•   The FRBs are required by Board policy to transfer their excess earnings to the Department on behalf of the U.S.
    Government (Notes 13 and 23)

The Department also consults with the FR System on matters affecting the economy and certain financial stability
activities (Notes 7, 11 and 26). The above financial activities involving the Department are accounted for and disclosed in
the Department’s consolidated financial statements. In accordance with SFFAC No. 2, Entity and Display, the FR
Systems’ assets, liabilities, and operations are not consolidated into the Department’s financial statements.

Federal Reserve System Structure

The Board is an independent organization governed by seven members who are appointed by the President and
confirmed by the Senate. The full term of a Board member is 14 years, and the appointments are staggered so that one
term expires on January 31 of each even-numbered year. The Board has a number of supervisory and regulatory
responsibilities for institutions including, among others, state-chartered banks that are members of the FR System, bank
holding companies, and savings and loan holding companies. In addition, the Board has general supervisory
responsibilities for the 12 FRBs, and issues currency (Federal Reserve Notes) to the FRBs for distribution.

The FOMC is comprised of the seven Board members and five of the 12 FRB presidents, and is charged with formulating
and conducting monetary policy primarily through open market operations (the purchase and sale of certain securities in
the open market), the principal tool of national monetary policy. These operations affect the amount of reserve balances
available to depository institutions, thereby influencing overall monetary and credit conditions. The 12 FRBs are
chartered under the Federal Reserve Act, which requires each member bank to own the capital stock of its FRB.
Supervision and control of each FRB is exercised by a board of directors, of which three are appointed by the Board of
Governors of the FR System, and six are elected by their member banks.


                                                            78
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
The FRBs participate in formulating and conducting monetary policy, distribute currency and coin, and serve as fiscal
agents for the Department, other federal agencies and fiscal principals. Additionally, the FRBs provide short-term loans
to depository institutions and loans to participants in programs or facilities with broad-based eligibility in unusual and
crucial circumstances when approved by the Board.

Federal Reserve System Assets and Liabilities

The FRBs hold Treasury and other securities in the SOMA for the purpose of conducting monetary policy. Treasury
securities held by the FRBs totaled $1.6 trillion and $1.7 trillion at September 30, 2012 and 2011, respectively (Note 16).
These assets are generally subject to the same market (principally interest-rate) and credit risks as other financial
instruments. In the open market, the FR System purchases and sells Treasury securities as a mechanism for controlling
the money supply.

The FRBs have deposit liabilities with Treasury and depository institutions. The FRBs issue Federal Reserve Notes, the
circulating currency of the United States, which are collateralized by the Treasury securities and other assets held by the
FRBs.

Financial and other information concerning the FR System, including financial statements for the Board and the FRBs,
may be obtained at http://www.federalreserve.gov.

FRB Residual Earnings Transferred to the Department

FRBs generate income, from interest earned on securities, reimbursable services provided to federal agencies, and the
provision of priced services to depository institutions as specified by the Monetary Control Act of 1980. Although the
FRBs generate earnings from carrying out open market operations (via the earnings on securities held in the SOMA
account), their execution of these operations is for the purpose of accomplishing monetary policy rather than generating
earnings. Each FRB is required by Board policy to transfer to the Department its residual (or excess) earnings, after
providing for the cost of operations, payment of dividends, and reservation of an amount necessary to equate surplus
with paid-in capital. These residual earnings may vary due to, among other things, changes in the SOMA balance levels
that may occur in conducting monetary policy. In the event of losses, or a substantial increase in capital, an FRB will
suspend its payments to the U.S. Treasury until such losses or increases in capital are recovered through subsequent
earnings. The FRB residual earnings of $82.0 billion and $82.5 billion for fiscal years ended September 30, 2012 and
2011, respectively, are reported as custodial revenues on the Department’s Statements of Custodial Activity. They
constituted three percent of the Department’s total custodial revenues collected in fiscal years 2012 and 2011. “Taxes,
Interest and Other Receivables, Net” includes a receivable for FRB’s residual earnings which represents the earnings due
to the U.S. Treasury as of September 30, but not collected by the U.S. Treasury until after the end of the month (Note 13).


2. FUND BALANCE
As of September 30, 2012 and 2011, fund balance consisted of the following (in millions):
                                                                                                   2012                 2011
Appropriated Funds                                                                       $     315,690      $     344,913
Revolving Funds                                                                                 26,698             35,464
Special Funds                                                                                      976                721
Clearing Funds                                                                                     681                392
Deposit Funds                                                                                      163                170
Other Funds (principally Receipt, Trust, and Suspense Funds)                                       138                124
Total Fund Balance                                                                       $     344,346      $     381,784

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of the Department.

                                                             79
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
Revolving funds are used for continuing cycles of business-like activity in which the fund charges for the sale of products
or services and uses the proceeds to finance its spending, usually without requirement for annual appropriations. A
public enterprise revolving fund is an account that is authorized by law to be credited with offsetting collections from the
public, and those monies are used to finance operations. Also included in revolving funds are the working capital fund
and financing funds. The working capital fund is a fee-for-service fund established to support operations of components
within the Department. The financing funds relate to credit reform activities.

Special funds include funds designated for specific purposes, including the disbursement of non-entity monies received
in connection with the Presidential Election Campaign. Clearing funds represent reconciling differences with the
Department’s balances as reported in the U.S. Government’s central accounts. These fund accounts temporarily hold
unidentifiable general, special, or trust fund collections that belong to the U.S. Government until they are classified to the
proper receipt or expenditure account by the federal entity. Deposit funds represent seized cash, and other amounts
received as an advance that are not accompanied by an order.


STATUS OF FUND BALANCE
As of September 30, 2012 and 2011, the status of the fund balance consisted of the following (in millions):
                                                                                       2012                          2011
Unobligated Balance – Available                                             $      255,227               $       270,786
Unobligated Balance - Not Available                                                  84,371                        98,168
Unpaid Obligations                                                                 252,169                       270,983
Subtotal                                                                            591,767                      639,937
Adjustment for Borrowing Authority                                               (109,930)                     (123,844)
Adjustment for ESF                                                               (103,763)                     (105,026)
Adjustment for IMF                                                                (32,093)                      (27,065)
Adjustment for Intra-Treasury Investments                                            (7,251)                      (7,024)
Adjustment for Non-Budgetary Funds                                                       973                          674
Adjustment for Authority Unavailable for Obligations                                  3,706                         3,721
Other Adjustments                                                                        937                          411
Total Status of Fund Balance                                                $      344,346               $       381,784

Portions of the Unobligated Balance Not Available, as shown on the Combined Statement of Budgetary Resources,
include amounts appropriated in prior fiscal years that are not available to fund new obligations. However, such amounts
may be used for upward and downward adjustments for existing obligations in future years. The Unpaid Obligations
represent amounts designated for payment of goods and services ordered but not received or goods and services received
but for which payment has not yet been made.

Since the following line items do not post to budgetary status accounts, the following adjustments are required to
reconcile the budgetary status to the non-budgetary Fund Balance as reported on the Consolidated Balance Sheets:

•   Adjustments for Borrowing Authority – Borrowing authority is in budgetary status but not in the Fund Balance
•   Adjustments for ESF – ESF investments and related balances that meet the criteria for reporting as part of budgetary
    resources are reported on the Statement of Budgetary Resources; however, they are not a component of the Fund
    Balance as they represent invested funds
•   Adjustments for IMF – IMF related balances that meet the criteria for reporting as part of budgetary resources;
    however, they are not a component of the Fund Balance as they represent other monetary assets
•   Adjustments for Intra-Treasury Investments – Budgetary resources include investments, however, the money has
    been moved from the Fund Balance asset account to Investments




                                                             80
                                                                            U.S. Department of the Treasury | Fiscal Year 2012
  •    Adjustments for Non-Budgetary Funds – Include receipt, clearing, and deposit funds that represent amounts on
       deposit with Treasury that have no budgetary status
  •    Adjustment for Authority Unavailable for Obligations – Resources unavailable for obligations reduced the budgetary
       resources, however, they did not impact the Fund Balance

  As of September 30, 2012 and 2011, the Department did not have any budgetary authority in the Fund Balance that was
  specifically withheld from apportionment by the OMB. The balances in non-entity funds, such as certain deposit funds
  (e.g., seized cash), are being held by the Department for the public or for another federal entity, such as the General
  Fund. Such funds have an offsetting liability equal to the Fund Balance. See Note 12 regarding restrictions related to the
  line of credit held on the U.S. quota in the IMF.


  3. LOANS AND INTEREST RECEIVABLE – INTRA-GOVERNMENTAL
  ENTITY INTRA-GOVERNMENTAL
  The Department, through FFB, issues loans to federal agencies for the agencies’ own use or for the agencies to loan to
  private sector borrowers whose loans are guaranteed by the federal agencies. When a federal agency has to honor its
  guarantee because a private sector borrower defaults, the federal agency that guaranteed the loan must obtain an
  appropriation or use other resources to repay the FFB. All principal and interest on loans to federal agencies and private
  sector borrowers are, or have a commitment to be, backed by the full faith and credit of the U.S. Government. The
  Department has not recognized any credit-related losses on its loans, nor has the Department recorded an allowance for
  uncollectible intra-governmental loans.

  As of September 30, 2012 and 2011, entity intra-governmental loans (issued by the FFB) and interest receivable consisted
  of the following (in millions):
                                                     Loans         Interest              2012             Loans      Interest             2011
                                                 Receivable      Receivable              Total        Receivable   Receivable             Total
  Department of Agriculture                  $       37,750     $        343     $    38,093      $      34,178    $        48    $     34,226
  United States Postal Service(1)                   15,000                  48         15,048           13,000              47          13,047
  Department of Energy                                12,171                35         12,206            6,929              15           6,944
  General Services Administration                     1,819                 32           1,851           1,898              33           1,931
  Other Agencies                                      1,123                  7           1,130           1,083               8           1,091
  Total Entity Intra-governmental            $      67,863      $        465     $    68,328      $     57,088     $       151    $     57,239
(1)The United States Postal Service (USPS) experienced an operating deficit in fiscal year 2012. The Department, Congress, and other stakeholders
  are aware of the current and long-term financial issues of the USPS. Congress is considering legislative solutions for returning the USPS to
  financial stability.




                                                                       81
                                                                      U.S. Department of the Treasury | Fiscal Year 2012
    NON-ENTITY INTRA-GOVERNMENTAL
    The Department, through BPD, accounts for and reports on the principal borrowings from and repayments to the General
    Fund for 93 funds managed by other federal agencies, as well as the related interest due to the General Fund. These
    agencies are statutorily authorized to borrow from the General Fund, through BPD, to make loans for a broad range of
    purposes, such as education, housing, farming, and small business support.

    As of September 30, 2012 and 2011, non-entity intra-governmental loans (issued by BPD) and interest receivable due to
    the General Fund consisted of the following (in millions):

                                               Loans      Interest             2012           Loans      Interest         2011
                                           Receivable   Receivable            Total       Receivable   Receivable         Total
Department of Education                   $ 714,368     $        -      $   714,368   $    546,321     $        -   $   546,321
Department of Agriculture                      55,787            -           55,787         55,356              -        55,356
Department of Homeland Security               18,073             -           18,073         17,754              -        17,754
Department of Housing and Urban
Development                                    11,567             -          11,567          6,090             -         6,090
Export-Import Bank of the U.S.                 11,301             -          11,301           8,279            -          8,279
Small Business Administration                   7,920             -           7,920          11,190            -         11,190
Department of Labor                            6,065              -          6,065            6,163            -          6,163
Department of Transportation                    5,193             -           5,193           4,342            1          4,343
Department of Energy                            3,616            20          3,636            3,104           20          3,124
Railroad Retirement Board                      3,402             44          3,446           3,484            52          3,536
National Credit Union Administration           3,200              2          3,202           3,500             2          3,502
Overseas Private Investment Corporation         2,241             -           2,241           1,828            -          1,828
Department of Veterans Affairs                    838             -             838           1,675            -          1,675
Other Agencies                                  2,339             -           2,339           2,250            -          2,250
Total Non-Entity Intra-
  governmental                            $   845,910   $        66     $   845,976   $    671,336     $      75    $   671,411

Total Intra-governmental Loans and
  Interest Receivable (Entity and
  Non-Entity)                             $   913,773   $        531    $   914,304   $    728,424     $    226     $ 728,650


    4. DUE FROM THE GENERAL FUND AND DUE TO THE GENERAL
       FUND
    The General Fund consists of assets and liabilities used to finance the daily and long-term operations of the U.S
    Government, as a whole. It also includes accounts used in the management of the Budget of the U.S. Government.

    General Fund assets, such as cash and investments in AIG and the GSEs, are held and managed by the Department on
    behalf of the U.S. Government, and constitute resources available to meet the operating needs of the U.S. Government.
    These Department-managed assets are separately reported on the Consolidated Balance Sheets, with a corresponding
    amount reported as Due to the General Fund. Due to the General Fund represents a liability to reflect assets owed by the
    Department to the General Fund.

    General Fund liabilities, primarily federal debt, are obligations of the U.S. Government that have accumulated since the
    U.S. Government’s inception. These Department-managed liabilities are separately reported on the Consolidated
    Balance Sheets, with a corresponding amount reported as Due from the General Fund. Due from the General Fund
    represents a receivable, or future funds required of the General Fund to repay borrowings from the public and other
    federal agencies.

    As of September 30, 2012 and 2011, the General Fund assets and liabilities had a negative net position of $14.9 trillion
    and $13.7 trillion, respectively. This negative net position represents the amount needed by the U.S. Government,



                                                                 82
                                                                      U.S. Department of the Treasury | Fiscal Year 2012
through a combination of future tax collections and/or continued borrowing from the public and federal agencies to meet
its obligations.

As of September 30, 2012 and 2011, Due from and Due to the General Fund included the following non-entity assets and
liabilities (in millions):

Liabilities Requiring Funding from the General Fund                                                      2012                     2011
Federal Debt and Interest Payable (Note 16)                                                   $    11,307,583       $       10,148,963
Federal Debt and Interest Payable - Intra-governmental (Note 16)                                    4,861,005                4,719,668
Refunds Payable (Note 23)                                                                               3,255                    3,983
Adjustment for Eliminated Liabilities                                                                  30,336                   30,103
Total Due from the General Fund                                                               $    16,202,179       $       14,902,717

Assets to be Distributed to the General Fund                                                              2012                    2011
Fund Balance                                                                                   $           406      $              358
Loans and Interest Receivable - Intra-governmental (Note 3)                                           845,976                   671,411
Advances to the Unemployment Trust Fund                                                                 32,932                  42,773
Cash Due to the General Fund (Held by the Department) (Note 5)                                          79,245                  49,949
Accounts Receivable - Intra-governmental                                                                   455                     388
Foreign Currency                                                                                            64                       73
Custodial Gold without certificates and Silver held by the U.S. Mint                                         25                      25
Investments in Government Sponsored Enterprises (Note 8)                                              109,342                  133,043
Non-TARP Investments in American International Group, Inc. (Note 26)                                      2,611                 10,862
Credit Reform Downward Subsidy Reestimates                                                              10,444                  13,022
Loans and Interest Receivable                                                                               94                       99
Taxes and Other Non-Entity Receivables Due to General Fund                                              41,421                  36,615
Miscellaneous Assets                                                                                          -                       2
Adjustment for Eliminated Assets                                                                       134,737                 267,855
Total Due to the General Fund                                                                  $     1,257,752      $        1,226,475
The assets to be distributed to the General Fund do not represent all of the non-entity assets managed by the Department.
See Note 15 for all non-entity assets held by the Department.

The Fund Balance reported above represents the non-entity funds held by the Department on behalf of the General Fund.
It is used to administer programs such as the Presidential Election Campaign and payments for Legal Services
Corporation and thus not available for general use by the Department.

Advances have been issued to the DOL’s Unemployment Trust Fund from the General Fund to states for unemployment
benefits.

The non-entity Credit Reform Downward Subsidy Reestimate result from changes in forecasted future cash flows of the
equity investments and direct loans under the Department’s TARP and non-TARP credit programs (See Note 1H and 1V).

The Adjustment for Eliminated Liabilities principally represents investments in U.S. Government securities held by the
Department’s reporting entities that were eliminated against Federal Debt and Interest Payable Intra-governmental. The
Adjustment for Eliminated Assets principally represents loans and interest payable owed by the Treasury reporting
entities, which were eliminated against Loans and Interest Receivable Intra-governmental held by the BPD.




                                                                 83
                                                                 U.S. Department of the Treasury | Fiscal Year 2012

5. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Cash, foreign currency, and other monetary assets held as of September 30, 2012 and 2011 were as follows (in millions):
                                                                                                    2012            2011
Entity:
Cash                                                                                         $        75    $         74
Foreign Currency and Foreign Currency Denominated Assets                                          10,524          10,767
Other Monetary Assets:
  Special Drawing Right Holdings                                                                 55,240            55,911
  U.S. Dollars Held in Cash by the IMF                                                              137               153
Total Entity                                                                                     65,976           66,905

Non-Entity:
Operating Cash of the U.S. Government                                                             79,195          49,812
Foreign Currency                                                                                      64               73
Miscellaneous Cash Held by All Treasury Reporting Entities                                           316              331
Total Non-Entity                                                                                  79,575          50,216
Total Cash, Foreign Currency, and Other Monetary Assets                                      $   145,551    $     117,121

Non-entity operating and other miscellaneous cash due to the General Fund which was held by the Department consisted
of the following as of September 30, 2012 and 2011 (in millions):
                                                                                                    2012             2011
Operating Cash - FRB Account                                                                 $    85,446     $    56,284
Operating Cash – Other                                                                                  -           1,805
Subtotal                                                                                          85,446          58,089
Outstanding Checks                                                                                (6,251)         (8,277)
Total Operating Cash of the U.S. Government                                                        79,195          49,812
Miscellaneous Cash                                                                                    128             230
Subtotal                                                                                          79,323          50,042
Amounts Due to the Public                                                                            (78)             (93)
Total Cash Due to the General Fund (Note 4)                                                  $    79,245     $    49,949

ENTITY

Cash, Foreign Currency, and Other Monetary Assets

Entity cash, foreign currency, and other monetary assets principally include foreign currency, foreign currency
denominated assets (FCDA), SDRs and forfeited cash. Foreign currency, FCDAs, and SDRs are valued as of September
30, 2012 and 2011 using current exchange rates plus accrued interest. Also included are U.S. dollars restricted for use by
the IMF which are maintained in two accounts at the FRBNY. FCDA holdings are normally invested in interest-bearing
securities issued by or held through foreign governments or monetary authorities. FCDAs with original maturities of
three months or less, including securities purchased under agreement to resell, were valued at $10.5 billion and $10.8
billion as of September 30, 2012 and 2011, respectively.

Special Drawing Rights

The SDR is an international reserve asset created by the IMF to supplement existing reserve assets. The IMF has
allocated new SDRs on several occasions to members participating in the IMF’s SDR department. The SDR derives its
value as a reserve asset essentially from the commitments of participants to hold and accept SDRs and to honor various
obligations connected with their proper functioning as a reserve asset. Pursuant to the Special Drawing Rights Act of
1968, as amended, the Department issued certificates to the Federal Reserve, valued at $5.2 billion as of September 30,



                                                            84
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
2012 and 2011, to finance its acquisition of SDRs from other countries or to provide U.S. dollar resources for financing
other ESF operations.

On a daily basis, the IMF calculates the value of the SDR using the market value in terms of the U.S. dollar from weighted
amounts of each of four freely usable currencies, as defined by the IMF. These currencies are the U.S. dollar, the
European euro, the Japanese yen, and the British pound sterling. The Department’s SDR holdings (assets resulting from
various SDR-related activities including remuneration on the U.S. reserve position) and allocations from the IMF
(liabilities of the United States coming due only in the event of a liquidation of, or United States withdrawal from, the
SDR department of the IMF, or cancellation of SDRs) are revalued monthly based on the SDR valuation rate calculated
by the IMF, resulting in the recognition of unrealized gains or losses on revaluation.

Pursuant to the IMF Articles of Agreement, SDRs allocated to or otherwise acquired by the United States are permanent
resources unless:

  •    cancelled by the Board of Governors pursuant to an 85.0 percent majority decision of the total voting power of
       IMF members;
  •    the SDR department of the IMF is liquidated;
  •    the IMF is liquidated; or
  •    the United States chooses to withdraw from the IMF or terminate its participation in the SDR department

Except for the payment of interest and charges on SDR allocations to the United States, the payment of the Department’s
commitment related to SDR allocations is conditional on events listed above, in which the United States has a substantial
or controlling voice. Allocations of SDRs were made in 1970, 1971, 1972, 1979, 1980, 1981, and 2009. The United States
has received no SDR allocations since 2009.

As of September 30, 2012 and 2011, the total amount of SDR holdings of the United States was the equivalent of $55.2
billion and $55.9 billion, respectively. As of September 30, 2012 and 2011, the total value of SDR allocations to the
United States was the equivalent of $54.5 billion and $55.1 billion, respectively.

Securities Purchased Under Agreement to Resell

The FRBNY, on behalf of the ESF, enters into transactions to purchase foreign-currency-denominated government-debt
securities under agreements to resell for which the accepted collateral is the debt instruments, denominated in Euros,
and issued or guaranteed in full by European governments. These agreements are subject to daily margining
requirements.


NON-ENTITY

Cash, Foreign Currency, and Other Monetary Assets

Non-entity cash, foreign currency, and other monetary assets principally include the Operating Cash of the U.S.
Government which is managed by the Department. Also included is foreign currency maintained by various U.S.
disbursing offices. It also includes miscellaneous cash such as seized monetary instruments, undistributed cash, and
offers in compromises which are maintained as a result of the Department’s tax collecting responsibilities.

The Operating Cash of the U.S. Government represents balances from tax collections, other revenues, federal debt
receipts, and other receipts, net of checks outstanding, which are held in the FRBs and in foreign and domestic financial
institutions.

Operating Cash of the U.S. Government is either insured by the FDIC (for balances up to $250,000 as of September 30,
2012 and 2011), or collateralized by securities pledged by the depository institutions and held by the FRB.

                                                             85
                                                                   U.S. Department of the Treasury | Fiscal Year 2012

6. GOLD AND SILVER RESERVES, AND GOLD CERTIFICATES
   ISSUED TO THE FEDERAL RESERVE BANKS
The Department, through the Mint, is responsible for safeguarding most of the U.S. Government’s gold and silver
reserves in accordance with 31 USC §5117. Most of the gold and all of the silver reserves are in the custody of the Mint,
and a smaller portion of the gold is in the custody of the FRBs.

The gold reserves being held by the Department are partially offset by a liability for gold certificates issued by the
Secretary to the FRBNY at the statutory rate, as provided in 31 USC §5117. Since 1934, Gold Certificates have been issued
in non-definitive or book-entry form to the FRBNY. The Department’s liability incurred by issuing the Gold Certificates,
as reported on the Consolidated Balance Sheets, is limited to the gold being held by the Department at the statutory
value. Upon issuance of Gold Certificates to the FRBNY, the proceeds from the certificates are deposited into the
operating cash of the U.S. Government. All of the Department’s certificates issued are payable to the FRBNY. The Mint
also holds 100,000 fine troy ounces (FTO) ($4 million at the statutory carrying value) of gold reserves without
certificates.

The gold and silver bullion reserve (deep storage and working stock) are reported on the consolidated financial
statements at the values stated in 31 USC § 5116 – 5117 (statutory rates) which are $42.2222 per FTO of gold and no less
than $1.292929292 per FTO of silver. Accordingly, the silver is valued at $1.292929292 per FTO. The market values of
the gold and silver reserves disclosed below are based on the London Gold Fixing. As of September 30, 2012 and 2011,
the values of gold and silver reserves consisted of the following (in millions):
                                                                                            2012
                                                                                       Statutory         Market          2012
                                                               Statutory               Carrying         Rate Per       Market
                                                  FTOs              Rate                   Value            FTO         Value
Gold                                        248,046,116       $ 42.2222            $      10,473    $   1,776.00    $ 440,530
Gold Held by Federal Reserve Banks           13,452,811       $ 42.2222                      568    $   1,776.00       23,892
Total Gold                                  261,498,927                                   11,041                      464,422
Silver                                      16,000,000        $       1.2929                  21    $     34.65           554
Total Gold and Silver Reserves                                                     $      11,062                    $ 464,976



                                                                                             2011
                                                                                        Statutory         Market            2011
                                                                    Statutory           Carrying        Rate Per          Market
                                                     FTOs                Rate               Value           FTO            Value
Gold                                          248,046,116     $      42.2222       $       10,473   $   1,620.00    $    401,835
Gold Held by Federal Reserve Banks              13,452,784    $      42.2222                  568   $   1,620.00          21,794
Total Gold                                    261,498,900                                  11,041                        423,629
Silver                                         16,000,000     $        1.2929                  21   $      30.45             487
Total Gold and Silver Reserves                                                     $       11,062                   $    424,116




                                                              86
                                                                           U.S. Department of the Treasury | Fiscal Year 2012

 7. TROUBLED ASSET RELIEF PROGRAM – CREDIT PROGRAM
    RECEIVABLES, NET
 The Department administers a number of programs designed to help stabilize the financial system and restore the flow of
 credit to consumers and businesses. Through TARP, the Department made direct loans, equity investments, and entered
 into other credit programs. On October 3, 2010, TARP’s authority to make new commitments to purchase or guarantee
 troubled assets expired. The table below displays the assets held as of September 30, 2012 and 2011, by the observability
 of inputs significant to the measurement of each value (in millions):
                                                                                 Quoted
                                                                              Prices for        Significant       Significant
                                                                               Identical        Observable      Unobservable               2012
Program                                                                         Assets(1)         Inputs(2)         Inputs(3)             Total
Capital Purchase Program                                                    $        327      $           -    $       5,407        $     5,734
American International Group, Inc. Investment Program                              5,067                  -                 2             5,069
Automotive Industry Financing Program                                             11,376                  -             6,170            17,546
Public-Private Investment Program                                                       -                 -           10,778             10,778
Other Programs, which include TALF and CDCI                                            9                  -            1,095              1,104
Asset Guarantee Program(4)                                                              -               967                 -               967
Total TARP Programs                                                         $     16,779      $        967     $        23,452      $    41,198
(1) Measurement is based on direct market quotes for the specific asset, e.g. quoted prices of common stock.
(2) Measurement is primarily derived from market observable data, other than a direct market quote, for the asset. This data could be market
    quotes for similar assets for the same entity.
(3) Measurement is primarily derived from inputs representing management’s best estimate of how a market participant would assess the risk

    inherent in the asset. These unobservable inputs are used because there is little to no direct market activity.
(4) Of the combined TARP Program totaling $41.2 billion at September 30, 2012, $967 million represented other intra-governmental

   assets and $40.2 billion represented assets with the public as reported on the Consolidated Balance Sheets.


                                                                                  Quoted
                                                                                Prices for      Significant        Significant
                                                                                 Identical      Observable       Unobservable              2011
Program                                                                           Assets(1)       Inputs(2)          Inputs(3)            Total
Capital Purchase Program                                                    $         202     $           -    $       12,240       $    12,442
American International Group, Inc. Investment Program                              21,076            9,294                   -           30,370
Automotive Industry Financing Program                                              10,091                 -              7,747           17,838
Public-Private Investment Program                                                         -               -            18,377            18,377
Other Programs, which include TALF, SBA 7 (a) securities and CDCI                         -             126                951            1,077
Asset Guarantee Program(4)                                                                -             739                  -              739
Total TARP Programs                                                         $      31,369     $      10,159    $          39,315    $    80,843

See table above for explanations to (1), (2), and (3).
(4) Of the combined TARP Program totaling $80.8 billion at September 30, 2011, $739 million represented other intra-governmental

   assets and $80.1 billion represented assets with the public as reported on the Consolidated Balance Sheets.




                                                                      87
                                                                     U.S. Department of the Treasury | Fiscal Year 2012
DIRECT LOAN AND EQUITY INVESTMENT PROGRAMS

Capital Purchase Program

TARP began implementing programs in fiscal year 2009, commencing with the Capital Purchase Program (CPP) which
was designed to help stabilize the financial system by assisting in building the capital base of certain viable U.S. financial
institutions to increase the capacity of those institutions to lend to businesses and consumers and support the economy.
Under this program, the Department invested a total of $204.9 billion and purchased senior perpetual preferred stock
and subordinate debentures from qualifying U.S. controlled banks, savings associations, and certain bank and savings
and loan holding companies (Qualified Financial Institution or QFI). Additionally, the Department exercised warrants
received from non-public QFIs resulting in additional holdings of senior preferred stock (or subordinated debentures as
appropriate). The senior preferred stock has a stated dividend rate ranging from 5.0 percent to 9.0 percent. The
dividends are cumulative for bank holding companies and subsidiaries of bank holding companies, and non-cumulative
for others, and payable when and if declared by the institution’s board of directors. QFIs that are Sub-chapter S
corporations (public and non-public) issued subordinated debentures that have a maturity of 30 years, and interest rates
ranging from 7.7 percent to 13.8 percent. QFIs, subject to regulatory approval, may repay the Department’s investment at
any time. For fiscal years 2012 and 2011, repayments and sales of CPP investments totaled $8.2 billion and $30.2 billion,
respectively.

In addition to the senior preferred stock, the Department received warrants from public QFIs to purchase a number of
shares of common stock. The warrants have a ten-year term, and the Department may exercise any warrants held in
whole or in part at any time.

As part of the management of the investments in CPP, the Department entered into certain agreements to exchange
and/or convert existing investments. In fiscal year 2009, the Department entered into an exchange agreement with
Citigroup under which the Department exchanged $25.0 billion of its investment in Citigroup senior preferred stock for
7.7 billion shares of Citigroup common stock, at $3.25 per share. Between April 2010 and January 2011, the Department
had sold all of its Citigroup common stock held, generating cash proceeds of $31.9 billion, resulting in proceeds in excess
of cost of $6.9 billion (cash proceeds from sales of Citigroup common stock and warrants in fiscal year 2011 were $15.8
billion, which exceeded cost by $3.9 billion).

The Department entered into other transactions with various financial institutions which generally are in poor financial
condition with a high likelihood of failure. The changes in cost associated with these transactions are considered
workouts rather than modifications, in accordance with SFFAS No. 2, and are captured in the year-end reestimates.

Of the $8.2 billion in CPP investment repayments and sales during fiscal year 2012, net proceeds of $1.3 billion resulted
from auction sales which stemmed from the Department’s decision in fiscal year 2012 to sell certain CPP investments to
the public in auction sales. Total repayments and sales resulted in net proceeds less than cost of $285 million in fiscal
year 2012. Because these auction sales were not considered in the formulation estimate for the CPP program, a
modification was recorded, increasing the cost of the program by $973 million. During fiscal year 2011, certain financial
institutions participating in CPP became eligible to exchange their TARP-held stock investments to preferred stock in the
SBLF program (Note 11). Because this refinance was not considered in the formulation estimate for the CPP program, a
modification was recorded in fiscal year 2011, resulting in a subsidy cost reduction of $1.0 billion.

The estimated value of the CPP preferred equity investments is based on the net present values of the expected dividend
payments and proceeds from repurchases and sales. The model assumes a probabilistic evolution of each institution’s
asset-to-liability ratio (based on the estimated fair value of the institution’s assets against its liabilities). Historical
volatility is used to scale the likely evolution of each institution’s asset-to-liability ratio. Inputs to the model include


                                                                88
                                                                   U.S. Department of the Treasury | Fiscal Year 2012
institution specific accounting data obtained from regulatory filings, an institution’s stock price volatility, historical bank
failure information, as well as market prices of comparable securities trading in the market. The market risk adjustment
is obtained through a calibration process to the market value of certain trading securities of financial institutions within
the TARP programs or other comparable financial institutions. The Department estimates the values and projects the
cash flows of warrants using an option-pricing approach based on the current stock price and its volatility. Investments
in common stock which are exchange traded are valued at the quoted market price as of fiscal year end.

American International Group, Inc. Investment Program
The Department provided assistance to systemically significant financial institutions on a case by case basis in order to
help provide stability to those institutions that were critical to a functioning financial system and were at substantial risk
of failure, as well as to help prevent broader disruption to financial markets. In fiscal year 2009, the Department
invested in AIG which (after being restructured in the same fiscal year) consisted of $41.6 billion of AIG’s non-cumulative
10.0 percent Series E preferred stock. Additionally, the Department made available to AIG a $29.8 billion equity capital
facility and received AIG’s non-cumulative 10.0 percent Series F preferred stock under which AIG drew $27.8 billion. In
January 2011, the Department (in combination with AIG and the FRBNY) restructured the AIG investments in which it
converted the $41.6 billion of Series E preferred stock and $27.8 billion of the Series F equity capital facility into a $20.3
billion interest in AIG SPVs, and 1.1 billion shares of AIG common stock. The remaining $2.0 billion of undrawn Series F
capital facility was converted to a new equity capital facility that was subsequently cancelled in fiscal year 2011.
Additionally, the credit facility between FRBNY and AIG was terminated, and the Department (not TARP) on behalf of
the General Fund separately received 563 million shares of AIG common stock (Note 26). Upon completion of the
restructuring, the Department (including TARP) held a combined total of 1.7 billion shares of AIG common stock, or 92.1
percent of AIG’s common stock equity.

Since the January 2011 restructuring, the Department (including TARP) has sold shares of the AIG common stock in the
open market. During fiscal year 2012, the Department (including TARP) sold 1.2 billion shares of AIG common stock for
$38.2 billion, of which the General Fund and TARP received $13.0 billion and $25.2 billion, respectively. In fiscal year
2011, the Department (including TARP) sold 200 million shares of AIG common stock for $5.8 billion, of which the
General Fund and TARP received $2.0 billion and $3.8 billion, respectively. For the TARP shares sold, the proceeds were
less than the Department’s cost by $9.9 billion and $1.9 billion for fiscal years 2012 and 2011, respectively. AIG common
shares sold by the General Fund were provided at no cost to the Department. At September 30, 2012 and 2011, the
Department owned 234 million shares and 1.5 billion shares of AIG common stock, respectively, with a fair value totaling
approximately $7.7 billion and $31.9 billion, or 15.9 percent and 76.9 percent of AIG’s outstanding common stock,
respectively. Of this total, TARP owned 154 million shares and 960 million shares, at September 30, 2012 and 2011,
respectively, or 10.5 percent ($5.1 billion fair value) and 50.8 percent ($21.1 billion fair value) of AIG’s outstanding
common stock, respectively. The fair value of the AIG common stock was based on the New York Stock Exchange (NYSE)
quoted market price as of September 30, 2012 and 2011.

In fiscal year 2012, the Department received $9.6 billion in distributions from the AIG SPVs, which fully repaid the
remaining investment balance of $9.3 billion. The Department recorded proceeds in excess of cost of $127 million plus
investment income of $191 million. In fiscal year 2011, the Department received $11.5 billion in distributions from the
AIG SPVs, reduced its AIG SPV outstanding balance by $11.2 billion to $9.3 billion, and received investment income of
$246 million, and recorded capitalized dividend income of $204 million. The SPVs were valued at their liquidation
preference since the value of the underlying assets within the SPVs greatly exceeded the liquidation preference.




                                                              89
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
Automotive Industry Financing Program

The Automotive Industry Financing Program (AIFP) was designed to help prevent a significant disruption of the
American automotive industry, which could have had a negative effect on the economy of the United States.

General Motors Company and General Motors Corporation
In fiscal year 2009, the Department provided $49.5 billion to General Motors Corporation (Old GM) through various
loan agreements including the initial loan for general and working capital purposes and the final loan for debtor in
possession (DIP) financing while Old GM was in bankruptcy. During fiscal year 2009, the Department and a newly
created General Motors Company (New GM) extinguished substantially all but $7.1 billion of these initial financing
arrangements, and the Department received $2.1 billion in 9.0 percent cumulative perpetual preferred stock and 60.8
percent of the common equity interest in New GM. Additionally, New GM assumed $7.1 billion of the original DIP loan
which it fully repaid to the Department by the end of fiscal year 2010.

During fiscal year 2011, New GM repurchased its preferred stock for 102.0 percent of its liquidation amount, or $2.1
billion. As part of an initial public offering by New GM in fiscal year 2011, the Department sold approximately 412
million shares of its common stock for $13.5 billion. The sale resulted in net proceeds less than cost of $4.4 billion. At
September 30, 2012 and 2011, the Department held 500 million shares of the common stock of New GM, which
represented approximately 32.0 percent of New GM’s common stock outstanding. The fair value of the New GM
common shares held as of September 30, 2012 and 2011 was $11.4 billion and $10.1 billion, respectively, based on the
NYSE quoted market price.

Chrysler Group LLC and Chrysler Holding LLC

In fiscal year 2009, the Department invested $5.9 billion in Chrysler Holding LLC (Old Chrysler), consisting of $4.0
billion for general and working capital purposes (the general purpose loan) and $1.9 billion in DIP financing while Old
Chrysler was in bankruptcy. Upon entering bankruptcy, a portion of Old Chrysler was sold to a newly created entity,
Chrysler Group LLC (New Chrysler). In fiscal year 2010, under the terms of a bankruptcy agreement, the initial financing
to Old Chrysler was replaced by financing to New Chrysler in which the Department funded a $4.6 billion loan to New
Chrysler, with a commitment to fund it an additional $2.1 billion. Also, New Chrysler assumed $500 million of the Old
Chrysler general purpose loan. In fiscal year 2011, New Chrysler repaid the $5.1 billion loan principal ($4.6 billion
funded and $500 million assumed from Old Chrysler) and interest due on the loan, and the Department terminated New
Chrysler’s ability to draw on the remaining available $2.1 billion loan commitment. Total net proceeds received relating
to the fiscal year 2011 transactions were $896 million less than the Department’s cost. As a result of these transactions,
the Department had no remaining interest in New Chrysler as of September 30, 2012 and 2011. The Department
continues to hold a right to receive proceeds from a bankruptcy liquidation trust, but no significant cash flows are
expected.


Ally Financial Inc. (formerly known as GMAC Inc.)

The Department invested a total of $16.3 billion in GMAC Inc. between December 2008 and December 2009 to help
support its ability to originate new loans to GM and Chrysler dealers and consumers, and to help address GMAC’s capital
needs. In May 2010, GMAC changed its corporate name to Ally Financial, Inc. (Ally). As a result of original investments,
exchanges, conversions and warrant exercises, as of September 30, 2012 and 2011, the Department held 981,971 shares of
Ally common stock, representing 73.8 percent of Ally’s outstanding common stock. The Department also held 119 million
shares of Ally Series F-2 Mandatorily Convertible Preferred Securities, with a $50 per share liquidation preference and a
stated dividend rate of 9.0 percent, and are convertible into at least 513,000 shares of Ally common stock at Ally’s option
subject to approval of the FRB and consent by the Department, or pursuant to an order by the FRB compelling such

                                                             90
                                                                   U.S. Department of the Treasury | Fiscal Year 2012
conversion. The Series F-2 security is also convertible at the option of the Department upon certain specified corporate
events. Absent any optional conversion, any Series F-2 remaining preferred shares will automatically convert to Ally
common stock after seven years from the issuance date. When combined with the Ally common stock currently owned,
conversion of the Series F-2 preferred stock into common stock would represent 81.0 percent ownership of Ally common
stock held by the Department. In fiscal years 2012 and 2011, the Department received $534 million and $839 million in
dividends from Ally, respectively.

Prior to September 30, 2011, the Department held 2.7 million shares of 8.0 percent cumulative Trust Preferred Securities
(TruPS) with a $1,000 per share liquidation preference. During fiscal year 2011, the agreement between Ally and the
Department regarding its TruPS was amended to facilitate the Department’s sale of these securities on the open market.
Because this amendment to agreement terms was not considered in the formulation subsidy cost estimate for the
program, the Department recorded a modification resulting in a subsidy cost reduction of $174 million. In March 2011,
the Department sold its TruPS for $2.7 billion, resulting in proceeds in excess of cost of $127 million.

As of September 30, 2012 and 2011, for investments in Ally’s common equity and mandatorily convertible preferred
stock, which are valued on an “if-converted” basis, the Department used certain valuation multiples such as price-to-
earnings, price-to-tangible book value, and asset manager valuations to estimate the value of the shares. The multiples
were based on those of comparable publicly-traded entities. The adjustment for market risk is incorporated in the data
points the Department uses to determine the measurement for Ally as all points rely on market data.

Public-Private Investment Program

The Public-Private Investment Program (PPIP) is part of the Department’s efforts to help restart the financial securities
market and provide liquidity for legacy securities. Under this program, the Department (as a limited partner) made
equity investments in and loans to nine investment vehicles (referred to as Public-Private Investment Funds or “PPIFs”)
established by private investment managers between September and December 2009. The equity investments were used
to match private capital and equal 49.9 percent of the total equity invested. The loans bear interest at 1-Month LIBOR,
plus 1.0 percent, payable monthly. The maturity date of each loan is the earlier of ten years or the termination of the
PPIF. Each PPIF terminates in eight years from its commencement, if not previously terminated, or extended with two
one-year extensions subject to the Department’s approval. The loan agreements are subject to certain financial
covenants and require cash flows from purchased securities received by the PPIFs to be distributed in accordance with a
priority of payments schedule (waterfall) designed to help protect the interests of secured parties. As a condition of its
investment, the Department also received a warrant from each of the PPIFs entitling the Department to 2.5 percent of
investment proceeds otherwise allocable to the non-Department partners after the PPIFs return 100.0 percent of the
non-Department partners’ capital contributions. Additionally, the PPIFs pay a management fee to the fund manager
from the Department’s share of investment proceeds.

The PPIFs may invest, under certain conditions, in commercial mortgage-backed securities (CMBS) and non-agency
residential mortgage-backed securities (RMBS) issued prior to January 1, 2009, for a term of three years. The three-year
investment period for the remaining PPIFs ends December 2012. The PPIFs are also permitted to invest in certain
temporary securities, including bank deposits, U.S. Treasury securities, and certain money market mutual funds. As of
September 30, 2012, the PPIFs’ portfolios were comprised of approximately 74.0 percent RMBS and 26.0 percent CMBS,
compared to 79.0 percent and 21.0 percent, respectively, as of September 30, 2011.

At September 30, 2012 and 2011, the Department had equity investments in PPIFs outstanding of $4.1 billion and $5.5
billion, and loans outstanding of $5.7 billion and $10.4 billion, for an aggregate total of $9.8 billion and $15.9 billion,
respectively. As of September 30, 2012 and 2011, the Department had legal commitments to disburse up to $3.1 billion


                                                              91
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
and $4.3 billion, respectively, for additional investments and loans to the remaining PPIFs. During fiscal year 2012, the
Department disbursed $245 million as an equity investment and $803 million as loans to PPIFs, as compared to $1.1
billion of equity investments and $2.3 billion as loans in fiscal year 2011. In addition, the Department received $5.7
billion and $1.0 billion in loan principal and interest repayments from the PPIFs in fiscal years 2012 and 2011,
respectively. Also during fiscal year 2012, the Department received $3.2 billion in equity distributions, comprised of $1.3
billion of investment income, $223 million of proceeds in excess of cost, and a $1.7 billion reduction of the gross
investment outstanding. In fiscal year 2011, the Department received $735 million in equity distributions, comprised of
$306 million of investment income, $91 million of proceeds in excess of cost, and a $338 million reduction of the gross
investment outstanding.

The Department estimates cash flows to the PPIFs by simulating the performance of the collateral supporting the assets
held by the PPIF. Inputs used to simulate the cash flows, which consider market risks, include unemployment forecasts,
home price appreciation/depreciation forecasts, the current term structure of interest rates, historical pool performance,
and estimates of the net income and value of commercial real estate supporting the CMBS. The simulated cash flows are
then run through a financial model that defines distributions of the RMBS/CMBS to determine the estimated cash flows
to the PPIF. Once determined, these cash flows are run through the waterfall of the PPIF to determine the expected cash
flows to the Department through both the equity investments and loans.

Other Direct Loan and Equity Investment Programs
The Department initiated other programs intended to help unlock the flow of credit to consumers and small businesses.
Three programs were established to help accomplish this: the Term Asset-Backed Securities Loan Facility (TALF); the
Small Business Administration (SBA) 7(a) Securities Purchase Program, and the Community Development Capital
Initiative (CDCI). Each program is discussed in more detail below and included in the “Other Programs” column of the
table within this note.

Term Asset-Backed Securities Loan Facility

The TALF was created by the FRB to provide low-cost funding to investors in certain classes of Asset Backed Securities
(ABS). The Department agreed to participate in the program by providing liquidity and credit protection to the FRB.

Under the TALF, the FRBNY, as implementer of the TALF program, originated loans on a non-recourse basis to
purchasers of certain AAA rated ABS secured by consumer and commercial loans and CMBS. The FRBNY ceased issuing
new loans on June 30, 2010. Approximately $1.5 billion and $11.3 billion of loans due to the FRBNY remained
outstanding as of September 30, 2012 and 2011, respectively.

As part of the program, the FRBNY created the TALF, LLC, an SPV that agreed to purchase from the FRBNY any
collateral it has seized due to borrower default. The TALF, LLC would fund purchases from the accumulation of monthly
fees paid by FRBNY as compensation for the agreement. Only if the TALF, LLC had insufficient funds to purchase the
collateral did the Department commit to invest up to $20.0 billion in non-recourse subordinated notes issued by the
TALF, LLC. This commitment was reduced to $4.3 billion in fiscal year 2010, and further reduced in fiscal year 2012 to
$1.4 billion, in consultation with the FRBNY.

The Department disbursed $100 million upon creation of the TALF, LLC, and the remainder can be drawn to purchase
collateral in the event the fees are not sufficient to cover purchases. The subordinated notes bear interest at 1-Month
LIBOR plus 3.0 percent, and mature ten years from the closing date, subject to extension. As of September 30, 2012 and
2011, no TALF loans were in default and consequently no collateral was purchased by the TALF, LLC.




                                                             92
                                                                   U.S. Department of the Treasury | Fiscal Year 2012
In valuing the TALF loan, the Department model derives the cash flows to the SPV, and ultimately the Department, by
simulating the performance of underlying collateral. Loss probabilities on the underlying collateral are calculated based
on analysis of historical loan loss and charge-off experience by credit sector and subsector. Impaired TALF-eligible
securities are projected to be purchased by the SPV, which could require additional Department funding. Simulation
outcomes consisting of a range of loss scenarios are probability-weighted to generate the expected net present value of
future cash flows.

SBA 7(a) Securities Purchase Program
In March 2010, the Department began purchasing securities backed by SBA 7(a) loans (7(a) Securities) as part of the
Unlocking Credit for Small Business Initiative. The program was created to provide additional liquidity to the market so
that banks are able to make more small business loans. Under this program, the Department had purchased 7(a)
securities collateralized with 7(a) loans that are guaranteed by the full faith and credit of the U.S. Government. In May
2011, the Department began selling its securities to investors; sales were completed and the program closed in January
2012. Over the course of the program, the Department had invested a total of $367 million (excluding purchased accrued
interest), and received $376 million in sales proceeds and in principal and interest payments. As of September 30, 2012,
the Department held no investment in SBA 7(a) securities, and held $128 million of these securities at September 30,
2011. During fiscal year 2012 and 2011, the Department had received $127 million and $247 million, respectively, in sales
proceeds, and in principal and interest payments on the securities. The valuation of SBA 7(a) securities was based on the
discounted estimated cash-flows of the securities.

Community Development Capital Initiative

In fiscal year 2010, the CDCI was created to provide additional low cost capital in Community Development Financial
Institutions (CDFIs) to encourage more lending to small businesses. Under the terms of the program, the Department
purchased senior preferred stock (or subordinated debt) from eligible CDFIs with an initial dividend rate of 2.0 percent
that will increase to 9.0 percent after eight years.

CDFIs participating in the CPP, subject to certain criteria, were eligible to exchange, through September 30, 2010, their
CPP preferred shares (subordinated debt) then held by the Department for CDCI preferred shares (subordinated debt).
These exchanges were treated as disbursements from CDCI and repayments to CPP. The Department had invested a total
of $570 million ($363 million as a result of exchanges from CPP) in 84 institutions under the CDCI. In fiscal year 2012,
the Department received $3 million in repayments. No repayments were received in fiscal year 2011. The Department
received $11 million in dividends and interest from its CDCI investments during both fiscal years 2012 and 2011. The
Department valued the CDCI preferred stock investments in a manner broadly analogous to the methodology used to
value the preferred stock securities within the CPP program.


OTHER CREDIT PROGRAMS

Asset Guarantee Program

The Asset Guarantee Program (AGP) provided guarantees for assets held by systemically significant financial institutions
that faced a risk of losing market confidence due in large part to a portfolio of distressed or illiquid assets. Section 102 of
the EESA required the Secretary to establish the AGP to guarantee troubled assets originated or issued prior to March 14,
2008, including MBS, and established the Troubled Assets Insurance Financing Fund (TAIFF).

In January 2009, the Department entered into a guarantee agreement with Citigroup under which the Department, the
Federal Deposit Insurance Corporation (FDIC), and the FRBNY (collectively the USG Parties) provided protection
against the possibility of large losses on an asset pool of approximately $301.0 billion of loans and securities backed by

                                                              93
                                                                 U.S. Department of the Treasury | Fiscal Year 2012
residential and commercial real estate and other such assets, which remained on Citigroup’s balance sheet. The
Department’s portion of the guarantee was limited to $5.0 billion. As a premium for the guarantee, Citigroup issued $7.0
billion of cumulative perpetual preferred stock (subsequently converted to Trust Preferred Securities with similar terms)
with an 8.0 percent stated dividend rate and a warrant for the purchase of Citigroup common stock, of which $4.0 billion
of the preferred stock and the warrant were issued to the Department, and $3.0 billion of the preferred stock was issued
to the FDIC.

In fiscal year 2010, the USG Parties and Citigroup agreed to terminate the guarantee agreement; accordingly, Citigroup
cancelled $1.8 billion of the preferred stock previously issued to the Department. In fiscal year 2011, the Department sold
its remaining Citigroup TruPS it held for $2.2 billion, and sold the warrants for $67 million. In connection with the
termination of the guarantee agreement, FDIC agreed to transfer to the Department $800 million of TruPS holdings plus
dividends, subject to Citigroup’s payment of certain debt guaranteed by the FDIC. This TruPS related receivable from the
FDIC was valued at $967 million and $739 million at September 30, 2012 and 2011, respectively. The Department
expects to receive a cash transfer of dividends and interest, along with the TruPS from FDIC, as scheduled, on December
31, 2012. The Department valued the AGP preferred stock investments in a manner broadly analogous to the
methodology used to value the preferred stock securities within the CPP program.


FHA-Refinance Program
In fiscal year 2010, the Department entered into a loss-sharing agreement with the FHA to support a program in which
FHA guarantees refinancing of borrowers whose homes are worth less than the remaining amounts owed under their
mortgage loans. In fiscal year 2011, the Department established a $50 million account, held by a commercial bank as its
agent, from which any required reimbursements for losses will be paid to third-party claimants, including banks or other
investors. FHA disbursed $234 million and $73 million of loans during fiscal year 2012 and 2011, respectively. At
September 30, 2012 and 2011, 1,774 and 334 loans that FHA had guaranteed with a total value of $307 million and $73
million, respectively, had been refinanced under the program. At September 30, 2012 and 2011, the Department’s
maximum exposure related to the FHA guarantee totaled $41 million and $6 million, respectively. The Department’s
guarantee resulted in the Department incurring a $7 million and $1 million liability as of September 30, 2012 and 2011,
respectively.

Based on credit reform accounting, the liability was derived as the present value of the future cash outflows for the
Department’s share of losses incurred on any defaults of the disbursed loans. The budget subsidy rates for the program,
entirely for defaults, excluding modifications and reestimates, were set at 4.0 percent and 1.26 percent for loans
guaranteed in fiscal years 2012 and 2011, respectively. As of September 30, 2012 and 2011, the Department recorded
subsidy cost of $9 million and $1 million, respectively, for projected losses due to defaults. The program recorded a $3
million downward reestimate for the year ended September 30, 2012, due to a reduction in market risks and lower than
projected defaults. As of September 30, 2012, no claims were paid under the program.


SUBSIDY COST
During fiscal year 2012, a modification occurred in the CPP. During fiscal year 2011, modifications occurred within AIFP
(see Ally Financial Inc.) and CPP. See the detailed discussion above for modifications related to each program.
Modification cost (income) for the fiscal years ended September 30, 2012 and 2011, totaled $973 million and $1.2 billion,
respectively.

Changes in subsidy cost due to reestimates from year to year are mainly due to improved market conditions. Net
downward reestimates for the fiscal years ended September 30, 2012 and 2011, totaled $11.9 billion and $11.6 billion,
respectively.

                                                            94
                                                                U.S. Department of the Treasury | Fiscal Year 2012
During fiscal year 2012, there were significant AIG sales of common stock which impacted the subsidy cost. The AIG
Investment Program had a decrease in subsidy cost resulting from a downward reestimate of $9.2 billion. The
Department calculated a $9.2 billion downward reestimate relating primarily to sales in fiscal year 2012 of 806 million
shares of AIG common stock at prices higher than September 30, 2011, and increase in revaluing the remaining portfolio.


SUMMARY TABLES
The following tables provide the net composition, subsidy cost, modifications and reestimates, a reconciliation of subsidy
cost allowances, and subsidy by component for each TARP direct loan, equity investment or other credit programs for the
fiscal years ended September 30, 2012 and 2011. There were no budget subsidy rates for fiscal year 2012 and 2011, except
for the FHA- Refinance Program as previously disclosed in this note. All of the disbursements were from loans or
investments obligated in prior years.




                                                           95
                                                                             U.S. Department of the Treasury | Fiscal Year 2012
                    Troubled Asset Relief Program Direct Loans and Equity Investments

                                                                                                                               Other
As of September 30, 2012 (in millions)                       CPP               AIG            AIFP            PPIP           Programs           2012
Direct Loans and Equity Investment Programs:
Direct Loans and Equity Investment Outstanding, Gross   $     8,664     $       6,727    $     37,252     $   9,763      $         667      $     63,073
Subsidy Cost Allowance                                      (2,930)           (1,658)        (19,706)         1,015                437          (22,842)
Direct Loans and Equity Investments
   Outstanding, Net                                     $    5,734      $       5,069    $     17,546     $   10,778     $       1,104      $    40,231
New Loans or Investments Disbursed                      $         -     $           -    $          -     $    1,048     $           -      $     1,048
Obligations for Loans and Investments Not Yet
   Disbursed                                            $           -   $            -   $            -   $    3,058     $       1,300      $     4,358

Reconciliation of Subsidy Cost Allowance:
Balance, Beginning of Period                           $      4,857     $      20,717    $     19,440     $   (2,434)    $       (279)      $    42,301
  Subsidy Cost for Disbursements and Modifications              973                 -               -             (31)               -              942
  Interest and Dividend Revenue                                 572               191             534           1,426               10            2,733
  Net Proceeds from Sales and Repurchases of Assets in
     Excess (Less than) Cost                                  (285)            (9,735)                9          223                    -       (9,788)
  Net Interest Income (Expense) on Borrowings from BPD
     and Financing Account Balance                            (290)              (349)          (507)           (439)             (41)           (1,626)
Balance, End of Period, Before Reestimates                    5,827            10,824          19,476         (1,255)            (310)           34,562
Subsidy Reestimates                                         (2,897)            (9,166)            230             240            (127)          (11,720)
Balance, End of Period                                 $      2,930     $        1,658   $     19,706     $   (1,015)    $       (437)      $    22,842

Reconciliation of Subsidy Cost:
   Subsidy Cost for Disbursements                       $         -     $            -   $          -     $      (31)    $           -      $        (31)
   Subsidy Cost for Modifications                               973                  -              -               -                -               973
   Subsidy Reestimates                                      (2,897)            (9,166)            230            240             (127)          (11,720)
Total Direct Loans and Equity Investment
  Programs Subsidy Cost (Income)                        $   (1,924)     $      (9,166)   $        230     $      209     $       (127)      $   (10,778)




                                                                                                                               Other
As of September 30, 2011 (in millions)                        CPP              AIG            AIFP            PPIP           Programs            2011
Direct Loans and Equity Investment Programs:
Direct Loans and Equity Investment Outstanding, Gross   $    17,299     $       51,087   $     37,278     $   15,943     $        798       $     122,405
Subsidy Cost Allowance                                      (4,857)           (20,717)       (19,440)          2,434              279            (42,301)
Direct Loans and Equity Investments
   Outstanding, Net                                     $    12,442     $      30,370    $     17,838     $    18,377    $       1,077      $     80,104
New Loans or Investments Disbursed                      $           -   $      20,292    $        -       $     3,421    $         126      $     23,839
Obligations for Loans and Investments Not Yet
  Disbursed                                             $           -   $            -   $        -       $    4,279     $       4,200      $      8,479

Reconciliation of Subsidy Cost Allowance:
Balance, Beginning of Period                           $      1,546     $      21,405    $     14,529     $     (676)    $        (59)      $     36,745
  Subsidy Cost for Disbursements and Modifications          (1,010)            20,085           (174)             (15)               1            18,887
  Interest and Dividend Revenue                               1,283               450           1,280             428               20             3,461
  Fee Income                                                      -               165               -                -               -               165
  Net Proceeds from Sales and Repurchases of Assets in
     Excess of (Less than) Cost                               4,540           (1,918)         (5,165)              91             190             (2,262)
  Net Interest Income (Expense) on Borrowings from BPD
     and Financing Account Balance                            (686)              (938)          (945)           (418)             (29)            (3,016)
Balance, End of Period, Before Reestimates                    5,673             39,249          9,525           (590)               123           53,980
Subsidy Reestimates                                           (816)           (18,532)          9,915         (1,844)            (402)           (11,679)
Balance, End of Period                                 $      4,857     $       20,717   $     19,440     $   (2,434)    $       (279)      $     42,301

Reconciliation of Subsidy Cost:
  Subsidy Cost for Disbursements                        $         -     $      20,085    $          -     $       (15)   $           1      $     20,071
  Subsidy Cost for Modifications                            (1,010)                  -          (174)                -               -            (1,184)
  Subsidy Reestimates                                         (816)           (18,532)          9,915         (1,844)            (402)           (11,679)
Total Direct Loans and Equity Investment
  Programs Subsidy Cost (Income)                        $   (1,826)     $        1,553   $      9,741     $   (1,859)    $       (401)      $      7,208




                                                                        96
                                                                     U.S. Department of the Treasury | Fiscal Year 2012
                         Troubled Asset Relief Program Asset Guarantee Program
                                   As of September 30, 2012 and 2011
                                               (In Millions)

                                                                                                2012                   2011

      Asset Guarantee Program                                                          $          967         $         739

      Reconciliation of Asset Guarantee Program:
      Balance, Beginning of Period                                                     $       (739)          $     (3,055)
        Dividend Revenue                                                                            -                    15
        Net Proceeds from Sale of Assets in Excess of cost                                          -                 2,301
        Net Interest Expense on Borrowings from BPD                                              (21)                  (30)
      Balance, End of Period, Before Reestimate                                                (760)                  (769)
        Subsidy Reestimate                                                                     (207)                     30
      Balance, End of Period                                                           $       (967)          $       (739)


HOUSING PROGRAMS UNDER TARP
The following housing programs under TARP are designed to provide stability for both the housing market and
homeowners. These programs assist homeowners who are experiencing financial hardships to remain in their homes
until their financial position improves or they relocate to a more sustainable living situation. These programs fall within
three initiatives:

    1.   Making Home Affordable Program (MHA)
    2.   HFA Hardest-Hit Fund
    3.   Federal Housing Administration (FHA)-Refinance Program

The MHA includes various programs that provide an array of incentives to servicers, borrowers, and investors for: (i)
modifying first liens, (ii) extinguishing second liens on first lien loans, (iii) helping investors to partially offset losses due
to home price declines, (iv) offering incentives to encourage mortgage principal reduction for eligible homeowners whose
homes are worth significantly less than their outstanding first-lien mortgage balances, (v) offering assistance to
unemployed homeowners, and (vi) assisting eligible borrowers unable to retain their homes by simplifying and
streamlining the short sale and deed in lieu of foreclosure processes. All MHA disbursements are made to servicers
either for themselves or for the benefit of borrowers and investors, and all payments are contingent on borrowers
remaining in good standing. To be considered for MHA programs, borrowers must apply by December 31, 2013.

Implemented in fiscal year 2010, the HFA Hardest-Hit Fund provides targeted aid to families in the states hit hardest by
the housing market downturn and unemployment. Approved states meeting the criteria for this program develop and
roll out their own programs with timing and types of programs offered targeted to address the specific needs and
economic conditions of their state. States have until December 31, 2017 to enter into agreements with borrowers.

As discussed above under “Other Credit Programs,” the FHA-Refinance Program is a joint initiative with the HUD which
is intended to encourage refinancing of existing underwater (i.e. the borrower owes more than the home is worth)
mortgage loans not currently insured by FHA into FHA-insured mortgages. HUD will pay a portion of the amount
refinanced to the investor and the Department will pay incentives to encourage the extinguishment of second liens
associated with the refinanced mortgages. The Department established a letter of credit that obligated the Department’s
portion of any claims associated with the FHA-guaranteed mortgages. Homeowners can refinance into FHA-guaranteed
mortgages through December 31, 2014, and the Department will honor its share of claims against the letter of credit
through 2020.




                                                                97
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
As of September 30, 2012 and 2011, the Department had committed up to $45.6 billion for these programs. For fiscal
year 2012 and 2011, payments made from the Housing Programs under TARP totaled $3.1 billion and $1.9 billion,
respectively.


8. INVESTMENTS IN GOVERNMENT SPONSORED ENTERPRISES
Congress established Fannie Mae and Freddie Mac as GSEs to support the supply of mortgage loans. A key function of
the GSEs is to package purchased mortgages into securities, which are subsequently sold to investors.

Leading up to the financial crisis, increasingly difficult conditions in the housing market challenged the soundness and
profitability of the GSEs, thereby undermining the entire housing market. This led Congress to pass the Housing and
Economic Recovery Act (HERA) (P.L. 110-289). This Act created the new FHFA, with enhanced regulatory authority over
the GSEs, and provided the Secretary with certain authorities intended to ensure the financial stability of the GSEs, if
necessary. On September 7, 2008, FHFA placed the GSEs under conservatorship, and the Department entered into a
Senior Preferred Stock Purchase Agreement (SPSPA) with each GSE. These actions were taken to preserve the GSEs’
assets, ensure a sound and solvent financial condition, and mitigate systemic risks that contributed to current market
instability. The SPSPAs were amended in August 2012 (the amended SPSPAs) which changed, among other things, the
basis by which quarterly dividends are paid by the GSEs to the U.S. Government. The dividend change in the amended
SPSPAs is effective commencing with the quarter ending March 31, 2013.

The actions taken by the Department thus far are temporary, as defined by section 1117 of HERA, and are intended to
provide financial stability. The purpose of the Department’s actions is to maintain the solvency of the GSEs so they can
continue to fulfill their vital roles in the home mortgage market while the Administration and Congress determine what
structural changes should be made. The FHFA director may terminate the conservatorship if safe and solvent conditions
can be established. Draws under the SPSPAs are designed to ensure that the GSEs maintain positive net worth as a result
of any net losses from operations, and also meet taxpayer dividend requirements under the SPSPAs. The SPSPAs were
structured to ensure any draws result in an increased nominal investment as further discussed below.

Under the SPSPAs, the Department initially received from each GSE: (i) 1,000,000 shares of non-voting variable
liquidation preference senior preferred stock with a liquidation preference value of $1,000 per share, and (ii) a non-
transferrable warrant for the purchase, at a nominal cost, of 79.9 percent of common stock on a fully-diluted basis. The
warrants expire on September 7, 2028. Through December 31, 2012, the senior preferred stock accrues dividends at 10.0
percent per year, payable quarterly. Under the amended SPSPAs, the quarterly dividend payment will change from a
10.0 percent per annum fixed rate dividend to an amount equivalent to the GSE’s positive net worth above a capital
reserve amount. The capital reserve amount is initially set at $3.0 billion for calendar year 2013, and declines by $600
million at the beginning of each calendar year thereafter until it reaches zero by calendar year 2018. The GSEs will not
pay a quarterly dividend if their positive net worth is not above the required capital reserve threshold; in such cases, the
Department may be required to provide funding pursuant to the amended SPSPAs.

Cash dividends of $18.4 billion and $15.6 billion were received during fiscal years ended September 30, 2012 and 2011,
respectively. In addition, beginning in fiscal year 2011, the GSEs were scheduled to begin paying the Department a
“Periodic Commitment Fee” (PCF) on a quarterly basis, payable in cash or via an increase to the liquidation preference.
This fee may be waived by the Department for up to one year at a time if warranted by adverse mortgage market
conditions. The Department waived the PCF payments for calendar years 2012 and 2011 given that the imposition of the
PCF at that time would not fulfill its intended purpose of generating increased compensation to the American taxpayer.
Commencing January 1, 2013, the PCF will no longer be required pursuant to the amended SPSPAs.



                                                             98
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
The SPSPAs, which have no expiration date, provide for the Department to disburse funds to the GSEs if, at the end of
any quarter, the FHFA determines that the liabilities of either GSE exceed its assets. The maximum amount available to
each GSE under this agreement was originally $100.0 billion in fiscal year 2008, raised to $200.0 billion in fiscal year
2009, and replaced in fiscal year 2010 with a formulaic cap. This formulaic cap allows for continued draws for a three-
year period ending December 2012 at amounts that will automatically adjust upwards quarterly by the cumulative
amount of any net deficits realized by either GSE and downward by the GSE’s positive net worth, if any, as of December
31, 2012, but not below $200.0 billion, and will become fixed at the end of the three-year period. At the conclusion of
this period, the remaining commitment will then be fully available to be drawn per the terms of the agreements (referred
to hereafter as the “Adjusted Caps”). Draws against the funding commitment of the SPSPAs do not result in the issuance
of additional shares of senior preferred stock; instead, the liquidation preference of the initial 1,000,000 shares is
increased by the amount of the draw.

Actual payments to the GSEs for fiscal years ended September 30, 2012 and 2011 were $18.5 billion and $20.8 billion,
respectively. Additionally, $9.0 billion and $316.2 billion were accrued as a contingent liability as of September 30, 2012
and 2011, respectively. This accrued contingent liability is based on the projected future draws under the SPSPAs. It is
undiscounted and does not take into account any of the offsetting dividends which may be received, as the dividends are
owed directly to the General Fund.


ACCOUNTING TREATMENT
Entity Transactions ― The estimated contingent liability to the GSEs accrued pursuant to the SPSPAs is funded
through the Department’s direct appropriations. Therefore, they are reflected at their gross amount as “entity” costs on
the Department’s Consolidated Statements of Net Cost and in the line item, “Cumulative Results of Operations” on the
Department’s Consolidated Balance Sheets, without considering the increase in senior preferred stock liquidation
preference/fair value adjustments, future dividend receipts from the GSEs, or any PCFs.

Non-Entity Transactions ― As actual payments are made to the GSEs, they result in increases to the U.S.
Government’s liquidation preference in the GSEs’ senior preferred stock, and thus represent General Fund exchange
revenue reported on the Department’s Consolidated Statements of Net Cost as “GSEs Non-Entity Cost (Revenue).” The
associated valuation losses and dividends are General Fund-related costs and revenues that are likewise reported as
“GSEs Non-Entity Cost (Revenue).”


INVESTMENTS IN GSES
As of September 30, 2012 and 2011, the Department’s investments in the GSEs consisted of the following (in millions):

                                                                             Gross          Cumulative
                                                                      Investments            Valuation             9/30/12
GSEs Investments                                                     As of 9/30/12                 Loss          Fair Value
Fannie Mae Senior Preferred Stock                                   $      116,989        $    (51,331)        $    65,658
Freddie Mac Senior Preferred Stock                                          72,160            (30,224)               41,936
Fannie Mae Warrants Common Stock                                             3,104              (1,956)               1,148
Freddie Mac Warrants Common Stock                                            2,264              (1,664)                 600
Total GSEs Investments                                              $      194,517        $     (85,175)       $    109,342




                                                             99
                                                                U.S. Department of the Treasury | Fiscal Year 2012


                                                                             Gross            Cumulative
                                                                      Investments              Valuation             9/30/11
GSEs Investments                                                     As of 9/30/11                  Loss           Fair Value
Fannie Mae Senior Preferred Stock                                  $       104,627        $     (26,718)       $      77,909
Freddie Mac Senior Preferred Stock                                          66,004              (12,380)              53,624
Fannie Mae Warrants Common Stock                                             3,104                (2,137)                967
Freddie Mac Warrants Common Stock                                            2,264                (1,721)                543
Total GSEs Investments                                             $        175,999       $      (42,956)      $       133,043



SENIOR PREFERRED STOCK AND WARRANTS FOR COMMON STOCK
In determining the fair value of the senior preferred stock and warrants for common stock, the Department relied on the
GSEs’ public filings and press releases concerning its financial statements, projection forecasts, monthly summaries,
quarterly credit supplements, independent research regarding high-yield bond and preferred stock trading, independent
research regarding the GSEs’ common stock trading, discussions with the GSE’s management, and other information
pertinent to the fair valuations. Because of the nature of the instruments, which are not publicly traded and for which
there is no comparable trading information available, the fair valuations rely on significant unobservable inputs that
reflect assumptions about the expectations that market participants would use in pricing.

The fair value of the senior preferred stock considers the amount of forecasted dividend payments. The fair valuations
assume that a hypothetical buyer would acquire the discounted dividend stream as of the transaction date. The
significant decline in the fair value of the senior preferred stock at September 30, 2012 compared to 2011 is primarily due
to a decrease in expected dividend payments and an increase in the discount rate used in the current year’s valuation to
reflect more of the variable nature of the future cash flows anticipated as a result of the amended SPSPAs compared to
the prior fiscal year.

The fair value of the warrants are impacted by the nominal exercise price and the large number of potential exercise
shares, the market trading of the common stock that underlies the warrants as of September 30, the principal market,
and the market participants. Other discounting factors are the holding period risk related directly to the amount of time
that it will take to sell the exercised shares without depressing the market and the other activity under the SPSPA.


CONTINGENT LIABILITIES TO GSES
As part of the fair valuation exercise, the Department prepared a series of long-range forecasts through 2025 to
determine what the implied amount of the total contingent liability to the GSEs under the SPSPAs would be as of
September 30. Since future payments under the SPSPAs are deemed to be probable, the Department estimated a
contingent liability of $9.0 billion as of September 30, 2012. This estimate reflects the projected equity deficits of the
GSEs stemming from credit losses and contractual dividend requirements until December 31, 2012. The estimated
contingent liability as of September 30, 2012 included several case scenarios which resulted in total SPSPA estimates
ranging from $3.5 billion (based on an “optimistic” case scenario) to $22.4 billion (based on an “extreme” case scenario).
The $9.0 billion contingent liability reported as of September 30, 2012 reflects the Department’s best estimate. This
compares to the $316.2 billion contingent liability reported as of September 30, 2011 which was based on a range of
$309.6 billion to $376.1 billion. At September 30, 2012, the maximum remaining potential commitment to the GSEs for
the remaining life of the SPSPAs under the Adjusted Caps was estimated at $282.3 billion, which was based upon case
scenario estimates ranging from $274.0 billion to $291.5 billion. The recorded contingent liability of $316.2 billion at
September 30, 2011 constituted the maximum commitment payable under the Adjusted Caps, minus actual payments



                                                             100
                                                                   U.S. Department of the Treasury | Fiscal Year 2012
made through the end of that fiscal year. Such accruals are adjusted as new information develops or circumstances
change.

Based on the annual valuation of the Department’s estimated future contingent liability, the Department reduced its
estimated liability by $288.7 billion and $22.9 billion at the end of fiscal years 2012 and 2011, respectively, via a
reduction in expense. The significant reduction in this estimated liability at September 30, 2012 compared to 2011 is
primarily due to a forecasted reduction in the amount of future draws needed by the GSEs which, in part, reflects lower
quarterly dividend payments anticipated as a result of the amended provisions of the SPSPAs. The Department reported
this expense reduction as a reduction to entity costs within the Economic Program section of the Department’s
Consolidated Statements of Net Cost.

In determining the contingent liability estimates, the Department relied on the GSEs’ public filings and press releases
concerning its audited and unaudited financial statements, monthly summaries, quarterly credit supplements, September
2012 forecast for the years 2012 through 2015 (as provided by FHFA), and discussions with the GSEs’ forecasting team
and FHFA. The forecasted draws under the SPSPAs after December 31, 2015 were based on general guidance provided by
the GSE managers as to the key assumptions that were used for subsequent periods. Absent longer-term financial
forecasts from the GSEs and FHFA, the forecasts after 2015 generally assume similar operating assumptions on the
guarantee business and assume a gradual wind-down of the retained portfolios (and corresponding net interest income)
through 2025, as directed under the amended SPSPAs for each GSE to reduce the maximum balance of its retained
mortgage portfolio by 15.0 percent per annum beginning December 31, 2013 (a change from the 10.0 percent per annum
prior to the amended SPSPAs). The maximum balance of the GSEs’ retained mortgage portfolio is initially set at $650
billion as of December 31, 2012, and is required under the amended SPSPAs to be reduced to $250.0 billion by December
31, 2018. The Department also relied upon economic and demographic data from the 2012 Annual Report of the Board
of Trustees of the Federal Old-Age and Survivors Insurance and Federal Disability Insurance Trust Funds and the FHFA’s
House Price Index.

As of September 30, 2012 and 2011, the summarized unaudited aggregated financial condition of the GSEs was as follows
(in millions):
                                                                                                    2012                2011
Combined Assets
   Investment Securities                                                                 $       338,974      $      422,741
   Mortgage Loans                                                                              4,641,231           4,715,057
   Other                                                                                         262,548             248,415
Total Combined Assets                                                                          5,242,753           5,386,213
Combined Liabilities
   Long-Term Debt                                                                             4,963,297            4,974,759
   Other                                                                                        272,137              425,236
Total Combined Liabilities                                                                    5,235,434            5,399,995
Combined Net Equity (Deficit)                                                            $        7,319       $      (13,782)
For the Nine Months Ended September 30
Combined Net Interest Income                                                             $        29,097      $       28,832
Combined Provisions for Loan Losses                                                              (3,628)            (28,672)
Combined Net Interest Income After Provision for Loan Losses                             $        25,469      $          160
Combined Regulatory Capital - Minimum Capital Deficit as of September 30                 $     (231,949)      $     (231,531)
Excludes financial guarantees not consolidated on GSE balance sheets.

The above information was taken directly from the quarterly reports filed with the SEC, which are publicly available on
the SEC’s website (www.SEC.gov) and also the GSE investor relations websites.


                                                               101
                                                               U.S. Department of the Treasury | Fiscal Year 2012
Both GSEs reported significantly lower early delinquencies on additions to their credit books on loans originated after
2008. This favorable early delinquency experience is an improvement compared with the loans originated in 2005
through 2008. Incremental draws under the SPSPAs through December 31, 2012 are projected in order to meet the 10.0
percent per annum dividend payment requirement. Under the amended SPSPAs, both GSEs may require additional
draws should they report a net deficit in any quarter commencing with the quarter ending March 31, 2013.

Under the amended SPSPAs, the Department’s forecasts indicate that each GSE will not fully utilize the amount of
funding available under the Adjusted Cap. The Department’s forecasts of future liquidity payments may differ from
actual experience. Future actual liquidity payment levels will depend on numerous factors that are difficult to predict,
including, but not limited to, changes in government policy with respect to the GSEs, the business cycle, inflation, home
prices, unemployment rates, interest rates, changes in housing preferences, home financing alternatives, availability of
debt financing, market rates of guarantee fees, outcomes of loan refinancings and modifications, new housing programs,
and other applicable factors.


GSES NON-ENTITY COST (REVENUE)
For the fiscal years ended September 30, 2012 and 2011, GSEs Non-Entity Cost (Revenue) consisted of the following (in
millions):

Summary of GSEs Non-Entity Cost (Revenue)                                                        2012               2011
General Fund Revenue from Increase in Liquidity Preference of GSEs
  Preferred Stock                                                                       $    (18,519)     $     (20,766)
Fair Value (Gain)/Loss on GSEs Warrants/Preferred Stock                                       42,220             (3,061)
GSEs Preferred Stock Dividends                                                               (18,379)           (15,588)
Total GSEs Non-Entity Cost (Revenue)                                                    $       5,322     $     (39,415)

REGULATORY ENVIRONMENT
Pursuant to a provision within the Dodd Frank Act, the Secretary conducted a study and developed recommendations
regarding the options for ending the conservatorship. In February 2011, the President delivered to Congress a report
from the Secretary that provided recommendations regarding the options for ending the conservatorship and plans to
wind down the GSEs. To date, Congress has not approved a plan to address the future of the GSEs, thus the GSEs
continue to operate under the direction of their conservator, the FHFA, who’s stated planned objectives are to build a
revitalized infrastructure for the secondary mortgage market and a continued gradual contraction of the GSEs presence
in the secondary mortgage market.

In December 2011, Congress passed the Temporary Payroll Tax Cut Continuation Act of 2011 (TPTCCA), which was
funded by an increase of ten basis points in the GSEs’ guarantee fees beginning April 1, 2012, and is effective through
October 1, 2021. The increased fees are to be remitted to the Department and not retained by the GSEs. On September
28, 2012, the GSEs remitted to the Department an amount of $35 million as the first payment of these increased fees
covering the period of April 1, 2012 through June 30, 2012. This increase in guarantee fees did not affect the profitability
of the GSEs during that time period.




                                                            102
                                                                          U.S. Department of the Treasury | Fiscal Year 2012

9. INVESTMENTS IN INTERNATIONAL FINANCIAL INSTITUTIONS
Investments in international financial institutions (or Multilateral Development Banks) consist of investments in the
World Bank Group (International Bank for Reconstruction and Development, International Finance Corporation, and
Multilateral Investment Guarantee Agency), and five regional development banks (the Inter-American, European, Asian,
North American, and African institutions), as enumerated in the table below.

As of September 30, 2012 and 2011, investments in international financial institutions consisted of the following (in
millions):
                                                                                                                 2012                      2011
International Bank for Reconstruction and Development                                                    $      2,103             $       1,985
Inter-American Development Bank (1)                                                                             1,587                     1,508
European Bank for Reconstruction and Development                                                                  636                       636
International Finance Corporation                                                                                 569                       569
Asian Development Bank                                                                                            671                       565
North American Development Bank                                                                                   225                       225
African Development Bank                                                                                          207                       174
Multilateral Investment Guarantee Agency                                                                           45                        45
Total                                                                                                    $      6,043             $       5,707
Refer to Note 28 for a description of the additional commitments related to these institutions.
(1) Includes Inter-American Investment Corporation



10. OTHER INVESTMENTS AND RELATED INTEREST
Other investments and related interest include foreign currency holdings that are typically invested in interest-bearing
securities issued or held through foreign governments or monetary authorities (See Note 5). ESF holds most of the
Department’s foreign currency investments. Other foreign currency-denominated assets and investment securities are
considered available-for-sale securities and recorded at fair value. These holdings are normally invested in interest-
bearing securities issued or held through foreign governments or monetary authorities.
As of September 30, 2012 and 2011, other investments and related interest consisted of the following (in millions):

                                             Cost/     Unamortized                                   9/30/12
                                        Acquisition     (Premium)/                Interest               Net     Unrealized             9/30/12
Type of Investment                           Value         Discount             Receivable        Investment    Gain/(Loss)           Fair Value
Foreign Investments:
  Euro Bonds & Notes                $        4,317     $          109       $           83    $        4,509    $          156        $      4,665
  Japanese Government Bonds                  7,959                  27                   7             7,993                 18              8,011
  Other FCDAs                                2,739                   -                   -             2,739                  -              2,739
Other Investments                               30                 (2)                   -                28                (7)                 21
Total Non-Federal                   $       15,045     $           134      $           90    $       15,269    $          167        $     15,436



                                              Cost/        Unamortized                                9/30/11
                                         Acquisition        (Premium)/             Interest               Net        Unrealized             9/30/11
Type of Investment                            Value            Discount          Receivable        Investment       Gain/(Loss)           Fair Value
Foreign Investments:
  Euro Bonds & Notes                $        4,498     $            85      $           98    $       4,681     $          149        $      4,830
  Japanese Government Bonds                  8,037                 28                    7            8,072                 20               8,092
  Other FCDAs                                2,851                   -                   -            2,851                   4              2,855
Other Investments                               30                 (2)                   -               28                 (7)                 21
Total Non-Federal                   $       15,416     $           111      $          105    $      15,632     $          166        $     15,798




                                                                   103
                                                               U.S. Department of the Treasury | Fiscal Year 2012

11. OTHER CREDIT PROGRAM RECEIVABLES, NET
The Department administers a number of programs, in addition to the TARP programs, designed to stabilize the nation’s
financial system and restore the flow of credit to consumers, businesses, and homeowners. For fiscal years ended
September 30, 2012 and 2011, other credit program receivables, net consisted of the following (in millions):
                                                                                                  2012                  2011
Government Sponsored Enterprise Programs:
  GSEs Mortgage-Backed Securities Purchase Program                                       $           -         $     72,417
  State and Local Housing Finance Agency Program                                                12,556               14,328
Small Business Lending Fund Program                                                              3,930                4,108
International Monetary Fund Programs:
  Reserve Position in the IMF Quota Program (FCRA portion)                                      1,858                 1,931
  New Arrangements to Borrow Program (FCRA portion)                                              1,511                    -
Community Development Financial Institutions Direct Loans Program                                   33                   36
Total                                                                                    $     19,888          $    92,820

GSES MORTGAGE-BACKED SECURITIES PURCHASE PROGRAM
HERA authorized the Department to purchase GSE MBS consisting of mortgage pass-through securities issued by Fannie
Mae and Freddie Mac. The Department, using private sector asset managers, purchased MBS on the open market. By
purchasing these credit-guaranteed securities, the Department sought to broaden access to mortgage funding for current
and prospective homeowners and to promote stability in the mortgage market. The authority granted by Congress to
purchase MBS expired on December 31, 2009, at which point the purchase of new securities ended.

The Department originally planned to hold the MBS securities to maturity. However, in fiscal year 2011, the Department
decided its goals had been achieved and began an orderly sale of its MBS portfolio. Sales were completed during fiscal
year 2012.

As of September 30, 2011, the $72.4 billion MBS net credit program receivable included a negative subsidy allowance of
$1.8 billion. The subsidy allowance was negative in that the Department expected to generate earnings in excess of costs
on its portfolio. Because the Department originally planned to hold all MBS securities to maturity, the sale of the GSE
MBS portfolio was not considered in the formulation estimate for the GSE MBS program. Accordingly, the Department
recorded a modification in fiscal year 2011, resulting in an upward reestimate or increase in the cost of the program by
$9.7 billion. Subsequently, at September 30, 2011, the Department performed a financial statement reestimate of the
program’s cost that resulted in a downward reestimate, or a decrease in the cost of the program, by $7.9 billion. The
decrease in program costs was the result of higher than projected sales proceeds when compared to projected sales
proceeds in the modification. The effects of the modification and financial statement reestimate, when combined with
other reconciling items, resulted in the $1.8 billion negative subsidy allowance at September 30, 2011 (see the fiscal year
2011 table below). At September 30, 2012, the Department performed a financial statement reestimate of the program’s
cost that identified excess sales proceeds of $705 million for fiscal year 2012. A closing reestimate will be performed in
early fiscal year 2013.


STATE AND LOCAL HOUSING FINANCE AGENCY (HFA) INITIATIVE
Under HERA, the Department, together with the Federal Housing Finance Agency (FHFA), Fannie Mae, and Freddie
Mac, created an initiative in October 2009 to provide support to HFAs. This initiative was designed to support low
mortgage rates and expand resources for low and middle income borrowers to purchase or rent homes, making them
more affordable over the long term. The HFA initiative is comprised of two separate programs: (i) the New Issue Bond
Program (NIBP) and (ii) the Temporary Credit and Liquidity Program (TCLP), with modified conversion authority
expiration dates of December 31, 2012 and December 31, 2015, respectively. As of September 30, 2012 and 2011, the

                                                            104
                                                                 U.S. Department of the Treasury | Fiscal Year 2012
HFA net credit program receivable of $12.6 billion and $14.3 billion, respectively, included a positive subsidy allowance
of $1.1 billion and $815 million, respectively, which reflects the Department’s projection that the HFA program will result
in a net cost to the Department after accounting for repayments, interest, and fees.

Under the terms of the NIBP, the Department purchased securities of Fannie Mae and Freddie Mac backed by new
mortgage revenue bonds issued by HFAs. As of September 30, 2012 and 2011, the NIBP gross credit program receivable
was $13.7 billion and $15.1 billion, respectively. The Department performed a financial statement reestimate of the NIBP
program’s cost as of September 30, 2012. This reestimate increased the cost of the program by $588 million. The
upward reestimate in fiscal year 2012 was primarily driven by lower projected prepayment rates and lower than expected
market interest rates which reduced coupon rates for the HFA bonds converted from escrow in fiscal year 2012. The drop
in prepayment rates increases the cost of the program since the HFA bonds carry a lower weighted average coupon than
the funding cost of the program. The reestimate performed at September 30, 2011 increased the cost of the program by
$9 million. This upward reestimate was driven by lower market interest rates used to calculate the coupon rates on the
expected release of escrowed NIBP funds between September 30, 2011 and December 31, 2011.

Under the terms of the TCLP, the Department entered into participation interests with Fannie Mae and Freddie Mac,
supporting credit and liquidity facilities that the GSEs are providing to eight states as part of the program. Fannie Mae
and Freddie Mac provided replacement credit and liquidity facilities to HFAs to help reduce the costs of maintaining
existing financing and relieve financial strains on the HFAs. The Department agreed to support the GSE replacement
credit and liquidity facilities by purchasing GSE securities backed by HFA bonds tendered to the GSEs. As of September
30, 2012 and 2011, the liquidity facilities covered $3.9 billion and $6.6 billion, respectively, of single-family and multi-
family variable-rate demand obligations (VRDOs). As of September 30, 2012 and 2011, none of these bonds had been
tendered to the GSEs and, accordingly, the Department had not disbursed any funds. As such, the Department did not
perform September 30, 2012 or 2011 subsidy reestimates for TCLP.


SMALL BUSINESS LENDING FUND
On September 27, 2010, the Small Business Jobs Act of 2010 (P.L. 111-240) was enacted and, in part, created the SBLF
program. Pursuant to the Act, the Department provided capital to qualified community banks to encourage lending to
small businesses. As an incentive to participating banks to increase lending to small businesses, the dividend rate a bank
pays to the Department for SBLF funding will be reduced as the bank’s small business lending increases. The initial
dividend rate of 5.0 percent may be reduced to as low as 1.0 percent. If lending does not increase by the end of the first
two years, the rate will increase to 7.0 percent. The program provides an incentive for banks to repay loans within 4 ½
years. At that time, the rate will increase to 9.0 percent for all banks remaining in the program. The Department treats
these purchases of capital as direct loans in accordance with the requirements of FCRA. The Department’s authority to
provide new capital to SBLF participants expired on September 27, 2011, and accordingly, there were no new capital
disbursements in fiscal year 2012.

As of September 30, 2012 and 2011, SBLF net credit program receivable was $3.9 billion and $4.1 billion, respectively.
These amounts include a positive subsidy allowance of $50 million at September 30, 2012, indicating an increase in
program costs, and a negative subsidy allowance of $80 million at September 30, 2011, indicating expected earnings in
excess of costs.

The Department performed a financial statement reestimate of the program’s cost as of September 30, 2012 and 2011.
These reestimates resulted in an upward reestimate, or an increase in the cost of the program, of $105 million as of
September 30, 2012, and resulted in a downward reestimate, or a decrease in the cost of the program, of $372 million as
of September 30, 2011. Both the 2012 and 2011 reestimates were driven by changes in performance assumptions, actual
performance to-date, and actual program funding costs. The 2012 performance assumptions anticipate an increased cost

                                                             105
                                                                 U.S. Department of the Treasury | Fiscal Year 2012
due to lower dividend rates, both actual and projected, paid by participating institutions relative to the dividend rates
projected as of September 30, 2011. These lower dividend rates are the result of continuing success by participating banks
in increasing small business lending.


INTERNATIONAL MONETARY FUND
In 2009, Congress passed the Supplemental Appropriations Act of 2009 which authorized an increase in the U.S. quota
in the IMF, as well as an increase in U.S. participation in the New Arrangements to Borrow (NAB), one of the IMF’s
supplemental borrowing arrangements (Note 12). For the first time, Congress subjected both program increases to
FCRA. Under FCRA, both program increases are treated as direct loans to the IMF. For U.S. budget and accounting
purposes, there are effectively two portions of the IMF quota and NAB programs. The IMF quota program comprises a
FCRA portion of $7.7 billion and a non-FCRA portion of $57.3 billion. The IMF NAB program comprises a FCRA portion
of $96.3 billion and a non-FCRA portion of $10.2 billion. The U.S. commitments to the IMF are denominated in SDRs
and, thus, the dollar amounts of these commitments fluctuate with the SDR valuation rate. These designations only
affect the manner in which the Department accounts for the use and repayment of these funds. The following is a
discussion of the FCRA portions of both the U.S. quota and NAB programs.

United States Quota
On March 25, 2011, the Department disbursed $2.0 billion (SDR 1.2 billion) to increase the reserve asset portion of the
U.S. quota. The undisbursed FCRA portion is reported as a letter of credit (Note 12). At September 30, 2012 and 2011,
the IMF program had a net credit program receivable of $1.9 billion, which included a positive subsidy allowance of $137
million and $64 million, respectively, which reflects the Department’s projection that the program will result in a net cost
to the Department after accounting for repayments, interest, and fees. The Department performed a financial statement
reestimate of the program’s cost as of September 30, 2012 and 2011. The reestimate resulted in an increase in program
costs (an upward reestimate) of $67 million and $15 million for fiscal years 2012 and 2011, respectively, primarily due to
a fluctuation in the valuation of the SDR rate since the calculation of the fiscal year 2011 reestimate.

New Arrangements To Borrow
On April 12, 2012, the Department made its initial FCRA disbursement to the NAB of $629 million. As of September 30,
2012, disbursements for fiscal year 2012 totaled $1.5 billion. The program had a negative subsidy allowance of $21
million as of September 30, 2012.

The Department performed a financial statement reestimate of the program’s cost as of September 30, 2012. This
reestimate resulted in a decrease in the cost of the program (a downward reestimate) of $25 million primarily due to a
fluctuation in the valuation of the SDR rate since the timing of the disbursements in April and August 2012.


SUMMARY TABLES
The following tables provide the net composition of the Department’s portfolio, subsidy cost, modifications and
reestimates, a reconciliation of subsidy cost allowances, budget subsidy rates, and the components of the subsidy for each
credit program for the fiscal years ended September 30, 2012 and 2011.




                                                             106
                                                                         U.S. Department of the Treasury | Fiscal Year 2012
                                                                    2012
                                                                                            IMF-            IMF-
(in millions)                             GSE MBS         HFA              SBLF             Quota           NAB            Other        TOTAL
Credit Program Receivables, Net:
  Credit Program Receivables, Gross   $           -   $   13,684     $        3,980     $     1,995     $   1,490      $      46    $    21,195
  Subsidy Cost Allowance                          -       (1,128)              (50)           (137)            21            (13)        (1,307)
Net Credit Program Receivables        $           -   $   12,556     $        3,930     $     1,858     $    1,511     $      33    $    19,888
New Credit Program Loans
 Disbursed                            $           -   $         -    $              -   $           -   $   1,490      $        -   $     1,490


Budget Subsidy Rate, Excluding
  Modifications and Reestimates:
  Interest Differential                           -             -                   -               -       0.26%               -
  Other                                           -             -                   -               -       0.08%               -
Total Budget Subsidy Rate                         -             -                   -               -       0.34%               -
Subsidy Cost by Component:
 Interest Differential                $           -   $         -    $              -   $           -   $       4      $        -   $         4
  Other                                           -             -                   -               -            1              -               1
Total Subsidy Cost, Excluding
  Modifications and Reestimates       $           -   $         -    $              -   $           -   $       5      $        -   $         5

Reconciliation of Subsidy Cost
  Allowance:
  Balance, Beginning                  $     (1,831)   $      815     $         (80)     $       64      $          -   $      17    $    (1,015)
  Subsidy Cost for Disbursements                  -            -                    -               -           5               -             5
  Subsidy Cost for Modifications                  -         (73)                    -               -           -               -          (73)
  Fees Received                                   -           38                    -               -              -            -            38
  Subsidy Allowance Amortized                  915         (240)                  25                6          (1)            (1)           704
  Other                                      1,621              -                   -               -              -            -         1,621
Balance, Ending, Before Reestimates            705           540               (55)             70              4             16          1,280
Subsidy Reestimates                          (705)          588                 105             67           (25)             (3)            27
Balance, Ending                       $           -   $    1,128     $            50    $      137      $     (21)     $      13    $     1,307


Reestimates
  Interest Rate Reestimate            $        128    $         -    $              -   $           -   $          -   $        -   $       128
  Interest on Reestimate                      (82)            61                   4                -              -          (1)           (18)
  Technical/Default Reestimate               (751)           527                  101           67           (25)             (2)          (83)
Total Reestimates – Increase
(Decrease) in Subsidy Cost            $      (705)    $     588      $          105     $       67      $    (25)      $      (3)   $        27


Reconciliation of Subsidy Costs:
  Subsidy Cost for Disbursements      $           -   $        -     $              -   $           -   $       5      $        -   $         5
  Subsidy Cost for Modifications                  -         (73)                    -               -           -               -          (73)
 Subsidy Reestimates                         (705)          588                 105             67           (25)             (3)            27
Total Credit Program Receivables
  Subsidy Costs                       $      (705)    $      515     $          105     $       67      $    (20)      $      (3)   $       (41)
Administrative Expense                $          11   $         -    $            16    $           -   $          -   $        -   $        27




                                                                    107
                                                                                U.S. Department of the Treasury | Fiscal Year 2012
                                                                           2011

(in millions)                                       GSE MBS               HFA              SBLF             IMF(2)          Other            TOTAL
Credit Program Receivables, Net:
 Credit Program Receivables, Gross             $        70,586     $      15,143      $       4,028     $     1,995    $        53    $           91,805
  Subsidy Cost Allowance                                  1,831            (815)                  80           (64)           (17)                 1,015
Credit Program Receivables, Net                $         72,417    $      14,328      $        4,108    $     1,931    $        36    $          92,820
New Credit Program Loans
  Disbursed                                    $              -    $              -   $       4,028     $     1,995    $         -    $            6,023
Obligations for Loans Not Yet
  Disbursed (1)                                $              -    $              -   $            -    $     6,026    $         -    $            6,026

(1)     Excludes $97.5 billion of obligated but undisbursed IMF-NAB loans which are accounted for pursuant to FCRA. The obligation is based on the SDR
        exchange rate as of September 30, 2011 and has a 0.34 percent subsidy rate.
(2)     All credit program receivable and loan disbursement balances under this program relate to the IMF Quota. The balance of obligations for loans not
        yet disbursed relate to the IMF-NAB.
Budget Subsidy Rate, Excluding
  Modifications and Reestimates:
 Interest Differential                                        -                   -        (26.54%)          1.69%               -
 Defaults                                                     -                   -          19.88%          0.02%               -
 Other                                                        -                   -          13.90%          0.63%               -
Total Budget Subsidy Rate                                     -                   -           7.24%          2.34%               -


Subsidy Cost by Component:
  Interest Differential                        $              -    $              -   $      (1,069)    $        34    $         -    $          (1,035)
      Defaults                                                -                   -              801               -             -                   801
  Other                                                       -                   -             560              13              -                   573
Total Subsidy Cost, Excluding
  Modifications and Reestimates                $              -    $              -   $         292     $        47    $         -    $              339

Reconciliation of Subsidy Cost
  Allowance:
  Balance, Beginning                           $        (7,894)    $       1,186      $            -    $          -   $        15    $          (6,693)
  Subsidy Cost for Disbursements                              -                   -             292              47              -                   339
  Subsidy Cost for Modifications                         9,738                    -                -               -             -                 9,738
      Fees Received                                           -               30                   -               -             -                    30
  Subsidy Allowance Amortized                            2,885             (410)                   -              2              -                 2,477
      Other                                               1,364                   -                -               -             -                 1,364
Balance, Ending, Before Reestimates                      6,093              806                 292              49             15                 7,255
Subsidy Reestimates                                     (7,924)                 9              (372)             15              2               (8,270)
Balance, Ending                                $        (1,831)    $         815      $         (80)    $        64    $        17    $           (1,015)


Reestimates:
  Interest Rate Reestimate                     $              -    $              -   $         (58)    $          -   $         -    $             (58)
  Technical/Default Reestimate                          (7,924)                 9              (314)             15              2               (8,212)
Total Reestimates - Increase
(Decrease) in Subsidy Cost                     $        (7,924)    $            9     $        (372)    $        15    $         2    $          (8,270)


Reconciliation of Subsidy Costs:
  Subsidy Cost for Disbursements               $             -     $              -   $         292     $        47    $         -    $              339
  Subsidy Cost for Modifications                         9,738                    -               -               -              -                 9,738
  Subsidy Reestimates                                   (7,924)                 9              (372)             15              2               (8,270)
Total Credit Program Receivables
  Subsidy Costs                                $          1,814    $            9     $         (80)    $        62    $         2    $            1,807
Administrative Expense                         $             21    $              -   $            -    $          -   $         -    $               21




                                                                           108
                                                                             U.S. Department of the Treasury | Fiscal Year 2012

12. RESERVE POSITION IN THE INTERNATIONAL MONETARY
    FUND AND RELATED LOANS AND INTEREST RECEIVABLE
The United States participates in the IMF through a quota subscription and certain borrowing arrangements that
supplement IMF resources. The U.S. Congress enacted the Supplemental Appropriations Act of 2009 (P.L. 111-32)
which provided for an increase of approximately SDR 5.0 billion (approximately $8.0 billion) in the U.S. quota in the
IMF effective in March 2011. P.L. 111-32 also provided for an increase in the United States’ participation in the NAB up to
the dollar equivalent of SDR 75 billion, activated in April 2011. Unlike all prior U.S. funding for the IMF, P.L. 111-32
subjects the increases in both the U.S. quota and the NAB to the requirements of FCRA. The existing portions of the U.S.
quota and NAB funding, referred to as “non-FCRA funds,” are accounted for in the same manner as they previously had
been, and do not result in net budgetary outlays. The new portions of this funding provided under P.L. 111-32 are
accounted for in accordance with credit reform accounting guidelines (Note 11). For the FCRA portions of the U.S. quota
and NAB, subsidy costs of the programs are treated as net budgetary outlays and a credit program receivable is
established for the amount disbursed. The net budgetary outlay, under FCRA, constitutes the shortfall or excess between
program disbursements and the net present value of expected future repayments.


RESERVE POSITION IN THE INTERNATIONAL MONETARY FUND
Quota subscriptions are paid partly through the transfer of reserve assets, such as foreign currencies or SDRs, which are
international reserve assets created by the IMF, and partly by making domestic currency available as needed through a
non-interest-bearing letter of credit. This letter of credit, issued by the Department and maintained by the FRBNY,
represents the Department’s available commitment to the IMF which may be drawn upon by the IMF.

Transfers to the IMF under the U.S. quota do not result in net budgetary outlays as they constitute an exchange of
monetary assets in which the United States receives an equal offsetting claim on the IMF in the form of an increase in the
U.S. reserve position in the IMF. Similarly, when the IMF repays dollars to the United States, no net budgetary receipt
results because the U.S. reserve position declines concurrently in an equal amount. The U.S. reserve position is an
interest-bearing asset like other international reserve assets held by the United States, and is available at any time to
meet U.S. funding needs.

As of September 30, 2012 and 2011, the U.S. quota in the IMF was SDR 42.1 billion. The U.S. dollar value of the U.S.
quota consisted of the following (in millions):

                                                                 Non-                           Total              Non-                          Total
                                                                FCRA        FCRA(3)             2012              FCRA       FCRA(3)             2011
Letter of Credit(1)                                       $    35,718      $    5,747     $    41,465      $      37,331    $ 5,792       $    43,123
Reserve Position(2)                                            21,573           1,923          23,496            20,682       1,974            22,656
Total U.S. Quota in the IMF                               $    57,291      $    7,670     $    64,961      $     58,013     $    7,766    $     65,779

(1) This amount is included as part of the Fund Balance as reported on the Consolidated Balance Sheets and ”Appropriated Funds”
     as disclosed in Note 2. Amount also includes approximately 0.25 percent of the U.S. quota that is held in cash in an IMF account at the FRBNY.
(2) The amounts shown in the non-FCRA columns are included in the Reserve Position in the IMF on the Consolidated Balance Sheets,
    while the amount in the FCRA columns represents SDR 1.2 billion at the current exchange rate.
(3) Represents the FCRA portion of the U.S. quota in the IMF which is included in Other Credit Program Receivables, Net on the Consolidated Balance
     Sheets.


The U.S. quota is denominated in SDRs. Consequently, fluctuations in the value of the U.S. dollar with respect to the
SDR result in valuation changes in dollar terms for the U.S. quota. The Department periodically adjusts this balance to
maintain the SDR value of the U.S. quota. As of September 30, 2012 and 2011, the net downward adjustment amounted
to $818 million and $548 million, respectively, to reflect the appreciation of the U.S. dollar against the SDR.




                                                                        109
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
LOANS AND INTEREST RECEIVABLE
In addition to quota subscriptions, the IMF maintains borrowing arrangements to supplement its resources in order to
forestall or cope with an impairment of the international monetary system when IMF liquidity is low. The United States
currently participates in two such arrangements – the NAB and the General Arrangements to Borrow (GAB). In
accordance with P.L. 111-32, which provided for an increase in the United States’ participation in the NAB of up to the
dollar equivalent of SDR 75 billion, the United States increased its NAB participation from SDR 6.6 billion to SDR 69.1
billion, which was equivalent to $106.5 billion and $107.9 billion as of September 30, 2012 and 2011, respectively. As of
September 30, 2012, under the U.S. NAB arrangement with the IMF, there was $10.2 billion (reflecting the entire U.S.
non-FCRA commitment to the NAB) and $1.5 billion of FCRA (Note 11) U.S. loans outstanding under the NAB
arrangement, respectively. As of September 30, 2011, there was $6.1 billion of non-FCRA U.S. loans outstanding under
this arrangement. These amounts are liquid and interest bearing claims on the IMF, and the non-FCRA portions are
reported as Loans and Interest Receivable on the Consolidated Balance Sheets. As of September 30, 2012, the IMF had
not utilized the GAB.


13. TAXES, INTEREST, AND OTHER RECEIVABLES, NET
As of September 30, 2012 and 2011, Taxes, Interest and Other Receivables, Net consisted of the following (in millions):

                                                                                                  2012               2011
Non-Entity
Federal Taxes Receivable, Gross                                                          $     152,060    $     147,025
Less: Allowance on Taxes Receivable                                                          (113,046)         (112,017)
Interest Receivable on FRB Deposits of Earnings                                                  2,282             1,599
Other Receivables                                                                                  148                 23
Less: Allowance on Other Receivables                                                               (17)              (10)
Total Non-Entity (Note 15)                                                                      41,427           36,620

Entity
Miscellaneous Entity Receivables and Related Interest                                               36                 70
Total Taxes, Interest and Other Receivables, Net                                         $      41,463    $        36,690

Federal taxes receivable constitutes the largest portion of these receivables, with IRS-related taxes receivable
representing the majority of the balance. IRS federal taxes receivable consists of tax assessments, penalties, and interest
which were not paid or abated, and which were agreed to by either the taxpayer and IRS, or the courts. Federal taxes
receivable is reduced by an allowance for doubtful accounts which is established to represent an estimate for uncollectible
amounts. The portion of tax receivables estimated to be collectible and the allowance for doubtful accounts are based on
projections of collectability from a statistical sample of taxes receivable.

In addition to amounts attributed to taxes, these receivables also include accrued interest income due on funds deposited
in FRBs. The Department does not establish an allowance for the receivable on deposits of FRB earnings.




                                                              110
                                                                U.S. Department of the Treasury | Fiscal Year 2012

14. PROPERTY, PLANT, AND EQUIPMENT, NET
As of September 30, 2012 and 2011, property, plant and equipment consisted of the following (in millions):

                                                                                                                         2012
                                                                                                                         Book
                                        Depreciation        Service                              Accumulated              Net
                                          Method              Life               Cost            Depreciation            Value
Buildings, structures, and facilities       S/L            3-50 years      $        739     $            (381)       $     358
Furniture, fixtures, and equipment          S/L            2-20 years             3,012                (2,164)             848
Construction in progress                   N/A                N/A                   172                       -             172
Land and land improvements                 N/A                N/A                     17                    (1)              16
Internal-use software in use                S/L            2-15 years             1,662               (1,002)              660
Internal-use software in
  development                                N/A              N/A                    162                       -            162
Assets under capital lease                   S/L           2-25 years                  9                     (2)              7
Leasehold improvements                       S/L           2-25 years                411                   (199)            212
Total                                                                      $       6,184    $            (3,749)     $    2,435

                                                                                                                         2011
                                                                                                                         Book
                                         Depreciation         Service                             Accumulated             Net
                                           Method              Life              Cost             Depreciation           Value
Buildings, structures, and facilities        S/L            3-50 years     $        703     $              (360)     $      343
Furniture, fixtures, and equipment           S/L            2-20 years            3,097                  (2,259)            838
Construction in progress                    N/A                N/A                  153                         -           153
Land and land improvements                  N/A                N/A                    15                        -             15
Internal-use software in use                 S/L            2-15 years            1,529                   (1,151)           378
Internal-use software in
  development                                 N/A              N/A                   320                         -           320
Assets under capital lease                    S/L           2-25 years                 7                       (1)             6
Leasehold improvements                        S/L           2-25 years               510                    (297)            213
Total                                                                      $       6,334    $             (4,068)    $     2,266
The service life ranges vary significantly due to the diverse nature of PP&E held by the Department.

HERITAGE ASSETS
The Department has a total of fifteen multi-use heritage assets for fiscal years 2012 and 2011. The Treasury Complex
(Main Treasury Building and Annex), declared a national historical landmark in 1972, is treated as a multi-use heritage
asset and is expected to be preserved indefinitely. The buildings that house the Mint in Denver, San Francisco, Fort
Knox, and West Point are also considered multi-use heritage assets and included on the National Register of Historic
Places. Additionally, the Mint maintains heritage assets consisting of four coin collections and six historical artifacts. The
condition of the multi-use heritage assets is disclosed within the Required Supplemental Information (Unaudited)
section of this report.


15. NON-ENTITY VS. ENTITY ASSETS
Non-entity assets are those that are held by the Department but are not available for use by the Department. For
example, the non-entity Fund Balance represents unused balances of appropriations received by various Treasury entities
to conduct custodial operations such as the payment of interest on the federal debt and refunds of taxes and fees (Note 2).
Non-entity intra-governmental loans and interest receivable represents loans managed by the Department on behalf of
the General Fund. These loans are provided to federal agencies, and the Department is responsible for collecting these
loans and transferring the proceeds to the General Fund (Note 3). The Department also manages the non-entity




                                                            111
                                                                         U.S. Department of the Treasury | Fiscal Year 2012
      advances to the DOL’s Unemployment Trust Fund that are issued from the General Fund to states for unemployment
      benefits. The Department transfers repayment of these advances to the General Fund (Note 4).

      Non-entity cash, foreign currency, and other monetary assets include the operating cash of the U.S. Government,
      managed by the Department. It also includes foreign currency maintained by various U.S. and military disbursing
      offices, as well as seized monetary instruments (Note 5). Non-entity investments in GSEs include the GSEs’ senior
      preferred stock and warrants held by the Department on behalf of the General Fund. As the stock and warrants are
      liquidated, all proceeds are returned to the General Fund (Note 8). Non-entity investments in AIG include AIG common
      stock held by the Department on behalf of the General Fund. Proceeds from the sale of the AIG common stock are
      returned to the General Fund (Note 26).

      As of September 30, 2012 and 2011, the Department’s total assets, segregated between non-entity and entity, are shown
      below (in millions):
                                                                                                                   2012
                                                                                          Non-Entity              Entity                 Total
Intra-governmental Assets:
Fund balance (a)                                                                     $         1,879       $ 342,467         $      344,346
Loans and Interest Receivable (Note 3)                                                       845,976          68,328                914,304
Advances to the Unemployment Trust Fund (Note 4)                                              32,932               -                  32,932
Due from the General Fund (Note 4)                                                        16,202,179               -             16,202,179
Other Intra-governmental Assets                                                                  456           1,039                   1,495
Total Intra-governmental Assets                                                           17,083,422         411,834             17,495,256
Cash, Foreign Currency, and Other Monetary Assets (Note 5)(b)                                 79,575          65,976                 145,551
Gold and Silver Reserves (Note 6)(c)                                                          11,062               -                  11,062
Investments in GSEs (Note 8)                                                                 109,342               -                109,342
Taxes, Interest and Other Receivables, Net (Note 13)                                          41,427              36                  41,463
Non-TARP Investments in American International Group, Inc. (Note 26)                           2,611               -                   2,611
Other Assets (d)                                                                                  95         116,482                 116,577
Total Assets                                                                         $    17,327,534       $ 594,328         $   17,921,862
(a) $406 million of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
(b) $79.2  billion of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
(c) $25 million of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
(d) Other Assets (Entity) include TARP and non-TARP credit program receivables, net, totaling $40.2 billion and $19.9 billion, respectively, a

    reserve position in the IMF of $21.6 billion, and other various assets on the Consolidated Balance Sheets not separately presented in this
    table.
                                                                                                                   2011
                                                                                         Non-Entity             Entity               Total
Intra-governmental Assets:
Fund Balance (e)                                                                     $           1,465    $    380,319      $          381,784
Loans and Interest Receivable (Note 3)                                                         671,411          57,239                728,650
Advances to the Unemployment Trust Fund (Note 4)                                               42,773                -                  42,773
Due from the General Fund (Note 4)                                                         14,902,717                -              14,902,717
Other Intra-governmental Assets                                                                    388             760                    1,148
Total Intra-governmental Assets                                                            15,618,754          438,318             16,057,072
Cash, Foreign Currency, and Other Monetary Assets (Note 5)(f)                                  50,216           66,905                  117,121
Gold and Silver Reserves (Note 6)(g)                                                            11,062               -                  11,062
Investments in GSEs (Note 8)                                                                  133,043                -                 133,043
Taxes, Interest and Other Receivables, Net (Note 13)                                           36,620               70                  36,690
Non-TARP Investments in American International Group, Inc. (Note 26)                           10,862                -                  10,862
Other Assets (h)                                                                                   102         224,274                224,376
Total Assets                                                                         $    15,860,659      $    729,567      $      16,590,226
(e) $358 million of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
(f) $49.9  billion of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
(g) $25 million of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
(h) Other Assets (Entity) include TARP and non-TARP credit program receivables, net, totaling $80.1 billion and $92.8 billion, respectively, a

    reserve position in the IMF of $20.7 billion, and other various assets on the Consolidated Balance Sheets not separately presented in this
    table.




                                                                     112
                                                                U.S. Department of the Treasury | Fiscal Year 2012

16. FEDERAL DEBT AND INTEREST PAYABLE
The Department is responsible for administering the federal debt on behalf of the U.S. Government. The federal debt
includes borrowings from the public as well as borrowings from federal agencies. The federal debt does not include debt
issued by other governmental agencies, such as the Tennessee Valley Authority or the HUD.

The federal debt as of September 30, 2012 and 2011 was as follows (in millions):

Intra-governmental                                                                      2012                      2011
Beginning Balance                                                          $       4,625,038       $         4,501,028
New Borrowings/Repayments                                                            134,494                   124,010
Subtotal at Par Value                                                              4,759,532                 4,625,038
Premium/(Discount)                                                                    55,964                    47,386
Debt Principal Not Covered by Budgetary Resources (Note 19)                        4,815,496                 4,672,424
Interest Payable Covered by Budgetary Resources                                       45,509                    47,741
Total                                                                      $       4,861,005       $         4,720,165

Held by the Public                                                                        2012                     2011
Beginning Balance                                                          $       10,127,031      $         9,022,808
New Borrowings/Repayments                                                            1,142,555                1,104,223
Subtotal at Par Value                                                              11,269,586                10,127,031
Premium/(Discount)                                                                    (19,225)                 (29,538)
Debt Principal Not Covered by Budgetary Resources (Note 19)                        11,250,361               10,097,493
Interest Payable Covered by Budgetary Resources                                         57,222                   51,470
Total                                                                      $       11,307,583      $        10,148,963

Debt held by the public primarily represents the amount the U.S. Government has borrowed to finance cumulative cash
deficits. In contrast, intra-governmental debt holdings, primarily trust funds, represent balances of Treasury securities
held by individual federal agencies with either the authority or the requirement to invest excess receipts in U.S. Treasury
securities in which the principal and interest are guaranteed by the full faith and credit of the U.S. Government.


FEDERAL DEBT HELD BY OTHER FEDERAL AGENCIES
Certain federal agencies are allowed to invest excess funds in debt securities issued by the Department on behalf of the
U.S. Government. The terms and the conditions of debt securities issued are designed to meet the cash needs of the U.S.
Government. The vast majority of debt securities are non-marketable securities issued at par value, but others are issued
at market prices and interest rates that reflect market terms. The average intra-governmental interest rate for debt held
by the federal entities, excluding TIPS, for fiscal years 2012 and 2011 was 3.7 percent and 4.1 percent, respectively. The
average intra-governmental interest rate on TIPS for fiscal years 2012 and 2011 was 1.5 percent and 1.8 percent,
respectively. The average interest rate represents the original issue weighted effective yield on securities outstanding at
the end of the fiscal year.

The federal debt also includes intra-governmental marketable debt securities that certain agencies are permitted to buy
and sell on the open market. The debt held by federal agencies at par value (not including premium/discount or interest
payable) as of September 30, 2012 and 2011 was as follows (in millions):
                                                                                      2012                    2011
Social Security Administration                                             $     2,719,042         $     2,654,497
Office of Personnel Management                                                     927,302                 897,951
Department of Defense Agencies                                                     562,657                 497,391
Department of Health and Human Services                                           302,932                   321,615
All Other Federal Agencies - Consolidated                                          247,599                 253,584
Total Federal Debt Held by Other Federal Agencies                          $     4,759,532         $     4,625,038

                                                            113
                                                                  U.S. Department of the Treasury | Fiscal Year 2012
FEDERAL DEBT HELD BY THE PUBLIC
Federal debt held by the public at par value (not including premium/discount or interest payable) as of September 30,
2012 and 2011 consisted of the following (in millions):
(at par value)                                                                             Average
                                                                                           Interest
                                                                   Term                     Rates                      2012
Marketable:
Treasury Bills                                               1 Year or Less                  0.1%        $         1,613,026
Treasury Notes                                            Over 1 Year - 10 Years             2.0%                   7,114,961
Treasury Bonds                                               Over 10 Years                   5.4%                   1,194,715
Treasury Inflation-Protected Security (TIPS)                5 Years or More                  1.4%                    807,469
Total Marketable                                                                                                  10,730,171
Non-Marketable                                      On Demand to Over 10 Years               2.1%                    539,415
Total Federal Debt Held by the Public                                                                    $        11,269,586
                                                                                            Average
                                                                                            Interest
(at par value)                                                     Term                      Rates                      2011
Marketable:
Treasury Bills                                                1 Year or Less                 0.1%        $          1,475,557
Treasury Notes                                             Over 1 Year - 10 Years            2.3%                  6,406,983
Treasury Bonds                                                Over 10 Years                  5.8%                   1,016,407
Treasury Inflation-Protected Security (TIPS)                 5 Years or More                 1.9%                     705,352
Total Marketable                                                                                                   9,604,299
Non-Marketable                                        On Demand to Over 10 Years             2.8%                     522,732
Total Federal Debt Held by the Public                                                                    $         10,127,031

The Department issues marketable bills at a discount or at par, and pays the par amount of the security upon maturity.
The average interest rate on Treasury bills represents the original issue effective yield on securities outstanding at year
end. Treasury bills are issued with a term of one year or less.

The Department issues marketable notes and bonds as long-term securities that pay semi-annual interest based on the
securities’ stated interest rates. These securities are issued at either par value or at an amount that reflects a discount or a
premium. The average interest rate on marketable notes and bonds represents the stated interest rate adjusted by any
discount or premium on securities outstanding at year-end. Treasury notes are issued with a term of over one year to ten
years, and Treasury bonds are issued with a term of more than ten years. The Department also issues TIPS that have
interest and redemption payments tied to the Consumer Price Index for all Urban Consumers, a widely used
measurement of inflation. TIPS are issued with a term of five years or more. At maturity, TIPS are redeemed at the
inflation-adjusted principal amount, or the original par value, whichever is greater. TIPS pay a semi-annual fixed rate of
interest applied to the inflation-adjusted principal. The average interest rate on TIPS represents the stated interest rate
on principal plus inflation, adjusted by any discount or premium on securities outstanding as of the end of the fiscal year.
The inflation-adjusted TIPS principal balance of federal debt held by the public included inflation of $77.9 billion and
$76.1 billion as of September 30, 2012 and 2011, respectively.

During fiscal year 2012, the Department issued bills, notes, bonds, and TIPS to meet the borrowing needs of the U.S.
Government. Treasury bills outstanding increased by $ 137.5 billion; whereas, Treasury notes, bonds, and TIPS
outstanding increased by $708.0 billion, $178.3 billion, and $102.1 billion, respectively, in fiscal year 2012.

September 30, 2012 occurred on a Sunday and, therefore, debt repayments on matured securities occurred on Monday,
October 1, 2012. Accordingly, $53.0 billion of marketable Treasury notes and $36 million of non-marketable securities,
matured but not repaid, are included in the balance of the total debt held by the public.


                                                             114
                                                                 U.S. Department of the Treasury | Fiscal Year 2012
Federal Debt Held by the Public includes federal debt held outside of the U.S. Government by individuals, corporations,
FRBs, state and local governments, foreign governments, and central banks. As of September 30, 2012 and 2011, the
FRBs had total holdings of $1.6 trillion and $1.7 trillion, respectively, which included a net of $1.5 billion and $759
million in Treasury securities held by the FRBs as collateral for securities lending activities, respectively. These securities
are held in the FRB System Open Market Account (SOMA) for the purpose of conducting monetary policy.

From May 16, 2011 to August 2, 2011, the Department was forced to depart from its normal debt management procedures
and invoke legal authorities to avoid exceeding the statutory debt limit. Congress raised the statutory debt limit on
August 2, 2011. During the period of delay in raising the debt limit, actions taken by Treasury included: (i) suspending
investment of receipts and reinvestments of maturities (including interest earnings) of the Government Securities
Investment Fund (G-Fund) of the Federal Employees’ Retirement System, the ESF, the Civil Service Retirement and
Disability Fund (Civil Service Fund), and the Postal Service Retiree Health Benefit Fund (Postal Benefits Fund); (ii)
redeeming a Civil Service fund security early to make benefit payments; and (iii) suspending the sales of State and Local
Government Series securities.

Subsequent to the August 2, 2011 increase to the statutory debt limit, the Department took steps to restore foregone
principal and interest to the four funds. Principal for the four funds of nearly $240 billion was restored on August 2,
2011. During fiscal years 2012 and 2011, the Department paid and/or accrued foregone interest owed to the funds
totaling $59 million and $875 million, respectively, as reported on the Department’s Consolidated Statements of Net
Cost.


17. OTHER DEBT AND INTEREST PAYABLE
The Department, through FFB, has outstanding borrowings and related accrued interest with the Civil Service
Retirement and Disability Fund which is administered by the OPM. At September 30, 2012 and 2011, FFB had
borrowings of $7.2 billion and $8.5 billion, inclusive of $83 million and $98 million of accrued interest payable,
respectively. During fiscal years 2012 and 2011, the Department paid $1.3 billion and $1.8 billion in principal,
respectively. The outstanding borrowings at September 30, 2012 and 2011 had a stated interest rate of 4.63 percent and
an effective interest rate of 4.63 percent. Maturity dates ranged from June 30, 2013 to June 30, 2019 for outstanding
borrowings at September 30, 2012, and from June 30, 2012 to June 30, 2019 for outstanding borrowings at September
30, 2011.


18. D.C. PENSIONS AND JUDICIAL RETIREMENT ACTUARIAL
LIABILITY
Pursuant to Title XI of the Balanced Budget Act of 1997, as amended (the Act), on October 1, 1997, the Department
became responsible for certain District of Columbia (D.C.) retirement plans. The Act was intended to relieve the D.C.
government of the burden of unfunded pension liabilities transferred to the District by the U.S. Government in 1979. To
fulfill its responsibility, the Department manages two funds ― the D.C. Teachers’, Police Officers’, and Firefighters’
Federal Pension Fund (the D.C. Federal Pension Fund) and the District of Columbia Judicial Retirement and Survivors’
Annuity Fund (the Judicial Retirement Fund). The Department is required to make annual amortized payments from the
General Fund to the D.C. Federal Pension Fund and the Judicial Retirement Fund. The D.C. Federal Pension Fund
benefit payments are related to creditable service performed on or before June 30, 1997, while the Judicial Retirement
Fund benefit payments are related to all creditable service. The actuarial cost method used to determine costs for the
retirement plans is the Aggregate Entry Age Normal Actuarial Cost Method. The actuarial liability is based upon long-
term economic assumptions. The pension benefit costs incurred by the plans are included on the Consolidated
Statements of Net Cost.

                                                             115
                                                                U.S. Department of the Treasury | Fiscal Year 2012
The economic assumptions used for the funds above differ from those used by the OPM for the following reasons: (i) the
annual rate of salary increase assumptions are based on different plan member experience; (ii) the annual rate of
inflation and cost-of-living adjustment assumptions are based on different statutory requirements (applicable Consumer
Price Index and period of calculation); and (iii) for the annual rate of investment return assumption, OPM and the D.C.
Pensions fund use the same underlying yield curve but, unlike the D.C. Federal Pension Fund, OPM converts to a single
equivalent rate.

A reconciliation of the pension actuarial liability as of September 30, 2012 and 2011 is as follows (in millions):
                                                                                                  2012                2011
Beginning Liability Balance                                                                 $     9,671        $     9,743
Pension Expense:
Normal cost                                                                                           4                 5
Interest on Pension Liability During the Year                                                       215               266

Actuarial (Gains) Losses During the Year:
From Experience                                                                                     23               (123)
From Discount Rate Assumption Change                                                               532                 472
From Other Assumption Changes                                                                      158               (154)
Total Pension Expense                                                                              932                 466
Less Amounts Paid                                                                                (544)               (538)
Ending Liability Balance                                                                    $   10,059         $     9,671




                                                             116
                                                   U.S. Department of the Treasury | Fiscal Year 2012
Additional Information ($ in millions):

                                                      D.C. Federal            Judicial           2012
                                                     Pension Fund     Retirement Fund           Total
Pension and Other Actuarial Liability          $             9,863    $           196      $   10,059
Unobligated Budgetary Resources                            (3,571)                (134)        (3,705)
Unfunded Liability                             $            6,292     $              62    $     6,354

Amount Received from the General Fund          $              482     $              10    $      492

Annual Rate of Investment Return Assumption          2.02% - 4.70%        2.02% - 4.70%

Future Annual Rate of Inflation and Cost-of-
  Living Adjustment                                         2.55%                2.53%

Future Annual Rate of Salary Increases:
  Police Officers & Firefighters                            4.25%                  N/A
  Teachers                                                  4.25%                  N/A
  Judicial                                                    N/A                1.50%



                                                       D.C. Federal             Judicial          2011
                                                      Pension Fund      Retirement Fund          Total
Pensions and Other Actuarial Liability         $              9,481   $             190    $     9,671
Unobligated Budgetary Resources                             (3,591)                (131)       (3,722)
Unfunded Liability                             $             5,890    $              59    $     5,949

Amount Received from the General Fund          $               492    $               9    $      501

Annual Rate of Investment Return Assumption           2.28% - 4.97%        2.28% - 4.97%

Future Annual Rate of Inflation and Cost-of-
  Living Adjustment                                          2.39%                2.43%

Future Annual Rate of Salary Increases:
  Police Officers & Firefighters                             4.26%                  N/A
  Teachers                                                   4.26%                  N/A
  Judicial                                                     N/A                1.84%




                                               117
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

19. LIABILITIES
LIABILITIES NOT COVERED BY BUDGETARY AND OTHER RESOURCES
As of September 30, 2012 and 2011, liabilities not covered by budgetary and other resources consisted of the following (in
millions):
                                                                                                       2012                      2011
Intra-governmental Liabilities Not Covered by Budgetary
  and Other Resources
Federal Debt Principal, Premium/Discount (Note 16)                                       $        4,815,496        $        4,672,424
Other Intra-governmental Liabilities                                                                    124                       124
Total Intra-governmental Liabilities Not Covered by Budgetary
  and Other Resources                                                                              4,815,620                4,672,548
Federal Debt Principal, Premium/Discount (Note 16)                                                11,250,361               10,097,493
Gold and Silver Reserves                                                                              11,062                    11,062
D.C. Pensions and Judicial Retirement - Unfunded Liability (Note 18)                                   6,354                     5,949
Liabilities to GSEs (Note 8)                                                                           9,003                  316,230
Other Liabilities                                                                                      2,866                     2,017
Total Liabilities Not Covered by Budgetary and Other Resources                                   16,095,266                15,105,299
Total Liabilities Covered by Budgetary and Other Resources                                         1,437,200                1,404,789
Total Liabilities                                                                        $       17,532,466        $       16,510,088

OTHER LIABILITIES
Total “Other Liabilities” displayed on the Consolidated Balance Sheets consists of both liabilities that are covered and not
covered by budgetary resources. Other liabilities at September 30, 2012 and 2011 consisted of the following (in millions):

                                                                    Non-         2012                            Non-           2011
                                                   Current        Current        Total           Current       Current          Total
Intra-governmental
Accounts Payable                               $      203     $          -   $     203       $      124    $           -    $     124
Unfunded Federal Workers Compensation
  Program Liability (FECA)                             47              58          105               45            58             103
Other Accrued Liabilities                             233               -          233              226             -             226
Total Intra-governmental                       $      483     $        58    $     541       $      395    $       58       $     453

With the Public
Liability for Deposit Funds (Held by the
  U.S. Government for Others)
  and Suspense Accounts                        $      275     $          -   $     275       $      861    $           -    $     861
Actuarial Federal Workers Compensation
  Program Liability (FECA)                              -             576          576                -           553             553
Accrued Funded Payroll and Benefits                   558               -          558              557             -             557
Accounts Payable and Other Accrued
  Liabilities                                        3,905             60        3,965            2,186            65           2,251
Total with the Public                          $     4,738    $       636    $   5,374       $    3,604    $      618       $   4,222




                                                             118
                                                               U.S. Department of the Treasury | Fiscal Year 2012

20. NET POSITION
Unexpended Appropriations represents the amount of spending authorized as of year-end that is unliquidated or
unobligated and has not lapsed, been rescinded, or withdrawn. No-year appropriations remain available for obligation
until expended. Annual appropriations remain available for upward or downward adjustment of obligations until
expired.

Cumulative Results of Operations represents the net results of operations since inception, and includes cumulative
amounts related to investments in capitalized assets and donations and transfers of assets in and out without
reimbursement. Also included as a reduction in Cumulative Results of Operations are accruals for which the related
expenses require funding from future appropriations and assessments. These future funding requirements include,
among others: (a) accumulated annual leave earned but not taken, (b) accrued FECA, (c) credit reform cost reestimates,
and (d) expenses for contingent liabilities.


APPROPRIATIONS RECEIVED
The amount reported as “appropriations received” is appropriated by Congress from the General Fund receipts, such as
income taxes, that are not earmarked by law for a specific purpose. This amount will not necessarily agree with the
“appropriations (discretionary and mandatory)” amount reported on the Combined Statements of Budgetary Resources
because of differences between proprietary and budgetary accounting concepts and reporting requirements. For
example, certain dedicated and earmarked receipts are recorded as “appropriations (discretionary and mandatory)” on
the Combined Statements of Budgetary Resources, but are recognized as exchange or non-exchange revenue (i.e.,
typically in special and non-revolving trust funds) and reported on the Statement of Changes in Net Position in
accordance with SFFAS No. 7, Accounting for Revenue and Other Financing Sources.


TRANSFERS TO THE GENERAL FUND AND OTHER
The amount reported as “Transfers to the General Fund and Other” on the Consolidated Statement of Changes in Net
Position under “Other Financing Sources” includes the following as of September 30, 2012 and 2011 (in millions):
                                                                                            2012            2011
Categories of Transfers to the General Fund and Other
Interest Revenue                                                             $            38,874     $    37,758
Increase in Liquidity Preference of GSEs Preferred Stock, GSEs
 Preferred Stock Dividends and Valuation Changes (Note 8)                                 (5,322)         39,415
Downward Reestimates of Credit Reform Subsidies (Notes 7 and 11)                           11,648         49,744
Other                                                                                        1,141         1,021
TOTAL                                                                        $             46,341    $   127,938

Included in “Transfers to the General Fund and Other” are the GSE Senior Preferred Stock investments and related
dividends, as well as the annual valuation adjustment to those investments. These transfers also include distribution of
interest revenue to the General Fund. The interest revenue is accrued on inter-agency loans held by the Department on
behalf of the U.S. Government. A corresponding amount is reported on the Consolidated Statements of Net Cost under
“Non-Entity Costs: Less Interest Revenue from Loans.” The amount reported on the Consolidated Statements of Net
Cost is reduced by eliminations with Treasury bureaus. The credit reform downward reestimate subsidies that are
transferred to the General Fund result from a change in forecasts of future cash flows.

The “Other” line mainly represents collections from other federal agencies as reimbursement of costs incurred by the
Department for its administration of trust funds established within the Social Security Act. The Department is directed
by statute to execute these administrative services. Seigniorage and numismatic profits also are included in the “Other”
line. Seigniorage is the face value of newly minted circulating coins less the cost of production. Numismatic profit is any

                                                           119
                                                                 U.S. Department of the Treasury | Fiscal Year 2012
profit on the sale of proof coins, uncirculated coins, commemorative coins, and related products and accessories. The
United States Mint is required to distribute seigniorage and numismatic profits in excess of operating expenses to the
General Fund. In any given year, the amount recognized as seigniorage may differ from the amount distributed to the
General Fund by an insignificant amount due to timing differences.


21. CONSOLIDATED STATEMENTS OF NET COST AND NET COSTS
OF TREASURY SUB-ORGANIZATIONS
The Department’s Consolidated Statements of Net Cost display information on a consolidated basis. The complexity of
the Department’s organizational structure and operations requires that supporting schedules for Net Cost be included in
the notes to the financial statements. These supporting schedules provide consolidating information, which fully displays
the costs of each sub-organization (DO and each operating bureau).


REPORTING ENTITY
The classification of sub-organizations has been determined in accordance with SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government which states that the predominant factor is the
reporting entity’s organization structure and existing responsibility components, such as bureaus, administrations,
offices, and divisions within a department.

Each sub-organization is responsible for accumulating costs. The assignment of the costs to Department-wide programs
is the result of using the following cost assignment methods: (1) direct costs, (2) cause and effect, and (3) cost allocation.


INTRA-DEPARTMENTAL COSTS/REVENUES
Intra-departmental costs/revenues resulting from the provision of goods and/or services on a reimbursable basis among
Departmental sub-organizations are reported as costs by providing sub-organizations and as revenues by receiving sub-
organizations. The Department recognized intra-departmental imputed costs on the Consolidated Statements of Net
Cost of $518 million and $415 million during fiscal years 2012 and 2011, respectively. Accordingly, such costs or
revenues are eliminated in the consolidation process.


INTRA-GOVERNMENTAL COSTS
Intra-governmental costs relate to the source of goods and services purchased by the Department and not to the
classification of the related intra-governmental revenue.

In certain cases, other federal agencies incur costs that are directly identifiable to the Department’s operations. In
accordance with SFFAS No. 30, Inter-Entity Cost Implementation Amending SFFAS No. 4, Managerial Cost Accounting
Standards and Concepts, the Department recognizes identified costs paid on behalf of the Department by other agencies
as an expense of the Department. The material imputed inter-departmental financing sources currently recognized by
the Department include the actual cost of future benefits for the federal pension plans that are paid by other federal
entities, the Federal Employees Health Benefits Program (FEHB), and any un-reimbursed contract dispute payments
made from the Treasury Judgment Fund on behalf of the Department. The funding for these costs is reflected as costs on
the Consolidated Statements of Net Cost, and as imputed financing sources on the Statements of Changes in Net Position.
Costs paid by other agencies on behalf of the Department were $812 million and $925 million for the fiscal years ended
September 30, 2012 and 2011, respectively.




                                                             120
                                                               U.S. Department of the Treasury | Fiscal Year 2012
CONSOLIDATED STATEMENTS OF NET COST PRESENTATION
OMB Circular No. A-136, Financial Reporting Requirements, as revised, requires that the presentation of the
Consolidated Statements of Net Cost align directly with the goals and outcomes identified in the Strategic Plan.
Accordingly, the Department has presented the gross costs and earned revenues by the applicable strategic goals in its
fiscal years 2012 – 2015 Strategic Plan. The majority of Treasury bureaus’ and reporting entities’ net cost information
falls within a single strategic goal in the Consolidated Statements of Net Cost. TTB, IRS, and DO allocate costs and
related revenues to multiple programs using a net cost percentage calculation.

The Department’s Consolidated Statements of Net Cost also present interest expense on the Federal Debt and other
federal costs incurred as a result of assets and liabilities managed on behalf of the U.S. Government. These costs are not
reflected as program costs related to the Department’s strategic plan missions. Such costs are eliminated in the
consolidation process to the extent that they involve transactions with Treasury sub-organizations.

Non-entity other federal costs shown on the Consolidated Statements of Net Cost for the years ended September 30, 2012
and 2011 consisted of the following (in millions):
                                                                                                        2012         2011
Credit Reform Interest on Uninvested Fund (Intra-governmental)                                  $      8,745   $    8,015
Judgment Claims and Contract Disputes                                                                  3,480        2,290
Resolution Funding Corporation                                                                         2,628        2,239
Corporation for Public Broadcasting                                                                      444          435
Legal Services Corporation                                                                               356          408
All Other Payments                                                                                       637          356
Total                                                                                           $     16,290   $   13,743




                                                           121
                                                                                 U.S. Department of the Treasury | Fiscal Year 2012

    21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
        OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS)
                                                     For Fiscal Year Ended September 30, 2012
                                                              Bureau                          Fin.
                                                Bureau of       of the       Depart-       Crimes                 Financial           Internal
                                                Engraving       Public        mental   Enforceme                Management            Revenue
Program Costs                                   & Printing     Debt(b)       Office(a) nt Network                  Service(b)          Service        U.S. Mint
FINANCIAL PROGRAM
Intra-governmental Gross Costs                 $           -   $      191    $        2,412    $          -    $           227    $      4,225    $             -

Less: Earned Revenue                                       -        (287)           (2,762)               -              (142)             (47)                 -
Intra-governmental Net Costs                               -         (96)             (350)               -                 85            4,178                 -
Gross Costs with the Public                                -          375               587               -              1,224           8,329                  -
Less: Earned Revenue                                       -          (2)                (1)              -                  -            (433)                 -
Net Costs with the Public                                  -          373               586               -              1,224           7,896                  -
  Net Cost: Financial Program                              -          277               236               -              1,309          12,074                  -
ECONOMIC PROGRAM
Intra-governmental Gross Costs                           88             -             4,216               -                  -                -              76
Less: Earned Revenue                                     (2)            -           (1,220)               -                  -                -             (3)
Intra-governmental Net Costs                              86            -             2,996               -                  -                -              73
Gross Costs with the Public                              594            -         (285,280)               -                  -                -           3,194
Less: Earned Revenue                                   (726)            -            (3,707)              -                                   -         (3,303)
Net Costs with the Public                              (132)            -         (288,987)               -                  -                -           (109)
  Net Cost (Revenue): Economic Program                  (46)            -         (285,991)               -                  -                -            (36)
SECURITY PROGRAM
Intra-governmental Gross Costs                             -            -               150              59                  -             169                  -
Less: Earned Revenue                                       -            -              (29)               6                  -              (2)                 -
Intra-governmental Net Costs                               -            -               121              65                  -              167                 -
Gross Costs with the Public                                -            -               154              60                  -             526                  -
Less: Earned Revenue                                       -            -                  -              -                  -                -                 -
Net Costs with the Public                                  -            -               154              60                  -             526                  -
   Net Cost: Security Program                              -            -               275             125                  -             693                  -
Total Net Program Cost Before Changes
  in Actuarial Assumptions                              (46)          277         (285,480)             125              1,309           12,767            (36)
Loss on Pension, ORB, or OPEB Assumption
   Changes                                                 -            -               690               -                  -                -                 -
Total Net Cost of (Revenue From)
   Treasury Operations                         $        (46)   $      277    $    (284,790)    $        125    $         1,309    $      12,767   $        (36)

     (a)   Of the total $286.0 billion of net revenue reported by Departmental Offices for the Economic Program, GSE and OFS contributed $288.4 billion and
           $7.8 billion of net revenue, respectively, partially offset by other DO policy offices net cost.
     (b)   Effective in October 2012, the BPD and FMS operating bureaus were consolidated to form one new operating bureau, the Bureau of the Fiscal Service.
           Funding of salaries and expenses related to the new bureau through a single appropriation is pending Congressional legislation.




                                                                            122
                                                                    U.S. Department of the Treasury | Fiscal Year 2012

21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
    OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):
                                               For Fiscal Year Ended September 30, 2012
                                                                            Alcohol
                                                                                and
                                                           Office of the   Tobacco
                                                           Comptroller     Tax and
                                                                  of the     Trade      Combined                             2012
Program Costs                                                 Currency      Bureau         Total     Eliminations    Consolidated
FINANCIAL PROGRAM
Intra-governmental Gross Costs                          $           -   $       14   $       7,069   $      2,742    $       4,327
Less: Earned Revenue                                                -          (1)         (3,239)          (578)          (2,661)
Intra-governmental Net Costs                                        -           13          3,830           2,164            1,666
Gross Costs with the Public                                         -           41          10,556               -          10,556
Less: Earned Revenue                                                -          (3)           (439)               -           (439)
Net Costs with the Public                                           -          38           10,117               -          10,117
  Net Cost: Financial Program                                       -           51          13,947          2,164           11,783
ECONOMIC PROGRAM
Intra-governmental Gross Costs                                    136           14          4,530           4,035             495
Less: Earned Revenue                                             (31)            -         (1,256)         (1,226)            (30)
Intra-governmental Net Costs                                      105           14           3,274          2,809             465
Gross Costs with the Public                                       913          39        (280,540)               -       (280,540)
Less: Earned Revenue                                            (969)            -         (8,705)               -         (8,705)
Net Costs with the Public                                        (56)          39        (289,245)               -       (289,245)
  Net Cost (Revenue): Economic Program                             49          53        (285,971)          2,809        (288,780)
SECURITY PROGRAM
Intra-governmental Gross Costs                                      -            -            378              59             319
Less: Earned Revenue                                                -            -            (25)            (21)             (4)
Intra-governmental Net Costs                                        -            -            353              38              315
Gross Costs with the Public                                         -            -            740                -            740
Less: Earned Revenue                                                -            -               -               -               -
Net Costs with the Public                                           -            -            740                -            740
  Net Cost: Security Program                                        -            -           1,093             38            1,055
Total Net Program Cost Before Changes in Actuarial
  Assumptions                                                      49         104        (270,931)          5,011        (275,942)
Loss on Pension, ORB, or OPEB Assumption Changes                    5            -            695                -            695
Total Net Cost of (Revenue From) Treasury
  Operations                                            $          54   $     104    $   (270,236)   $      5,011    $   (275,247)




                                                                123
                                                                                U.S. Department of the Treasury | Fiscal Year 2012

21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
    OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):
                                                          For Fiscal Year Ended September 30, 2011
                                                     Bureau of       Bureau of        Depart-      Fin. Crimes       Financial          Internal
                                                     Engraving       the Public        mental    Enforcement       Management           Revenue
Program Costs                                        & Printing         Debt(c)     Office(c)(d)      Network          Service           Service       U.S. Mint
FINANCIAL PROGRAM(c)
Intra-governmental Gross Costs                   $            -   $       177   $       2,145    $            -   $          197    $     4,405    $            -
Less: Earned Revenue                                          -         (214)         (2,393)                 -            (170)            (70)                -
Intra-governmental Net Costs                                  -          (37)           (248)                 -               27          4,335                 -
Gross Costs with the Public                                   -          339              860                 -            1,222          9,059                 -
Less: Earned Revenue                                          -           (4)              (1)                -                -          (408)                 -
Net Costs with the Public                                     -          335              859                 -            1,222          8,651                 -
  Net Cost: Financial Program                                 -          298              611                 -            1,249         12,986                 -
ECONOMIC PROGRAM
Intra-governmental Gross Costs                              89              -           9,618                 -                -               -               76
Less: Earned Revenue                                        (3)             -         (2,496)                 -                -               -            (10)
Intra-governmental Net Costs                                86              -           7,122                 -                -               -               66
Gross Costs with the Public                                459              -          (1,467)                -                -               -          4,408
Less: Earned Revenue                                     (539)              -         (8,479)                 -                                -         (4,601)
Net Costs with the Public                                 (80)              -         (9,946)                 -                -               -           (193)
  Net Cost (Revenue): Economic Program                       6              -         (2,824)                 -                -               -           (127)
SECURITY PROGRAM
Intra-governmental Gross Costs                                -             -             160               67                 -               -                -
Less: Earned Revenue                                          -             -             (23)              (3)                -               -                -
Intra-governmental Net Costs                                  -             -             137               64                 -               -                -
Gross Costs with the Public                                   -             -             155               55                 -               -                -
Less: Earned Revenue                                          -             -                -                -                -               -                -
Net Costs with the Public                                     -             -             155               55                 -               -                -
  Net Cost: Security Program                                  -             -             292               119                -               -                -
Total Net Program Cost Before Changes
  in Actuarial Assumptions                                   6           298           (1,921)              119            1,249         12,986            (127)
Loss on Pension, ORB, or OPEB Assumption
  Changes                                                     -             -             195                 -                -               -                -
Total Net Cost of (Revenue From)
  Treasury Operations                            $           6    $      298    $      (1,726)   $          119   $        1,249    $    12,986    $       (127)

(c) Of the total $2.8 billion of net revenue reported by Departmental Offices for the Economic Program, GSE and ESF contributed $21.1 billion and $1 billion
of net income, respectively, partially offset by OFS, DO policy offices, and OAS net cost of $9.5 billion, $7.1 billion, and $2.5 billion, respectively
(d) Certain fiscal year 2011 activity on the Consolidated Statements of Net Cost have been reclassified to conform to the presentation in the current fiscal
year, the effects of which are immaterial. BPD and DO management program net costs (income) totaling ($5) million and $303 million, respectively, have
been reclassified to the financial program.




                                                                           124
                                                                             U.S. Department of the Treasury | Fiscal Year 2012

21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
    OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):
                                                       For Fiscal Year Ended September 30, 2011
                                                                                           Alcohol
                                                                                               and
                                                                                          Tobacco
                                                    Office of the        Office of        Tax and
                                                  Comptroller of            Thrift          Trade         Combined                                    2011
Program Costs                                      the Currency      Supervision(c)        Bureau            Total         Eliminations       Consolidated
FINANCIAL PROGRAM
Intra-governmental Gross Costs                   $              -   $             -   $         15    $       6,939    $          2,215   $         4,724
Less: Earned Revenue                                            -                 -               -         (2,847)               (573)            (2,274)
Intra-governmental Net Costs                                    -                 -             15            4,092              1,642              2,450
Gross Costs with the Public                                     -                 -             40           11,520                   -             11,520
Less: Earned Revenue                                            -                 -            (3)             (416)                  -              (416)
Net Costs with the Public                                       -                 -             37            11,104                  -             11,104
  Net Cost: Financial Program                                   -                 -             52            15,196             1,642              13,554
ECONOMIC PROGRAM
Intra-governmental Gross Costs                               122                31              15            9,951              9,561                390
Less: Earned Revenue                                        (26)               (15)               -         (2,550)             (2,514)               (36)
Intra-governmental Net Costs                                  96                16              15            7,401              7,047                354
Gross Costs with the Public                                  715               161              38            4,314                   -              4,314
Less: Earned Revenue                                       (817)             (169)                -        (14,605)                   -           (14,605)
Net Costs with the Public                                  (102)               (8)              38          (10,291)                  -           (10,291)
  Net Cost (Revenue): Economic Program                        (6)                8              53          (2,890)              7,047             (9,937)
SECURITY PROGRAM
Intra-governmental Gross Costs                                  -                 -               -             227                 77                150
Less: Earned Revenue                                            -                 -               -            (26)                (21)                (5)
Intra-governmental Net Costs                                    -                 -               -             201                 56                145
Gross Costs with the Public                                     -                 -               -             210                   -               210
Less: Earned Revenue                                            -                 -               -                -                  -                   -
Net Costs with the Public                                       -                 -               -             210                   -               210
  Net Cost: Security Program                                    -                 -               -             411                 56                355
Total Net Program Cost Before Changes
  in Actuarial Assumptions                                    (6)                8             105            12,717             8,745              3,972
Loss on Pension, ORB, or OPEB Assumption
  Changes                                                       -                 -               -             195                   -               195
Total Net Cost of (Revenue From)
  Treasury Operations                            $            (6)   $            8    $        105    $      12,912    $         8,745    $          4,167

(e) On July 21, 2011, OTS merged into OCC. Accordingly, OTS’s operating results through July 20, 2011 are reported separately herein, and its operating
results subsequent to July 20, 2011 have been combined with OCC’s operating results.




                                                                         125
                                                                U.S. Department of the Treasury | Fiscal Year 2012

22. ADDITIONAL INFORMATION RELATED TO THE COMBINED
STATEMENTS OF BUDGETARY RESOURCES
Federal agencies are required to disclose additional information related to the Combined Statements of Budgetary
Resources. In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing Sources, the Department
must report the value of goods and services ordered and obligated which have not been received. This amount includes
any orders for which advance payment has been made but for which delivery or performance has not yet occurred. The
information for the fiscal years ended September 30, 2012 and 2011 was as follows (in millions):


UNDELIVERED ORDERS
                                                                                                    2012                2011
Undelivered Orders
Paid                                                                                       $        107       $           114
Unpaid                                                                                          190,252              208,868
Undelivered orders at the end of the year                                                  $    190,359       $      208,982


CONTRIBUTED CAPITAL
Contributed capital represents the current year authority and prior year balances of amounts actually transferred through
non-expenditure transfers to miscellaneous receipt accounts of the General Fund of the Treasury to repay a portion of a
capital investment.
                                                                                                    2012                 2011
Contributed Capital                                                                        $          78         $         58

APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED
Apportionment categories are determined in accordance with the guidance provided in OMB Circular No. A-11,
Preparation, Submission and Execution of the Budget. Apportionment Category A represents resources apportioned for
calendar quarters. Apportionment Category B represents resources apportioned for other time periods for activities,
projects or objectives, or for any combination thereof (in millions).


DIRECT VS. REIMBURSABLE OBLIGATIONS INCURRED
                                                                                                   2012                  2011
Direct - Category A                                                                       $      17,958      $          3,203
Direct - Category B                                                                              83,093               247,733
Direct - Exempt from Apportionment                                                              369,596               461,985
Total Direct                                                                                    470,647               712,921

Reimbursable - Category B                                                                         4,490                5,872
Reimbursable - Exempt from Apportionment                                                          1,326                1,254
Total Reimbursable                                                                                5,816                7,126
Total Direct and Reimbursable                                                             $     476,463      $       720,047

TERMS OF BORROWING AUTHORITY USED
Several Departmental programs have authority to borrow under the FCRA, as amended. The FCRA provides indefinite
borrowing authority to financing accounts to fund the unsubsidized portion of direct loans and to satisfy obligations in
the event the financing account’s resources are insufficient. Repayment requirements are defined by OMB Circular No.
A-11. Interest expense due is calculated based on the beginning balance of borrowings outstanding and the
borrowings/repayments activity that occurred during the fiscal year. Undisbursed Departmental borrowings earn
interest at the same rate as the financing account pays on its debt owed to BPD. In the event that principal and interest
                                                            126
                                                               U.S. Department of the Treasury | Fiscal Year 2012
collections exceed the interest expense due, the excess will be repaid to the Department. If principal and interest do not
exceed interest expense due, the Department will borrow the difference. The Department makes periodic principal
repayments based on the analysis of cash balances and future disbursement needs. All interest on borrowings were due
on September 30, 2012. Interest rates on FCRA borrowings range from 0.07 percent to 7.59 percent.


AVAILABLE BORROWING
(in millions)                                                                             2012                        2011
Beginning Balance                                                         $            123,844       $              23,477
Current Authority                                                                        11,019                   157,060
Borrowing Authority Withdrawn                                                         (10,038)                     (2,307)
Borrowing Authority Converted to Cash                                                 (14,895)                   (54,386)
Ending Balance                                                            $            109,930       $            123,844

RECONCILIATION OF THE PRESIDENT’S BUDGET
The Budget of the United States (also known as the President’s Budget), with actual numbers for fiscal year 2012, was not
published at the time that these financial statements were issued. The President’s Budget is expected to be published in
February 2013, and can be located at the OMB website http://www.whitehouse.gov/omb and will be available from the
U.S. Government Printing Office. The following chart displays the differences between the Combined Statement of
Budgetary Resources (SBR) in the fiscal year 2011 Agency Financial Report and the actual fiscal year 2011 balances
included in the fiscal year 2013 President’s Budget.




                                                           127
                                                                                 U.S. Department of the Treasury | Fiscal Year 2012
                  Reconciliation of Fiscal Year 2011 Combined Statement of Budgetary Resources
                                              to the Fiscal Year 2013 President's Budget

                                                                                          Outlays (net
                                                                            Budgetary     of offsetting        Offsetting                        Obligations
(in millions)                                                               Resources     collections)          Receipts       Net Outlays         Incurred


Statement of Budgetary Resources (SBR) Amounts                          $    1,089,001    $     433,312    $      (119,958)    $     313,354    $        720,047

Included in the Treasury Department Chapter of the
  President’s Budget (PB) but not in the SBR
IRS non-entity tax credit payments (1)                                         110,136          109,871                   -          109,871             110,141
Tax and Trade Bureau (TTB) non-entity collections for Puerto Rico                  452             452                    -             452                 452
Continued dumping subsidy - U.S. Customs and Border Patrol                          92               126                  -              126                 126
Other                                                                                 -                -               (19)              (19)                 (3)
Subtotal                                                                       110,680          110,449                (19)          110,430             110,716

Included in the SBR but not in the Treasury Department
  chapter of the PB
Treasury resources shown in non-Treasury chapters of the PB (2)              (156,955)           (6,747)                  -           (6,747)        (111,759)
Offsetting collections net of collections shown in PB                         (11,620)                 -              (128)             (128)                  4
Treasury offsetting receipts shown in other chapters of PB                            -                -               542               542                    -
Unobligated balance carried forward, recoveries of prior year funds
  and expired accounts                                                       (269,462)                 -                  -                 -                   -
ESF resources not shown in PB (3)                                             (44,840)                -                   -                -                    -
Treasury Financing Accounts (CDFI, GSE, OFS and SBLF)                        (104,685)          119,294                   -          119,294             (76,114)
Enacted reduction, 50% Transfer Accounts, and Capital Transfers
  to General Fund not included in PB                                              (39)                 -                  -                 -                   -
Unobligated balance transfers                                                    (245)
Other                                                                               (1)              (1)                (2)               (3)                 (6)
Subtotal                                                                     (587,847)          112,546                412           112,958         (187,875)
Trust Funds (4)                                                                    (89)               74               (76)               (2)              (805)
President's Budget Amounts (5)                                          $     611,745     $    656,381     $    (119,641)      $    536,740     $    642,083
     (1)    These are primarily Earned Income Tax Credit, Child Tax Credit, and Aid to First Time Homebuyers payments that are reported with
            refunds as custodial activities in the Department’s financial statements and thus are not reported as budgetary resources.
     (2)    The largest of these resources relate to the Department’s International Assistance Programs.
     (3)    The ESF is a self-sustaining component that finances its operations with the buying and selling of foreign currencies to regulate the
            fluctuations of the dollar. Because of the nature of the activities of the component, it does not receive appropriations, and therefore is
            excluded from the PB.
     (4)   The Trust Funds (OCC, CDFI Capital Magnet Fund & Cheyenne River Restoration) negative outlay also appears in the offsetting receipts
            section of the Analytical Perspectives.
     (5)   Per the President’s Budget for fiscal year 2013 – Budgetary Resources and Outlays are from the Analytical Perspective. Offsetting
            Receipts and Obligations Incurred are from the Appendix.


     LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
     The use of unobligated balances is restricted based on annual legislation requirements or enabling authorities. Funds are
     presumed to be available for only one fiscal year unless otherwise noted in the annual appropriation language.
     Unobligated balances in unexpired fund symbols are available in the next fiscal year for new obligations unless some
     restrictions had been placed on those funds by law. In those situations, the restricted funding will be temporarily
     unavailable until such time as the reasons for the restriction have been satisfied or legislation has been enacted to remove
     the restriction.

     Amounts in expired fund symbols are not available for new obligations, but may be used to adjust obligations and make
     disbursements that were recorded before the budgetary authority expired or to meet a bona fide need that arose in the
     fiscal year for which the appropriation was made.




                                                                             128
                                                              U.S. Department of the Treasury | Fiscal Year 2012
CHANGE IN BUDGETARY ACCOUNTING
Effective July 31, 2012, the Department changed the budgetary accounting for certain market-based Treasury debt
securities purchased by the Department of Defense (DoD) Military Funds to recognize the budget activity for premiums
and discounts at the time of purchase rather than when the premium/discount is amortized over the term of the security
in accordance with guidance provided by the OMB. For those previously issued securities held by the DoD on July 31,
2012, the Department recorded the net unamortized premium totaling $75.1 billion as budget activity in the current fiscal
year presented in accordance with guidance provided by the OMB. This change in accounting is reported as a decrease in
both Obligations Incurred and Appropriations (discretionary and mandatory) on the Combined Statement of Budgetary
Resources for the fiscal year ended September 30, 2012. On the Consolidated Statement of Changes in Net Position for
the fiscal year ended September 30, 2012, this change in accounting is reported within the Cumulative Results of
Operations section as a decrease in Appropriations Used and a corresponding increase in Accrued Interest and Discount
on Debt, and within the Unexpended Appropriations section as a decrease in Appropriations Received and a
corresponding decrease in Appropriations Used.




                                                          129
                                                                     U.S. Department of the Treasury | Fiscal Year 2012

23. COLLECTION AND DISPOSITION OF CUSTODIAL REVENUE
The Department collects the majority of federal revenue from income and excise taxes. Collection activity, by revenue
type and tax year, is presented for the fiscal years ended September 30, 2012 and 2011 (in millions):


                                                                                      Tax Year
                                                                                                           Pre-              2012
                                                             2012             2011         2010           2010         Collections
Individual Income and FICA Taxes                     $   1,415,326     $   699,498    $   20,718     $   24,448    $    2,159,990
Corporate Income Taxes                                    197,244           73,126          739          10,353           281,462
Estate and Gift Taxes                                           77           6,753           167          7,453            14,450
Excise Taxes                                               59,105           20,244           42             163            79,554
Railroad Retirement Taxes                                   3,609            1,163               -            1             4,773
Unemployment Taxes                                          3,886            3,162           28              83              7,159
Fines, Penalties, Interest, & Other Revenue - Tax
  Related                                                     351                 -              -             -               351
Tax Related Revenue Received                             1,679,598         803,946        21,694         42,501         2,547,739
Deposit of Earnings , Federal Reserve System               66,102           15,855               -             -           81,957
Fines, Penalties, Interest & Other Revenue - Non-
  Tax Related                                                 216               56               -             -              272
Non-Tax Related Revenue Received                           66,318            15,911              -             -           82,229
Total Revenue Received                               $   1,745,916     $   819,857    $   21,694     $   42,501         2,629,968
Less Amounts Collected for Non-Federal Entities                                                                               386
Total                                                                                                              $    2,629,582



                                                                                      Tax Year
                                                                                                            Pre-               2011
                                                              2011            2010         2009            2009         Collections
Individual Income and FICA Taxes                     $   1,357,129     $   703,856    $   18,980     $   22,065    $    2,102,030
Corporate Income Taxes                                     165,768          62,650         1,855         12,575           242,848
Estate and Gift Taxes                                           23           6,367           691          1,998             9,079
Excise Taxes                                                53,429          19,023            87            255            72,794
Railroad Retirement Taxes                                    3,523            1,164            1              4             4,692
Unemployment Taxes                                           4,806            1,961           39             87             6,893
Fines, Penalties, Interest, & Other Revenue - Tax
  Related                                                      284               9             -              -               293
Tax Related Revenue Received                             1,584,962         795,030        21,653         36,984         2,438,629
Deposit of Earnings, Federal Reserve System                 63,792          18,754             -              -            82,546
Fines, Penalties, Interest, & Other Revenue - Non-
  Tax Related                                                  273              25             -              -               298
Non-Tax Related Revenue Received                            64,065          18,779             -              -           82,844
Total Revenue Received                               $   1,649,027     $   813,809    $   21,653     $   36,984    $    2,521,473
Less Amounts Collected for Non-Federal Entities                                                                               462
Total                                                                                                              $    2,521,011




                                                              130
                                                                         U.S. Department of the Treasury | Fiscal Year 2012
AMOUNTS PROVIDED TO FUND THE U.S. GOVERNMENT
For the years ended September 30, 2012 and 2011, collections of custodial revenue transferred to other entities were as
follows (in millions):
                                                                                                               2012                      2011
Department of the Interior                                                                         $             511        $             344
General Fund (1)                                                                                          2,268,311                 2,106,419
Total                                                                                              $      2,268,822         $       2,106,763
(1) The General Fund amount for fiscal years 2012 and 2011 includes cash proceeds from the sale of AIG common stock of $13.0 billion and
   $2.0 billion, respectively, as reported on the Statements of Custodial Activity.


FEDERAL TAX REFUNDS PAID
Refund activity, by revenue type and tax year, was as follows for the years ended September 30, 2012 and 2011 (in
millions):
                                                                                              Tax Year
                                                                                                                         Pre-              2012
                                                                 2012                2011              2010             2010            Refunds

Individual Income and FICA Taxes                       $         514      $     293,434       $     23,719      $    10,008         $   327,675
Corporate Income Taxes                                         5,093             10,567              7,356           20,954              43,970
Estate and Gift Taxes                                              -                180                 80              245                 505
Excise Taxes                                                     433                839                 79              136               1,487
Railroad Retirement Taxes                                          -                  4                   -               4                   8
Unemployment Taxes                                                 1                 78                  11              16                 106
Fines, Penalties, Interest & Other Revenue                         1                  -                   -               -                   1
Total                                                  $       6,042      $     305,102       $     31,245      $     31,363        $   373,752


                                                                                              Tax Year
                                                                                                                         Pre-              2011
                                                                  2011               2010              2009             2009            Refunds

Individual Income and FICA Taxes                      $         1,140     $      302,832      $      26,455     $      13,957       $   344,384
Corporate Income Taxes                                          6,342             16,623              6,451            38,361            67,777
Estate and Gift Taxes                                               -                 11                401             1,366             1,778
Excise Taxes                                                      799              1,047                159               184             2,189
Railroad Retirement Taxes                                           -                  2                  -                 1                 3
Unemployment Taxes                                                  3                 54                 15                18                90
Total                                                 $         8,284     $      320,569      $      33,481     $      53,887       $   416,221




FEDERAL TAX REFUNDS PAYABLE
As of September 30, 2012 and September 30, 2011, refunds payable to taxpayers consisted of the following (in millions):
                                                                                                                     2012                   2011
Internal Revenue Service                                                                                    $       3,252       $          3,981
Alcohol and Tobacco Tax and Trade Bureau                                                                                3                      2
Total                                                                                                       $       3,255       $          3,983




                                                                    131
                                                               U.S. Department of the Treasury | Fiscal Year 2012

24. EARMARKED FUNDS
The majority of the Department’s earmarked fund activities are attributed to the ESF and the pension and retirement
funds managed by the Office of D.C. Pensions. In addition, earmarked funds managed by BEP, Mint, and OCC (the
Department’s non-appropriated bureaus) and certain funds managed by the IRS are public enterprise (or revolving)
funds and receive no appropriations from the Congress. Other miscellaneous earmarked funds are managed by BPD, DO,
FMS, FMD (a division of FMS), IRS, OFR, and TFF.

The following is a list of earmarked funds and a brief description of the purpose, accounting, and uses of these funds.

Bureau                      Fund Code                            Fund Title/Description
Exchange Stabilization Fund (ESF)
ESF                         20X4444                              Exchange Stabilization Fund

D.C. Pensions
DCP                               20X1713                        Federal payment - D.C. Judicial Retirement
DCP                               20X1714                        Federal payment - D.C. Federal Pension Fund
DCP                               20X5511                        D.C. Federal Pension Fund
DCP                               20X8212                        D.C. Judicial Retirement and Survivor's Annuity Fund

Public Enterprise/Revolving Funds
BEP                         20X4502                              Bureau of Engraving and Printing Fund
MNT                         20X4159                              Public Enterprise Fund
OCC                         20X8413                              Assessment Funds
OCC                         20X4264                              Assessment Funds
IRS                         20X4413                              Federal Tax Lien Revolving Fund

Other Earmarked Funds
BPD                               20X5080                        Gifts to Reduce Pubic Debt
DO                                20X5816                        Confiscated and Vested Iraqi Property and Assets
DO                                20X8790                        Gifts and Bequests Trust Fund
FMD                               20X5081                        Presidential Election Campaign
FMD                               20X8902                        Esther Cattell Schmitt Gift Fund
FMD                               9515585                        Travel Promotion Fund, Corp for Travel Promotion
FMD                               9525585                        Travel Promotion Fund, Corp for Travel Promotion
FMD                               95X5585                        Travel Promotion Fund, Corp for Travel Promotion
FMS                               206/75445                      Debt Collection Special Fund
FMS                               207/85445                      Debt Collection Special Fund
FMS                               208/95445                      Debt Collection Special Fund
FMS                               209/05445                      Debt Collection Special Fund
FMS                               200/15445                      Debt Collection Special Fund
FMS                               201/25445                      Debt Collection Special Fund
FMS                               202/35445                      Debt Collection Special Fund
IRS                               20X5510                        Private Collection Agency Program
IRS                               20X5433                        Informant Reimbursement
OFR                               20X5590                        Financial Research Fund
TFF                               20X5697                        Treasury Forfeiture Fund

Pursuant to the legal authority found in section 10 of the Gold Reserve Act of 1934, as amended, the ESF may purchase or
sell foreign currencies, holds U.S. foreign exchange and SDR assets, and may provide financing to foreign governments
and foreign entities. The ESF accounts for and reports its holdings to FMS on the Standard Form 224, “Statement of
Transactions,” and provides other reports to Congress. Interest on SDRs in the IMF, Investments in U.S. Securities
(BPD), and Investments in Foreign Currency Assets are its primary sources of revenue. The ESF’s earnings and realized



                                                           132
                                                                U.S. Department of the Treasury | Fiscal Year 2012
gains on foreign currency assets represent inflows of resources to the government, and the interest revenues earned from
U.S. Securities are the result of intra-Departmental flows.

D.C. Pension Funds provide annuity payments for retired D.C. teachers, police officers, judges, and firefighters. The
sources of revenues are through intra-governmental flows including annual appropriations and interest earnings from
investments, as well as inflows of resources to the government of employee contributions. All proceeds are earmarked.
Note 18 provides detailed information on various funds managed by DCP.

The BEP, Mint, OCC, and IRS operate “public enterprise/revolving funds” to account for their respective revenues and
expenses. 31 USC § 5142 established the revolving fund for BEP to account for revenue and expenses related to the
currency printing activities. P.L. 104-52 (31 USC § 5136) established the Public Enterprise Fund for the Mint to account
for all revenue and expenses related to the production and sale of numismatic products and circulating coinage.
Revenues and other financing sources at the Mint are mainly from the sale of numismatic and bullion products, and the
sale of circulating coins to the FRB system, and represent inflows of resources to the government. 12 USC § 481
established the Assessment Funds for OCC. Revenue and financing sources are from the bank examinations and
assessments for the oversight of the national banks, savings associations, and savings and loan holding companies. These
non-appropriated funds contribute to the inflows of resources to the government to specifically fund these entity’s
operations. 26 USC § 7810 established the Federal Tax Lien Revolving Fund to account for revenue and expenses from
the sale of property foreclosed upon by a holder of a lien. There are minimal transactions with other government
agencies.

There are other earmarked funds at several Treasury bureaus, such as donations to the Presidential Election Campaign
Fund, funds related to the debt collection program, gifts to reduce the public debt, and other enforcement related
activities. Public laws, the U.S. Code, and the Debt Collection Improvement Act established and authorized the use of
these funds. Sources of revenues and other financing sources include contributions, cash and property forfeited in
enforcement activities, public donations, and debt collection, representing inflows to the government.


INTRA-GOVERNMENTAL INVESTMENTS IN TREASURY SECURITIES
The U.S. Government does not set aside assets to pay future benefits or other expenditures associated with earmarked
funds. The Department’s bureaus and other federal agencies invest some of the earmarked funds that they collect from
the public, if they have the statutory authority to do so. The funds are invested in securities issued by BPD. The cash
collected by BPD is deposited in the General Fund, which uses the cash for general government purposes.

The investments provide Department bureaus and other federal agencies with authority to draw upon the General Fund
to make future benefit payments or other expenditures. When the Department bureaus or other federal agencies require
redemption of these securities to make expenditures, the government finances those redemptions out of accumulated
cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other
expenditures. This is the same way that the government finances all other expenditures.

The securities are an asset to the Department bureaus and other federal agencies and a liability of the BPD. The General
Fund is liable to BPD. Because the Department bureaus and other federal agencies are parts of the U.S. Government,
these assets and liabilities offset each other from the standpoint of the government as a whole. For this reason, they do
not represent an asset or a liability in the U.S. Government-wide financial statements.

The balances related to the investments made by the Department bureaus are not displayed on the Department’s
financial statements because the bureaus are subcomponents of the Department. However, the General Fund remains
liable to BPD for the invested balances and BPD remains liable to the investing Department bureaus (See Note 4).


                                                              133
                                                                                  U.S. Department of the Treasury | Fiscal Year 2012
                                                Summary Information for Earmarked Funds
                                         as of and for the Fiscal Year Ended September 30, 2012

                                                                                 Public
                                            Exchange                        Enterprise/               Other      Combined
                                         Stabilization             D.C.      Revolving            Earmarked     Earmarked             Elimi-            2012
(in millions)                                    Fund          Pensions          Funds                Funds         Funds            nations            Total

ASSETS
Fund Balance                            $             -    $           1   $         1,093    $         749    $       1,843     $          -    $      1,843
Investments and Related Interest –
  Intra-governmental                            22,680            4,082              1,380             1,634          29,776          29,775                   1
Cash, Foreign Currency and Other
  Monetary Assets                               65,764                -                  -                18          65,782               -           65,782
Investments and Related Interest                 15,416               -                  -                 -           15,416              -            15,416
Other Assets                                          -               9              1,350               139            1,498              8             1,490
Total Assets                            $      103,860     $      4,092    $         3,823    $        2,540   $      114,315    $    29,783     $     84,532


LIABILITIES
Intra-governmental Liabilities          $             -    $           -   $            37    $         395    $         432     $        28     $           404
Certificates Issued to Federal
   Reserve Banks                                  5,200               -                  -                -            5,200                -           5,200
Allocation of Special Drawing Rights             54,463               -                  -                -           54,463                -          54,463
DC Pension Liability                                  -          10,059                  -                -           10,059                -          10,059
Other Liabilities                                     7              57                621              253              938                -             938
Total Liabilities                                59,670           10,116               658              648           71,092              28           71,064

Net Position
Unexpended Appropriations                          200                 -                  -                -             200                -            200
Cumulative Results of Operations                43,990           (6,024)             3,165             1,892          43,023                -          43,023
Total Liabilities and Net
  Position                              $      103,860     $      4,092    $         3,823    $        2,540   $      114,315    $        28     $    114,287

Statement of Net Cost
Gross Cost                              $         1,557    $         256   $        5,001     $         406    $       7,220     $         64    $      7,156
Less: Earned Revenue                              (956)             (99)          (5,033)                 -          (6,088)            (133)         (5,955)
Gains/Losses on Pension, ORB, or
  OPEB Assumption Changes                             -             690                  5                 -             695                -                695
Total Net Cost of (Revenue
  From Operations                       $           601    $        847    $          (27)    $         406    $        1,827    $       (69)    $      1,896


Statement of Changes in Net
  Position
Cumulative Results of
Operations:
Beginning Balance                       $        44,591    $     (5,669)   $         3,024    $        1,665   $       43,611    $        (2)    $     43,613
Budgetary Financing Sources                           -              492               (77)              572             987            (126)           1,113
Other Financing Sources                               -                -                191               61             252             (40)             292
Total Financing Sources                               -             492                114              633             1,239           (166)           1,405
Net Cost of (Revenue From)
Operations                                        (601)           (847)                 27             (406)          (1,827)             69          (1,896)
Change in Net Position                            (601)            (355)               141              227            (588)             (97)           (491)
Ending Balance                          $       43,990     $     (6,024)   $         3,165    $        1,892   $      43,023     $       (99)    $     43,122

* The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the
   eliminations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




                                                                               134
                                                                                  U.S. Department of the Treasury | Fiscal Year 2012
                                               Summary Information for Earmarked Funds
                                        as of and for the Fiscal Year ended September 30, 2011

                                                                                    Public
                                            Exchange                           Enterprise/             Other     Combined
                                         Stabilization             D.C.         Revolving          Earmarked    Earmarked             Elimi-          2011
(in millions)                                    Fund          Pensions             Funds              Funds        Funds            nations          Total
ASSETS
Fund Balance                             $             -   $          7    $          1,123    $         493    $       1,623    $         -    $     1,623
Investments and Related Interest -
   Intra-governmental                            22,721           4,048               1,188             1,587         29,544          29,544                 -
Cash, Foreign Currency and Other
   Monetary Assets                               66,678               -                   -                20         66,698               -         66,698
Investments and Related Interest                  15,777              -                   -                 -          15,777              -          15,777
Other Assets                                           -              2               1,422               110           1,534              6           1,528
Total Assets                             $      105,176    $      4,057    $          3,733    $        2,210   $     115,176    $    29,550    $    85,626

LIABILITIES
Intra-governmental Liabilities           $             -   $           -   $             48    $         369    $         417    $       58     $       359
Certificates Issued to Federal
  Reserve Banks                                   5,200                -                   -                -          5,200               -          5,200
Allocation of Special Drawing Rights             55,150               -                   -                -           55,150             -          55,150
DC Pension Liabilities                                -           9,671                   -                -            9,671             -           9,671
Other Liabilities                                    35              55                 661              176              927             -             927
Total Liabilities                                60,385           9,726                 709              545           71,365            58          71,307
Net Position
Unexpended Appropriations                          200                 -                  -                 -            200               -           200
Cumulative Results of Operations                 44,591          (5,669)              3,024             1,665          43,611              -         43,611
Total Liabilities and Net Position       $      105,176    $      4,057    $          3,733    $        2,210   $     115,176    $       58     $    115,118

Statement of Net Cost
Gross Cost                               $          438    $        287    $          6,062    $         306    $       7,093    $        81    $      7,012
Less: Earned Revenue                            (1,484)            (117)             (6,181)               -          (7,782)          (165)         (7,617)
Gains/Losses on Pension, ORB, or
  OPEB Assumption Changes                              -            195                    -                -             195              -            195
Total Net Cost of Operations             $      (1,046)    $        365    $           (119)   $         306    $       (494)    $      (84)    $     (410)


Statement of Changes in Net
  Position
Cumulative Results of
Operations
Beginning Balance                        $       43,545    $     (5,805)   $          2,528    $        1,158   $      41,426    $         -    $    41,426
Budgetary Financing Sources                           -              501                (51)              851           1,301           (50)          1,351
Other Financing Sources                               -                -                428              (38)             390           (36)            426
Total Financing Sources                               -             501                 377               813           1,691           (86)           1,777
Net Cost of Operations                            1,046           (365)                 119             (306)             494             84             410
Change in the Net Position                        1,046             136                 496              507            2,185            (2)          2,187
Ending Balance                           $       44,591    $     (5,669)   $          3,024    $        1,665   $      43,611    $       (2)    $    43,613

* The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the
   eliminations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




                                                                               135
                                                                U.S. Department of the Treasury | Fiscal Year 2012

25. RECONCILIATION OF NET COST OF TREASURY OPERATIONS
AND NON-ENTITY COSTS TO BUDGET
The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net obligations and
the proprietary net cost of Treasury operations and non-entity costs. For the fiscal years ended September 30, 2012 and
2011, the Reconciliation of Net Cost of Operations to Budget consisted of the following (in millions):
                                                                                                         2012            2011
RESOURCES USED TO FINANCE ACTIVITIES
Budgetary Resources Obligated:
Obligations Incurred (Note 22)                                                               $     476,463       $    720,047
Less: Spending Authority from Offsetting Collections and Recoveries                              (180,078)           (223,941)
Obligations Net of Offsetting Collections and Recoveries                                           296,385             496,106
Less: Offsetting Receipts                                                                          (73,881)          (119,958)
Net Obligations                                                                                    222,504             376,148
Other Resources:
Donations and Forfeiture of Property                                                                    174                163
Financing Sources for Accrued Interest and Discount on the Debt (Note 22)                            95,877             14,042
Transfers In/Out Without Reimbursement                                                                 (47)               (60)
Imputed Financing from Cost Absorbed by Others                                                          812                925
Transfers to the General Fund and Other (Note 20)                                                  (46,341)          (127,938)
Net Other Resources Used to Finance Activities                                                       50,475          (112,868)
Total Resources Used to Finance Activities                                                          272,979           263,280

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
  TREASURY OPERATIONS AND NON-ENTITY COSTS
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but not
  yet Provided                                                                                      (11,371)           67,967
Credit Program Collections that Increase Liabilities for Loan Guarantees or Allowances for
  Subsidy                                                                                          (78,651)           (23,549)
Adjustment to Accrued Interest and Discount on the Debt                                             22,720              15,277
Other (including Offset to Offsetting Receipts)                                                    183,385           (164,856)
Total Resources Used to Finance Items Not Part of the Net Cost of Treasury Operations and
Non-Entity Costs                                                                                    116,083          (105,161)
Total Resources Used to Finance the Net Cost of Treasury Operations and Non-
  Entity Costs                                                                                     156,896            368,441
Total Components of Net Cost of Treasury Operations and Non-Entity Costs That Will
  Require or Generate Resources in Future Periods                                                  (15,760)            23,213
Total Components of Net Cost of Treasury Operations and Non-Entity Costs That Will Not
  Require or Generate Resources                                                                          4,045          12,501
Total Components of Net Cost of Treasury Operations and Non-Entity Costs
  That Will Not Require or Generate Resources in the Current Period                                 (11,715)           35,714
Net Cost of Treasury Operations and Non-Entity Costs                                         $      145,181      $    404,155




                                                            136
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

26. NON-TARP INVESTMENTS IN AMERICAN INTERNATIONAL
GROUP, INC.
Under the initial terms of a capital facility agreement between the FRBNY and AIG, FRBNY established a trust (Trust)
and AIG issued into the Trust Series C Convertible Participating Serial Preferred Stock that was convertible into
approximately 77.9 percent of the issued and outstanding shares of AIG. Subsequent to this initial agreement, a reverse
stock split of AIG’s common stock increased this equity interest to 79.8 percent. The General Fund of the U.S.
Government was the sole beneficiary of the Trust. In connection with the establishment of the Trust, the Department, as
custodian of the General Fund, recorded a non-entity asset of $23.5 billion as of September 30, 2009, along with a
corresponding entry to custodial revenue for the same amount, to reflect the value of the General Fund’s beneficiary
interest holding in the Trust.

On September 30, 2010, the Department, the FRBNY, and AIG entered into an AIG Recapitalization Agreement for the
purpose of restructuring the U.S. Government’s holding in AIG. This restructuring was executed on January 14, 2011,
converting the Trust’s AIG preferred stock into 563 million shares of AIG common stock, and the Trust was dissolved
(refer to Note 7 for a discussion of the TARP-related transactions that occurred in connection with the January 14, 2011
restructuring). The Department intends to sell all of its General Fund and TARP holdings in AIG common stock together,
on a pro rata basis, in the open market over time. The General Fund will be the ultimate recipient of any future dividends
earned and proceeds realized from the liquidation of its holdings of AIG common stock. Accordingly, such dividends and
proceeds are deposited into the accounts of the General Fund. The conversion of the Trust’s preferred stock into AIG
common stock reduced the non-entity portion of the outstanding common stock ownership in AIG from 79.8 percent to
approximately 31 percent. In connection with the January 14, 2011 restructuring, the Department recorded a non-entity
asset of $25.5 billion to reflect the value of the General Fund’s 31 percent ownership in AIG’s common stock. This
transaction also included removing the previous asset, the General Fund’s sole beneficiary interest in the Trust, which
was dissolved as part of the recapitalization.

During fiscal year 2012, the Department sold 1.2 billion shares of AIG common stock held by the General Fund and TARP
(415 million and 806 million shares, respectively). The sale of the AIG common stock resulted in total gross cash
proceeds of $38.2 billion, of which the General Fund and the TARP received $13.0 billion and $25.2 billion, respectively,
for the fiscal year ended September 30, 2012 (refer to Note 7).

During fiscal year 2011, the Department sold in the open market 200 million shares of AIG common stock held by the
General Fund and TARP (68 million and 132 million shares, respectively). The sale of the AIG common stock resulted in
total gross cash proceeds of $5.8 billion, of which the General Fund and the TARP received $2.0 billion and $3.8 billion,
respectively, for the fiscal year ended September 30, 2011 (refer to Note 7).

After taking into consideration the sales of AIG common stock, the General Fund owned 80 million and 495 million
shares of AIG outstanding common stock as of September 30, 2012 and 2011, respectively. The carrying value of the
remaining non-entity investment held in AIG was $2.6 billion and $10.9 billion as of September 30, 2012 and 2011,
respectively, which represented the fair value of the common stock as of that date. The fair value of the non-entity assets
recorded as of September 30, 2012 and 2011 was based on the market value of AIG’s common stock which is actively
traded on the NYSE. The September 30, 2012 carrying value of the AIG investments held on behalf of the General Fund
declined by $8.3 billion from the end of the prior fiscal year due to sales of $13.0 billion, partially offset by a fair value
gain of $4.7 billion during fiscal year 2012. The September 30, 2011 carrying value declined by $9.9 billion from the end
of fiscal year 2010 due to sales of $2.0 billion and a fair value loss of $7.9 billion during fiscal year 2011. Accordingly, the
carrying value of the AIG common stock investment was adjusted by these amounts, and a corresponding amount was
reported as custodial expense on the Statements of Custodial Activity.
                                                              137
                                                               U.S. Department of the Treasury | Fiscal Year 2012
The Department will re-value its non-entity AIG common stock holdings at least annually until all of these common
shares are liquidated. Like any asset, future events may increase or decrease the value of the General Fund’s interest in
the AIG common stock.


27. SCHEDULE OF FIDUCIARY ACTIVITY
The following funds have been identified by the Department as meeting the criteria for fiduciary activity. Details of the
funds are provided below.

Bureau      Fund Code           Authority               Fund Title/Description
BEP         20X6513.013         31 USC 5119             Mutilated Currency Claims Funds
BPD         20X6008             31 USC 3513             Payment Principal & Interest Govt. Agencies
FMD         20X6045             31 USC 3328             Proceeds, Payments of Unpaid Checks
FMD         20X6048             31 USC 3329, 3330       Proceeds of Withheld Foreign Checks
FMD         2015X6078           50 APP. USC 2012        War Claims Fund, Foreign Claims Settlement Commission
FMD         20X6092             31 USC 1321             Debt Management Operations
FMD         20X6104             22 USC 1627             Albanian Claims Fund, Treasury
FMD         20X6133             31 USC 1322             Payment of Unclaimed Moneys
FMD         20X6309             22 USC 1627(a)          Libyan Claims Settlement Fund
FMD         20X6310             22 USC 1627(a)          Libyan Claims Settlement Fund
FMD         20X6311             98 Stat. 1876           Kennedy Center Revenue Bond
FMD         20X6312             22 USC 1627             Iranian Claims Settlement Fund
FMD         20X6314             22 USC 1644g            German Democrat Settlement Fund
FMD         20X6315             22 USC 1645h            Vietnam Claims Settlement Fund
FMD         20X6501.018         31 USC 3513             Small Escrow Amounts
FMD         20X6720             31 USC 3513             SM DIF Account for Dep. & Check Adj.
FMD         20X6830             104 Stat. 1061          Net Interest Payments to/from State
FMD         20X6999             31 USC 3513             Accounts Payable, Check Issue UNDDR
IRS         20X6737             90 Stat. 269-270        Internal Revenue Collections for Northern Mariana Island
IRS         20X6738             31 USC 3513             Coverover Withholdings-U.S. Virgin Islands
IRS         20X6740             31 USC 3515             Coverover Withholdings-Guam
IRS         20X6741             31 USC 3513             Coverover Withholdings-American Samoa
OAS         20X6317.001         22 USC 2431             Belize Escrow, Debt Reduction
OAS         20X6501.018         31 USC 3513             Small Escrow Amounts

Unclaimed monies were authorized by 31 USC 5119, which authorized FMS to collect unclaimed monies on behalf of the
public. Other fiduciary activities by the Department as listed above are included in All Other Fiduciary Funds.




                                                           138
                                                                        U.S. Department of the Treasury | Fiscal Year 2012
                                                     Schedule of Fiduciary Activity

(in millions)                                                           2012                                      2011

                                                       Unclaimed     All Other           Total   Unclaimed       All Other       Total
                                                         Monies -    Fiduciary       Fiduciary    Monies -       Fiduciary   Fiduciary
                                                            FMD         Funds           Funds         FMD           Funds       Funds
Fiduciary Net Assets, Beginning of the Year           $       451   $      413       $    864    $    420    $        156    $    576
Increases:
  Contributions to Fiduciary Net Assets                       59           243            302          31            479          510
  Investment Earnings                                           -                1           1          -              1            1
Total Increases                                               59           244            303          31            480          511
Decreases:
  Disbursements to and on behalf of beneficiaries             (1)         (314)          (315)          -           (223)        (223)
Total Decreases                                               (1)         (314)          (315)          -           (223)        (223)
Net Increase (Decrease) in Fiduciary Assets                   58           (70)           (12)         31             257          288
Fiduciary Net Assets, End of Year                     $      509    $      343       $    852    $    451    $        413    $     864




                                                    Schedule of Fiduciary Net Assets
(in millions)                                                           2012                                      2011

                                                       Unclaimed     All Other           Total   Unclaimed       All Other       Total
                                                         Monies -    Fiduciary       Fiduciary    Monies -       Fiduciary   Fiduciary
                                                            FMD         Funds           Funds         FMD           Funds       Funds
Fiduciary Assets
Cash and Cash Equivalents                             $      509    $      328       $    837    $     451   $       336     $    787
Investments                                                     -              17           17           -            77           77
Total Fiduciary Assets                                       509           345            854          451           413          864
Less: Fiduciary Liabilities                                     -              (2)         (2)           -             -            -
Total Fiduciary Net Assets                            $      509    $      343       $    852    $     451   $       413     $    864


   28. COMMITMENTS AND CONTINGENCIES
   LEGAL CONTINGENCIES
   The Department is a party in various administrative proceedings, legal actions, and claims, including equal opportunity
   matters which may ultimately result in settlements or decisions adverse to the U.S. Government. These contingent
   liabilities arise in the normal course of operations and their ultimate disposition is unknown. The Department has
   disclosed contingent liabilities where the conditions for liability recognition have not been met and the likelihood of
   unfavorable outcome is more than remote. The Department does not accrue for possible losses related to cases where the
   potential loss cannot be estimated or the likelihood of an unfavorable outcome is less than probable.

   In some cases, a portion of any loss that may occur may be paid by the Department’s Judgment Fund, which is separate
   from the operating resources of the Department. For cases related to the Contract Disputes Act of 1978 and awards
   under federal anti-discrimination and whistle-blower protection acts, the Department must reimburse the Judgment
   Fund from future appropriations.

   The Department had one contingent liability in fiscal year 2012 related to legal action taken in the case of Cobell v.
   Salazar where losses are determined to be probable. In this case, the parties agreed to a total settlement of $3.4 billion.
   Specific details of this litigation case are provided below.

   In the opinion of the Department’s management and legal counsel, based on information currently available, the
   expected outcome of other legal actions, individually or in the aggregate, will not have a materially adverse effect on the

                                                                    139
                                                                 U.S. Department of the Treasury | Fiscal Year 2012
Department’s consolidated financial statements, except for the pending legal actions described below which may have a
materially adverse impact on the consolidated financial statements depending on the outcomes of the cases.

Pending Legal Actions

• Cobell et al. v. Salazar et al. (formerly Cobell v. Kempthorne): Native Americans allege that the Department of the
  Interior and the Department of the Treasury have breached trust obligations with respect to the management of the
  plaintiffs’ individual Indian monies. In August 2008, the Federal District Court issued an opinion awarding $455
  million to the plaintiffs. This decision was overturned in July 2009. The Appellate Court found that the U.S.
  Government owes a cost-effective accounting, in scale with available funds.

  In December 2009, the parties agreed to settle the plaintiff’s claims, as well as claims for mismanagement of assets and
  land that were not asserted in the case, for $1.5 billion. The U.S. Government also agreed to pay an additional amount
  of up to $1.9 billion to purchase certain land interests owned by Native Americans. The Department of the Interior,
  jointly named in the case, accrued the entire $3.4 billion as a contingent liability in fiscal year 2011 upon President
  Obama’s signing of legislation authorizing the settlement in December 2010. Accordingly, the Department of the
  Treasury will not accrue any portion of this liability. Several class members appealed the settlement however, in May
  2012, the Appellate Court upheld the District Court’s decision approving the settlement. Appellants filed petitions for
  certiorari to the Supreme Court. Final approval of the settlement will not occur until the appeals from individuals
  challenging the settlement have run their course.

• Tribal Trust Fund Cases: Numerous cases have been filed in the U.S. District Courts in which Native American Tribes
  seek a declaration that the United States has not provided the tribes with a full and complete accounting of their trust
  funds, and seek an order requiring the U.S. Government to provide such an accounting. In addition, there are a
  number of other related cases seeking damages in the U.S. Court of Federal Claims, which do not name the Department
  as a defendant. During fiscal year 2012, a number of tribal trust fund cases settled for an aggregate settlement amount
  totaling $754 million, which was paid from the Judgment Fund. The U.S. Government is currently in discussion with
  counsel representing most of the remaining plaintiff tribes with tribal trust fund cases pending against the United
  States about the feasibility of an out-of-court settlement. Plaintiff tribes in several of the pending cases have chosen to
  pursue active litigation, rather than settlement discussion, and the U.S. Government is vigorously litigating those cases.
  The Department is unable to determine the likelihood of an unfavorable outcome or an estimate of potential loss at this
  time.
• Amidax Trading Group v. S.W.I.F.T.: Plaintiffs allege that the Department’s Terrorist Finance Tracking Program has
  involved unlawful disclosure of information by the Society for Worldwide Interbank Financial Telecommunications
  (S.W.I.F.T.). Defendants include the Department of the Treasury as well as several Treasury officials. The case was
  dismissed by the District Court in February 2009, and the plaintiff subsequently appealed that ruling to the Court of
  Appeals for the Second Circuit. The parties completed the appellate briefing, and the oral argument occurred in July
  2010. In December 2011, the Second Circuit ruled in favor of the defendants, affirming the District Court and, in July
  2012, the Second Circuit denied the plaintiff’s petition for rehearing. It is unclear whether the plaintiff will file a
  petition of certiorari with the Supreme Court, but the plaintiff has obtained an extension of the deadline, until
  December 24, 2012, to seek Supreme Court review. The Department is unable to determine the likelihood of an
  unfavorable outcome or an estimate of potential loss at this time.
• James X. Bormes v. United States of America: The complaint alleges that the government willfully violated certain
  provisions of the Fair and Accurate Credit Transaction Act (FACTA) P.L. 108-159 in that the transaction confirmation
  received by the complainant from Pay.gov improperly included the expiration date of the credit card used for that
  transaction. The complaint does not state the amount of damages sought on behalf of the class beyond asserting that

                                                             140
                                                                                U.S. Department of the Treasury | Fiscal Year 2012
  each class member would be entitled to $100 to $1,000 in statutory damages. In a letter sent to the Department of
  Justice, the plaintiff proposed a fund of $30 million for just the Illinois class members.

  In July 2009, the U.S. District Court for the Northern District of Illinois granted the U.S. Government’s motion to
  dismiss this case for lack of an unequivocal waiver of sovereign immunity. In November 2010, the U.S. Court of
  Appeals for the Federal Circuit reversed the District Court’s decision and directed that the case be remanded back to
  the District Court for further proceedings. The U.S. Government’s petition for a rehearing of that decision was denied
  by the Federal Circuit in March 2011. In January 2012, the U.S. Supreme Court granted the U.S. Government a writ of
  certiorari concerning this decision. The case was argued on October 2, 2012, and a decision by the U.S. Supreme Court
  is pending. The Department is unable to determine the likelihood of an unfavorable outcome or an estimate of
  potential loss at this time.

• Other Legal Actions: The Department is also involved in employment related legal actions (e.g., matters alleging
   discrimination and other claims before the Equal Employment Opportunity Commission, Merit System Protection
   Board, etc.) for which an unfavorable outcome is reasonably possible, but for which an estimate of potential loss cannot
   be determined at this time. It is not expected that these cases will have a material adverse effect on the Department’s
   financial position or results.


OTHER COMMITMENTS AND CONTINGENCIES

Loan Commitments

The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose loans
are guaranteed by federal agencies, to extend them credit for their own use (refer to Notes 1L and 3). As of September 30,
2012 and 2011, the Department had loan commitments totaling $86.2 billion and $95.5 billion, respectively.

Multilateral Development Banks
The Department, on behalf of the United States, has subscribed to capital for certain multilateral development banks
(MDBs), portions of which are callable under certain limited circumstances to meet the obligations of the respective
MDB. There has never been, nor is there anticipated, a call on the U.S. commitment for these subscriptions. As of
September 30, 2012 and 2011, U.S. callable capital in MDBs was as follows (in millions):
                                                                                                                               2012                     2011
Inter-American Development Bank                                                                                       $      32,786              $   28,687
International Bank for Reconstruction and Development                                                                        31,805                  29,966
Asian Development Bank                                                                                                       11,027                   8,469
European Bank for Reconstruction and Development                                                                              3,055                   1,803
African Development Bank                                                                                                      2,053                   1,545
North American Development Bank                                                                                               1,275                    1,275
Multilateral Investment Guarantee Agency(1)                                                                                     315                      293
Total                                                                                                                 $      82,316              $   72,038
(1) Includes, for fiscal year 2012, commitments of $22 million for the undisbursed portion of the subscription to paid-in capital investments.


Amounts included in the above table do not include amounts for which the Department may be liable to pay if future
congressional action is taken to fund executed agreements between the Department and certain multilateral development
banks.




                                                                           141
                                                               U.S. Department of the Treasury | Fiscal Year 2012
Terrorism Risk Insurance Program

The Terrorism Risk Insurance Act (TRIA), signed into law in November 2002, was enacted to address market
disruptions resulting from terrorist attacks on September 11, 2001. TRIA helps to ensure available and affordable
commercial property and casualty insurance for terrorism risk, and simultaneously allows private markets to stabilize.
The authority to pay claims under the Terrorism Risk Insurance Program (TRIA Program) is activated upon the
certification of an “act of terrorism” by the Secretary in concurrence with the Secretary of State and the Attorney General.
If a certified act of terrorism occurs, insurers may be eligible to receive reimbursement from the U.S. Government for
insured losses above a designated deductible amount. Insured losses above this amount will be shared between
insurance companies and the U.S. Government. TRIA also gives the Department authority to recoup federal payments
made under the TRIA Program through policyholder surcharges under certain circumstances, and contains provisions
designed to manage litigation arising from or relating to a certified act of terrorism. There were no claims under TRIA as
of September 30, 2012 or 2011.

Exchange Stabilization Agreement

In April 1994, the Department signed the North American Framework Agreement (NAFA), which includes the Exchange
Stabilization Agreement (ESA) with Mexico. The Department, through the ESF, has a standing swap line for $3.0 billion
with Mexico under the NAFA and its implementing ESA. The amounts and terms (including the assured source of
repayment) of any borrowing under NAFA and ESA will have to be negotiated and agreed to before any actual drawing
can occur. The ESA does provide sample clauses that state that transactions shall be exchange rate neutral for the ESF,
and shall bear interest based on a then current rate tied to U.S. Treasury bills. There were no drawings outstanding on
the ESF swap line as of September 30, 2012 and 2011. The Department renewed the ESA through December 14, 2012.

New Arrangements to Borrow

The Supplemental Appropriations Act of 2009 (P.L. 111-32) provided the authorization and appropriations for an
increase in the United States’ participation in the New Arrangements to Borrow (NAB). Because the U.S. financial
participation in the IMF is denominated in SDRs, P.L. 111-32 authorized and appropriated up to the dollar equivalent of
SDR 75 billion to implement this commitment. The United States agreed in May 2010 that its participation in the NAB
would increase from SDR 6.6 billion to SDR 69.1 billion, pursuant to IMF Executive Board Decision No. 14577-(10/35).
Total U.S. participation in the NAB of SDR 69.1 billion was equivalent to $106.5 billion and $107.9 billion as of
September 30, 2012 and 2011, respectively. Refer to Notes 11 and 12 for more information on the NAB.

Contingent Liability to GSEs

The SPSPA agreements between the Department and each GSE, which have no expiration date, provide for the
Department to disburse funds to the GSEs if, at the end of any quarter, the FHFA determines that the liabilities exceed its
assets. At September 30, 2012, the Department recorded a contingent liability of $9.0 billion with a projected maximum
remaining potential commitment to the GSEs of $282.3 billion. The recorded contingent liability of $316.2 billion at
September 30, 2011 constituted the maximum commitment payable at the end of that year. Such accruals are adjusted as
new information develops or circumstances change. Refer to Note 8 for a full description of the SPSPA agreements and
related contingent liability.




                                                            142
                                                                   U.S. Department of the Treasury | Fiscal Year 2012

REQUIRED SUPPLEMENTAL INFORMATION (UNAUDITED – SEE
ACCOMPANYING AUDITORS’ REPORT)

INTRODUCTION
This section provides the Required Supplemental Information as prescribed by accounting standards.


OTHER CLAIMS FOR REFUNDS
The Department has estimated that $11.4 billion may be payable as other claims for tax refunds. This estimate represents
amounts (principal and interest) that may be paid for claims pending judicial review by the federal courts or internally,
by Appeals. The total estimated payout (including principal and interest) for claims pending judicial review by the
federal courts is $6.1 billion and by appeals is $5.3 billion.

The Department made an administrative determination to accept the position that certain medical residents who
received stipends be exempted from FICA taxes for periods before April 1, 2005. At September 30, 2012, the IRS
estimated unpaid refund claims of approximately $2.4 billion. In accordance with federal accounting standards, the
amounts of these claims have not been recorded as a liability in the consolidated financial statements because certain
administrative processes have not been completed as of September 30, 2012.


IRS FEDERAL TAXES RECEIVABLE, NET
In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, some unpaid tax assessments do not meet the criteria for financial statement
recognition. Under Internal Revenue Code Section 6201, the Department is authorized and required to make inquiries,
determinations, and assessments of all taxes which have not been duly paid (including interest, additions to the tax, and
assessable penalties) under the law. Unpaid assessments result from taxpayers filing returns without sufficient payment,
as well as from tax compliance programs such as examination, under-reporter, substitute for return, and combined
annual wage reporting. The Department also has authority to abate the paid or unpaid portion of an assessed tax,
interest, and penalty. Abatements occur for a number of reasons and are a normal part of the tax administration process.
Abatements may result in claims for refunds or a reduction of the unpaid assessed amount.

Under federal accounting standards, unpaid assessments require taxpayer or court agreement to be considered federal
taxes receivable. Assessments not agreed to by taxpayers or the courts are considered compliance assessments and are
not considered federal taxes receivable. Due to the lack of agreement, these compliance assessments are less likely to
have future collection potential than those unpaid assessments that are considered federal taxes receivable.

Assessments with little or no future collection potential are called write-offs. Write-offs principally consist of amounts
owed by deceased, bankrupt, or defunct taxpayers, including many failed financial institutions liquidated by the FDIC
and the former Resolution Trust Corporation (RTC). Write-offs have little or no future collection potential, but statutory
provisions require that these assessments be maintained until the statute for collection expires.

Although compliance assessments and write-offs are not considered receivables under federal accounting standards, they
represent legally enforceable claims of the U.S. Government.




                                                                 143
                                                                U.S. Department of the Treasury | Fiscal Year 2012
The components of the total unpaid assessments at September 30, 2012 and 2011, were as follows (in millions):
                                                                                                   2012                    2011
Total Unpaid Assessments                                                                 $     364,000        $         356,314
Less: Compliance Assessments                                                                   (87,000)              (102,693)
Write Offs                                                                                    (125,000)              (106,519)
Gross Federal Taxes Receivable                                                                  152,000                 147,102
Less: Allowance for Doubtful Accounts                                                         (113,000)               (112,363)
Federal Taxes Receivables, Net                                                           $       39,000       $          34,739

To eliminate double counting, the compliance assessments reported above exclude trust fund recovery penalties, totaling
$2.0 billion, assessed against officers and directors of businesses who were involved in the non-remittance of federal
taxes withheld from their employees. The related unpaid assessments of those businesses are reported as taxes
receivable or write-offs, but the Department may also recover portions of those businesses’ unpaid assessments from any
and all individual officers and directors against whom a trust fund recovery penalty is assessed.


ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
As an agent of the U.S. Government and as authorized by 26 USC, the TTB collects excise taxes from alcohol, tobacco,
firearms, and ammunition industries. In addition, special occupational taxes are collected from certain tobacco
businesses. During fiscal years 2012 and 2011, TTB collected approximately $23.4 billion and $23.5 billion in taxes,
interest, and other revenues, respectively. Federal excise taxes are also collected on certain articles produced in Puerto
Rico and the Virgin Islands, and imported into the United States. In accordance with 26 USC 7652, such taxes collected
on rum imported into the United States are “covered over” or paid into the treasuries of Puerto Rico and the Virgin
Islands.

Substantially all of the taxes collected by TTB, net of related refund disbursements, are remitted to the General Fund.
The Department further distributes this revenue to Federal agencies in accordance with various laws and regulations.
The firearms and ammunition excise taxes are an exception. Those revenues are remitted to the Fish and Wildlife
Restoration Fund under provisions of the Pittman-Robertson Act of 1937.


DEFERRED MAINTENANCE
In fiscal years 2012 and 2011, the Department had no material amounts of deferred maintenance costs to report on
vehicles, buildings, and structures owned by the Department.

Deferred maintenance applies to owned PP&E. Deferred maintenance is maintenance that was not performed when it
should have been, or was scheduled to be, and is put off or delayed for a future period. Maintenance is defined as the act
of keeping capitalized assets in an “acceptable condition” to serve their required mission. It includes preventive
maintenance, normal repairs, replacement of parts and structural components, and other activities needed to preserve
the asset so that it continues to provide acceptable services and achieves its expected useful life. Maintenance excludes
activities aimed at expanding the capacity or significantly upgrading the assets to a different form than it was originally
intended (i.e., activities related to capitalized improvements, modernization, and/or restoration).

Logistic personnel use condition assessment surveys and/or the total life-cycle cost methods to determine deferred
maintenance and acceptable operating condition of an asset. Periodic condition assessments, physical inspections, and
review of manufacturing and engineering specifications, work orders, and building and other structure logistics reports
can be used under these methodologies. Multi-use heritage assets held by the Department are generally in acceptable
physical condition and are recognized and presented with general property, plant and equipment on the Consolidated
Balance Sheets.



                                                            144
                                                                                    U.S. Department of the Treasury | Fiscal Year 2012

     STATEMENT OF BUDGETARY RESOURCES DISAGGREGATED BY T REASURY REPORTING ENTITY
     The following table provides the Statement of Budgetary Resources for the fiscal year ended September 30, 2012
     disaggregated by Treasury reporting entity rather than by Treasury major budget account, since Treasury manages its
     budget at the reporting entity level.


                            Fiscal Year 2012 Statement of Budgetary Resources Disaggregated
                                                          by Sub-organization Accounts
                                                         Bureau of        Bureau of                             Fin. Crimes       Financial             Internal
                                                         Engraving        the Public       Departmental        Enforcement       Management             Revenue
(in millions):                                           & Printing         Debt             Offices1            Network           Service               Service
BUDGETARY RESOURCES
Unobligated balance brought forward, October 1           $         26    $           95   $        366,022     $           34    $           312    $         885
Recoveries of prior year unpaid obligations                         -                 6              13,164                  1                21               105
Other changes in unobligated balance                                -               (2)           (40,845)                 (1)               (5)              (96)
Unobligated balance from prior year budget
   authority, net                                                  26               99             338,341                 34                328              894
Appropriations (discretionary and mandatory)                        -          360,402              37,903                111             18,844            12,175
Borrowing authority (discretionary and mandatory)                   -                -               11,019                 -                  -                 -
Spending authority from offsetting collections                    730              284              28,422                  8                221               144
Total Budgetary Resources                                $        756    $     360,785    $        415,685     $          153    $        19,393    $       13,213

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                     $        705    $     360,692    $         79,390     $          119    $        19,033    $       12,233
Unobligated balance, end of year:
  Apportioned                                                      22               84             229,800                 32                325              602
  Exempt from apportionment                                         -                -              22,593                  -                  6                6
  Unapportioned                                                    29                9              83,902                  2                 29              372
Total unobligated balance brought forward, end of
  year                                                             51               93             336,295                 34                360              980
Total Status of Budgetary Resources                      $        756    $     360,785    $        415,685     $          153    $        19,393    $       13,213

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward,
  October 1                                              $        140    $           87   $        268,670     $           27    $           833    $        1,776
Uncollected customer payments from Federal
  sources, brought forward, October 1                            (40)              (19)             (1,010)               (9)               (24)              (52)
Obligated balance, net, start of year                             100               68             267,660                 18                809             1,724
Obligations incurred                                              705          360,692              79,390                119             19,033            12,233
Outlays, gross                                                  (728)        (360,669)             (85,126)             (109)           (18,953)          (12,232)
Change in uncollected customer payments from
  Federal sources                                                 (15)               12                 158                  2                (3)               11
Recoveries of prior year unpaid obligations                          -              (6)            (13,164)                (1)               (21)            (105)
Obligated balance, end of year:
  Unpaid obligations, end of year (gross)                          117             104             249,770                 36                892             1,672
  Uncollected customer payments from Federal
     sources, end of year                                         (55)              (7)              (852)                 (7)              (27)              (41)
Obligated Balance, End of Year                           $          62   $           97   $        248,918     $           29    $          865     $        1,631

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and
   mandatory)                                            $        730    $     360,686    $         77,344     $          119    $        19,065    $       12,319
Actual offsetting collections (discretionary and
   mandatory)                                                    (715)            (295)           (161,078)               (10)             (219)             (156)
Change in uncollected customer payments from
   Federal sources (discretionary and mandatory)                  (15)               12                 158                 2                 (3)                  11
Budget Authority, Net (Discretionary and
   Mandatory)                                            $          -    $     360,403    $        (83,576)    $           111   $        18,843            12,174
Outlay, gross (discretionary and mandatory)              $        728    $     360,669    $          85,126    $          109    $        18,953            12,232
Actual offsetting collections (discretionary and
   mandatory)                                                    (715)           (295)            (161,078)               (10)             (219)             (156)
Outlays, net (discretionary and mandatory)                          13         360,374             (75,952)                 99            18,734            12,076
Distributed offsetting receipts                                      -        (39,420)             (33,243)                  -             (474)             (744)
Agency Outlays, Net (Discretionary and
   Mandatory)                                            $         13    $     320,954    $       (109,195)    $           99    $        18,260    $       11,332
1   Of the $416 billion of Total Budgetary Resources for Departmental Offices, GSE and OFS had $242 billion and $68 billion, respectively. The remainder is spread
    throughout other offices.




                                                                               145
                                                                               U.S. Department of the Treasury | Fiscal Year 2012

                        Fiscal Year 2012 Statement of Budgetary Resources Disaggregated
                                                      by Sub-organization Accounts

                                                                                                     Alcohol
                                                                                                         and
                                                                               Office of the         Tobacco
                                                                               Comptroller           Tax and
                                                                                      of the           Trade                                Non-
(in millions):                                                    U.S. Mint       Currency            Bureau         Budgetary          Budgetary
BUDGETARY RESOURCES
Unobligated balance brought forward, October 1                $          413   $       1,163     $          4    $      340,384     $       28,570
Recoveries of prior year unpaid obligations                               51               -                1              2,818            10,531
Other changes in unobligated balance                                    (77)               -                -            (3,542)          (37,484)
Unobligated balance from prior year budget authority, net               387            1,163                5           339,660               1,617
Appropriations (discretionary and mandatory)                               -               -             100            429,535                   -
Borrowing authority (discretionary and mandatory)                          -               -                -                  -             11,019
Spending authority from offsetting collections                        3,413            1,001                7              9,727            24,503
Total Budgetary Resources                                     $       3,800    $       2,164     $        112    $      778,922     $       37,139

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                          $       3,106    $        1,077    $       108     $      458,137     $       18,326
Unobligated balance, end of year
  Apportioned                                                           670                -                -           227,587              3,948
  Exempt from apportionment                                               -            1,087                -            23,692                  -
  Unapportioned                                                          24                -                4            69,506             14,865
Total unobligated balance brought forward, end of
  year                                                                  694            1,087                4           320,785             18,813
Total Status of Budgetary Resources                           $       3,800    $       2,164     $        112    $      778,922     $       37,139


CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1         $         346    $          251    $         23    $      148,351     $      123,802
Uncollected customer payments from Federal sources,
  brought forward, October 1                                             (7)               (7)             (2)             (201)              (969)
Obligated balance, net, start of year                                   339               244               21           148,150           122,833
Obligations incurred                                                  3,106             1,077             108            458,137             18,326
Outlays, gross                                                       (3,125)          (1,044)           (108)          (461,363)           (20,731)
Change in uncollected customer payments from Federal
  sources                                                                  1                2             (2)                 15                151
Recoveries of prior year unpaid obligations                             (51)                -             (1)            (2,818)           (10,531)
Obligated balance, end of year:
  Unpaid obligations, gross, end of year                                276              284               22           142,307            110,866
  Uncollected customer payments from Federal
     sources, end of year                                                (6)              (5)             (4)              (186)              (818)
Obligated Balance, End of Year                                $         270    $         279     $         18    $       142,121    $      110,048

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)         $        3,413   $       1,001     $        107    $      439,262     $       35,522
Actual offsetting collections (discretionary and mandatory)          (3,414)         (1,003)               (5)           (9,743)          (157,152)
Change in uncollected customer payments from Federal
   sources (discretionary and mandatory)                                   1                2             (2)                 15                151
Budget Authority, Net (Discretionary and
   Mandatory)                                                 $            -   $             -   $       100     $      429,534     $     (121,479)
Outlay, gross (discretionary and mandatory)                   $        3,125   $       1,044     $       108     $       461,363    $        20,731
Actual offsetting collections (discretionary and mandatory)          (3,414)         (1,003)              (5)             (9,743)         (157,152)
Outlays, net (discretionary and mandatory)                            (289)               41             103            451,620           (136,421)
Distributed offsetting receipts                                            -               -                -           (73,881)                  -
Agency Outlays, Net (Discretionary and Mandatory)             $       (289)    $           41    $       103     $      377,739     $     (136,421)




                                                                           146
THIS PAGE INTENTIONALLY LEFT BLANK
      U.S. Department of the Treasury | Fiscal Year 2012




(UNAUDITED)




147
      U.S. Department of the Treasury | Fiscal Year 2012




148
                                                                                  U.S. Department of the Treasury | Fiscal Year 2012

SECTION A: SCHEDULE OF SPENDING


                                                      Schedule of Spending (Unaudited)
                                                     For Year Ended September 30, 2012
                                                                (In Millions)

     The following Schedule of Spending (SOS) presents an overview of the funds available for the Department to spend and how
     the Department spent these funds as of and for the fiscal year ended September 30, 2012. The financial data used to populate
     this schedule is the same underlying data used to populate the Department’s Statement of Budgetary Resources (SBR).
     Accordingly, the budgetary financial information in this schedule is presented on a combined basis rather than on a
     consolidated basis. Specifically, the SOS presents “Total Resources” (or “Total Budgetary Resources” per the SBR), “Total
     Spending” (or “Outlays, Gross” per the SBR), and “Total Amounts Agreed to be Spent” (or “Obligations Incurred” per the SBR).


                                                                                                                          2012
                        What Money is Available to Spend?
                        Total Resources                                                                     $           816,061
                        Less: Amount Available, But Not Agreed to be Spent                                            (255,227)
                        Less: Amount Not Available to be Spent                                                         (84,371)
                        Total Amounts Agreed to be Spent                                                    $         476,463


                        How was the Money Spent?
                        Interest and Dividendsi                                                             $           376,631
                        Grants, Subsidies, and Contributionsii                                                           55,023
                        Investments and Loansiii                                                                          25,415
                        Personnel Compensation and Other Related Benefits                                                 11,557
                        Other Contractual Services                                                                         4,183
                        Other                                                                                              9,285
                        Total Spending                                                                                 482,094
                        Amounts Remaining to be Spent                                                                    (5,631)
                        Total Amounts Agreed to be Spent                                                    $         476,463




i    Interest and Dividends is primarily comprised of Interest on the Public Debt and interest expense related to credit reform activities.

ii
 Grants, Subsidies, and Contributions is primarily comprised of cash payments to States, other political subdivisions, corporations,
associations, and individuals; credit reform program related subsidies ; and contributions to foreign countries.

iii
  Investments and Loans primarily include $18.5 billion of liquidity payments made to the Government Sponsored Enterprises under the
Senior Preferred Stock Purchase Agreements (Note 8), along with other investments made in connection with loans issued for credit reform
and non-credit reform activities.




                                                                          149
                                                                      U.S. Department of the Treasury | Fiscal Year 2012

                                                                      Each instance of noncompliance by a taxpayer at the time
SECTION B: TAX GAP AND TAX
                                                                      the tax is due contributes to the tax gap, whether or not the
BURDEN                                                                IRS detects it, and whether or not the taxpayer is even
                                                                      aware of the noncompliance. Obviously, some of the tax
TAX GAP                                                               gap arises from intentional (willful) noncompliance, and
Reducing the tax gap is at the heart of IRS’ enforcement              some of it arises from mistakes caused by not applying
and service programs. The tax gap is the difference                   sufficient due diligence to meet the tax obligation fully.
between the tax (not interest and penalties) imposed on
                                                                      The collection gap is the cumulative amount of tax,
taxpayers by law for a given tax year and what they actually
                                                                      penalties, and interest that has been assessed over many
pay on time. The tax gap arises from three types of
                                                                      years, but has not been paid by a certain point in time, and
noncompliance: not filing required tax returns on time or
                                                                      which the IRS expects to remain uncollectible. In essence,
at all (the nonfiling gap), underreporting the correct
                                                                      it represents the difference between the total balance of
amount of tax on timely filed returns (the underreporting
                                                                      unpaid assessments and the net taxes receivable reported
gap), and not paying on time the full amount reported on
                                                                      on the IRS’ balance sheet. The tax gap and the collection
timely filed returns (the underpayment gap). Of these three
                                                                      gap are related and overlapping concepts, but they have
components, only the underpayment gap is observed; the
                                                                      significant differences. The collection gap is a cumulative
nonfiling gap and the underreporting gap must be
                                                                      balance sheet concept for a particular point in time, while
estimated. The tax gap, about $450 billion based on
                                                                      the tax gap is like an income statement item for a single
updated Tax Year 2006 estimates, is defined as
                                                                      year. Moreover, the tax gap estimates include all
underpayments net of overpayments of true tax liability.
                                                                      noncompliance, while the collection gap includes only
However, it excludes illegal economic activity. IRS limits
                                                                      amounts that have been assessed (a small portion of all
its estimates of the tax gap to tax due on legal-sector
                                                                      noncompliance).
activity only. The tax gap is not synonymous with the so-
called “underground economy,” though there is some
overlap. The underground economy is made up of activities
                                                                      TAX BURDEN
that are not very visible to tax and other government                 The Internal Revenue Code (IRC) provides for progressive
authorities. Some of these activities are legal-sector and            definitions of taxable income and progressive rates of tax,
some are illegal-sector activities. While some of the tax gap         whereby higher incomes are generally subject to higher
arises from legal-sector income generated by underground              rates of tax. The following graphs and charts present the
economy participants, some of it arises from                          latest available information on reported income tax and
noncompliance that is completely unrelated to the                     adjusted gross income (AGI) for individuals by reported
underground economy – such as claiming the wrong filing               AGI level and for corporations by size of reported assets.
status or overstating exemptions or tax credits. So, while            For individuals, the information illustrates, in percentage
there is substantial overlap between the tax gap and the              terms, the reported tax burden borne by various reported
underground economy, it is best to maintain the distinction           AGI levels. For corporations, the information illustrates, in
between these two concepts.                                           percentage terms, the reported tax burden borne by these
                                                                      entities by various sizes of their reported total assets. The
The underreporting gap accounts for 84 percent of the
                                                                      graphs are only representative of more detailed data and
gross tax gap, with the remainder divided between the
                                                                      analysis available from the IRS’s Statistics of Income
nonfiling gap (6 percent) and the underpayment of
                                                                      Division.
reported tax liability (10 percent). The IRS remains
committed to finding ways to increase compliance and
reduce the tax gap, while minimizing the burden on the vast
majority of taxpayers who pay their taxes accurately and on
time.

                                                                150
                                                                        U.S. Department of the Treasury | Fiscal Year 2012




INDIVIDUAL INCOME TAX LIABILITY

Tax Year 2010

                                                                                                                  Average
                              Number of                                                   Average AGI         income tax
                                 taxable                             Total income           per return         per return           Income tax
Adjusted gross income            returns                AGI                     tax          (in whole          (in whole    as a percentage of
(AGI)                     (in thousands)       (in millions)          (in millions)            dollars)           dollars)                 AGI
Under $15,000                    37,602    $        87,421      $            1,587    $          2,325    $            42                 1.8%
$15,000 under $30,000            30,858            681,419                  14,314             22,082                464                  2.1%
$30,000 under $50,000            25,605          1,000,098                 47,754              39,059               1,865                4.8%
$50,000 under $100,000           30,533           2,171,323               167,026               71,114             5,470                  7.7%
$100,000 under $200,000          13,998          1,869,639                224,423             133,565             16,033                12.0%
$200,000 under $500,000           3,472            985,431                192,826             283,822             55,537                19.6%
$500,000 or more                    825           1,293,811               303,745           1,568,256            368,176                23.5%
Total                          142,893     $   8,089,142        $        951,675                      -                  -                    -




                                                               151
                                                                         U.S. Department of the Treasury | Fiscal Year 2012




CORPORATION TAX LIABILITY

Tax Year 2009

 Total Assets                          Income subject to tax            Total income tax after    Percentage of income tax after
 (in thousands)                                (in millions)              credits (in millions)        credits to taxable income
 Zero Assets                       $                    45,444      $                   13,840                            30.5%
 $1 under $500                                           6,280                           1,088                             17.3%
 $500 under $1,000                                        3,273                            734                            22.4%
 $1,000 under $5,000                                     11,116                          3,043                            27.4%
 $5,000 under $10,000                                    6,206                           2,002                            32.3%
 $10,000 under $25,000                                    9,865                           3,237                           32.8%
 $25,000 under $50,000                                   8,968                           2,883                            32.1%
 $50,000 under $100,000                                  12,209                          3,925                            32.1%
 $100,000 under $250,000                                20,445                           6,430                             31.5%
 $250,000 under $500,000                                24,838                           7,492                            30.2%
 $500,000 under $2,500,000                               91,990                         26,347                            28.6%
 $2,500,000 or more                                     654,215                        133,974                            20.5%
 Total                             $                   894,849      $                 204,995                              -



SECTION C: MANAGEMENT AND PERFORMANCE CHALLENGES
IDENTIFIED BY THE INSPECTORS GENERAL AND THE SECRETARY’S
RESPONSES
In accordance with the Reports Consolidation Act of 2000, the Inspectors General issue Semiannual Reports to Congress that
identify specific management and performance challenges facing the Department. At the end of each fiscal year, the Treasury
Office of Inspector General (OIG) and Treasury Inspector General for Tax Administration (TIGTA) send an update of these
management challenges to the Secretary and cite any new challenges for the upcoming fiscal year. SIGTARP does not provide
the Secretary with a semiannual report or annual update on management and performance challenges. This section contains the
incoming management and performance challenges letters from OIG and TIGTA and the Secretary’s responses describing
actions taken and planned to address the challenges.


                                                                  152
                                                    October 25, 2012




INFORMATION MEMORANDUM FOR SECRETARY GEITHNER

FROM:                        Eric M. Thorson
                             Inspector General

SUBJECT:                     Management and Performance Challenges Facing the
                             Department of the Treasury (OIG-CA-13-002)


In accordance with the Reports Consolidation Act of 2000, we are providing you with our perspective on the most
serious management and performance challenges facing the Department of the Treasury.


In assessing the Department’s most serious challenges, we are mindful of the fragile state of the economy. Despite the
efforts of the Administration and the Congress, the economic recovery in the United States has been slow, in part,
because of economic conditions in other parts of the world such as the European Union and China. Last year, we
acknowledged that, in looking for ways to address this country’s budget deficit, cuts to programs and operations were
likely although the extent of and the specific nature of any cuts were unknown. That situation remains the same
today. Very soon, the Administration and the Congress will need to address the “fiscal cliff” as it relates to the
expiration of the Bush-era tax cuts, the payroll tax “holiday,” and the automatic spending cuts from the sequestration
agreement reached as part of the debt ceiling compromise last year. While the results of the upcoming national
election may bring some clarity as to the direction the federal government will take to address these matters, that
direction is expected to require significant sacrifices.


With that as a backdrop, Treasury has, in recent years, had to administer additional responsibilities intended to
support and improve the country’s economy. In order to do so, in nearly every case, the Department had to start up
and administer these new responsibilities with very thin staffing and resources. In July of this year, the Department
was given another new responsibility – the Gulf Coast Restoration Trust Fund – with no additional resources to
administer it. I know that the Department’s senior leadership is fully cognizant of these pressures and the need for
strong management. That said, if the Department is faced with reduced funding, my office will monitor and examine
the effect on Treasury’s programs and operations. Like last year, we cannot emphasize enough to the Department’s
stakeholders the critical importance that Treasury is resourced sufficiently to maintain a strong control environment.


This year we are reporting four challenges, three of which are repeated from last year.


   Transformation of Financial Regulation (Repeat Challenge)
   Management of Treasury’s Authorities Intended to Support and Improve the Economy (Repeat Challenge)
   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement (Repeat Challenge)
   Gulf Coast Restoration Trust Fund Administration (New Challenge)


We removed one challenge from last year – Management of Capital Investments – as the Department demonstrated
improved governance in the development of two major investments, Treasury Network (TNet) and the Financial
Crimes Enforcement Network (FinCEN) Bank Secrecy Act Information Technology Modernization (BSA IT Mod)




                                                           153
program. While the removal of this challenge is a major accomplishment, we caution that going forward, engaged
senior management involvement is essential to any successful systems development effort.


In addition to the above challenges, we are reporting elevated concerns about three matters – cyber security, currency
and coin production, and documenting key activities and decisions. We also note the actions Treasury is undertaking
to consolidate and restructure the Bureau of the Public Debt (BPD) and the Financial Management Service (FMS) into
the Bureau of the Fiscal Service (BFS).


2012 Management and Performance Challenges


Challenge 1: Transformation of Financial Regulation (Repeat Challenge)


In response to the need for financial reform, Congress passed the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank) in July 2010. Dodd-Frank established new responsibilities for Treasury and created new
offices tasked to fulfill those responsibilities.


Dodd-Frank established the Financial Stability Oversight Council (FSOC), which you chair as the Treasury Secretary.
FSOC’s mission is to identify risks to financial stability that could arise from the activities of large, interconnected
financial companies; respond to any emerging threats to the financial system; and promote market discipline. FSOC
accomplished a number of things over the last year.


     Annual reporting - As required, FSOC issued its second annual report in July 2012. The report contained
     recommendations to (1) further reforms to address structural vulnerabilities in key markets, (2) heighten risk
     management and supervisory attention in specific areas, (3) take steps to address reform of the housing finance
     market, and (4) ensure implementation and coordination on financial regulatory reform.


     Designation of systemically significant financial market utilities4 - In July 2012, FSOC designated eight financial
     market utilities as systemically important. The financial market utilities are subject to (1) risk management
     standards governing the operations related to the payment, clearing, and settlement activities and (2) additional
     examinations and reporting requirements, as well as potential enforcement actions.


     Ruling for designating nonbank financial institutions for consolidated supervision - Dodd-Frank calls for
     consolidated supervision and heightened prudential standards for large, interconnected nonbank financial
     companies. In this regard, the Board of Governors of the Federal Reserve System (FRB) is responsible for
     supervising these firms and adopting specific prudential rules. In April 2012, FSOC adopted a final rule and
     interpretative guidance related to designating nonbank financial companies for consolidated supervision.




4 The term “financial market utility” means any person that manages or operates a multilateral system for the purpose of
transferring, clearing, or settling payments, securities, or other financial transactions among financial institutions or between
financial institutions and that person. However, the term does not include entities such as national securities exchanges, national
securities associations, and many others.




                                                                 154
FSOC still has quite a bit of work ahead to meet all of its responsibilities. For example, it is still in the process of
designating the first group of nonbank financial institutions for consolidated supervision. That said, FSOC continues
its work monitoring the stability of U.S. and European markets. Additionally, we note that you as the Secretary of the
Treasury recently released a letter on the urgent need for money market fund reform to be completed either by the
Securities and Exchange Commission or FSOC.


The Council of Inspectors General on Financial Oversight (CIGFO), which I chair, was also established by Dodd-
Frank. It facilitates the sharing of information among member inspectors general with a focus on reporting our
concerns that may apply to the broader financial sector and ways to improve financial oversight. Accordingly, CIGFO
is an important source of independent analysis to FSOC. As required, CIGFO met quarterly and issued its second
annual report in July 2012. CIGFO also established its first working group in December 2011. This working group
evaluated FSOC controls over non-public information and the manner in which FSOC, as a whole, safeguarded
information from unauthorized sources. The working group issued its report in June 2012 which highlighted several
areas for FSOC’s consideration as it moves forward. In the future, CIGFO will continue reviewing FSOC’s compliance
with Dodd-Frank to ensure continued rigorous oversight of the U.S. financial system.


Dodd-Frank also established two new offices within Treasury: the Office of Financial Research (OFR) and the Federal
Insurance Office (FIO).5 OFR is the data collection, research and analysis arm of FSOC. In December 2011, the
President nominated Mr. Richard Berner to serve as Director. The Director position currently remains vacant while
Mr. Berner’s confirmation is under consideration in the Senate. Among other duties, the OFR Director is to report to
Congress annually on the office’s activities and its assessments of systemic risk, with the first report due in July 2012.
Despite not having a confirmed Director, OFR issued its annual report. Furthermore, in June 2012, we completed a
review of the stand-up of OFR and reported that in the 21 months since OFR was created, efforts to establish the
office were still in progress. The officials responsible for establishing OFR initially engaged in high-level strategic and
organizational planning and sought to hire key personnel. They also focused their attention on developing and
facilitating the global acceptance of a universal Legal Entity Identifier (LEI).6 In the summer of 2011, after key
operational personnel were brought on board, we noted that progress toward establishing a comprehensive
implementation planning and project management process accelerated. This culminated in the approval of a
methodology in January 2012, a strategic framework in March 2012, and a strategic “roadmap” in April 2012. While
well over a year had passed since OFR was established, we concluded that these documents and methodology, taken
together, finally provide OFR with a comprehensive implementation plan. This plan lays out the expected evolution of
OFR’s capabilities, reaching a mature state by fiscal year 2016. Concurrent with the development of its comprehensive
implementation plan, OFR also began to develop its analytic and data support for FSOC, and its Research and
Analysis Center has sponsored seminars and published two working papers on risk assessment topics.




5 It should be noted that Dodd-Frank also established two other new offices within Treasury – the Offices of Minority and Women
Inclusion at Departmental Offices and at the Office of the Comptroller of the Currency. Our future work plan includes reviews of
these new offices.
6 LEI is being developed as the universal standard for identifying all parties to financial contracts. It is a key element in OFR’s efforts

to understand and monitor risks to financial stability and meet its statutory mandate to develop and promote data standards.




                                                                   155
The FIO is charged with monitoring the insurance industry, including identifying gaps or issues in the regulation of
insurance that could contribute to a systemic crisis in the insurance industry or financial system. The FIO Director,
whom you appointed in March 2011, is to advise FSOC on insurance matters. We are currently reviewing the stand-up
of FIO.


The other regulatory challenges that we discussed last year still remain. Specifically, since September 2007, 126
financial institutions supervised by the Office of the Comptroller of the Currency (OCC) or the former Office of Thrift
Supervision (OTS) have failed, with estimated losses to the Deposit Insurance Fund of approximately $35.3 billion.
This is an increase of 13 financial institutions since my last challenges memorandum. With more than 450 banks on
the Federal Deposit Insurance Corporation’s troubled bank list, we anticipate bank failures to continue into the
foreseeable future but at a lower rate than in recent years.


Although many factors contributed to the turmoil in the financial markets, our failed bank reviews generally found
that OCC and the former OTS did not identify early or force timely correction of unsafe and unsound practices by
numerous failed institutions under their respective supervision. Furthermore, in 2010, the unprecedented speed at
which servicers foreclosed on defaulted mortgages revealed flaws in the processing of those foreclosures. In response,
the federal banking regulators completed a review of foreclosure practices at major mortgage servicers. The review
found deficiencies in the servicers’ foreclosure processes including weak management oversight, foreclosure
document deficiencies, poor oversight of third parties involved in the foreclosure process, and inadequate risk control
systems. As a result, the federal banking regulators issued formal enforcement actions against 14 mortgage servicers
and 2 third party providers subject to the review. We are currently reviewing OCC’s oversight of the servicers’ efforts
to comply with the enforcement actions. While it is too soon to tell whether these servicing deficiencies have been
addressed, at the time, the foreclosure crisis did not help an already stressed housing market.


In my last memorandum, I noted that Treasury was successful in standing up the Bureau of Consumer Financial
Protection (CFPB). CFPB is an independent bureau of FRB but Treasury has a unique role in its operations.
Specifically, until a Director is confirmed by the Senate, you are charged with exercising some, but not all, of the
Director’s authorities. In January 2012, the President made a recess appointment of Mr. Richard Cordray as Director.
However, recess appointments expire at the end of the Senate’s next session – accordingly Mr. Cordray’s appointment
will end in late 2013, or when formally confirmed by the Senate, or when another individual is nominated, confirmed,
and permanently appointed to the position. Legislation has also been proposed to change the form of governance over
CFPB. The FRB Inspector General is designated by Dodd-Frank to provide oversight of CFPB. However, given
Treasury’s statutory role, our office will coordinate with the FRB Office of Inspector General when necessary on CFPB
oversight matters.


Clearly, as we have said in the past, the intention of Dodd-Frank is most notably to prevent, or at least minimize, the
impact of a future financial sector crisis on the U.S. economy. To accomplish this, Dodd-Frank has placed great
responsibility within Treasury and with the Treasury Secretary. This management challenge from our perspective is to
maintain an effective FSOC process supported by OFR and FIO within Treasury and build a streamlined banking
regulatory structure that timely identifies and strongly responds to emerging risks. This is especially important in
times of economic growth and financial institution profitability, when such government action is generally unpopular.




                                                           156
Challenge 2: Management of Treasury’s Authorities Intended to Support and Improve the Economy
(Repeat Challenge)


Congress provided Treasury with broad authorities to address the recent financial crisis under the Housing and
Economic Recovery Act (HERA) and the Emergency Economic Stabilization Act (EESA) enacted in 2008, the
American Recovery and Reinvestment Act of 2009 (Recovery Act), and the Small Business Jobs Act of 2010. Certain
authorities in HERA and EESA have now expired but challenges remain in managing Treasury’s outstanding
investments. To a large extent, Treasury’s program administration under these acts has matured. However, the long-
term impact on small business lending resulting from investment decisions under the Small Business Jobs Act
programs are still not clear. Our discussion of this challenge will begin with this act and then address the others for
which Treasury is responsible.


Management of the Small Business Lending Fund and State Small Business Credit Initiative


Enacted in September 2010, the Small Business Jobs Act created a $30 billion Small Business Lending Fund (SBLF)
within Treasury and provided $1.5 billion to Treasury to allocate to eligible state programs through the State Small
Business Credit Initiative (SSBCI). These represent key initiatives of the Administration to increase lending to small
businesses, and thereby support job creation. Both programs were slow to disburse funds, with Treasury approving
the majority of SBLF and SSBCI applications during the last quarter of fiscal year 2011. Because the majority of
applicants waited until near the application deadlines to apply, Treasury encountered significant delays in
implementing the two programs. As a result, Treasury was rushed in making a number of SBLF investment decisions
in order to meet the funding deadlines, and disbursed the initial installment of SSBCI funds without establishing clear
oversight obligations of participating states. Now that Treasury has completed the approval process for these two
programs, the challenge for Treasury is to exercise sufficient oversight to ensure that funds are used appropriately,
SBLF dividends owed Treasury are paid, and programs achieve intended results.


    SBLF – As of September 2011, Treasury had disbursed more than $4 billion to 332 financial institutions across
    the country. Of the institutions funded, 41.3 percent used SBLF funds to refinance securities issued under the
    Troubled Asset Relief Program (TARP) Capital Purchase Program. Institutions receiving investments under the
    SBLF program pay dividends to Treasury at rates that decrease as the institutions increase their qualified small
    business lending activity. During the first 4½ years of Treasury’s investment, participating institutions initially
    pay dividends to Treasury of up to 5 percent, but that rate may be reduced to as low as 1 percent based on
    institutions’ self-reported increases in small business lending. Institutions are under no obligation to make
    dividend payments as scheduled or to pay off previously missed payments before exiting the program. There are
    provisions for increased restrictions as dividends are missed, including a prohibition against an institution
    paying dividends on common stock and a provision for Treasury to appoint one or two members to the bank’s
    board of directors. The effectiveness of these measures, however, can be affected if the institution’s regulator has
    restricted it from making dividend payments.


    Treasury faces challenges in measuring program performance and ensuring that the SBLF program meets its
    intended objective of increasing lending to small businesses. The intent of the authorizing legislation was to
    stimulate lending to small businesses, but participating institutions are not required to report how they use
    Treasury’s investments and are under no obligation to increase their small business lending. Once participating
    institutions commingle SBLF disbursements with other funds, it is difficult to track how the funds are used.



                                                           157
    Additionally, Treasury relies on unverified information on small business lending reported by participating
    institutions to measure performance and to make dividend rate adjustments.


    SSBCI – As of September 2012, 56 states, territories, and eligible municipalities (participating states) had been
    awarded $1.4 billion in SSBCI funding. Funds awarded are disbursed in one-third increments. To date, Treasury
    disbursed $533 million of the $1.4 billion awarded. States participating in SSBCI may use funds awarded for
    programs that partner with private lenders to extend credit to small businesses. Such programs may include
    those that finance loan loss reserves; and provide loan insurance, loan guarantees, venture capital funds, and
    collateral support. States were required to provide Treasury with plans for using their funding allocations and
    report quarterly and annually on their use of funds. We conduct audits of participating states to determine
    whether SSBCI funds are being used as intended. In this regard, the Small Business Jobs Act requires Treasury to
    recoup funds we identify as having been recklessly or intentionally misused, and Treasury may withhold
    disbursements from a state based on the audit results.


    Primary oversight of the use of SSBCI funds is the responsibility of each participating state. The states are
    required to provide Treasury with quarterly assurances that their programs approved for SSBCI funding comply
    with program requirements. However, Treasury will face challenges in holding states accountable for the proper
    use of funds as it has not clearly communicated the prohibited uses of funds and has changed program guidelines
    frequently, making it difficult for states to ensure the proper use of funds. Treasury has also not defined what
    constitutes a material adverse change in a state’s financial or operational condition that the state must report to
    Treasury. As a result, Treasury will have difficulty finding states to be in default of program requirements and
    holding states accountable should our office find that a state has intentionally or recklessly misused funds.


Management of Recovery Act Programs


Treasury is responsible for overseeing an estimated $150 billion of Recovery Act funding and tax relief. Treasury’s
oversight responsibilities include programs that provide payments for specified energy property in lieu of tax credits,
payments to states for low-income housing projects in lieu of tax credits, grants and tax credits through the
Community Development Financial Institutions (CDFI) Fund, economic recovery payments to social security
beneficiaries and others, and payments to U.S. territories for distribution to their citizens. Approximately $20 billion
of the $22 billion provided for non-Internal Revenue Service (IRS) programs has been disbursed to recipients under
Treasury’s payments in lieu of tax credit programs – to persons for specified energy properties and to states for low-
income housing projects. To date, all funds have been disbursed under the low-income housing program and the
specified energy property program is beginning to wind down. In the past, we expressed concern about the small
number of Treasury staff dedicated to these programs. However, we noted there was a process for the Department of
Energy’s National Renewable Energy Laboratory to perform a technical review of payment applications and advise
Treasury on award decisions. Also, for larger dollar payments, Treasury requires the applicant to obtain a review of
project costs by an independent public accounting firm. Nevertheless, Treasury must continue to ensure recipient
compliance with award agreements for an extended period of time. Additionally, our Office of Investigations had
several open matters involving claims for specified energy property projects.




                                                          158
Management of the Housing and Economic Recovery Act and the Emergency Economic Stabilization Act


Through several HERA and EESA programs, Treasury injected much needed capital into financial institutions and
businesses.


Under HERA, Treasury continued to support the financial solvency of the Federal National Mortgage Association
(Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie Mac) which are under the conservatorship
of the Federal Housing Finance Agency. To cover the losses of the two government sponsored enterprises (GSE) and
maintain a positive net worth, Treasury agreed to purchase senior preferred stock as necessary. As of June 30, 2012,
Treasury invested a total of $187 billion in the two GSEs. The maximum amount available to each GSE under its
agreement with Treasury is based on a formulaic cap which will set on December 31, 2012, at no less than $200
billion per enterprise. For the first time since being placed under conservatorship, Fannie Mae and Freddie Mac
reported a positive net worth in the first and second quarters of 2012. The future of both GSEs is still in question and
prolonged assistance may be required. However, as noted above, the funding cap will set on December 31, 2012.


Prior to the expiration of its purchase authority in December 2009, Treasury acquired $225 billion of mortgage-
backed securities (MBS) issued by the two GSEs under a temporary purchase program. In light of improved market
conditions, Treasury started to sell its MBS in March 2011. In March 2012, Treasury completed its sale of remaining
MBS and reported that overall, cash returns of $250 billion were received from the MBS portfolio through sales,
principal, and interest.


Through the Housing Finance Agency Initiative supporting state and local finance agencies, Treasury purchased $15.3
billion of securities issued by Fannie Mae and Freddie Mac backed by state and local Housing Finance Agency bonds
(New Issue Bond Program) and committed $8.2 billion for a participation interest in the obligations of Fannie Mae
and Freddie Mac (Temporary Credit and Liquidity Program). Treasury received payments of principal and interest on
its securities and currently holds an investment of approximately $14 billion. Additionally, several state and local
housing agencies opted out of the Temporary Credit and Liquidity Program reducing Treasury’s commitment to about
$5 billion. Treasury continues to monitor its investment in the Housing Finance Agency Initiative.


As required by Dodd-Frank, Treasury and the Department of Housing and Urban Development conducted a study on
ending the conservatorship of Fannie Mae and Freddie Mac and minimizing the cost to taxpayers. The report on this
study was presented to Congress in February 2011. Regarding the long-term structure of housing finance, the report
provided three options for consideration without recommending a specific option. The three options are (1) a
privatized system of housing finance with the government insurance role limited to the Federal Housing
Administration (FHA), the U.S. Department of Agriculture (USDA), and the Department of Veterans Affairs (VA) with
assistance for narrowly targeted groups of borrowers; (2) a privatized system of housing finance with assistance from
FHA, USDA, and VA for narrowly targeted groups of borrowers and a guarantee mechanism to scale up during times
of crisis; and (3) a privatized system of housing finance with FHA, USDA, and VA assistance for low- and moderate-
income borrowers and catastrophic reinsurance behind significant private capital. Although specific legislation has
been proposed in the Congress, the legislative process for housing finance reform is still in a formative stage and it is
difficult to predict what lies ahead for winding down the Fannie Mae and Freddie Mac conservatorships and
reforming housing finance.




                                                           159
TARP, established under EESA, gave Treasury the authorities necessary to bolster credit availability and address
other serious problems in the domestic and world financial markets. Treasury’s Office of Financial Stability
administers TARP, and through several of its programs, made purchases of direct loans and equity investments in
many financial institutions and other businesses, as well as guaranteed other troubled mortgage-related and financial
assets. Authority to make new investments under the TARP program expired on October 3, 2010. Treasury, however,
is continuing to make payments for programs which have existing contracts and commitments. One Treasury
challenge in this area is managing and winding down its various investment programs. To date, Treasury has reported
positive returns from the sale of its investments in the banking industry and the American International Group (AIG),
and reduced its investments in the auto industry. Treasury is also still managing various housing programs to provide
mortgage relief to homeowners and prevent avoidable foreclosures. Unless current conditions change and while we
acknowledge the continuing difficulties facing Treasury with the housing programs, in recognition of the substantial
progress the Department has made in exiting its investments we do not plan to report on TARP in future management
and performance challenges memoranda. We also note EESA established a special inspector general for TARP and
imposed oversight and periodic reporting requirements on both the special inspector general and Government
Accountability Office.


Unmet Mandate


In addition to SBLF and SSBCI, the Small Business Jobs Act of 2010 provided Treasury with authority to guarantee
the full amounts of bonds and notes issued for community and economic development activities not to exceed 30
years. Under this authority, Treasury may issue up to 10 guarantees of no less than $100 million each, but may not
exceed $1 billion in total aggregate guarantees in any fiscal year. As the program administrator, CDFI Fund was
tasked with setting regulations and implementing the program by September 27, 2012. CDFI Fund is experiencing
challenges in standing up the program and has missed the program’s statutory implementation date. Our office plans
to assess the progress of the program’s implementation in 2013.


Challenge 3: Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement
(Repeat Challenge)


As we have reported in the past, ensuring criminals and terrorists do not use our financial networks to sustain their
operations and/or launch attacks against the U.S. continues to be a challenge. Treasury’s Office of Terrorism and
Financial Intelligence (TFI) is dedicated to disrupting the ability of terrorist organizations to fund their operations.
TFI brings together intelligence gathering and analysis, economic sanctions, international cooperation, and private-
sector cooperation to identify donors, financiers, and facilitators supporting terrorist organizations, and disrupt their
ability to fund them. Enhancing the transparency of the financial system is one of the cornerstones of this effort.
Treasury carries out its responsibilities to enhance financial transparency through the Bank Secrecy Act (BSA) and
USA Patriot Act. FinCEN is the Treasury bureau responsible for administering BSA.


Over the past decade, TFI has made good progress in closing the vulnerabilities that allowed money launderers and
terrorists to use the financial system to support their activities. Nonetheless, significant challenges remain. One
challenge is ensuring the continued cooperation and coordination of all the organizations involved in its anti-money
laundering and combating terrorist financing efforts. A large number of federal and state entities participate with
FinCEN to ensure compliance with BSA, including the four federal banking agencies, IRS, the Securities and
Exchange Commission, the Department of Justice, and all the state regulators. Many of these entities also participate



                                                           160
in efforts to ensure compliance with U.S. foreign sanction programs administered by Treasury’s Office of Foreign
Assets Control (OFAC).


To be effective, Treasury must establish and maintain working relationships with these numerous entities. Neither
FinCEN nor OFAC have the resources or capability to maintain compliance with their programs without significant
help from these other organizations. To this end, FinCEN had signed memoranda of understanding with 7 federal and
52 state regulators to ensure that information is exchanged between FinCEN and the entities charged with examining
for BSA compliance. While important to promote the cooperation and coordination needed, it should be noted that
these instruments are nonbinding and carry no penalties for violations, and their overall effectiveness has not been
independently assessed.


Last year, financial institutions filed approximately 17 million BSA reports, including over 1.5 million suspicious
activity reports (SAR). While the number of SARs has been increasing since 2001, that alone does not necessarily
indicate everything is going well. Our audits have found problems with the quality of the data reported. Other audits
have also identified gaps in the regulatory examination programs of the bank regulators and examining agencies.


Recently the vulnerability in large institutions’ monitoring of transactions for money laundering and terrorist
financing was revealed. In 2012, OCC filed a consent cease and desist order against Citigroup for failure to adopt and
implement a compliance program that adequately covers the required BSA/anti-money laundering program elements
due to its inadequate system of internal controls and ineffective independent testing. The bank did not develop
adequate due diligence on foreign correspondent bank customers and failed to file SARs related to its remote deposit
capture/international cash letter instrument activity in a timely manner. OCC also found weaknesses with other large
banks’ BSA programs. In July 2012 testimony related to a critical congressional report on OCC’s oversight of HSBC’s
BSA program, the Comptroller of the Currency mentioned several actions that OCC was planning to take going
forward. One such action was to assure BSA deficiencies are fully considered in a safety and soundness context and
taken into account as part of the “management” component of a bank’s CAMELS rating.7


FinCEN needs to continue its efforts to work with regulators and examining agencies to ensure that financial
institutions establish effective BSA compliance programs and file accurate and complete BSA reports, as required.
Furthermore, FinCEN needs to complete work to issue anti-money laundering regulations, as it determines
appropriate, for some non-bank financial institutions, such as vehicle dealers; pawnbrokers; travel agents; finance
companies; real estate closing and settlement services; and financial services intermediaries, such as investment
advisors.


FinCEN faces the continuing challenge to enhance financial transparency in order to strengthen efforts to combat
financial crime. So far, in this effort, FinCEN’s attention has been on clarifying and strengthening customer due
diligence (e.g., know your customer) regulatory requirements and supervisory expectations. This includes requiring




7CAMELS is a system used by federal banking agencies for evaluating the soundness of financial institutions on a uniform basis and
for identifying those institutions requiring special supervisory attention or concern. A financial institution is assigned a composite
rating and ratings on six components: Capital adequacy, quality of Assets, the capability of the board of directors and Management,
the quality and level of Earnings, the adequacy of Liquidity, and Sensitivity to market risk.




                                                                 161
institutions to identify beneficial ownership of their accountholders so that the true identities of their customers are
not hidden. FinCEN issued an advance notice of proposed rulemaking in March 2012 to address this.


FinCEN became the authoritative source for BSA data when it transitioned the collection, processing, and storage of
all BSA data from IRS in January 2012. FinCEN’s BSA IT Mod program, begun in 2008, is being built to ensure
efficient management, safeguarding, and use of BSA information. BSA IT Mod will reengineer BSA data architecture,
update the infrastructure, implement more innovative web services and enhanced electronic filing, and provide
increased analytical tools. FinCEN believes modernization will provide increased data integrity, and maximize value
for its state and federal partners. We completed two audits of the program in which we concluded that FinCEN is
generally meeting schedule and cost milestones, and had an appropriate oversight structure in place. As the
modernization effort moves toward completion, FinCEN needs to continue to maintain heightened oversight of this
program.


FinCEN mandated the use of its BSA E-Filing network effective July 2012, and for all BSA reports, March 2013. BSA
E-Filing allows financial institutions to file reports with FinCEN electronically. We anticipate that this will improve
data quality in that data will be more quickly entered into the database and that some of the errors or omissions that
previously occurred through paper filings should be reduced if not eliminated. However, until this can be verified,
FinCEN will need to continue to monitor data quality. We noted that FinCEN has a particularly difficult challenge in
dealing with money service businesses (MSB). To that end, FinCEN has taken steps to improve MSB examination
coverage and compliance. For example, in past years, FinCEN finalized new rules and increased enforcement
designed to ensure MSBs comply with BSA requirements, including registration and report filing requirements.
However, ensuring MSBs register with FinCEN has been a continuing challenge. Furthermore, IRS serves as the
examining agency for MSBs, but has limited resources to inspect MSBs or even identify unregistered MSBs. FinCEN
engaged the states to participate in joint MSB examinations with IRS, and for outreach programs aimed at these
nonbank institutions. FinCEN, IRS, and the states need to work together to ensure that MSBs operating in this
country are identified, properly registered, and in compliance with all applicable laws and regulations.


FinCEN has also been concerned with MSBs that use informal value transfer systems and with MSBs that issue,
redeem, or sell prepaid access, through physical (cards or other devices) or non-physical (e.g., code, electronic serial
number, mobile identification number, and/or personal identification number) means. MSBs using informal value
transfers have been identified in a number of attempts to launder proceeds of criminal activity or finance terrorism.
Similarly, prepaid access can make it easier for some to engage in money laundering or terrorist financing. In
September 2010, FinCEN notified financial institutions to be vigilant and file SARs on MSBs that may be
inappropriately using informal value transfers when they use financial institutions to store currency, clear checks,
remit and receive funds, and obtain other financial services. In 2011, FinCEN issued a final rule applying customer
identification, recordkeeping, and reporting obligations to providers and sellers of prepaid access, and continues to
issue clarifying guidance for institutions to implement the requirements. Ensuring institutions properly implement
these rules and maintain compliance will be a major challenge.


To detect possible illicit wire transfer use of the financial system, FinCEN also proposed a regulatory requirement for
certain depository institutions and MSBs to report cross-border electronic transmittals of funds. FinCEN determined
that establishing a centralized database will greatly assist law enforcement in detecting and ferreting out
transnational organized crime, multinational drug cartels, terrorist financing, and international tax evasion. Ensuring
financial institutions, particularly MSBs, comply with the cross-border electronic transaction reporting requirements,



                                                           162
as well as managing this new database, is another significant challenge for FinCEN. It should be noted that this
system cannot be fully implemented until FinCEN completes work on its BSA IT Mod program, scheduled for 2014.


Other matters of concern are beginning to appear or are on the horizon. One concern we reported before is that the
focus on safety and soundness resulting from the recent financial crisis may have reduced the attention financial
institutions have given to BSA and OFAC compliance. Another concern is the increasing use of mobile devices for
banking, internet banking, internet gaming, and peer-to-peer transactions. FinCEN, OFAC, and other regulatory
agencies will need to ensure that providers of these services ensure transactions are transparent and conform to BSA
requirements. Monitoring the transactions of tomorrow may prove to be increasingly difficult for Treasury.


Given the criticality of this management challenge to the Department’s mission, we continue to consider anti-money
laundering and combating terrorist financing as inherently high-risk. In this regard, we have on-going BSA-related
audits of FinCEN’s MSB compliance program and OCC’s BSA and USA Patriot Act examinations and enforcement
actions. With respect to OFAC, we are reviewing its licensing program (where OFAC may grant exceptions to a
sanction program as allowed under law) and performing a case study review of its Libyan sanctions program. We plan
to complete these audits in fiscal year 2013.


Challenge 4: Gulf Coast Restoration Trust Fund Administration


In response to the Deepwater Horizon oil spill, Congress enacted as part of P.L. 112-141, the Resources and
Ecosystems Sustainability, Tourist Opportunities, and Revived Economies of the Gulf Coast States Act of 2012
(Restore Act). This law established within Treasury the Gulf Coast Restoration Trust Fund and requires Treasury to
deposit in the Trust Fund, 80 percent of administrative and civil penalties paid by responsible parties for the
Deepwater Horizon oil spill. It is estimated that the Trust Fund could receive tens of billions of dollars from these
penalties to be distributed for eligible activities affecting the Gulf Coast states (Alabama, Florida, Louisiana,
Mississippi, and Texas). Treasury, in consultation with the Departments of the Interior and Commerce, is required to
develop policies and procedures to administer the Trust Fund by January 2, 2013. The procedures are to include (1)
procedures to assess whether programs and activities comply with applicable requirements, (2) auditing
requirements to ensure that amounts in the Trust Fund are expended as intended, and (3) procedures for
identification and allocation of funds available to Treasury under other provisions of law that may be necessary to pay
administrative expenses directly attributable to the management of the Trust Fund. The Restore Act authorizes our
office to conduct, supervise, and coordinate audits and investigations of projects, programs and activities funded
under this legislation. Neither Treasury nor our office was provided specific funding in the act for carrying out our
respective responsibilities.


The Restore Act established the allocation of available amounts in the Trust Fund during any fiscal year.


    •    35 percent to the Gulf Coast states, in equal shares, for expenditure for ecological and economic restoration
         of the Gulf Coast region




                                                           163
     •    30 percent to the Gulf Coast Ecosystem Restoration Council (Gulf Restoration Council)8 pursuant to the
          council’s approval of its comprehensive plan to undertake projects and programs using the best available
          science that would restore and protect the Gulf Coast region’s natural resources, ecosystems, fisheries,
          marine and wildlife habitats, beaches, coastal wetlands, and economy
     •    30 percent to the Gulf Restoration Council for allocation to the Gulf Coast states for eligible oil spill
          restoration activities, pursuant to the council’s approval of the state’s plan to improve the ecosystems or
          economy of the Gulf Coast region, using a regulatory formula
     •    2.5 percent to the National Oceanic and Atmospheric Administration for its Gulf Coast Ecosystem
          Restoration Science, Observation, Monitoring, and Technology Program. This program is to be established
          by January 2013 to carry out research, observation, and monitoring to support the long-term sustainability
          of the ecosystem, fish stocks, fish habitat, and the recreational, commercial, and charter fishing industry in
          the Gulf of Mexico
     •    2.5 percent to the Gulf Coast states, in equal shares, for competitive grant awards to nongovernmental
          entities and consortia in the Gulf Coast region, including public and private institutions of higher education,
          to establish centers for excellence to conduct Gulf Coast region research


The Restore Act prescribes how each distribution of funds will be further distributed and the conditions that must be
met to receive funds. These conditions include that the amounts distributed be used in accordance with the
legislation, that procurement rules and regulations be followed, and that the Secretary of the Treasury has the
authority to withhold funding if the conditions are not met.


Treasury’s Office of the Fiscal Assistant Secretary (OFAS) is currently developing regulations for the new program.
We have been meeting with OFAS staff and providing our perspectives on controls as the regulations are being
developed. What makes the administration of the act so challenging is that (1) regulations and associated policies and
procedures need to be established and put into place quickly; (2) many of the entities/councils that are to receive and
further allocate funding were not created before the enactment of the legislation and need to establish their own
policies and procedures; and (3) there are many entities/councils that must cooperate for the funds to be distributed
and spent in an appropriate manner. Treasury is also challenged by the fact that it must use existing resources to
administer its responsibilities for the Trust Fund, and it is not a member of the entity, the Gulf Restoration Council,
that will directly control how over half of the available amounts are spent.




8The Gulf Restoration Council consists of the following members, or designees: (1) at the federal level, the Secretaries of the
Interior, Army, Commerce, Agriculture, the head of the department in which the Coast Guard is operating (currently the Secretary of
Homeland Security), and the Administrator of the Environmental Protection Agency; and (2) at the state level, the Governors of
Alabama, Florida, Louisiana, Mississippi, and Texas.




                                                               164
Challenge Removed


Management of Capital Investments


As we have reported in past years, managing large capital investments, particularly information technology
investments, is a difficult challenge for any organization, whether public or private. In the past, we have also reported
on a number of capital investment projects that either failed or had serious problems. However, we believe Treasury’s
implementation activities for two capital investments, TNet and FinCEN’s BSA IT Mod, while not perfect,
demonstrated that the Department has made sufficient, sustainable improvement in managing and mitigating
investment risk to warrant removal of this area from our list of the most serious management and performance
challenges.


    TNet - Treasury plans to spend $3.7 billion during the life cycle of its Information Technology Infrastructure
    Telecommunications Systems and Services investment. Treasury was originally to have begun implementation of
    TNet, a major component, in November 2007 but the project was delayed until August 2009. In September 2011,
    we reported serious problems with the initial contracting and project management of TNet that contributed to
    the delay and the unnecessary expenditure of $33 million to maintain the prior telecommunications system in
    the interim. TNet is now operational across Treasury. While it is not yet fully compliant with all Federal security
    requirements, Treasury has committed to correcting the weaknesses in a timely manner and has taken other
    steps to strengthen security.


    FinCEN BSA IT Mod - As discussed in Challenge 3, Treasury, through FinCEN, is undertaking the BSA IT Mod
    program and achieved a major milestone when it successfully transitioned BSA data from IRS in January 2012.
    The project is expected to cost about $120 million and is on track to be completed in 2014. Pursuant to a
    Congressional directive, we completed two in a series of audits of BSA IT Mod. The first audit reported that
    FinCEN had developed a sound business case for the program and the Department and FinCEN had
    implemented a strong governance system. The audit did identify one issue dealing with the mapping of BSA data
    from the new system to legacy IRS systems, which was addressed. The second audit found that the program was
    on schedule and within budgeted cost. We did note a concern with changes in program oversight, which we
    concluded had not adversely impacted the program so far but would be an area of follow-up in our work going
    forward.


We do note that we have started or planned audits of two on-going and costly capital investments to determine
whether sound project management and effective governance are in place.


    BEP Enterprise - BEP Enterprise, or BEN, is intended to integrate the Bureau of Engraving and Printing’s (BEP)
    manufacturing and administrative components in a unified platform to simplify and standardize procedures,
    increase efficiency, and eliminate unnecessary processes. The goals are to increase quality, reduce spoilage, and
    improve accountability. The cost for BEN is estimated at $123 million for initial implementation and $400
    million over the 10-year life of the project. We initiated an audit of BEN in 2012 which we anticipate completing
    in fiscal year 2013.


    Common identity management system - The Treasury Enterprise Identity, Credential and Access Management
    (TEICAM) is an effort to implement Homeland Security Presidential Directive 12 requirements for a common



                                                          165
    identity standard. Started in 2007, the investment’s targeted life cycle is through 2018. The estimated TEICAM
    cost is $178 million as of this writing, which has increased $31 million since the estimate in my last challenges
    memorandum. Although recently Treasury reported the investment is on schedule, within cost, and operating as
    planned, the investment has incurred significant schedule variances. As of August 2012, the Treasury Chief
    Information Officer assessed the investment as medium risk. We plan to begin an audit of TEICAM in fiscal year
    2013.


While removed as a challenge, because of the billions of dollars at risk both in terms of procurement and mission
effectiveness, Treasury should continue to exercise vigilance in managing the capital investments described above and
others it has underway and may undertake in the future.


Matters of Concern


Although we are not yet reporting these as management and performance challenges, we want to highlight areas of
concern – cyber security, currency and coin production, and documenting key activities and decisions.


    Cyber Security


    Not surprisingly, Treasury’s systems are interconnected and critical to the core functions of government and the
    Nation’s financial infrastructure. Information security remains a constant area of concern and potential
    vulnerability for Treasury’s systems.


    As a result, an economic and national security challenge for which Treasury must be prepared, is to provide
    leadership to defend against the full spectrum of threats against financial institutions in particular, and the
    financial sector in general. Many U.S. banks face cyber threats to their infrastructure on a continuous basis.
    Recent examples include denial of service attacks against a number of large U.S. banks. Organized hacking
    groups leverage known and new vulnerabilities and use different methods to make attacks hard to detect and
    even harder to prevent. Given the evolving cyber-threat environment, Treasury will need to build on existing
    partnerships among financial institutions, regulators, and private entities in the financial sector, in order to be
    well-positioned to identify and respond to emerging cyber threats against financial institutions and the broader
    financial sector.


    Currency and Coin Production


    We have issued two reports related to the delayed introduction of the NexGen $100 notes caused by creasing in
    some of the finished notes. Our first report, issued in May 2011, discussed deficiencies related to the physical
    security over notes and sheets in the production facilities; we noted that BEP promptly addressed those matters.
    Our second report, issued in January 2012, reported on deficiencies with BEP’s NexGen $100 note production
    process, project management, and the need to complete a comprehensive cost-benefit analysis for the disposition
    of the 1.4 billion finished NexGen $100 notes already printed but not accepted by FRB. Originally planned to be
    issued in February 2011, a decision still needs to be made regarding the introduction of the NexGen $100 note
    into circulation although production has resumed. In this regard, FRB, as the issuing authority, will make that
    determination. Another matter related to currency redesign that should be kept in mind is meaningful access to
    U.S. currency for blind and visually impaired individuals. In response to a court ruling on that matter, you



                                                          166
    discussed several methods that Treasury plans to use to provide such access. Among them, you described the
    inclusion of raised tactile features and high-contrast numerals that would help them distinguish denominations
    of U.S. currency notes. The lessons learned with NexGen $100 note underscore the need for sound and
    comprehensive project management as BEP undertakes this redesign effort.


    Challenges also exist with coin production. In recent years, the Mint reported that the cost of producing penny
    and nickel coins were double their face value and that metal prices have caused the production costs to be higher
    than the coins’ face value for the past 6 years. Treasury also suspended production of the dollar coins to save
    money in production and storage costs due to excess supplies on-hand and low demand for the coins. Even
    though the demand is not there, the fiscal year 2011 production costs of the dollar coin were approximately a fifth
    of the coin’s face value.


    In the medium- to long-term future, the impact of alternative payment systems and other technological advances
    – such as stored value cards, the Internet, and smartphones – to BEP’s and the Mint’s respective business models
    and practices must be considered. This is especially the case in light of the profound effect that such technology
    had on the U.S. Postal Service’s business model. Accordingly, it will become more and more imperative that BEP
    and the Mint factor this into their business model and future planning and interactions with their customer, FRB.


    Documenting Key Activities and Decisions


    Two recently completed audits by my office highlighted lapses by the Department in maintaining a complete and
    concurrent record of key activities and decisions.


    One audit involved the selection of financial agents for Treasury’s investment in Fannie Mae and Freddie Mac
    MBS. The other audit involved Treasury’s consultative role with the Department of Energy’s Solyndra loan
    guarantee. In both cases, while some documentation was available, we were only able to piece together what had
    happened through extensive interviews with personnel and email reviews. It was only then that we could
    conclude that in the case of the selection of financial agents, that Treasury followed a reasonable approach, and in
    the case of the Solyndra loan guarantee, that a consultation by Treasury did occur, albeit rushed.9 On-going work
    by my office shows that these are not isolated instances. We are often told that the exigencies at the time
    precluded the preparation of more complete documentation. While we appreciate the pressures that are involved,
    especially during times of economic crisis, maintaining proper documentation is a fundamental tenet of
    government accountability and transparency. Maintaining proper documentation is also in the best long-term
    interest of the Department, should, at a later date, it want to repeat its actions or they be called into question. In
    this regard, appropriate documentation can be as simple as contemporaneous notes providing a record of why
    decisions were made, the way they were made, and how the government satisfied itself that the decisions were
    the best course. We do note that Treasury has issued policy that addresses documentation requirements, such as




9Treasury’s Financial Agent Selection Process for the Agency Mortgage Backed Securities Purchase Program Was Not Fully
Documented (OIG-12-061; issued July 31, 2012); Consultation on Solyndra Loan Guarantee Was Rushed (OIG-12-048; issued
April 3, 2012)




                                                           167
    Treasury Directive Publication 80-05, Records and Information Management Program. In our view, this is a
    matter of Treasury management personnel needing to remain aware and vigilant, especially during times of
    economic crisis.


We have a final observation and this regards the Department’s October 2012 consolidation and restructuring of BPD
and FMS into BFS. Expected to save money in the long run, the initiative is laudable. Furthermore, early indications
from our on-going review of the consolidation, is that planning for the consolidation, as well as communication with
affected personnel, has been extensive. That said, such consolidations do entail risk as separate processes, systems,
and workplace cultures are meshed together. Comprehensive planning and the involvement of senior leadership has
been key to other recent and successful restructurings of government operations, such as with CFPB and the transfer
of the functions of the former OTS. At this stage, we encourage Treasury’s senior leadership to at least maintain its
current level of effort in this important undertaking.


We would be pleased to discuss our views on the management and performance challenges and the other matters in
this memorandum in more detail.


cc: Nani A. Coloretti
    Acting Assistant Secretary for Management




                                                          168
                                              DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20005



INSPECTOR GENERAL
    FOR TAX
 ADMINISTRATION




                                                       October 15, 2012


MEMORANDUM FOR SECRETARY GEITHNER


FROM:                              J. Russell George
                                   Inspector General

SUBJECT:                           Management and Performance Challenges Facing the Internal
                                   Revenue Service for Fiscal Year 2013

The Reports Consolidation Act of 200010 requires that the Treasury Inspector General for Tax Administration
(TIGTA) summarize, for inclusion in the Department of the Treasury Accountability Report for Fiscal Year 2013, its
perspective on the most serious management and performance challenges confronting the Internal Revenue Service
(IRS).

Each year, TIGTA evaluates IRS programs, operations, and management functions to identify the areas of highest
vulnerability to the Nation’s tax system. For Fiscal Year 2013, the top management and performance challenges in
order of priority are:

           1.   Security for Taxpayer Data and Employees;
           2.   Tax Compliance Initiatives;
           3.   Modernization;
          4.    Implementing the Affordable Care Act and Other Tax Law Changes;
           5.   Fraudulent Claims and Improper Payments;
          6.    Providing Quality Taxpayer Service Operations;
           7.   Human Capital;
          8.    Globalization;
          9.    Taxpayer Protection and Rights; and
         10.    Achieving Program Efficiencies and Cost Savings.

While TIGTA’s assessment of the major IRS management challenge areas for Fiscal Year 2013 has remained relatively
unchanged from the prior fiscal year, we decided to distinguish the significance of Tax Compliance Initiatives from
Modernization. Last year, Tax Compliance Initiatives and Modernization were both ranked as number two.
However, with the demand for accountability to the American taxpayer, we believe it is more important than ever for
the IRS to efficiently and effectively collect taxes owed to the Federal Government. Lastly, the Implementing Tax Law




10   31 U.S.C. § 3516(d) (2006).




                                                             169
IRS MANAGEMENT CHALLENGES MEMORANDUM
Changes challenge area was expanded to encompass the Patient Protection and Affordable Care Act (Affordable Care
Act),11 and is now titled Implementing the Affordable Care Act and Other Tax Law Changes.

Although not listed, complexity of the tax laws remains a serious underlying issue that has wide-ranging implications
for both the IRS and taxpayers. This complexity, including frequent revisions to the Internal Revenue Code, makes it
increasingly difficult for the IRS to explain and enforce the tax laws, and more costly and time-consuming for
taxpayers trying to comply.

The following information detailing these management and performance challenges is being provided to promote
economy, efficiency, and effectiveness in the IRS’s administration of the Nation’s tax laws.

SECURITY FOR TAXPAYER DATA AND EMPLOYEES

As our Nation’s tax collector and administrator of the Internal Revenue Code, the IRS received more than 234 million
tax returns, of which 143 million were from individual taxpayers, and collected more than $2.4 trillion in revenue in
Fiscal Year 2011. Information from these tax returns is converted into electronic format, processed, and maintained in
178 computer system applications for use by IRS employees.

The IRS faces the daunting task of securing its computer systems against the growing threat of cyberattacks. Effective
information systems security becomes essential to ensure that data are protected against inadvertent or deliberate
misuse, improper disclosure or destruction, and that computer operations supporting tax administration are secured
against disruption or compromise. According to the Department of Homeland Security’s U.S. Computer Emergency
Readiness Team, Federal agencies reported 43,889 cyberattacks in Fiscal Year 2011, an increase of about five percent
since Fiscal Year 2010.12

Computer security has been problematic for the IRS since 1997, when the IRS initially reported computer security as a
material weakness during its annual evaluation of internal accounting and administrative controls under the Federal
Managers’ Financial
Integrity Act of 1982.13 TIGTA continues to identify significant security weaknesses in this area. In addition, the
Government Accountability Office reported that security deficiencies identified in conjunction with its review of the
IRS’s financial statement audits for Fiscal Years 2010 and 2011 are the basis of its determination that the IRS had a
material weakness in internal controls over financial reporting related to information security.14 While the IRS has
made progress in the area of computer security, it still needs to continue to place a high priority on improvements.

Beyond safeguarding a vast amount of sensitive financial and personal data, the IRS must also protect approximately
100,000 employees and contractors working in approximately 630 facilities throughout the country. The IRS has
enhanced security nationwide, including acquiring new or additional guard services at IRS facilities. Additionally, the




11 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as amended by the Health
Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
12 Office of Management and Budget, Fiscal Year 2011 Report to Congress on the Implementation of The Federal Information

Security Management Act of 2002 (Mar. 2012).
13 31 U.S.C. §§ 1105, 1113, and 3512. The Federal Managers’ Financial Integrity Act (FMFIA) requires that agency management

establish and maintain effective internal controls to achieve the objectives of: 1) effective and efficient operations, 2) reliable
financial reporting, and 3) compliance with applicable laws and regulations. The FMFIA also requires the head of each Executive
agency to report annually to the President and Congress on the effectiveness of the internal controls and to identify any material
weaknesses in those controls. Reporting material weaknesses under the FMFIA is not limited to weaknesses over financial
reporting.
14 GAO, Ref. No. GAO-12-165, Financial Audit: IRS’s Fiscal Years 2011 and 2010 Financial Statements (Nov. 2011).




                                                                170
IRS MANAGEMENT CHALLENGES MEMORANDUM
IRS obtained the services of an outside consultant to provide an independent review of its physical security.
However, TIGTA determined that the IRS did not receive the in-depth, independent assessment regarding the
security posture of its facilities as required by the contract, and the contractor declined to provide a validation of the
acceptability of the IRS’s security posture.15

During the last three years, threats to the IRS have increased 24 percent. Physical violence, harassment, and
intimidation of IRS employees continue to pose significant challenges to the implementation of a fair and effective
system of tax administration.

During Fiscal Year 2011, TIGTA evaluated in excess of 2,700 threat-related complaints. This resulted in the initiation
of 1,400 threat investigations that required TIGTA Special Agents to promptly respond to mitigate those threats and
to determine whether criminal prosecutions of the perpetrators making the threats were warranted.

Additionally, the ongoing public debate regarding the health care law and continued concern over the country’s
economy could fuel threats against the Federal Government, including IRS employees and facilities. These are
challenging operating conditions for the IRS that underscore the need for continued vigilance in the area of physical
and personnel security.

TAX COMPLIANCE INITIATIVES

Another serious challenge confronting the IRS is tax compliance. Despite an estimated voluntary compliance rate of
approximately 83 percent in the IRS’s January 2012 updated Tax Gap16 estimates and IRS enforcement efforts, a
significant amount of income remains unreported and unpaid. Tax compliance initiatives include the administration
of tax regulations, collection of the correct amount of tax from businesses and individuals, and oversight of tax-
exempt and government entities.

Increasing voluntary taxpayer compliance and reducing the Tax Gap are the focus of many IRS initiatives. Although
the IRS reported that the Tax Gap is caused by both unintentional taxpayer errors (whether due to tax law complexity,
confusion, or carelessness) and willful tax evasion or cheating, the IRS does not have sufficient data to distinguish the
amounts attributable to each. The IRS also reported that a meaningful improvement in the voluntary compliance rate
requires a long-term, focused effort involving taxpayer service, modernization, and enforcement. The IRS’s strategy
for reducing the Tax Gap is largely dependent on funding for additional compliance resources and legislative changes.
In its Fiscal Year 2013 budget submission, the IRS requested a 7.6 percent increase in enforcement funds over its
Fiscal Year 2012 enacted level.

     Businesses and Individuals

     The IRS estimated the gross Tax Gap for Tax Year 2006 to be approximately $450 billion. The underreporting of
     taxes, which is comprised of four major components (individual income tax, employment tax, corporate income
     tax, and estate and excise taxes), was estimated at $376 billion and accounted for the largest portion
     (approximately 84 percent) of the Tax Gap. The underpayment of taxes was approximately 10 percent, and the




15 TIGTA, Ref. No. 2012-10-075, An Independent Assessment of Facility Physical Security Was Not Performed in Compliance With
Contract Requirements (July 2012).
16 The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the amount they voluntarily and

timely paid for a tax year.




                                                             171
IRS MANAGEMENT CHALLENGES MEMORANDUM
     nonfiling of taxes was approximately six percent. The IRS will need to address the following impediments to
     more effectively address the Tax Gap:

             Incomplete compliance research that does not identify all the sources of noncompliance so that
              IRS resources can be targeted properly.

             Insufficient compliance strategies that do not always address the areas of highest risk of
              noncompliance. The IRS reported it is working to reengineer examination and collection procedures
              based on improved data from its National Research Project study of individual taxpayers.

             Incomplete document matching programs because the IRS does not have reliable third-party
              data for all taxpayer sectors and for all types of tax returns, most notably income earned by the self-
              employed. The IRS reported that, without these data, it cannot easily detect errors or potential fraud
              except through expensive and intrusive examinations.

             Insufficient enforcement resources to handle a growing caseload. The IRS has identified
              noncompliance and potential fraud cases it did not have the resources to work, allowing billions of
              dollars to be fraudulently refunded each year.

     Tax-Exempt Entities

     The IRS’s challenge related to tax-exempt and government entities is providing assistance to those entities that
     provide a societal benefit while ensuring that the entities remain in compliance with the tax laws associated with
     their tax-exempt status. Legislative changes and judicial decisions contribute to a constantly changing
     environment affecting today’s nonprofit and tax-exempt organizations. The Pension Protection Act of 2006 17
     mandates that tax-exempt organizations file certain information electronically with the IRS. Previously, these
     organizations were not required to file an annual information return unless their gross receipts exceeded certain
     dollar thresholds. The Act further requires the IRS to publish and maintain a list of organizations whose tax-exempt
     status has been automatically revoked.

     TIGTA reported that the Exempt Organizations function educated tax-exempt organizations on the requirements of
     the Act and identified and informed organizations that their tax-exempt status had been automatically revoked.
     However, the Exempt Organizations function did not identify all organizations that should have been informed
     about their revocations and did not clearly inform organizations on how to regain their tax-exempt status if they
     were still operating.18 TIGTA also reported that while the Exempt Organizations function has greatly improved its
     timeliness with regard to acknowledging complaints against tax-exempt organizations, referrals were not always
     controlled or processed timely. If referrals are not properly accounted for or worked timely, the Exempt
     Organizations function may not identify tax-exempt organizations that are potentially in violation of Federal tax
     law or have referrals ready when new examination cases are needed.19




17Pub. L. No. 109-280, 120 Stat. 780.
18TIGTA, Ref. No. 2012-10-027, Appropriate Actions Were Taken to Identify Thousands of Organizations Whose Tax-Exempt
Status Has Been Automatically Revoked, but Improvements Are Needed (Mar. 2012).
19
  TIGTA, Ref. No. 2012-10-058, Implementing Better Management Controls Would Improve the Exempt
Organizations Function’s Ability to Oversee and Timely Process Referrals (June 2012).




                                                           172
IRS MANAGEMENT CHALLENGES MEMORANDUM
       Tax Return Preparers

       Every year, more than half of all taxpayers pay someone else to prepare their Federal income tax returns. During
       the 2012 Filing Season,20 the IRS processed approximately 71 million individual Federal income tax returns
       prepared by paid tax return preparers.

       In December 2009, the IRS announced a suite of proposed reforms to improve oversight of the return preparer
       community. In September 2010, TIGTA reported that it will take years for the IRS to implement the Return
       Preparer Program and to realize its impact.21 In December 2011, TIGTA reported that improvements are ongoing
       to ensure that the preparer registration process has effective controls and system validations.22 However, not
       until January 2014 will all preparers be subjected to all suitability and competency tests.



MODERNIZATION

The Business Systems Modernization Program (Modernization Program) is a complex effort to modernize IRS
technology and related business processes. It involves integrating thousands of hardware and software components
while replacing outdated technology and maintaining the current tax system. The IRS originally estimated that
completion of the Modernization Program would take up to 15 years and incur contractor costs of approximately $8
billion. The Modernization Program was funded for $330.2 million for Fiscal Year 2012 and the President’s Budget
request for Fiscal Year 2013 was also $330.2 million. The Modernization Program’s goals include:

               Issuing refunds, on average, five days faster than existing legacy systems;

               Offering electronic filing capability for individuals, large corporations, small businesses, tax-exempt
                organizations, and partnerships, with dramatically reduced processing error rates;

               Delivering web-based services for tax practitioners, taxpayers, and IRS employees;

               Implementing data analytics to reduce improper payments and fraudulent refunds; and

               Providing IRS customer service representatives with faster and improved access to taxpayer account
                data with real-time data entry, validation, and updates of taxpayer addresses.

The IRS’s modernization efforts continue to focus on core tax administration systems designed to provide more
sophisticated tools to taxpayers and IRS employees. These efforts will provide the foundation for implementing a
real-time tax system, reducing improper payments and fraudulent refunds, and providing the technology
infrastructure and architecture that will enable taxpayers and other stakeholders the capability to securely access tax
account information. These complex efforts continue to pose significant technological and business challenges for the
IRS.

Since January 2012, the IRS has implemented daily updating of taxpayer accounts and daily processing of returns;
however, the implementation of the Customer Account Data Engine 2 (CADE-2) relational database designed to




20 The period from January 1 through April 15 when most individual income tax returns are filed.
21 TIGTA, Ref. No. 2010-40-127, It Will Take Years to Implement the Return Preparer Program and to Realize Its Impact (Sept.
2010).
22 TIGTA, Ref. No. 2012-40-010, More Tax Return Preparers Are Filing Electronically, but Better Controls Are Needed to Ensure

All Are Complying With the New Preparer Regulations (Dec. 2011).




                                                             173
IRS MANAGEMENT CHALLENGES MEMORANDUM
replace the 1960s-era Individual Master File is at risk of not meeting timeframes for providing data to other
systems. Additionally, while the IRS has upgraded the Modernized e-File system to accept and process over 125 new
individual tax forms, performance issues threaten goals to retire the legacy electronic filing system and have delayed
the implementation of employment-related business forms. Modernizing legacy tax administration systems to
receive and process CADE-2 data and to process new legislative changes, such as the Affordable Care Act, will
continue to be a major challenge for the IRS.

The IRS has identified and reported the Modernization Program as a material weakness since 1995. However, in a
June 2011 memorandum to the Department of the Treasury, the IRS Commissioner stated that the previously
identified internal and management control issues have been fully addressed and that the Modernization Program no
longer warranted being identified as a material weakness. The Department of the Treasury agreed to downgrade the
material weakness. While we support the IRS’s decision, we believe the Modernization Program remains a major
management challenge, and the IRS should continue to stress improvements in its overall processes and
performance.

IMPLEMENTING THE AFFORDABLE CARE ACT AND OTHER TAX LAW CHANGES

Each filing season tests the IRS’s ability to implement tax law changes made by Congress. Correctly implementing
late tax law changes remains a significant challenge because the IRS must often act quickly to assess the changes and
determine the necessary actions to ensure that all legislated requirements are satisfied. In addition, the IRS must
often create new or revise existing tax forms, instructions, and publications; revise internal operating procedures; and
reprogram computer systems to accurately and timely process tax returns affected by the new tax law changes.
Sometimes, despite all of its efforts, the IRS may have to delay the processing of some tax returns or quickly correct
computer programming if early processing errors surface. Effective implementation of tax-related provisions of the
Affordable Care Act and changes to tax laws will continue to challenge IRS resources.

    Affordable Care Act

    The Affordable Care Act contains an extensive array of tax law changes that will present a continuing source of
    challenges for the IRS in the coming years. While the Department of Health and Human Services will have the
    lead role in the policy provisions of the Affordable Care Act, the IRS will administer the law’s numerous tax
    provisions. The IRS estimates that at least 42 provisions will either add to or amend the tax code and at least
    eight provisions will require the IRS to build new processes that do not exist within the current system of tax
    administration. Examples of new IRS responsibilities resulting from this law include:

              Providing tax credits to businesses and individuals to assist in covering the cost of health coverage;

              Administering the mandate for individuals to purchase health coverage or be subject to a penalty on
               their individual Federal tax returns;

              Administering multiple tax provisions designed to raise revenues to offset the cost of health care reform;
               and,

              Protecting additional data entrusted to the IRS from the risk of loss or identity theft.




                                                            174
IRS MANAGEMENT CHALLENGES MEMORANDUM
     Results of TIGTA audits illustrate the need for continued oversight of the IRS’s administration of many of these
     tax-related provisions. TIGTA recently reported that the IRS did not require sufficient information to determine
     whether taxpayers claiming Small Business Health Care Tax Credits filed required employment taxes when these
     taxpayers entered into a contractual relationship with professional employment organizations to manage human
     resources.23 TIGTA also determined that the IRS did not take adequate steps to ensure that taxpayers potentially
     liable for the indoor tanning excise tax were aware of the new tax law, particularly after the number of taxpayers
     filing tax returns reporting the excise tax for tanning services was much lower than expected.24

     TIGTA also reported that taxpayers erroneously received millions of dollars in Adoption Credits. A provision in
     the Affordable Care Act increased the Adoption Credit and made the tax credit refundable.25 Although the IRS
     requires taxpayers to attach documentation to their tax returns supporting Adoption Credit claims, it does not
     have the authority to deny the credits if documentation is not provided. As a result, tax returns without required
     documentation must be sent to the Examination function. As of December 23, 2011, the IRS had received
     101,627 Adoption Credit claims totaling more than $1.2 billion for Fiscal Year 2010. We reported that
     4,258 taxpayers received almost $49.3 million in Adoption Credits without sufficient supporting
     documentation.26 Of these 4,258 taxpayers, TIGTA estimated that 953 tax returns claiming more than $11
     million in Adoption Credits were erroneous.

     Other Tax Law Changes

     More than 1.5 million taxpayers who purchased a home between April 9 and December 31, 2008, and claimed the
     First-Time Homebuyer Credit (Homebuyer Credit), were required to begin repaying the credit on their Tax Year
     2010 tax return. The credit is intended to be repaid over 15 years, in equal annual installments. However, the IRS
     experienced difficulties in implementing the repayment process. As of May 2, 2012, the IRS had inaccurately
     processed 66 percent (3,819 of 5,756) of taxpayer accounts for which the taxpayer filed a joint tax return with his
     or her spouse when the Homebuyer Credit was claimed but the ownership of the property was later transferred as
     part of a divorce settlement. As a result of incorrectly overstating the new Homebuyer Credit repayment
     obligation, the IRS incorrectly assessed more than $650,000 in additional tax for 136 tax accounts. The IRS also
     understated the net Homebuyer Credit repayment obligation for 3,683 taxpayers and erroneously reduced the
     amount these taxpayers were required to repay by more than $13.1 million.27

FRAUDULENT CLAIMS AND IMPROPER PAYMENTS

The Improper Payments Information Act of 200228 defines an improper payment as any payment that should not
have been made or that was made in an incorrect amount (both overpayments and underpayments) under statutory,
contractual, administrative, or other legally applicable requirements. The Administration has emphasized the




23 TIGTA, Ref. No. 2011-40-103, Affordable Care Act: Efforts to Implement the Small Business Health Care Tax Credit Were

Mostly Successful, but Some Improvements Are Needed (Sept. 2011).
24 TIGTA, Ref. No. 2011-40-115, Affordable Care Act: Number of Taxpayers Filing Tanning Excise Tax Returns Is Lower Than

Expected (Sept. 2011).
25 A refundable tax credit is a tax credit that is treated as a payment and can be refunded to the taxpayer. Refundable credits can

create a Federal tax refund that is larger than the amount a person actually paid in taxes during the year.
26 TIGTA, Ref. No. 2012-40-065, Processes to Address Erroneous Adoption Credits Result in Increased Taxpayer Burden and

Credits Allowed to Nonqualifying Individuals (June 2012).
27 TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not All Tax Credits Were

Processed Correctly During the 2012 Filing Season (Sept. 2012).
28 Pub. L. No. 107-300, 116 Stat. 2350.




                                                                 175
IRS MANAGEMENT CHALLENGES MEMORANDUM
importance of reducing improper payments. On November 20, 2009, the President signed Executive Order 13520,29
which included a strategy to reduce improper payments by increasing transparency, holding agencies accountable,
and creating strong incentives for compliance. In addition, the Improper Payments Elimination and Recovery Act of
2010 30 placed additional requirements on Federal agencies to reduce improper payments. Erroneous and improper
payments issued by the IRS generally involve improperly paid refunds, tax-return filing fraud, or improper payments
to vendors or contractors.

     Refundable Credits

     The IRS administers numerous refundable tax credits. These refundable credits allow individual taxpayers to
     reduce their tax liability to below zero and thus receive a tax refund even if no income tax was withheld or paid.
     Two significant refundable credits are the Earned Income Tax Credit and the Additional Child Tax Credit.

     During Tax Years 2006 through 2009, taxpayers claimed almost $470 billion in refundable credits. Due to post-
     refund examinations, taxpayers were required to repay more than an estimated $2.3 billion in erroneous credits.
     By the end of December 2011, the IRS had recovered an estimated $1.3 billion, of which more than 70 percent
     was collected through refund offsets.

     Refunds for the Additional Child Tax Credit processed in Fiscal Year 2010 totaled $28.3 billion, and TIGTA
     reported that the IRS paid $4.2 billion for this credit in Processing Year 2010 to individuals who were not
     authorized to work in the United States. Taxpayers also repeatedly claimed erroneous Additional Child Tax
     Credits after being disallowed the credit in the previous year. TIGTA determined that the IRS could have saved
     an additional $108 million by reviewing claims made by taxpayers who were previously disallowed the credit. In
     addition, the IRS could have prevented issuance of approximately $419 million in erroneous Additional Child Tax
     Credit refunds had it reviewed the Additional Child Tax Credit at the same time the Earned Income Tax Credit
     was being reviewed.31

     Fraudulent Payments

     Identity theft is escalating and poses significant challenges for the IRS. In Calendar Year 2011, the IRS identified
     over 1.1 million incidents of identity theft that affected the Nation’s tax system.32 The IRS has stepped up its
     efforts against refund fraud and identity theft. These efforts include designing new identity-theft-screening
     filters that the IRS believes will improve its ability to identify false tax returns before they are processed and
     before fraudulent refunds are issued. As of April 19, 2012, the IRS reported that it has stopped the issuance of
     $1.3 billion of potentially fraudulent tax refunds as a result of the new identity-theft filters. However, TIGTA
     determined that the impact of identity theft on tax administration is significantly higher than the amount the IRS




29 Executive Order No. 13,520, 74 Fed. Reg. 62201 (Nov. 25, 2009), Reducing Improper Payments and Eliminating Waste in
Federal Programs.
30 Pub. L. No. 111-204, 124 Stat. 2224.
31 TIGTA, Ref No. 2012-40-105, Expansion of Controls Over Refundable Credits Could Help Reduce the Billions of Dollars of

Improperly Paid Claims (Aug. 2012).
32 This includes incidents in which taxpayers contacted the IRS alleging that they were victims of identity theft, as well as instances

where the IRS identified identity theft. Many of the taxpayers that the IRS identified were not aware they were victims of identity
theft because they either did not file tax returns or did not have filing requirements.




                                                                  176
IRS MANAGEMENT CHALLENGES MEMORANDUM
    detects and prevents. Our analysis of Tax Year 2010 tax returns identified more than $5.2 billion in tax refunds
    issued to individuals filing tax returns with characteristics of identity-theft cases confirmed by the IRS.33

    Contract and Other Payments

    The IRS expends approximately $2.1 billion annually in contract spending, an area which continues to experience
    several risks for fraud and abuse. Previous TIGTA investigations and audits have identified millions of dollars in
    questioned costs and several instances of contractor fraud. During Fiscal Years 2010 and 2011, TIGTA’s criminal
    investigative efforts contributed to court-ordered civil settlements which required Government contractors to pay
    $156 million and $113 million, respectively, to the U.S. treasury. These payments were the result of Federal
    procurement law violations that occurred with work contracted with multiple Federal agencies, including the
    IRS.

    During these investigations, two recurring trends emerged: contracting officer’s representatives were frequently
    overwhelmed by their workloads, and current business practices have not enhanced the IRS’s ability to identify
    anomalies warranting additional review.

    TIGTA recently performed an assessment of the IRS’s controls over contract invoice review, approval, and
    payment processes to identify whether improper payments were made to contractors. TIGTA reported that the
    IRS did not have documentation supporting $384,430 of the invoiced labor hours that were paid. Applying the
    results to the population of labor charges, we estimate a total of $927,992 may have been erroneously paid.34

    Another TIGTA review identified that the IRS is not always charging other entities for the full costs of the work
    performed on reimbursable agreements. We identified more than $28 million in costs incurred by the IRS that
    were not reimbursed. When the IRS is reimbursed less than the cost of performing reimbursable work, it must
    fund this work using its own operating budget, thereby reducing the funds available for tax administration.35

PROVIDING QUALITY TAXPAYER SERVICE OPERATIONS

The Department of the Treasury and the IRS recognize that the delivery of effective taxpayer service has a significant
impact on voluntary tax compliance. Answering taxpayers’ questions to assist them in correctly preparing their
returns reduces the need to send notices and correspondence when taxpayers make errors. Taxpayer service also
reduces unintentional noncompliance and shrinks the need for future collection activity. The IRS continues to focus
on the importance of improving service by emphasizing it as a main goal in its strategic plan, including seeking
innovative ways to simplify or eliminate processes that unnecessarily burden taxpayers or Federal Government
resources.

Although the number of identity-theft cases is increasing, TIGTA found that the IRS is not effectively providing
assistance to victims of identity theft. Identity-theft cases are not worked timely and can take more than a year to
resolve. Communications between the IRS and victims are limited and confusing, and victims are asked multiple
times to substantiate their identity, increasing the burden to these taxpayers. IRS guidelines are inconsistent and not




33 TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From Identity Theft (July

2012).
34 TIGTA, Ref. No. 21012-11-101, Deficiencies Continue to Exist in Verifying Contractor Labor Charges Prior to Payment (Aug.

2012).
35 TIGTA, Ref. No. 2011-10-076, The Full Costs of Work Performed on Reimbursable Agreements Are Not Always Charged,

Resulting in Reduced Funds Available for Tax Administration (July 2012).




                                                             177
IRS MANAGEMENT CHALLENGES MEMORANDUM
all functions within the IRS have guidelines for handling identity-theft issues. In November 2011, the IRS established
a Taxpayer Protection Unit to manage identity-theft cases. However, during the 2012 Filing Season, taxpayers found
it difficult to reach employees in this unit. The unit received more than 86,000 calls during the Filing Season, but was
only able to answer about 21,000 of these calls. The average wait time for taxpayers was almost one hour.

The IRS assisted approximately 2 million individuals at its walk-in Taxpayer Assistance Centers during the 2012
Filing Season. In addition, more taxpayers are calling the IRS’s toll-free telephone lines every year, with
approximately 90 million calls attempted to the various toll-free telephone assistance lines during the 2012 Filing
Season. However, as a result of budget constraints, tax return preparation was provided only on a limited number of
days per week, and the IRS did not provide the planned extended hours for the Taxpayer Assistance Centers.
Additionally, a reduction in funding for toll-free telephone and correspondence services resulted in a Level of Service
goal for Fiscal Year 2012 of 61 percent, compared to the 70 percent the IRS achieved in Fiscal Year 2011.

Furthermore, our recent review of the Taxpayer Advocate Service’s toll-free telephone lines determined that the
Taxpayer Advocate Service does not have a formalized process to track or analyze the calls received by the ASK-TAS1
toll-free line to assess the effectiveness of its outreach efforts in generating cases meeting Taxpayer Advocate Service
case criteria. Taxpayers specifically requesting Taxpayer Advocate Service assistance have several telephone options,
including the ASK-TAS1 toll-free line staffed by Taxpayer Advocate Service personnel. Additional documentation and
analysis is necessary to evaluate the impact of the ASK-TAS1 toll-free line and ensure that proposed changes to the
line provide the expected benefits without adversely affecting taxpayers.36

HUMAN CAPITAL

Human capital is the Federal Government’s most critical asset. At a time when agencies are preparing for increased
retirements and taking on such challenges as implementing the numerous health care tax provisions, the recruitment
and retention of employees plays a key role in maintaining a quality workforce. Like many Federal agencies, the IRS
is faced with the major challenge of replacing existing talent caused by a large number of retirements expected over
the next several years. In five years, about one-third of the IRS’s workforce of approximately 100,000 employees will
be eligible to retire. In the leadership ranks, over two-thirds of IRS executives will be eligible for retirement in five
years. Adding to this challenge, the IRS offered early retirement and buyouts to more than 2,200 employees in Fiscal
Year 2012.

The IRS’s challenge of having the right people in the right place at the right time is made more difficult by many
complex internal and external factors. The work performed by IRS employees continually requires greater expertise
as tax laws become more complex and as attempts by taxpayers and tax practitioners to evade compliance with the tax
laws grows and becomes more sophisticated. The IRS must also compete with other Federal agencies and private
industry for the same human resources, which becomes more complicated as younger generations of employees move
between jobs more frequently than their predecessors. Further, budget constraints, legislative changes, and
economic shifts can create unforeseen challenges for the IRS in addressing its long-term human capital issues.

While the IRS is improving its human capital management practices and has developed a comprehensive agency-wide
recruitment strategy, there is still much work to be done. TIGTA recently reported that the IRS has improved its




36TIGTA, Ref. No. 2012-10-052, The Taxpayer Advocate Service’s ASK-TAS1 Toll-Free Line Has Evolved Over Time, but Additional
Steps Are necessary to Evaluate Its Impact (June 2012).




                                                            178
IRS MANAGEMENT CHALLENGES MEMORANDUM
process for onboarding new employees; however, managers interviewed by TIGTA indicated they were not following
best practices, as identified in the comprehensive guidance the IRS developed for them. As a result, some best
practices that would help new employees become more productive were not fully implemented. Improved processes
would reduce the substantial cost of replacing employees who leave the IRS and would help the IRS meet its mission
by ensuring that employees quickly become productive.37

The IRS is also at risk when the workforce turns over at a high rate resulting in the loss of experience. This loss of
experience needs to be offset by strong managerial oversight and internal controls or it can foster an environment
where employee misconduct and criminal acts can go unreported and undetected. All employees need to be aware
and vigilant in their responsibilities for maintaining the highest degree of integrity within the Federal Government.

GLOBALIZATION

The scope, complexity, and magnitude of the international financial system presents significant enforcement
challenges for the IRS. International business holdings and investment in the United States have grown from nearly
$188 billion in 1976 to over $14.5 trillion in 2007, while U.S. business and investment grew from nearly $368 billion
to nearly $15 trillion during the same period. The number of taxpayers conducting international business
transactions continues to grow as technological advances provide opportunities for offshore investments that were
once only possible for large corporations and wealthy individuals.

As technology continues to advance and cross-border transactions rise, the IRS is increasingly challenged by
economic globalization. The IRS is confronted with a lack of information reporting on many cross-border
transactions. In addition, the varying legal requirements imposed by different jurisdictions result in complex
business structures that make it difficult to determine the full scope and effect of cross-border transactions.

The IRS has developed a strategic plan specifically for international tax issues with two major goals: (1) enforce the
law to ensure that all taxpayers meet their obligation to pay taxes and (2) improve service to make voluntary
compliance less burdensome. The IRS continues to realign and expand its international efforts under its Large
Business and International Division. The IRS expects that these efforts will improve international tax compliance by
allowing it to focus on high-risk issues and work cases with greater consistency and efficiency.

A top priority for the IRS has been to stop offshore tax cheating and bring these taxpayers, especially high net-worth
individuals, back into the tax system. The IRS offered Offshore Voluntary Disclosure Initiatives in 2009 and 2011 to
encourage taxpayers with hidden offshore assets and income to come back into the tax system using the IRS’s
Voluntary Disclosure Program. According to the IRS, these initiatives have resulted in the collection of over $4
billion. Due to the success of the first two initiatives, the IRS offered a third opportunity in 2012 for delinquent
taxpayers to disclose their hidden offshore assets. In a review of the IRS’s 2009 Offshore Voluntary Disclosure
Initiative, TIGTA determined that the IRS’s disclosure practices increased taxpayer compliance. However, additional
oversight is necessary to ensure that information obtained from the voluntary disclosures is accurate and complete to




37TIGTA, Ref. No. 2012-10-091, The Onboarding Process Has Improved, but Additional Steps Should
Be Taken to Ensure Employees Have the Tools, Resources, and Knowledge to be Successful and Productive (Aug. 2012).




                                                            179
IRS MANAGEMENT CHALLENGES MEMORANDUM
assist the IRS in identifying additional taxpayers and promoters who continue to defraud the Federal Government
with their offshore activities.38

Another challenge that the IRS currently faces is the implementation of the Foreign Account Tax Compliance Act
(FATCA).39 The FATCA was enacted to combat tax evasion by U.S. persons holding investments in offshore accounts.
Under this Act, a U.S. taxpayer with financial assets outside the United States will be required to report those assets to
the IRS. In addition, foreign financial institutions will be required to report to the IRS certain information about
financial accounts held by U.S. taxpayers or by foreign entities in which U.S. taxpayers hold a substantial ownership
interest. The FATCA is being phased in by the IRS over several years. Individual taxpayers with an aggregate balance
of more than $50,000 in foreign financial assets are required to file a disclosure statement with their income tax
return.

TAXPAYER PROTECTION AND RIGHTS

The IRS must ensure that tax compliance activities are balanced against the rights of taxpayers to receive fair and
equitable treatment. The IRS continues to dedicate significant resources and attention to implementing the taxpayer
rights provisions of the IRS Restructuring and Reform Act of 1998 (RRA 98).40 The following audits related to
taxpayer rights provisions are mandated annually: Notices of Levies; Restrictions on the Use of Enforcement
Statistics to Evaluate Employees; Fair Debt Collection Practices Act 41 Violations; Notices of Liens; Seizures; Illegal
Protestor Designations; Assessment Statute of Limitations; Collection Due Process Appeals; Denial of Requests for
Information; Restrictions on Directly Contacting Taxpayers Instead of Authorized Representatives; and Separated or
Divorced Joint Filer Requests.

In general, the IRS has improved its compliance with these statutory taxpayer rights provisions and in documenting
that taxpayer rights were protected. However, TIGTA continues to identify the same deficiencies in the IRS’s
processing of collection due process cases. TIGTA reported in July 201242 that the Office of Appeals did not always
classify taxpayer requests properly and, as a result, some taxpayers received the wrong type of hearing. TIGTA also
identified an increase in errors relating to the determination of the Collection Statute Expiration Data on taxpayer
accounts. In addition, TIGTA reported that Appeals personnel continue to fail to document their impartiality in all
cases. These deficiencies may result in taxpayers not receiving their full rights during an appeal hearing.

As previously noted, the IRS is seeing a significant growth in identity-theft cases. Identity theft remains the single
largest type of complaint submitted to the Federal Trade Commission’s Consumer Sentinel Network.43 The Federal
Trade Commission estimates that as many as nine million Americans have their identities stolen each year. Identity




38 TIGTA, Ref. No. 2011-30-118, The 2009 Offshore Voluntary Disclosure Initiative Increased Taxpayer Compliance, but Some
Improvements Are Needed (Sept. 2011).
39 Pub. L. No. 111-147, Subtitle A, 124 Stat 71, *96-116 (2010)(codified in scattered sections of

26 U.S.C.).
40 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered section of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22

U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
41 15 U.S.C. §§1601 note, 1692-1692o (2006).
42 TIGTA, Ref. No. 2012-10-077, Office of Appeals Errors in the Handling of Collection Due Process Cases Continue to Exist (July

2012).
43 The Federal Trade Commission’s Consumer Sentinel Network is an investigative cyber tool and complaint database, restricted to

law enforcement use, that provides civil and criminal enforcement organizations immediate and secure access to identity theft and
other consumer-related complaints.




                                                                180
IRS MANAGEMENT CHALLENGES MEMORANDUM
theft affects the IRS and tax administration in two ways – fraudulent tax returns and misreporting of income.44 Both
can potentially harm taxpayers who are the victims of identity theft.

ACHIEVING PROGRAM EFFICIENCIES AND COST SAVINGS

Given the current economic environment and the increased focus by the Administration, Congress, and the American
people on Federal Government accountability and efficient use of resources, the American people must be able to
trust that their Government is taking action to stop wasteful practices and ensure that every tax dollar is spent wisely.
During the Fall of 2011 through Summer 2012, numerous Department of the Treasury, Office of Management and
Budget, and Presidential Executive Orders and other guidance documents were issued to ensure that the Government
is a good steward of taxpayer money by identifying opportunities to promote efficient and effective spending and
eliminating excess spending on conferences and travel.

This management challenge is even more compelling given the IRS’s Fiscal Year 2012 budget, which was reduced over
$300 million from Fiscal Year 2011, approximately a 2.5 percent cut. As a result, the IRS reduced its administrative
costs, offered early outs and buy outs, and made difficult decisions in taxpayer service and enforcement operations.

While the IRS has made progress in using its data to improve program effectiveness and reduce costs, this area
continues to be a major challenge. In a recent audit, we assessed the IRS’s progress in achieving real estate cost
savings to meet the President’s Fiscal Year 2012 Federal real estate cost savings goals. On June 10, 2010, President
Obama directed Government agencies to eliminate excess properties and achieve $3 billion in savings by the end of
Fiscal Year 2012. Our review found that the IRS achieved some cost savings in support of the President’s goal.
However, these efforts are impeded by the lack of an established policy and effective strategy on implementing
workstation sharing by IRS employees who telework. A policy requiring employees who telework to share
workstations would allow the IRS to further reduce its long-term office space needs and achieve additional cost
savings. This would allow the IRS to reduce its office space needs by almost 1 million square feet, resulting in
potential rental savings of approximately $111.4 million over five years.45

CONCLUSION

This memorandum is provided as our annual summary of the most serious major management and performance
challenges confronting the IRS in Fiscal Year 2013. TIGTA’s Fiscal Year 2013 Annual Audit Plan contains our
proposed reviews, which are organized by these challenges. If you have any questions or wish to discuss our views on
the challenges in greater detail, please contact me at (202) 622-6500.



cc:      Deputy Secretary
         Acting Assistant Secretary for Management and Chief Financial Officer
         Commissioner of Internal Revenue




44 The Federal Trade Commission’s Identity Theft website, What is Identity Theft?
(http://www.ftc.gov/bcp/edu/microsites/idtheft/consumers/about-identity-theft.html#Whatisidentitytheft ).
45 TIGTA, Ref. No. 2012-10-100, Significant Additional Real Estate Cost Savings Can be Achieved by Implementing a Telework

Workstation Sharing Strategy (Aug. 2012).




                                                             181
                                                                    U.S. Department of the Treasury | Fiscal Year 2012


                              MANAGEMENT’S RESPONSE TO THE
                 MANAGEMENT AND PERFORMANCE CHALLENGES IDENTIFIED BY THE
                               TREASURY INSPECTOR GENERAL
                                           AND
                    TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION


    In their memoranda dated October 25 and 15, 2012, the Treasury Inspector General (IG) and Treasury Inspector
    General for Tax Administration (TIGTA), respectively, identified the major challenges facing management. The
    Department of the Treasury concurs with the IG and TIGTA on these challenges. These challenges do not
    necessarily indicate deficiencies in performance; rather, some represent inherent risks that must be monitored
    continuously. Moving forward, Treasury will continue to address these issues proactively. The following tables
    summarize the major management and performance challenges facing the Department of Treasury, and provide
    information on the actions taken by Treasury in fiscal year 2012 and planned for fiscal year 2013 and beyond. The
    IG’s matters of concern are also addressed below.




    Timothy F. Geithner
    Secretary of the Treasury
    November 15, 2012

                                                   RESPONSE TO OIG

OIG CHALLENGE NO. 1                                    SUMMARY OF MAJOR ISSUES

Transformation of Financial Regulation                  Maintain an effective Financial Stability Oversight Council
                                                         process supported by the Office of Financial Research and
                                                         Federal Insurance Office within Treasury
                                                        Build a streamlined banking regulatory structure that timely
                                                         identifies and strongly responds to emerging risks

Financial Stability Oversight Council (Council)
Fiscal Year 2012 Accomplishments
    Held 11 meetings of the FSOC (Council) to discuss and analyze emerging market developments and financial
     regulatory issues
    Initiated monitoring for potential risks to U.S. financial stability, with a focus on significant financial market
     developments and structural issues within the financial system
    Began to evaluate certain nonbank financial companies for supervision by the Federal Reserve and enhanced
     prudential standards
    Designated eight financial market utilities to be subject to enhanced prudential standards and supervisory
     requirements
    Published the following studies and reports on:
      o   Feasibility, benefits, costs, and structure of a contingent capital requirement for nonbank financial
          companies supervised by the Board of Governors and large, interconnected bank holding companies
      o   Actions taken in response to the U.S. Government Accountability Office’s report entitled, National Credit
          Union Administration: Earlier Actions are Needed to Better Address Troubled Credit Unions
    Continued to build out the Council’s institutional framework, adopting rules of operation, releasing proposed
     regulations implementing Freedom of Information Act obligations, adopting a transparency policy, and passing a
     budget for the Council operations
Actions Planned or Underway
    Coordinate with the Council member agencies to consult with the Federal Reserve on developing rules for
     establishing enhanced prudential standards
    Continue identification of specific nonbank financial companies for supervision by the Federal Reserve and
     enhanced prudential standards


                                                            182
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

   Coordinate issuance of final regulations implementing the Volcker Rule with member agencies and on credit risk
    retention for asset-backed securities with member agencies
   Continue monitoring for potential risks to U.S. financial stability, with a focus on significant financial market
    developments and structural issues within the financial system
Office of Financial Research (OFR)
Fiscal Year 2012 Accomplishments
   Issued its first Annual Report to Congress, containing analysis and tools for monitoring threats to U.S. financial
    stability
   Provided analytical and data-related support to the Council and its member agencies, focusing initially on
    nonbank financial company designations and support for the Council’s annual report
   Provided Council with the initial Financial Stability Monitor – a dashboard of financial stability metrics and
    indicators
   Supported the Council’s Data Committee as a forum for Council-wide coordination on data-related issues,
    including data sharing, data standardization, and data security
   Continued to play a leadership role in achieving the global Legal Entity Identifier
   Launched a Working Paper Series and a Research Seminar Series
   Cohosted OFR-Council Conference, “The Macroprudential Toolkit: Measurement and Analysis” and conducted a
    workshop on stress testing
   Finalized preparations for an advisory committee under the Federal Advisory Committee Act procedures
   Established a comprehensive strategic planning and performance management system based on the OFR’s first
    Strategic Framework and comprehensive implementation planning tools to ensure the OFR’s research, data,
    human resources, budget, and other operational activities are aligned with and support its long-term goals
   Established foundational operational policies and procedures, including those related to information security
   Accelerated ramp-up in staffing (from 20 to 120), began build-out of core information technology (IT) and
    business infrastructure, and established foundational controls and procedures
Actions Planned or Underway
   Conduct essential research on risks to financial stability and evaluate responses to those risks in collaboration with
    outside researchers, with a particular focus on evaluating metrics for measuring risks to financial stability;
    evaluating stress tests that may prove useful in financial stability analysis; and promoting best practices in
    financial institution risk management
   Expand analytical and data-related support to the Council, including work to support the Council’s designations of
    nonbank financial companies, providing data for the Council’s use in connection with its Annual Report on
    financial stability, and by supporting work of the Council’s Data Committee
   Build on the OFR’s secure analytical environment through core investments in long-term IT infrastructure and
    collaboration tools
   Map the OFR’s data security classification to other Council members as the basis for data sharing
   Continue to expand communication, including enhancements to the OFR website
   Update and implement the OFR’s fiscal year 2012-2014 Strategic Framework, including the tracking of
    foundational performance measures tied to the Framework’s established goals
   Continue the momentum to achieve the steady-state staffing projected for fiscal years 2014-2015
Federal Insurance Office (FIO)
Fiscal Year 2012 Accomplishments
   Drafting reports required by the Dodd-Frank Act, specifically the insurance regulatory modernization report and
    the annual report on the insurance industry
   Acted as leading insurance expert on the Council
    o    Helped develop the Council’s final rulemaking on determination of nonbank financial companies for
         consolidated supervision by the Federal Reserve and enhanced prudential standards
    o    Provided insurance expertise in Council committees and working groups
    o    Led the Stage 2 analysis of one nonbank financial company in connection with the Council’s consideration
         of nonbank financial companies for supervision by the Federal Reserve and enhanced prudential standards
                                                           183
                                                                 U.S. Department of the Treasury | Fiscal Year 2012

    o    Contributed to the development of the Stage 2 analysis for another nonbank financial company being
         considered by the Council for supervision by the Federal Reserve and enhanced prudential standards
   Represented the U.S on the International Association of Insurance Supervisors (IAIS)
    o    Played leading role in developing IAIS methodology for identifying globally significant international insurers
         (G-SIIs)
    o    Collected and analyzed data for U.S. insurance firms being considered for designation as G-SIIs
    o    Played leading role in developing policy measures to be applied to G-SIIs
    o    Served on IAIS Executive Committee and Macro-Prudential Surveillance Working Group
   Initiated a European Union-U.S. Dialogue with the objective of comparing the design and efficiency of the
    respective supervisory regimes in order to promote consumer protection, business opportunity and effective
    regulation
    o    The Dialogue has been guided by a Steering Committee that included the FIO Director and leaders from the
         European Commission, European Insurance and Occupational Pensions Authority, the Financial Services
         Authority, as well as the state regulators
    o    Its work, conducted by separate technical committees, has included the analysis of the two regulatory
         regimes on the basis of eight key topics (professional secrecy/confidentiality, group supervision, solvency
         and capital requirements, reinsurance and collateral requirements, supervisory reporting, data collection
         and analysis, supervisory peer reviews, and independent third party review and supervisory on-site
         inspections)
   Continued to gather input on FIO’s functions, authorities, and strategic priorities, including by engaging with state
    government leaders, consumer advocates, industry leaders, and international counterparts
   Convened the first Federal Government Insurance Forum in March 2012
   Developed data collection and analysis processes with OFRSelect members, convened and supported the first
    Federal Advisory Committee on Insurance
   Attended and participated in the Strategic and Economic Dialogue with China
Actions Planned or Underway
   Serve as the IAIS’s Chairman of Technical Committee
   Release the studies and reports required by the Dodd-Frank Act
   Continue and expand participation in the Council and its supporting committees
   Support and provide leadership for IAIS initiatives, including the Executive Committee, the Financial Stability
    Committee, and the Technical Committee
   Develop indicia to measure, and implement processes to collect data, when determining affordability and
    accessibility of insurance to traditionally underserved communities
   Develop limits of FIO subject matter jurisdiction, in coordination with the Department of Health and Human
    Services
   Further develop insurance sector data collection and analysis processes with OFR
   Expand bi-lateral supervisory relationships in Asia and South America
   Further build and develop staff and resources

Office of the Comptroller of the Currency (OCC)
Fiscal Year 2012 Accomplishments
   Published final rule that addresses section 939A of the Dodd-Frank Act by removing references to credit ratings
    from OCC’s regulations dealing with topics other than capital requirements replacing it with a new non-ratings
    based creditworthiness standard (i.e., investment grade standard)
   Published final market risk rule that implements various enhancements adopted by the Basel Committee on
    Banking Supervision to strengthen the capital requirements that apply to banks’ trading activities
   Published a set of proposals that revised the agencies’ current “advanced approaches” risk-based capital rules and
    replaced the agencies’ current generally applicable risk-based capital rules with rules that implement various
    enhancement adopted by the Basel Committee
   Published a Notice of Proposed Rulemaking to implement the company-run stress tests for banks with assets
    greater than $10 billion and timeline for implementation stress test based on the size of the institution

                                                          184
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

   Issued interagency guidance on stress testing principles for banks with assets greater than $10 billion.
   Issued proposed rules implementing section 619 of the Dodd-Frank Act prohibiting and limiting the ability of a
    banking entity and a nonbank financial company supervised by the FRB to engage in propriety trading and to have
    certain interests in, or relationships with, a hedge fund or private equity fund (Volcker Rule)
   Adopted an interim final rule amending its lending limit rule to apply to certain credit exposures arising from
    derivative transactions and securities financing transactions, in response to a Dodd-Frank revision in the statutory
    definition of loans and extensions of credit to include certain exposures arising from derivative, repurchase and
    securities transactions
   Issued proposed rules for appraisals on higher-risked mortgages
   Developed rulemaking proposals to harmonize rules in the context of OCC-Office of Thrift Supervision (OTS)
    integration in the areas of securities, compliance and real estate, bank operations, and licensing
   Continued active participation in the Council and its various operating committees
   Signed Memorandum of Understanding with the Consumer Financial Protection Bureau (CFPB) implementing
    the coordination requirements for supervisory activities
   With other regulatory agencies, issued a statement on measurement of total assets of an insured bank, thrift or
    credit union for purposes of determining supervisory and enforcement responsibilities under the Dodd-Frank Act,
    referencing the CFPB’s examination and enforcement authority regarding certain consumer financial laws over
    institutions with total assets of more than $10 billion, and their affiliates
   Developed and issued a semi-annual risk perspectives report that provides the industry and other interested
    parties the OCC’s perspectives on issues that pose threats to the safety and soundness of those financial
    institutions regulated by the OCC
   Initiated an Independent Foreclosure Review process for people seeking review of their mortgage foreclosures,
    increased communication efforts to inform affected parties, and extended the deadline for review requests to
    December 31, 2012, pursuant to comprehensive OCC 2011 enforcement orders against four large national bank
    mortgage servicers regarding mortgage servicing and foreclosure deficiencies
   Completed operational integration of OTS and OCC staff and offices which included continued integration of OCC
    and OTS policies and examination handbooks
   Utilized a variety of supervisory and enforcement tools that resulted in the recapitalization of a total of 15 problem
    institutions through capital injections, merger, or acquisition
Actions Planned or Underway
   Continue to conduct on-site supervisory assessments of national banks and Federal savings associations, focusing
    on the quality of corporate governance, risk management practices, adequacy of loan-loss reserves, and capital
   Continue to perform individual bank examinations on a variety of other activities aimed at identifying and
    responding to systemic trends and emerging risks that could adversely affect asset quality or the availability of
    credit at national banks and federal savings associations and the banking system, and fair access to financial
    services
   Continue to integrate OCC national bank and OTS federal savings association rules under OCC regulations
   Work closely within Treasury and with other federal financial regulatory agencies to implement the Dodd-Frank
    Act reforms, and to monitor and respond to emerging risks to the stability of the U.S. financial system
   Continue to pursue a range of strategies to rehabilitate/recapitalize problem institutions
   Continue strategies to resolve problem banks effectively by identifying problems at the earliest possible stage;
    clearly communicating concerns and expectations to bank management and the Board of Directors; using focused
    enforcement actions to require the necessary corrective actions; and ensuring timely follow-up on the
    implementation and effectiveness of corrective actions
   Continue to use supervisory analytical tools, filters and risk based analytics to provide early identification of banks
    that may be vulnerable to existing or emerging risks




                                                           185
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

OIG CHALLENGE NO. 2                                            SUMMARY OF MAJOR ISSUES

Management of Treasury’s Authorities Intended                   Protect the taxpayer from unnecessary risk associated
to Support and Improve the Economy                               with the implementation and administration of
                                                                 programs intended to support and improve the
                                                                 economy, including the provisions of the:
                                                                 - Small Business Jobs Act of 2010
                                                                 - American Recovery and Reinvestment Act of 2009
                                                                 - Housing and Economic Recovery Act of 2008
                                                                 - Emergency Economic Stabilization Act of 2008

Small Business Lending Fund (SBLF)
Fiscal Year 2012 Accomplishments
   SBLF supports the Treasury strategic goal, “repair and reform the financial system and support the recovery of the
    housing market.” In total, the SBLF provided $4.03 billion to 332 community banks and community development
    loan funds
   In fiscal year 2012, the SBLF program office transitioned from its fiscal year 2011 focus on application review and
    transaction execution activities to asset management, operations, compliance and controls, and outreach and
    reporting activities
   Specifically, the SBLF program office focused on the following activities:
    o    Asset Management: Monitored the SBLF investment portfolio and made recommendations to senior
         Treasury officials on decisions related to investment performance and activities; all participants have made
         all expected dividend or interest payments
    o    Operations: Managed the program’s data and information in connection with participant reporting,
         dividend and interest payments, capital repayments, and correspondence
    o    Compliance and Controls: Developed a compliance program which monitors participant conformance with
         program terms, including lending data, certification requirements, and other requirements provided for by
         the SBLF Securities Purchase Agreement. SBLF also developed and executed internal control procedures for
         processes across SBLF program office functions
    o    Reporting and Outreach: Continued its outreach and reporting efforts in fiscal year 2012, as these activities
         included reporting to Congress on the program’s transactions, costs, and the participants’ use of funds as
         well as developing and distributing the program’s first annual lending survey (As of June 30 2012, SBLF
         participants have increased small business lending by $6.7 billion over a $36.0 billion baseline)
Actions Planned or Underway
   For fiscal year 2013 and forward, the SBLF program office plans to continue its focus on asset management,
    dividend and interest operations, compliance and oversight, and outreach and reporting
   Specifically, the SBLF program office will focus on the following activities:
    o    Asset Management: Plans continue to monitor the SBLF investment portfolio and make recommendations
         to senior Treasury officials on decisions related to investment performance and activities
    o    Operations: Plans continue to manage the program’s data and information in connection with participant
         reporting, dividend and interest payments, capital repayments, and correspondence
    o    Compliance and Controls: (1) Plans continue to execute a compliance program to monitor participant
         conformance with program terms, including lending data, certification requirements, and other
         requirements provided for by the SBLF Securities Purchase Agreement; and (2) Plans continue to execute
         internal control procedures for processes across SBLF program office functions
    o    Reporting and Outreach: Plans continue its outreach and reporting efforts in fiscal year 2013, as these
         activities include reporting to Congress on the program’s transactions, costs, and the participants’ use of
         funds as well as publishing the results of the program’s first annual lending survey and issuing the second
         annual survey




                                                           186
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

State Small Business Credit Initiative (SSBCI)
Fiscal Year 2012 Accomplishments
   Approved 18 states for $300 million in SSBCI allocations in 2012 (As of September 30, 2012 Treasury had
    approved 57 states, territories, the District of Columbia, and consortia of municipalities (Participating States) for
    $1.44b in Allocated Funds. Of the 57 Participating States, 56 had received their first of three disbursements of
    funds; and 5 had received their second disbursement)
   Processed requests from Participating States to modify Approved State Programs for 8 states
   Published National Compliance Standards to recommend best practices to meet or exceed the compliance
    expectations that Treasury has for that Participating States in terms of oversight, supervision, and accountability
   Revised Frequently Asked Questions (FAQ) in response to OIG recommendations including the addition of an
    FAQ defining a material adverse change in a state’s fiscal or operational condition that must be reported to
    Treasury
   Held a national conference attended by 160 managers and stakeholders from 53 Participating States
   Conducted three open conference calls to build awareness and understanding of the National Compliance
    Standards and the revised and new FAQs, and to provide guidance for compliance related questions
   Implemented an on-line reporting system for Participating States to utilize in order to submit quarterly and
    annual reports
   Initiated compliance sampling of transactions which were reported by Participating States in the December 31,
    2011 annual report
   Provided ongoing technical assistance to Participating States, including 33 site visits
Actions Planned or Underway
   Host a second national conference of Participating State managers and other key stakeholders in October 2012, in
    Chicago
   Process modification and disbursement requests from Participating States on an ongoing basis
   Continue to provide guidance and prompt responses to questions initiated by Participating States
Management of Recovery Act Programs
Fiscal Year 2012 Accomplishments
   Managed the low income housing and specified energy property programs, including the extension of the specified
    energy property program by one year under Section 707 of the Job Creation Act, by supplementing a small core
    staff in Departmental Offices with support from Treasury bureaus
   Provided follow-up and support as necessary to Recovery Act Community Development Financial Institutions
    (CDFI) Program and Native American CDFI Assistance Program awardees with remaining federal reporting
    requirements in fiscal year 2012 (35 of original 69 Recovery Act awardees), to ensure timely reporting to Federal
    Reporting.gov (100 percent on-time rate was achieved for fiscal year 2012)
   Provided follow-up and support as necessary to all 69 Recovery Act CDFI Program and Native American CDFI
    Assistance Program awardees, to ensure timely receipt of quarterly reports to the CDFI Fund (99 percent on-time
    reporting was achieved for fiscal year 2012)
   Verified final report submission to Federal Reporting.gov by 13 Recovery Act CDFI Program and Native American
    CDFI Assistance Program awardees
   Continued an interagency agreement for the energy program with the Department of Energy to assist with the
    technical aspects of that program
   Implemented an annual reporting process for the low-income housing program to ensure projects funded under
    the program remain qualified
Actions Planned or Underway
   Continue to provide follow-up and support to 22 remaining Recovery Act CDFI Program and Native American
    CDFI Assistance Program awardees with federal reporting requirements, to ensure 100 percent on-time reporting

   Provide follow-up and support to all 69 Recovery Act CDFI Program and Native American CDFI Assistance
    Program awardees to ensure on- time reporting of quarterly reports submission to the CDFI Fund
   Continue the compliance monitoring programs related to the low-income housing and specified energy property
    programs

                                                           187
                                                                U.S. Department of the Treasury | Fiscal Year 2012

   Continue to coordinate with IRS’s compliance initiative project regarding the energy program
   Continue assessment of staffing needs
Management of the Housing and Economic Recovery Act (HERA) and the Emergency Economic
Stabilization Act (EESA)
Fiscal Year 2012 Accomplishments
   Continued to manage the wind-down of remaining Troubled Asset Relief Program (TARP) investments in a
    manner that balanced exiting investments as soon as practicable with maximizing returns for taxpayers
   Collected 88.5 percent of the $417.6 billion in program funds disbursed under TARP
   Continued to implement the housing programs funded under TARP, which are designed to prevent avoidable
    foreclosures; these efforts have directly helped more than one million people avoid foreclosure and indirectly
    helped millions more by setting new standards throughout the mortgage servicing industry
Actions Planned or Underway
   Continue to manage the wind-down of remaining TARP investments in a manner that balances exiting as soon as
    practicable with maximizing returns for taxpayers
   Continue to implement the housing programs funded under TARP, which are designed to prevent avoidable
    foreclosures


OIG CHALLENGE NO. 3                                          SUMMARY OF MAJOR ISSUES

Anti-Money Laundering and Terrorist                           Prevent and detect money laundering and terrorist
Financing/Bank Secrecy Act (BSA) Enforcement                   financing
                                                              Promote U.S. and international financial systems that
                                                               are safe and transparent
                                                              Ensure continued cooperation and coordination of all
                                                               organizations involved in anti-money laundering and
                                                               combatting terrorist financial efforts
                                                              Create safeguards over the use of BSA information

FinCEN
Fiscal Year 2012 Accomplishments
   Continued to enhance the sharing of information derived from compliance examinations through: 69 memoranda
    of understanding (MOU) with federal and state regulators; coordination with State regulators and the IRS on
    examination and risk targeting of non-bank financial institutions [particularly money service businesses (MSB)];
    and agreement with the National Association of Insurance Commissioners to include examination for compliance
    with FinCEN’s regulations within the scope of State insurance regulator examinations
   Subjected non-bank residential mortgage lenders and originators to requirements to establish anti-money
    laundering programs and file suspicious activity reports (SARs), worked with the Conference of State Bank
    Supervisors and the American Association of Residential Mortgage Regulators on a joint examination framework,
    and issued guidance on regulatory expectations for bank mortgage lending affiliates subject to examination by
    Federal banking regulators
   Required mandatory electronic filing of most BSA reports by June 30, 2012, subject to certain limited exemptions
    and exceptions, and released new unified reporting templates for all industries to file SARs and Currency
    Transaction Reports, which will become mandatory by March 2013, and further improve the quality of reported
    information
   Issued Notice of Proposed Rulemakings that would apply anti-money laundering (AML) program and SAR rules to
    housing government-sponsored enterprises, applied reporting requirements on the international transport of
    certain tangible prepaid access devices, and applied certain special measures under Section 311 of the USA
    PATRIOT Act; also issued an Advance Notice of Proposed Rulemaking to solicit public comment on questions
    related to the development of a customer due diligence (CDD) regulation that would clarify, consolidate, and
    strengthen existing CDD obligations and incorporate collection of beneficial ownership information
   Conducted strategic analytical studies and published reports promoting greater awareness of emerging money
    laundering trends and vulnerabilities, including assessments related to mortgage fraud, title and escrow
    companies, and the gaming industry, and issued analytical reports to state regulatory authorities on activities
    involving MSBs in addition to overall BSA filing trends within their jurisdictions


                                                         188
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

Actions Planned or Underway
   Continue cooperative efforts with Federal and State regulatory agencies, pursuing memorandum of
    understandings with additional state insurance regulators, and promoting greater leveraging of resources between
    the IRS and state regulatory agencies on non-bank financial institution examinations – including implementation
    of compliance strategies for industries that have been recently subject to FinCEN’s regulations
   Continue working towards finalizing rulemaking proposals, as well as proposed and/or final regulations related to
    AML program and SAR rules for investment advisers, proposed and/or final regulations pursuant to Section 311 of
    the USA PATRIOT Act, and various technical and other regulatory amendments in conjunction with review of
    existing regulations
   Continue to implement the BSA IT Modernization Program, and continue the transition of remaining paper filers
    to electronic filing and all filers to the new unified reporting formats
   Continue to issue guidance to institutions as needed and to issue additional financial institution advisories as risks
    emerge
   Continue to publish analytic products, which assess trends and patterns in mortgage fraud and other financial
    crimes as appropriate, and develop new processes to streamline recurring analytic reports using FinCEN
    modernization tools in order to provide faster turnarounds to customers
   Continue to exercise enforcement authorities for violations of FinCEN’s regulations, where appropriate
OCC
Fiscal Year 2012 Accomplishments
   Examined national banks and Federal savings associations to combat money laundering and terrorist financing,
    and to protect the integrity of the U.S. financial system through banks’ compliance with the BSA, AML, and USA
    PATRIOT Act laws and regulations, taking enforcement actions when appropriate
   Issued a cease and desist order against Citibank, N.A., Sioux Falls, South Dakota, for violating the BSA and its
    underlying regulations (The order required the bank to take comprehensive corrective actions to improve its BSA
    compliance program)
   Worked with the Federal Financial Institutions Examination Council to issue a statement on outsourced Internet
    cloud computing services that discusses key risk considerations associated with these activities
   Continued to review training, staffing, recruitment, policies, and interagency coordination to make improvements
    to the BSA/AML supervision program
   Continued to work closely with the Treasury’s Office of Terrorism and Financial Intelligence, FinCEN and Office of
    Foreign Assets Control to promote the implementation of sound international anti-money laundering and counter
    terrorist financing standards
   Revised and clarified the operation of the cross-functional Large Bank BSA Review Team to bring different
    perspectives to bear and react more timely where a bank has multiple instances of Matters Requiring Attention or
    apparent violations of the required components of the BSA/AML program
   Developed directions to examiners to view serious deficiencies in a bank’s BSA/AML compliance area, including
    program violations, as presumptively adversely affecting a bank’s Management component rating and provided
    guidance on how to document application of this approach in determining the Management component rating
Actions Planned or Underway
   Revise approach to citing BSA/AML violations in order to provide more flexibility for individual pillar violations to
    be cited, and identified steps to more promptly obtain a holistic view of a bank’s BSA/AML compliance
   Continue examination, enforcement activities, and cooperative efforts with FinCEN and other federal banking
    agencies




                                                          189
                                                                   U.S. Department of the Treasury | Fiscal Year 2012

OIG CHALLENGE NO. 4                                            SUMMARY OF MAJOR ISSUES

Gulf Coast Restoration Trust Fund                                  Monitor regulations and associated policies and
Administration                                                      procedures that need be established
                                                                   Coordinate with many entities/councils that are to
                                                                    receive and further allocate funding, and need to
                                                                    establish policies and procedures
                                                                   Use Treasury’s existing resources to administer its
                                                                    responsibilities for the Trust Fund
Fiscal Year 2012 Accomplishments
   Ongoing consultation with Departments of Commerce and Interior
   Obtained anomaly for the fiscal year 2013 continuing resolution
   Discussed issues and questions with Gulf Restoration Council members including all five states
   Discussed issues and questions with other external stakeholders such as the Florida Association of Counties and
    several environmental groups
   Briefed staff of five Senators on current thinking regarding required Treasury regulation
   Ongoing discussions with OMB and White House Council on Environmental Quality
   Drafted Treasury regulation
Actions Planned or Underway
   Obtain OMB approval of draft regulation
   Continue to brief staff for interested Congress members, as requested
   Share draft regulation with Gulf Restoration Council members prior to public comment
   Provide for 30-day comment period
   Publish final (or interim final) rule in January 2013
   Work with OMB to establish trust fund account structure
   Develop memorandum of understanding with Federal members of the Gulf Restoration Council
   Develop policies and procedures for ongoing review/oversight of program


Matters of Concern No. 1                                       SUMMARY OF MAJOR ISSUES

Cyber Security                                                     Build on existing partnerships among financial
                                                                    institutions, regulators, and private entities in the
                                                                    financial sector
                                                                   Identify and respond to emerging cyber threats
                                                                    against financial institutions and the broader
                                                                    financial sector
Fiscal Year 2012 Accomplishments
   Partners: (1) Strengthened the public/private partnership by clarifying roles and improving the leadership model;
    and (2) Commissioned a review of the system of the sector coordinating council (Financial Services Sector
    Coordinating Council for Critical Infrastructure Protection, FSSCC), the sector communications utility (Financial
    Services Information Sharing and Analysis Center, FS-ISAC), and the regulatory c0mmittee (Financial and
    Banking Information Infrastructure Committee, FBIIC)
   Information Sharing: (1) Piloted an information-sharing platform, to exchange sensitive information between the
    financial sector and the defense industrial base (Global Information Sharing Framework); (2) Launched an
    initiative to adapt a defense industrial base sensors program [Defense Enhanced Cyber security Services (DECS)]
    to help protect the financial sector; and (3) Extended the communications networks beyond the specialists in the
    largest, most active firms to executives at various levels and to firms of all sizes
   Policy Development: (1) Provided substantial input on key Administration cyber security proposals, including
    legislation, potential executive orders, and potential policy directives; (2) Provided insights and potential solutions
    regarding the stated and imputed positions of industry and regulators; and (3) Pursued opportunities for bridging
    sector-specific options and cross-sector options, often by participating in interagency-led programs



                                                            190
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

   Identification of Emerging Threats: (1) Convened classified discussions with 60 Chief Information Officers and
    Chief Information Security Officers from 30 firms to identify and address emerging threats; and (2) Collaborated
    with private and public sector partners to assess the emerging risks associated with the Internet Corporation for
    Assigned Names and Numbers proposal to delegate new financial Internet suffixes, including “.bank”,
    “.mortgage”, “.insurance”, and “.retirement”
   Response to Emerging Threats: (1) Coordinated government and industry responses to attacks on individual
    institutions and on major sub-sectors of financial services; and (2) Facilitated requests for Technical Assistance
    and existing Memoranda of Understanding to deploy government resources in defense of critical infrastructure
Actions Planned or Underway
   Partners: Promoting heightened capabilities among partners, including supporting enhanced access, staffing and
    automation at the sector communications utility (Financial Services Information Sharing and Analysis Center, FS-
    ISAC)
   Information Sharing: (1) Partnering with Department of Homeland Security (DHS) to adapt the defense
    industrial base sensors program (DECS) to meet the needs of the financial sector and all of the other critical
    infrastructure sectors; (2) Partnering with DHS, the intelligence community and law enforcement to build a cyber-
    intelligence capability dedicated to protecting the financial sector; and (3) With the FSSCC and FS-ISAC, enlisting
    the trade associations to extend effective crisis management and communications to firms of all sizes
   Policy Development: (1) Continuing to provide input on key Administration cyber security proposals, as well as
    actively pursuing the implementation of adopted policies; and (2) Supporting and institutionalizing the
    integration of financial services-specific efforts with DHS’ cross-sector activities
   Identification of Emerging Threats: (1) Commissioning and managing a multi-year research project with the
    Institute for Defense Analyses, to identify, assess and address emerging systemic threats to critical infrastructure;
    (2) Continuing to provide input on the potential risk of domain name expansion (e.g. “.bank”); and (3) Actively
    collaborating with private and public sector stakeholders to address the risks and to capitalize on any
    opportunities
   Response to Emerging Threats: (1) Continuing to address individual incidents and patterns of attack; and (2)
    Pursue long-term improvement in the processes by which the federal government assists in the defense of the
    financial sector


Matters of Concern No. 2                                      SUMMARY OF MAJOR ISSUES

Currency and Coin Production                                      Oversee issues related to BEP’s redesign of NexGen
                                                                   $100 note while engaging in sound and
                                                                   comprehensive project management
                                                                  Oversee the United States Mint’s costs associated of
                                                                   producing penny, nickel coins, and the suspended
                                                                   production of the dollar coins
Fiscal Year 2012 Accomplishments
   The Bureau of Engraving and Printing (BEP) established a Portfolio and Project Management Office that will
    develop and institutionalize standardized project management processes
   The BEP implemented a Production Validation protocol in collaboration with the Federal Reserve Board (FRB)
    and the United States Secret Service, to ascertain whether preproduction testing met agreed upon standards
    (Validation at the Western Currency Facility (WCF) was successful and the NexGen $100 note was put back into
    production; in fiscal year 2012, the WCF delivered 1.1 billion NexGen $100 notes to the FRB)
   The United States Mint created a Research and Development (R&D) Center at its facility in Philadelphia to
    improve capacity to conduct ongoing R&D as it relates to coin production and any opportunities that will create
    efficiencies
Actions Planned or Underway
   The BEP production validation for the NexGen $100 note will commence in Washington, DC with production
    expected to commence by mid-year
   The United States Mint will deliver an alternative coinage materials report to Congress in fiscal year 2013 that will
    provide an assessment for both metal and production costs
   The BEP will continue to work with the FRB, as they are the issuing authority for all currency and will determine
    the release date for the NexGen $100 note
   The BEP is working with the Office of Personnel Management to create a multi-tier candidate assessment tool to
    identify the most qualified candidates for the Portfolio and Project Management Office

                                                          191
                                                                 U.S. Department of the Treasury | Fiscal Year 2012

Matters of Concern No. 3                                     SUMMARY OF MAJOR ISSUES

Documenting Key Activities and Decisions                         Promote an effective records management program
                                                                  to ensure Treasury management personnel remain
                                                                  aware and vigilant
Fiscal Year 2012 Accomplishments
   The Department received the 2012 Archivist Achievement Award which recognizes the Federal agencies that are
    collaborative, use technology in innovative ways to solve records management challenges, and demonstrates
    support of the Presidential Memorandum--Managing Government Records goals to improve performance, policies
    and practices; promote openness; and accountability by better documenting agency actions and decisions
   The Treasury Learning Management System is now available for all Treasury bureaus to increase awareness
    among all Treasury employees and contractors regarding their roles and responsibilities to preserve and manage
    Treasury’s records and information in accordance with a variety of laws, regulations, and Treasury directives
   The Office of Treasury Records, in conjunction with the Treasury Printing & Graphics Division, partnered to offer
    high-quality digitization services to offices within the Department of Treasury which is a cost-effective paper-to-
    electronic solution that minimizes records storage facility fees
   The Department sponsored 29 records management related training sessions during April 2012 that attracted 590
    participants from 43 Federal government agencies including the Department of the Treasury
   Ensured compliance with Federal records regulations, Treasury’s Office of Treasury Records conducted reviews of
    each bureau records management program, documented findings, and made recommendations to improve the
    effectiveness and efficiency in the respective programs
Actions Planned or Underway
   Updating the Department’s policy for records management, to address the use, retention, and disposition of
    social media and web 2.0 technologies
   Continue receiving quarterly reports from the Treasury bureaus on the status of their Plans of Action and
    Milestones pursuant to the bureau assessments conducted for ensuring Departmental senior level awareness of
    the status of bureaus’ records management program efforts


Matters of Concern No. 4                                     SUMMARY OF MAJOR ISSUES

Consolidation of Bureau of the Public Debt (BPD)                 Ensure the consolidation and restructuring of BPD
and Financial Management Service (FMS) into                       and FMS into BFS that its separate processes,
Bureau of the Fiscal Service (BFS)                                systems, and workplace cultures are integrated


Fiscal Year 2012 Accomplishments
   Drafted a comprehensive consolidation implementation plan
   Communicated extensively with affected personnel, the National Treasury Employees Union, Congress, and other
    key stakeholders
   Implemented the initial organizational structure
   Established a new mission and vision
Actions Planned or Underway
   Focus on assisting employees during this transition by providing training and professional outplacement services
   Continue to manage risks by training employees to take on mission-critical functions and clearly communicating
    organizational structure and reporting relationships
   Continue to engage employees and involve senior leadership in the planning and implementation




                                                         192
                                                                U.S. Department of the Treasury | Fiscal Year 2012

                                              RESPONSE TO TIGTA


TIGTA CHALLENGE NO. 1                                        SUMMARY OF MAJOR ISSUES

Security for Taxpayer Data and Employees                     Promote measures for appropriate physical security and
                                                             protection of financial, personal, and other information

Fiscal Year 2012 Accomplishments
   For the fiscal year 2012 financial statement audit, GAO reported a downgrade of the Information Security material
    weakness to a significant deficiency based on the results of their testing confined to the generally accepted
    accounting principles (GAAP) statements; due to the difference in scope as a result of the requirements of the
    Federal Managers Financial Integrity Act (FMFIA) and the IRS testing completed as of June 30, 2012, IRS will
    continue to report Information Security as a material weakness; internal testing will continue in order to
    substantiate an internal downgrade of the existing material weakness
   Realized significant progress in masking Social Security Numbers (SSN) on IRS notices to taxpayers; through the
    use of Two-Dimensional Barcode Technology, the IRS has reduced the use of SSNs on 46 nonpayment notices,
    affecting 18.9 million annual taxpayer notices based on the fiscal year 2011 actual
   Deployed the Criminal Investigation Disaster Recovery environment (including servers, networking, and Storage
    Area Network) at the Martinsburg Enterprise Computing Center that will provide recovery of IT infrastructure and
    systems
   Integrated the enterprise Authorization (e-Authentication) service with IRS.Gov and the Registered User Portal to
    allow taxpayers online access to register, request, and obtain an official electronic tax transcript
   Installed Enterprise Physical Access Control System (ePACS) solutions in several IRS locations to ensure secure
    and reliable forms of identification and access control via the use of SmartID credentials
   Identified, mitigated, and responded to thousands of cyber incidents
   Produced hundreds of advisories and bulletins informing responsible system administrators and users of
    mitigation actions to address current vulnerabilities and threats impacting IRS systems
Actions Planned or Underway
   Reduce the use of SSNs on an additional 12 notices, increasing the total number of masked nonpayment notices to
    58, impacting 20.4 million taxpayer notices
   Build on existing e-Authentication system to provide an additional layer of security for taxpayers and the IRS and
    support integration of new applications and conversion of existing applications
   Support the new Registered User Portal Initiative and position new Affordable Care Act (ACA) applications by
    integrating the e-Authentication system with the new portal infrastructure to provide standardized security
    services in ACA applications with external entities


TIGTA CHALLENGE NO. 2                                        SUMMARY OF MAJOR ISSUES

Tax Compliance Initiatives                                   Improve compliance and fairness in the application of
                                                             the tax laws

Businesses and Individuals
Fiscal Year 2012 Accomplishments
   Conducted research studies to improve voluntary compliance and to allocate resources more effectively including:
    o   Revised existing workload selection systems and new machine-learning aids developed based on sample data
        derived from the Tax Year 2006 National Research Program (NRP) study
    o   Delivered for audit review the first returns from the NRP sample of corporate income taxpayers; this was the
        first reporting compliance study of corporate taxpayers in 30 years
    o   Delivered the initial sample returns for a new study involving fuel excise compliance research
   Continued testing soft notices as alternatives to traditional Automated Underreporter (AUR) contacts, mailing
    several thousand notices from inventory selected from the analytics tool
   Transitioned the Compliance Assurance Program to a permanent element of the IRS compliance strategy and
    added taxpayer instructions to IRS.gov
   Implemented a cross-functional compliance and outreach plan to address prisoner tax noncompliance

                                                         193
                                                                   U.S. Department of the Treasury | Fiscal Year 2012

   Improved Questionable Refund Program (QRP) filters for selection criteria, increasing referrals 134 percent
   Produced a new analytical tool, Tier Structure Tool (TST), to aid enforcement of pass-through entities; TST
    provides the ability to identify the ultimate owners of partnerships, increases the early resolution of tax issues and
    enhances the administration of Tax Equity and Fiscal Responsibility Act of 1982 (TEFRA) procedures
Actions Planned or Underway
   Continue to improve and develop new examination case selection models
   Increase compliance presence and implement actions to combat high levels of noncompliance among Individual
    Tax Identification Number (ITIN) returns improperly claiming Additional Child Tax Credit
   Analyze the results from the fiscal year 2012 and fiscal year 2013 AUR High Income High Wealth test to expedite
    classification should the work prove to be productive
   Proceed with Small Business Tax Workshop translations for the following languages: Chinese, Korean,
    Portuguese, Russian, Polish, French Creole, and Arabic
Tax-Exempt Entities
Fiscal Year 2012 Accomplishments
   Developed the Select Check tool, an on-line search tool that allows users to select an exempt organization and
    check certain information about its federal tax status and filings, and their eligibility to receive tax-deductible
    charitable contributions
   Developed a virtual workshop used at stakeholder liaison meetings, to provide guidance to exempt organizations
    impacted by auto-revocation
   Revised automatic revocation notice to include contact information for organizations seeking to regain tax-exempt
    status
   Identified and addressed non-compliant exempt organizations based upon data from the redesigned Form 990
    (Return of Organization Exempt from Income Tax)
Actions Planned or Underway
   Conduct promoter investigations on tax-exempt and government entity issues
   Support the Security and Exchange Commission’s new Office of Municipal Securities to promote compliance with
    federal tax and securities rules and deter securities fraud
   Identify noncompliant retirement plans based upon risk-modeling data
   Complete implementation of recommendations to improve the staggered determination letter process for
    employee plans
Tax Return Preparers
Fiscal Year 2012 Accomplishments
   Implemented Phase 2 of the Return Preparer Strategy:
    o   Initiated competency testing for paid return preparers seeking to become Registered Tax Return Preparers,
        conducted more than 31,000 tests and approved applications from approximately 570 continuing education
        providers
    o   Completed the first Preparer Tax Identification Number (PTIN) renewal season; there are approximately
        730,000 return preparers with a valid PTIN
    o   Began issuance of Registered Tax Return Preparer (RTRP) credentials, a new professional designation for all
        paid tax return preparers who are not attorneys, Certified Public Accountants, or Enrolled Agents
    o   Created Complaint Referral Process to enable both the public and other tax professionals to report claims of
        improper behavior by a return preparer on Form 14157 (Return Preparer Complaint)
    o   Continued to administer a Facebook page, which has thousands of regular followers, and launched a LinkedIn
        page
Actions Planned or Underway
   Enhance the way the IRS identifies and addresses preparers with the highest risk of noncompliance by using more
    focused data gathering from the NRP and expanding the treatment methods




                                                           194
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

TIGTA CHALLENGE NO. 3                                         SUMMARY OF MAJOR ISSUES

Modernization                                                 Improve taxpayer service and efficiency of operations

Fiscal Year 2012 Accomplishments
   Deployed CADE 2 Transition State 1, successfully moving to a daily processing cycle for tax processing and posting
    of individual taxpayer accounts
    o   Allowed faster refunds for more taxpayers
    o   Produced more timely account updates (viewable by IRS customer service representatives within 48 hours
        versus an average of nine days in filing season 2011)
    o   Issued taxpayer notices faster (2.79 million notices sent to taxpayers with accounts processed daily versus
        approximately 284,000 in filing season 2011)
    o   Processed over 3 billion transactions and issued 123.4 million refunds totaling $373 billion
   Deployed Modernized e-file (MeF) Release 7 for filing season 2012 and included the rollout of over 130 remaining
    1040-family schedule and forms; enhancements expanded MeF reach to 100 percent of the e-File population, or
    approximately 98.3 million fliers; to date, IRS processed over 101.7 million 1040-related returns and over 11.1
    million Business Master File returns through MeF
   Deployed the “Send My Transcript” application, which allows taxpayers to make online requests to send official
    tax return and tax account transcripts to banks and other financial institutions; initiated the Proof of Concept
    (PoC) program with multiple vendors and financial institutions
Actions Planned or Underway
   Complete feed from the CADE 2 Database to the Integrated Data Retrieval System, after completion of filing
    season 2013
   Based on findings and recommendations from the four month pilot study, implement improvements to the “Send
    My Transcript” PoC application to offer new functionality and attract new adoptees
   Complete Phase II of the Data Center Consolidation Initiative plan


TIGTA CHALLENGE NO. 4                                         SUMMARY OF MAJOR ISSUES

Implementing the Affordable Care Act and Other                Effectively implement new tax provisions, including tax-
Tax Law Changes                                               related health care provisions of the Patient Protection
                                                              and Affordable Care Act (ACA), and the American
                                                              Recovery and Reinvestment Act (Recovery Act)

Affordable Care Act (ACA)
Fiscal Year 2012 Accomplishments
   Completed the second filing season for the Small Business Health Care Tax Credit
    o   Continued compliance activities on selected tax returns
    o   Revised Form 8941 (Credit for Small Business Health Insurance Premiums) to reduce burden on filers and
        enable IRS to better focus compliance efforts
    o   Prepared implementation of phase two of the credit that takes effect in 2014
    o   Continued extensive outreach including webinars and reached out to stakeholders including insurance
        agents/brokers and Hispanic Chambers of Commerce
   Completed the second year of the ACA industry fees for Branded Prescription Drugs collecting $2.8 billion for
    calendar year 2012
    o   Implemented Release 2 of the Branded Prescription Drug Industry Fee Project, which included revisions to
        Form 8947 (Report of Branded Prescription Drug Information), enhanced due diligence processes, and fee
        calculation adjustments
   Continued implementation of the new ACA hospital requirements set forth in §501(r)
    o   Identified the universe of 3,377 hospital organizations in order to conduct community benefit reviews once
        every three years
    o   Completed 1,406 planned reviews in fiscal year 2012


                                                         195
                                                                U.S. Department of the Treasury | Fiscal Year 2012

    o   Published proposed regulations on financial assistance policies, limitations on charges, and billing and
        collection practices of tax-exempt hospital organizations
   Published a revenue procedure and proposed/temporary regulations on the tax exemption of 501(c)(29)
    organizations (co-op health insurance issuers)
   Published guidance on 22 ACA tax provisions, including Premium Tax Credit, employer provisions, and
    requirements for group health plans
   With the Department of Health & Human Services (HHS) and other federal agencies, developed new information
    technology systems that will allow health insurance exchanges beginning in October 2013 to receive federal tax
    information necessary to make determinations of income-based eligibility for government health programs (e.g.,
    Medicaid) or other financial assistance (e.g., advance premium tax credits)
   Continued ACA outreach activities emphasizing information that taxpayers and tax preparers need to know for
    2012 tax return preparation, upcoming developments for filing season 2013, and the major changes for the health
    insurance exchange system that impact the 2014 tax return (filing season 2015)
   Continued implementation of other ACA mid-horizon provisions
   Analyzed results from a soft letter mailing and federal-state data matching to estimate the indoor tanning services
    non-filer population; conducted data matching study to identify entities that were liable for tanning tax but had
    not filed a return and referred cases for audit as appropriate
Actions Planned or Underway
   Continue implementation of ACA mid-horizon provisions including Hospital Insurance Tax on High Income
    Taxpayers, Net Investment Income Tax, and Industry Fees (Patient-Centered Outcomes Research Trust Fund, and
    Health Insurance Providers)
   Launch the IRS portion of the HHS/IRS IT interface along with establishing data sharing agreements in support
    of the 2013 Exchange system Open Season
   Continue working with Federal and State agencies on implementation leading to October 2013 Exchange open
    season, including outreach, guidance, information technology, and safeguarding of federal tax data
   Continue ACA outreach to stakeholders including individuals, employers, states, insurers, tax professionals, and
    other third parties
Other Tax Law Changes
Fiscal Year 2012 Accomplishments
   Revised computer programming to ensure the accuracy of First-Time Homebuyer Credit repayment data and
    updated processing procedures to ensure repayments of the credit are correctly processed
   Implemented a non-compliant withholding (federal income tax withholding that is claimed on a tax return, but
    which was not actually withheld) rule to prevent the erroneous payment of noncompliant withholding on Social
    Security Benefits, as well as any refundable credit claimed on returns with noncompliant withholding
   Implemented new American Opportunities Tax Credit rules to prevent the erroneous payment of the Refundable
    American Opportunities Tax Credit
   Continued to partner with the Software Developers Working Group to improve tax preparation software to help
    preparers meet their due diligence requirements and reduce errors on Earned Income Tax Credit (EITC) returns
   Completed testing the AUR system for the implementation of the new merchant card and security cost basis
    reporting, wrote Internal Revenue Manual (IRM) instructions, developed training material to support new
    security cost basis legislation, and developed the data collection instruments that will be used in the test
   Revised Form 5695 (Residential Energy Credits) to request additional information to support eligibility
    requirements
Actions Planned or Underway
   Plan activities to add additional issues, such as Fuel Tax Credit and Notice to Shareholder for Long Term Capital
    Gains, to the noncompliant withholding rule
   Continue to address the duplicate use of addresses and bank account information as a source of scheming and
    clustering regarding Social Security Numbers (SSNs) and Individual Tax Identification Numbers (ITINs )
   Identify, work, and monitor cases for both Merchant Card and Security Cost Basis Reporting




                                                         196
                                                                  U.S. Department of the Treasury | Fiscal Year 2012

TIGTA CHALLENGE NO. 5                                          SUMMARY OF MAJOR ISSUES

Fraudulent Claims and Improper Payments                        Effective use of taxpayer funds

Refundable Credits
Fiscal Year 2012 Accomplishments
   Identified more than one thousand Questionable Refund Program (QRP) schemes, comprised of more than two
    million individual tax returns with billions of potentially fraudulent refund claims, which were detected prior to
    refunds being issued
   Partnered with the United States Postal Inspection Service and other law enforcement partners to recover tax
    refund checks and prepaid cards issued in connection with identity theft related returns
   Began multiple duplicate taxpayer identification number (multi-DUPTIN) testing and completed a review of
    Earned Income Tax Credit (EITC) recertification no-change and default cases
   Influenced the accuracy of EITC returns filed by focusing on EITC paid preparer treatments, including due
    diligence audits, visits by agents, streamlined injunctions, and educational and compliance notices to first-time
    and experienced preparers
   Updated EITC Central on IRS.gov (www.eitc.irs.gov), which provides educational and marketing outreach tools
    for partners, practitioners and media
   Implemented the Automated Questionable Credit (AQC) Program, a streamlined statutory notice process that
    extends compliance coverage to untreated or under-treated categories of refund fraud or noncompliance cases
   Required EITC paid preparers to complete and attach Form 8867 (Paid Preparer’s Earned Income Credit
    Checklist) to their client’s return to meet EITC due diligence requirements
   Collaborated with the Treasury Department in a Partnership Fund project to determine if state data could aid the
    IRS in administering the EITC
Actions Planned or Underway
   Modify the filters using the pre-certification selection criteria that indicates relationship and residency for EITC
    recertification
   Complete stand-up and training of two AQC operational groups
   Develop pre-refund examination filters to ensure historical information is available and used to identify taxpayers
    who claim erroneous refundable credits
Fraudulent Payments
Fiscal Year 2012 Accomplishments
   Conducted an Identity Theft Sweep Week working with the Justice Department’s Tax Division and local U.S.
    Attorneys’ offices, resulting in 105 targeted individuals in 23 states; the sweep included 939 criminal charges filed
    in connection with 69 Indictment/Information filings related to identity theft
   Implemented new filters to detect ID theft before returns were processed and formed a Taxpayer Protection Unit
    (TPU); TPU customer service representatives’ efforts have led to the selection of 387,000 potential identity theft
    cases, of which 219,000 were confirmed to be identity theft or misled cases, protecting revenue of over $1.49
    billion for the IRS
   Created an Identity Theft Clearinghouse to develop and refer identity theft refund fraud schemes for investigation
   Developed the Identity Theft Victim Disclosure Waiver pilot project in Florida, allowing the disclosure of returns
    and return information associated with accounts of known and suspected victims of identity theft to designated
    state and/or local law officials, with the express written consent of those victims
   Increased the effectiveness of the identity protection filters and indicators resulting in the isolation of over
    450,000 returns and preventing the payout of $1.85 billion in fraudulent refunds, a 45 percent increase over the
    prior year
   Implemented several new filters to detect ID Theft before returns were processed
   Accelerated the matching of individual tax returns and related information returns to better identify fraudulent
    returns prior to processing
   Coded the accounts of deceased taxpayers whose SSNs were previously used by identity thieves to file fraudulent
    returns, and marked accounts of deceased taxpayers whose final tax returns have already been filed



                                                           197
                                                                   U.S. Department of the Treasury | Fiscal Year 2012

   Revised the 1040 series electronic tax forms to allow for the entry of an Identity Protection Personal Identification
    Number (IP PIN), and provided IP PINs to over 250,000 taxpayers for the 2012 filing season to ensure taxpayers
    who were subject to identity theft did not encounter delays in processing their tax returns
   Established a cooperative agreement with more than 100 financial institutions to reject questionable refund
    deposits
Actions Planned or Underway
   Conduct audits for the multi-DUPTIN program and coordinate with Submission Processing to address the
    processing of returns with questionable TINs for dependency exemptions
   Continue analyses of Entity Theft and Entity Fabrication issues to prevent non-compliant or fraudulent refund
    claims
   Enhance the effectiveness of the IP PIN by confirming the address of the impacted taxpayer and issuing the
    preliminary and actual IP PIN notices earlier to the taxpayer; double the number of IP PINs issued this filing
    season from 250,000 to 500,000
   Expand Disclosure Waiver Program to include additional states: New York, New Jersey, Pennsylvania, Georgia,
    Alabama, Oklahoma, Texas, and California
   Collaborate with Social Security Administration (SSA) to more timely use the information related to deceased
    taxpayers provided to us by SSA, and on a potential change to the routine release of information contained in the
    Death Master File
Contract and Other Payments
Fiscal Year 2012 Accomplishments
   Developed and disseminated both a User Guide and a Manager Guide to assist business units in performing and
    monitoring Receipt and Acceptance according to established guidelines, processes, and controls
   Provided guidance on oversight and enforcement responsibilities, and evaluated whether current span of control
    provides appropriate oversight and made changes, as appropriate
   Developed and provided clear guidance to Credit Card Services on performance of their oversight and enforcement
    responsibilities for compliance with Purchase Card Program procedures
   Developed interim guidance on reimbursable work cost estimates to augment the Reimbursable Operating
    Guidelines, ensuring business units submit any and all supporting documentation on costing prior to agreement
    signature in accordance with the revised guidance
Actions Planned or Underway
   Develop and implement processes to mark or exclude false Forms W-2 (Wage and Tax Statement) from the
    automated verification process
   Conduct an on-going, full review of all reimbursable agreements
   Reinforce existing policies and procedures governing effective contract management with revamped training for
    Contracting Officer’s Technical Representatives (COTRs) across the IRS


TIGTA CHALLENGE NO. 6                                           SUMMARY OF MAJOR ISSUES

Providing Quality Taxpayer Service Operations                   Improve taxpayer service

Fiscal Year 2012 Accomplishments
   Achieved a Level of Service of 67.6 percent while answering 30.8 million assistor calls
   Launched IRS2Go v2 Smartphone application, with three new features that allow taxpayers to request their
    transcripts, get the latest news, and watch IRS videos; IRS2Go is available for both iOS and Android devices and
    has been downloaded by over 450,000 users
   Launched a redesigned IRS.gov website, transitioning the main navigation from role-based (i.e. individual,
    business, or retirement plan administrator) to intent-based (i.e., file a return, pay a tax bill, check refund status),
    providing a more efficient path for taxpayers to achieve their goals
   Deployed telephone typewriter One Call Solution, which allows deaf and hard of hearing taxpayers to make a
    single call to the IRS and gain access to a customer service representative
   Continued to develop new multilingual documents to deliver content about tools and services available to Limited
    English Proficiency (LEP) taxpayers; translated 47 notices into the top five LEP languages of Spanish, Korean,
    Chinese, Russian, and Vietnamese and posted to the Multilingual Gateway

                                                            198
                                                                 U.S. Department of the Treasury | Fiscal Year 2012

   Engaged partners and provided greater access to available services through Saturday service events and other
    special service days like EITC awareness days
   Completed Virtual Service Delivery (VSD) pilot offering virtual face-to-face service to taxpayers at 15 Taxpayer
    Assistance Centers nationwide, and two Stakeholder Partnerships, Education, and Communication partner sites
   Continued to provide extended service hours at several locations and alternative service delivery methods to
    expand service to taxpayers
Actions Planned or Underway
   Continue to monitor VSD activity in the pilot sites, use performance metrics and surveys of taxpayers to gauge
    satisfaction with the process, and implement 18 more potential VSD sites
   Develop a Spanish version of the IRS2Go Smartphone application
   Re-engineer the next e-services product, Taxpayer Identification Number Matching, which will increase match
    rate results using search rules modeled after return processing rules
   Formalize the process to track and analyze the impact of targeted outreach on the Taxpayer Advocate Service toll-
    free assistance line (1-877-ASK-TAS1)


TIGTA CHALLENGE NO. 7                                        SUMMARY OF MAJOR ISSUES
Human Capital                                                Enable the IRS to achieve its mission

Fiscal Year 2012 Accomplishments
   Reduced time-to-hire to 61.4 days, well below IRS’s Hiring Reform's goal of 80 days
   Increased use of cutting edge technologies such as Facebook, Twitter, GovLoop, SecondLife, and LinkedIn to reach
    wide and diverse applicant pools, promote IRS as an employer of choice, and develop talent pipelines
   Initiated IRS Disability Connection Recruitment Council to obtain valuable feedback from internal and external
    partners to improve on-boarding process of persons with disabilities
   Increased virtual career fair opportunities, reducing travel costs, and continuing to leverage partnerships and
    building the applicant pipeline
   Provided service-wide guidance to corporate and embedded human resources staffs and hiring managers with
    focus on the new Pathways Program
   Continued to use the “Face of the IRS” Program to educate and promote IRS to internal and external applicant
    pools through recruiting events in which current employees assist in identifying highly interested attendees, speak
    about work experiences, and provide feedback to recruiters after the event
   Continued the Executive Sponsor Program, which allowed IRS Executives to meet with high level staff on college
    campuses and participate on non-IRS employment advisory boards, teach in the classroom, and lead case
    competition projects while recruiting for the IRS
   Implemented Geographic Leadership Communities initiative, which comprises of cross-functional groups of
    executives that host development opportunities and community building workshops in specific geographic areas
   Received the Bersin & Associates 2012 Learning Leaders Award for utilizing innovative, efficient, and effective
    approaches to employee learning and talent management
Actions Planned or Underway
   Develop a Service-wide onboarding strategy; the strategy should include components such as: a checklist with
    step-by-step guidance that should be completed by both new employees and managers during the onboarding
    process; a process to collect feedback; and additional measures and analyses to evaluate the process
   Enhance IRS Career sites to showcase resources, tools, training, and other information available for managers and
    HR teams with emphasis on recruitment of veterans and persons with disabilities
   Reassess methods and tools for gathering, analyzing, and monitoring data to determine the right number and
    skills of the acquisition workforce as resources/tools become available




                                                         199
                                                                 U.S. Department of the Treasury | Fiscal Year 2012

TIGTA CHALLENGE NO. 8                                         SUMMARY OF MAJOR ISSUES

Globalization                                                 Increase the outreach efforts to foreign governments on
                                                              cross-border transactions

Fiscal Year 2012 Accomplishments
   Collected more than $5.5 billion in back taxes, interest, and penalties from the 38,000 voluntary disclosures made
    under the first two IRS offshore voluntary disclosure initiatives (OVDI) of 2009 and 2011; approximately 1,500
    entity disclosures were made through June 2012 under the new program announced in January 2012
   Implemented procedures to conduct a 100 percent review of inputs to the E-Trak Offshore Voluntary Disclosure
    Program system
   Administered Exchange of Information provisions of U.S tax treaties and tax information exchange agreements
    (TIEAs) by coordinating specific requests to and from foreign governments
   Created the Advance Pricing and Mutual Agreement Program , a critical component of Transfer Pricing
    Operations, to develop and share resources and expertise for greater efficiencies and improved case presentation
   Improved cross-border relationships and interactions through participation in organizations such as the
    Organization for Economic Cooperation and Development , and the Inter-American Center of Tax
    Administrations
   Continued developing the Gifts-in-Kind project, an international exam-related project that deals with the
    movement of in-kind charitable gifts offshore
   Collaborated on global outreach, compliance, and guidance issues with key stakeholders, including the
    Department of Labor and the Pension Benefit Guaranty Corporation to expand joint US Territory compliance and
    virtual outreach efforts
   Opened new international money laundering investigations, via the Global Illicit Financial Team, that focused on
    large institutions that facilitate global money laundering
   With FBI, Secret Service, and Homeland Security, developed additional targets in the concealment of illegal
    proceeds through International financial Institutions and other professional money laundering organizations in
    the International Money Laundering arena
Actions Planned or Underway
   Continue offshore compliance programs focused on abusive arrangements involving offshore transactions
   Gather information about foreign accounts held by U.S. taxpayers via TIEAs and implementation of the Foreign
    Account Tax Compliance Act
   Expand the Joint Audit Initiative with foreign tax administrations and taxpayers by coordinating with treaty
    partner jurisdictions to determine whether there is interest in taking specific Joint Audits forward
 Develop cases on global money launderers through partnership with the Treasury’s Office of Terrorism and
  Financial Intelligence


TIGTA CHALLENGE NO. 9                                         SUMMARY OF MAJOR ISSUES

Taxpayer Protection and Rights                                Apply the tax laws fairly

Fiscal Year 2012 Accomplishments
   Reinforced taxpayer protection and rights through leadership messages at all levels of the organization
   Created a cross-functional team to address the increasing volume of identity theft cases and the incomplete
    processes used to resolve victim issues
   Developed a waiver to share perpetrator information with local law enforcement, enabling state and local law
    enforcement officials with evidence of identity theft involving fraudulently filed federal tax returns to obtain
    return information with the consent of identity theft victims
   Decreased legitimate returns as a percentage of total unposted returns over a three year period from a peak of 79
    percent to a current rate of 30 percent; also decreased the average number of days to manually review a legitimate
    return over the same time period from 85 days to 25 days.
   Released 22 redesigned notices to clearly explain the collection process and options available to taxpayers




                                                          200
                                                                 U.S. Department of the Treasury | Fiscal Year 2012

Actions Planned or Underway
   Enhance the expertise of employees resolving identity theft cases by establishing specialized identity theft groups
    and implementing procedure enhancements
   Expand the partnerships for data exchanges regarding prevention of identity theft with additional states
   Develop a refresher class on the topic of determining timeliness of Collection Due Process (CDP) and equivalent
    hearing requests; the class will be made available as a Continuing Professional Education topic to Appeals
    technical employees who work CDP cases
   Identify additional process efficiencies from the barcode technology


TIGTA CHALLENGE NO. 10                                        SUMMARY OF MAJOR ISSUES

Achieving Program Efficiencies and Cost Savings               Use resources to focus on producing the best value for
                                                              stakeholders

Fiscal Year 2012 Accomplishments
   Implemented a shared workstation program for telework employees
   Began multi-year space optimization/rent reduction initiative to significantly reduce real estate footprint.
    Initiating 72 projects has reduced space by 603,000 square feet, resulting in annual rent savings of over $13.1
    million
   Met or exceeded all “green target goals” on the Department of the Treasury scorecard for Sustainability and
    Energy
   Implemented a paperless Time and Attendance Reporting system, eliminating nearly 3 million pieces of paper
    with a cost savings of approximately $146,000
   With the IRS operating divisions, prepared cost-based performance measures to provide timely, accurate, and
    useful data for decision making for several major IRS programs, including Field Collection and Automated
    Collection System
   Expanded the use of cost accounting information to improve program efficiency, including the analysis of the cost
    per hour of Correspondence and Field exams
   Eliminated Section 1204 (Basis for Evaluation of Employees) program travel costs and reduced managerial burden
    by conducting all independent reviews virtually
Actions Planned or Underway
   Complete 62 additional space optimization/rent reduction projects, for projected annualized savings of $15.5
    million and space reduction of 542,000 square feet
   Collaborate with operating divisions to identify additional cost-based performance measures oriented towards
    enforcement activities




                                                          201
                                                                             U.S. Department of the Treasury | Fiscal Year 2012

SECTION D: SUMMARY OF FINANCIAL STATEMENT AUDIT AND
MANAGEMENT ASSURANCES
SUMMARY OF FINANCIAL STATEMENT AUDIT
                           Audit Opinion                                                           Unqualified
                            Restatement                                                                  No
                                                                             Beginning                                           Ending
Material Weakness                                                                        New       Resolved     Consolidated
                                                                              Balance                                            Balance
Material Weakness in Internal Control Over Financial Reporting at the IRS
                                                                                     1         0          0                  0          1



SUMMARY OF MANAGEMENT ASSURANCES
Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance                                                                   Qualified
                                                        Beginning                                                                Ending
Material Weakness                                        Balance            New   Resolved     Consolidated     Reassessed       Balance

IRS – Unpaid Tax Assessments                                 1               0       0              0                0              1


Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                                                       Qualified
                                                         Beginning                                                               Ending
Material Weaknesses                                       Balance           New   Resolved     Consolidated     Reassessed       Balance

IRS – Computer Security                                          1           0       0              0                0              1
FMS – Systems, Controls, and Procedures to Prepare
the Government-wide Financial Statements                         1           0       0              0                0              1
Total Material Weaknesses (FMFIA § 2)                            3           0       0              0                0              3


Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance                                    Systems conform to financial management system requirements
                                                         Beginning                                                               Ending
Material Weaknesses                                       Balance           New   Resolved     Consolidated     Reassessed       Balance

Total Non-conformances                                           0           0       0              0                0             0



Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                                         Agency                          Auditor
Overall Substantial Compliance                                                               No                            No
1. System Requirements                                                                                    No
2. Accounting Standards                                                                                   No
3. USSGL at the Transaction Level                                                                         Yes




                                                                     202
                                                                       U.S. Department of the Treasury | Fiscal Year 2012

SECTION E: IPIA (AS AMENDED BY IPERA)
On July 22, 2010, President Obama signed into law the Improper Payments Elimination and Recovery Act (IPERA, Pub. L. 111-
204). IPERA amends the Improper Payments Information Act (IPIA), generally repeals the Recovery Auditing Act, and
significantly increases agency payment recapture efforts by expanding the types of payments to be reviewed and lowering the
dollar threshold of annual payments that requires agencies to conduct payment recapture audit programs. Agencies continue to
be required to review their programs and activities annually to identify those susceptible to significant improper payments.
OMB Circular No. A-123, Management’s Responsibility for Internal Control, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments (A-123, Appendix C), amended April 14, 2011, defines “significant
improper payments” as gross annual improper payments in a program exceeding both the threshold of 2.5 percent and $10
million of total program outlays or $100 million regardless of the improper payment percentage. A-123, Appendix C, also
requires agencies with programs susceptible to significant improper payments to implement corrective action plans that include
improper payment root cause identification, reduction targets, and accountable officials.

Section 2(B) of IPERA allows the development of an alternative for meeting the requirements for obtaining a statistically valid
estimate of the annual amount of improper payments for federal programs that are so complex that developing an annual error
rate is not feasible. Agencies may establish an annual estimate for a high-risk component of a complex program (e.g., a specific
program population) with OMB approval. Agencies must also perform trend analyses to update the program’s baseline error
rate in the interim years between detailed program studies. When development of a statistically valid error rate is possible, the
reduction targets are revised and become the basis for future trend analyses.

I. RISK ASSESSMENT
Each year, the Department develops a comprehensive inventory of the funding sources for all programs and activities and
distributes it to the Treasury bureaus and offices. The bureaus and offices must perform risk assessments at the payment type
level (e.g., payroll, contracts, vendors, travel, etc.). The Department’s risk assessment process follows the Committee of
Sponsoring Organizations of the Treadway Commission (COSO) Internal Control Integrated Framework. The framework
includes:

    1.      Internal Control Environment
    2.      Risk Assessment
    3.      Internal Control Activities
    4.      Information and Communications
    5.      Monitoring

The factors addressed to determine risk levels include:

Operating Environment – Existence of factors which necessitate or allow for loosening of financial controls; any known
instances of fraud

Payment Processing Controls – Management’s implementation of internal controls over payment processes including
existence of current documentation, the assessment of design and operating effectiveness of internal controls over payments, the
identification of deficiencies related to payment processes, and whether or not effective compensating controls are present

Internal Monitoring Activities – Periodic internal program reviews to determine if payments are made properly; strength of
documentation requirements and standards to support testing of design and operating effectiveness for key payment controls

Human Capital – Experience, training, and size of payment staff; ability of staff to handle peak payment requirements; level of
management oversight, and monitoring against fraudulent activity

                                                               203
                                                                      U.S. Department of the Treasury | Fiscal Year 2012

Prior to the enactment of the IPERA changes to IPIA, Treasury maintained and performed a robust improper payment risk
assessment process in which the new IPERA payment types were included. During fiscal year 2011, Treasury enhanced its risk
assessment tool by expanding the scope of risk assessment factors which were included in the revised A-123, Appendix C, and
continued using this tool in fiscal year 2012.

For those payment types resulting in high-risk assessments that comprise at least 2.5 percent and $10 million in total program
outlays or $100 million at any rate, (1) statistical sampling must be performed to determine the actual improper payment rate,
and (2) a corrective action plan must be developed and submitted to the Department and OMB for approval. Responses to the
risk assessments produce a score that falls into pre-determined categories of risk. The following table describes the actions
required at each risk level:

                            Risk Level                                                Required Action(s)
High Risk > 2.5% Error Rate & > $10 Million or $100,000,000       Corrective Action Plan
Medium Risk                                                       Review Payment Controls for Improvement
Low Risk                                                          No Further Action Required

The risk assessments performed across the Department in fiscal year 2012 resulted in all programs and activities being of low or
medium risk susceptibility for improper payments, except for the IRS’s Earned Income Tax Credit (EITC) program. The EITC’s
high-risk status is well-documented, having been identified previously in the former Section 57 of OMB Circular No. A-11,
Preparation, Submission, and Execution of the Budget, and has been deemed a complex program for the purposes of the IPIA.
OMB’s guidance requires additional reporting on programs deemed high-risk; that information, for the EITC program only,
follows.

II. STATISTICAL SAMPLING

EITC Program
This section describes how the IRS currently develops its erroneous payment projections for the EITC.

The EITC is a refundable federal tax credit that offsets income taxes owed by low-income workers and, if the credit exceeds the
amount of taxes owed, provides a lump-sum refund to those who qualify. The most recent projection is based on a tax year 2008
reporting compliance study that estimated the level of improper overclaims for fiscal year 2012 to range between $11.6 to $13.6
billion and 21.0 percent (lower bound) to 24.6 percent (upper bound) of approximately $55.4 billion in total program payments.

The complexity of the EITC program, the nature of tax processing, and the expense of compliance studies preclude statistical
sampling on an annual basis to develop error rates for comparison to reduction targets. The estimates are based primarily on
information from the IRS’s National Research Program (NRP) reporting compliance study of individual income tax returns for
tax year 2008—the most recent year for which compliance information from a statistically valid, random sample of individual
tax returns is available.


Under the tax year 2008 NRP reporting compliance study, which reviewed individual income tax returns filed during calendar
year 2009 for tax year 2008, 2,300 of the returns in the regular NRP sample were EITC claimants randomly selected for
examination.

This selection method allows the measures for the individual income tax return filing population to be estimated from the results
of the NRP sample returns. Because one of the objectives of the NRP is to provide data for compliance measurement, NRP
procedures and data collection differ from those followed in standard examination programs. NRP classification and
examination procedures are more comprehensive in scope and depth than those for standard examination programs. These
expanded procedures were designed to provide a more thorough determination of what taxpayers should have reported on their
returns. The tax year 2008 NRP individual income tax return study covered filers of all types of individual income tax returns.
                                                               204
                                                                        U.S. Department of the Treasury | Fiscal Year 2012

The NRP study results for this EITC claimant subset of NRP returns were the primary source of data for the improper payments
estimates. Other data and information sources used for the estimates included the IRS Enforcement Revenue Information
System, which tracks assessments and collections from IRS enforcement-related activities, and Treasury Department fiscal year
2012 EITC budget estimates.

III. CORRECTIVE ACTIONS

This section describes the ongoing and planned corrective actions to reduce the improper payment rate for Treasury’s only high-
risk susceptible program, the EITC.

Root Causes

The root causes of EITC improper payments are from the following sources:

Authentication – An estimated 75 percent or $9.5 billion in improper payments result from authentication errors. These
errors include errors associated with the inability to authenticate qualifying child eligibility requirements, mainly relationship
and residency requirements, filing status, when married couples file as single or head of household, and eligibility in
nontraditional and complex living situations. Authentication is completed on a portion of this error category during pre-refund
examinations.

Verification – An estimated 25 percent or $3.1 billion in improper payments result from verification errors. These errors
relate to improper income reporting which allows claimants to fall within the EITC income limitations and qualify for the EITC.
The errors include both underreporting and overreporting of income by both wage earners and taxpayers who report being self-
employed. Income reported through information returns such as Forms W-2, Forms 1099, etc., which can be used for
verification of some income, becomes available only after tax returns are processed. Under law IRS must process income tax
returns within 45 days of receipt or pay interest to taxpayers.

Base Program
In 2012, the IRS prevented approximately $4 billion from being paid in error. The prevention activity primarily focused on three
areas:

    •    Examinations – IRS identifies tax returns for examination and holds the EITC portion of the refund until an audit can
         be conducted. This is the only ongoing IRS audit program where exams are conducted before a refund is released. The
         examination closures and enforcement revenue protected in the charts below do not include test initiatives

    •    Math Error – Refers to an automated process in which the IRS identifies math or other irregularities and automatically
         prepares an adjusted return for a taxpayer. Legislation is required for math error use

    •    Document Matching – Involves comparing income information provided by the taxpayer with matching information
         (e.g., W-2s, 1099s) from employers and other third parties to identify discrepancies




                                                                  205
                                                                                 U.S. Department of the Treasury | Fiscal Year 2012

The chart below shows significant results from fiscal year 2007 through an estimate of fiscal year 2013. In fiscal year 2012 alone,
the IRS conducted an estimated 487,491 examinations, issued approximately 275,000 math error notices, and closed nearly 1
million document matching reviews.


                                                           Compliance Activities

                                  FY07           FY08          FY09          FY10          FY11*       FY12**         FY13***     FY07-FY13 Total
Examination Closures               503,267       503,755       508,180       473,999        483,574    487,491        487,000            2,960,266
Math Error Notices                 393,263       432,797       355,416       341,824       293,450     275,000        240,000            2,331,750
Document Matching ****             734,603       727,916       688,087       904,920       1,178,129   985,172        985,000            5,218,827
Amended Returns1                                  32,473        25,395        19,347         14,317        13,287      13,000              104,819
* Restated actual.
** Preliminary estimates.
*** Estimate based on fiscal year 2012 preliminary data.
**** Document Matching includes enterprise data. Enterprise data not available for fiscal year 2007.
1 Amended returns are a subset of Examination Closures.



These compliance activities had a significant effect. Treasury projects that continued enforcement efforts will protect a total of
approximately $26 billion in revenue through fiscal year 2013, as shown below.


                                      Enforcement Revenue Protected (Dollars in Billions)

                                  FY07           FY08      FY09              FY10          FY11*           FY12**      FY13***    FY07-FY13 Total
Examination Closures         $        1.49   $     2.00    $     2.15    $      1.97   $        2.04   $      2.05     $   2.05   $          13.75
Math Error Notices            $       0.41   $     0.44    $     0.40    $      0.41   $        0.35   $      0.32     $   0.28   $            2.61

Document Matching ****       $        1.29   $     1.23    $      1.17   $      1.43   $        1.32   $       1.55    $   1.55   $           9.54

Amended Returns                              $     0.07    $     0.07    $      0.06   $        0.04   $      0.04     $    .04    $          0.32
TOTAL                          $      3.19 $      3.74 $     3.79    $     3.87      $      3.75    $         3.96     $   3.92    $         26.22
* Restated actual.
** Preliminary estimates.
*** Estimate based on fiscal year 2012 preliminary data.
**** Document Matching includes enterprise data. Enterprise data not available for fiscal year 2007.



Maximizing Current Business Processes
     •    In fiscal year 2012, IRS completed activities associated with a suite of EITC paid preparer treatments, selected from a
          risk-based model, that include letters and notices, Knock and Talk Visits, traditional Due Diligence Visits, and
          Streamlined Injunctions. The IRS also conducted a Real-Time Preparer Pilot that used real-time data to assess EITC
          preparer risk and test the effectiveness of compliance treatments both before and during the filing season.
     •    IRS completed strategic studies to update the estimates of the two key EITC performance measures, participation rate
          and error rate, which comply with the Government Performance and Results Act of 1993. IRS also delivered estimates
          of EITC participation for tax year 2009, using a Census-IRS match. In addition, IRS used research data from the fiscal
          year 2011 enterprise research strategy to develop a fiscal year 2012 strategy in partnership with internal organizations
          to better focus EITC compliance and outreach activities.
     •    The IRS continued its partnership with members from two key tax software associations to reduce EITC errors and
          assist preparers in meeting their EITC due diligence requirements. This year the team recommended revisions to Form
          8867, Paid Preparer’s Earned Income Credit Checklist. The team also strengthened Volunteer Income Tax Assistance
          preparer due diligence by improving the intake questionnaire and addressed opportunities to provide guidance to
          preparers of Household Help returns.



                                                                         206
                                                                                                 U.S. Department of the Treasury | Fiscal Year 2012

   IV. IMPROPER PAYMENT REPORTING

   The following table provides the improper payment reduction outlook for Treasury’s only high risk susceptible program, the
   EITC:


                                                      Improper Payment (IP) Reduction Outlook
                                                                (Dollars in Billions)




                                                                                                                                 2014 IP%
                                                        2012 IP%




                                                                                             2013 IP%




                                                                                                                                                                     2015 IP%
                                                                                                                    2014 Est.
                                                                               2013 Est.




                                                                                                                                                        2015 Est.
                                                                                                                                             2014 IP$
                                                                    2012 IP$




                                                                                                         2013 IP$




                                                                                                                                                                                 2015 IP$
              Outlays




                                            Outlays




                                                                               Outlays




                                                                                                                    Outlays




                                                                                                                                                        Outlays
                         2011 %



                                   2011 $


Program                                     2012
              2011




EITC
Upper
              $64.7     25.8%     $16.7     $55.4      24.6%       $13.6       $57.9        24.6%       $14.2       $51.8       24.6%       $12.7       $52.7       24.6%       $13.0
Bound
Estimate
EITC
Lower
              $64.7     21.2%     $13.7     $55.4      21.0%       $11.6       $57.9        21.0%       $12.2       $51.8       21.0%       $10.9       $52.7       21.0%       $11.1
Bound
Estimate
The term “Outlays” equals “Estimated Claims.”
Estimated Claims: Estimated total claims for the EITC are based on projections of EITC tax expenditures plus outlays as estimated by the Office of Tax Analysis
within the Department of the Treasury, adjusted to account for the difference between taxpayer claims and accounts received by taxpayers due to return
processing and enforcement.
IP % and IP $: These estimates follow the prior approach which provided a range for the error rate (%) and improper payments amounts ($).



   Underpayments are not included in the estimate of improper payments. Underpayments do not appear with sufficient frequency
   in the statistically valid test data to have a measurable effect on the estimate.


   V. RECAPTURE OF IMPROPER PAYMENTS REPORTING
   In accordance with IPERA and OMB Circular No. A-123, Appendix C, Treasury performs and reports annually on its payment
   recapture program. In fiscal year 2011, Treasury incorporated the IPERA amendments into the existing Treasury payment
   recapture (recovery audit) program, and continued to address them in fiscal year 2012. Prior to the enactment of the IPERA
   changes to IPIA, Treasury maintained and performed a robust improper payment risk assessment process which already
   included the new IPERA payment types.

   During fiscal year 2012, Treasury issued contracts and other reviewed payments totaling approximately $10 billion. The
   amended act expanded the payment types reviewed beyond just contracts to include grants, benefits, loans, and miscellaneous
   payments.

   Treasury’s annual risk assessment process includes a review of pre-payment controls that minimize the likelihood and
   occurrence of improper payments. Treasury requires each bureau and office to conduct post-award audits and report on
   payment recapture activities, contracts issued, improper payments made, and recoveries achieved. Bureaus and offices may use
   payment recapture audit contingency firms to perform many of the steps in their payment recapture auditing program and
   identify candidates for payment recapture action. However, no Treasury bureaus used contractors to perform recapture
   activities. Treasury employees performed this work.

   Treasury considers both pre- and post-reviews to identify payment errors a sound management practice that should be included
   among basic payment controls. All Treasury bureaus have a process in place to identify improper payments during post-
   reviews. At times, bureaus may use the results of IG and GAO reviews to help identify payment anomalies and target areas for
   improvement. However, Treasury applies extensive payment controls at the time each payment is processed, making recapture
   activity minimal.



                                                                                      207
                                                                             U.S. Department of the Treasury | Fiscal Year 2012

Payment Recapture Audit Reporting
                                                                                                                                                % of
                                                                                                                                              Amount
                                                                                                                 % of Amount                Outstanding
                                                                                                                Recovered out of               out of
                  Amount Subject        Actual Amount               Amount                      Amount              Amount        Amount      Amount
  Type of          to Review for         Reviewed and             Identified for               Recovered           Identified    Outstanding Identified
 Payment          2012 Reporting        Reported (2012)          Recovery (2012)                 (2012)              (2012)        (2012)      (2012)
 Contracts    $     7,088,266,898 $        7,278,612,256   $                464,722     $             358,490            77% $   343           0.07%
 Grants       $       664,056,873 $          664,056,873   $               489,042      $             489,042          100.% $      0             0%
 Benefits     $        629,912,653 $           2,576,496   $                 13,530     $               1,369             0% $ 12,161            90%
 Loans        $       802,974,000 $                    0   $                      0     $                   0             0% $      0             0%
 Other        $      2,473,854,277 $       2,226,897,695   $              2,953,097     $           2,839,482            96% $ 7,052           0.24%

                                    % of Amount
                                    Determined                                                                                          Cumulative
                    Amount            Not to be                                     Cumulative                                           Amounts
                   Determined        Collectable       Amounts                       Amounts           Cumulative    Cumulative        Determined
                    Not to be      out of Amount     Identified for   Amounts      Identified for       Amounts       Amounts            Not to be
    Type of        Collectable       Identified     Recovery (2005- Recovered        Recovery          Recovered    Outstanding         Collectable
   Payment           (2012)            (2012)            2011)      (2005-2011)    (2005-2012)        (2005-2012)   (2005-2012)        (2005-2012)
 Contracts        $          0          0%           $ 7,503,026 $ 6,295,392       $ 7,967,748       $ 6,653,882 $         343     $           75,130
 Grants           $          0          0%           $   428,274 $ 428,274         $   917,316       $ 917,316 $             0     $                0
 Benefits         $          0          0%           $     1,438 $ 1,438           $    14,968       $     1,438 $       12,161    $                0
 Loans            $          0          0%           $         0 $        0        $         0       $         0 $            0    $                0
 Other            $        685         .02%          $    46,380 $ 46,256          $ 2,999,477       $ 2,885,738 $        7,052    $             685


During fiscal year 2012, four Treasury entities determined that conducting a Payment Recapture Audit on various programs
would not be cost effective. The Bureau of the Public Debt – Debt Activity Programs, the Financial Management Service –
International Assistance Programs, the Treasury Executive Office of Asset Forfeiture – Forfeiture Payments and the Office of
Financial Stability – Hardest Hit Fund Housing Finance Agency Program.

The Bureau of the Public Debt’s Debt Activity Programs reflected a low level of risk in every group and payment type in fiscal
year 2012.

The Financial Management Service‘s non- federal payments to the Multilateral Development Bank are submitted by either a
voucher on a letter of credit administered by the Federal Reserve Bank of New York or through direct cash payments via the
Secure Payment System. These payments present a low level of improper payment risk based on the number of payments
annually and the quality of third party controls.

The Treasury Executive Office of Asset Forfeiture’s program payments to state and local law enforcement agencies are
intergovernmental payments that represent a low risk of improper payment. In addition, the Treasury Executive Office of Asset
Forfeiture staff reviews payments monthly for accuracy.

In accordance with legal agreements, the Office of Financial Stability’s Hardest Hit Fund Housing Finance Agency Program
submits advance payments to state housing finance agencies who disburse to the final recipients. OFS performs compliance
reviews designed to evaluate the overall control environment of the state housing finance agency administration of the program
and recommends improvements as appropriate.

Based on the justifications submitted by the four Treasury bureaus, payment recapture audits for these programs were not
deemed cost effective.

In fiscal year 2012, Treasury’s payment recapture audit activities identified $685 in uncollectible travel voucher
overpayments. Treasury determined that it was not cost-effective to pursue collection of this immaterial amount.




                                                                     208
                                                                                  U.S. Department of the Treasury | Fiscal Year 2012

Payment Recapture Audit Targets
The payment recapture audit targets listed below are preliminary estimates developed by Treasury bureaus and offices based on
historical performance and current payment recapture audit programs.
                                                                                 2012
                               2012                                     Recovery Rate (Amount          2013              2014                     2015
                              Amount                    2012             Recovered / Amount        Recovery Rate     Recovery Rate            Recovery Rate
 Type of Payment             Identified            Amount Recovered           Identified)             Target            Target                   Target
 Contracts              $          464,722         $        358,490              77%                   85%               85%                      85%
 Grants                 $          489,042         $        489,042             100%                   85%               85%                      85%
 Benefits               $            13,530        $              0               0%                   85%               85%                      85%
 Loans                  $                 0        $              0               0%                   85%               85%                      85%
 Other                  $        2,953,097         $      2,839,482              96%                   95%               95%                      95%

Aging of Outstanding Overpayments
  Type of Payment (contract, grant, benefit,        CY Amount Outstanding (0-6     CY Amount Outstanding (6 months        CY Amount Outstanding (Over
              loan, or other)                               months)                           – 1 year)                             1 year)
                Contracts                            $                      343       $                       0            $                     28
                 Grants                              $                        0       $                       0            $                      0
                 Benefits                            $                        0       $                       0            $                  1,369
                  Loans                              $                        0       $                       0            $                      0
                  Other                              $                   5,933        $                   1,127            $                      0

Disposition of Recaptured Funds


                                                                                 Financial
   Type of Payment           Agency Expenses to                                Management                                 Office of the
  (Contracts, Grants,          Administer the            Payment Recapture     Improvement                                 Inspector           Returned to
 Benefits, Loans, other)         Program                    Auditor Fees         Activities     Original Purpose            General             Treasury
       Contracts            $                  0         $               0$                   0$          267,542     $                   0   $         28
         Grants             $                  0         $               0$                   0$         489,042      $                   0   $           0
        Benefits            $                  0         $               0$                   0$                0     $                   0   $      1,369
         Loans              $                  0         $               0$                   0$                0     $                   0   $           0
         Other              $                  0         $               0$                   0$           31,473     $                   0   $           0


Overpayments Recaptured Outside of Payment Recapture Audit

                                Amount                 Amount              Amount         Amount        Cumulative Amount          Cumulative Amount
   Source of Recovery         Identified CY          Recovered CY       Identified PY   Recovered PY    Identified (CY + PY)       Recovered (CY+PY)
 Statistical Samples         $             0        $            0       $         0    $          0     $                0         $             0
 Post Payment Reviews
                             $             112       $           112    $         0     $          0     $                 112      $                  112
 or Audits
 OIG Reviews                 $                 8    $              8    $     6,234     $       3,113   $             6,242         $                3,121
 Single Audit Reports        $                 0    $              0    $         0     $          0     $                   0       $                  0
 Self-Reported               $     2,896,776        $       2,896,776   $         0     $          0    $          2,896,776        $           2,896,776
 Reports from Public         $        155,484       $        149,402    $         0     $          0    $            155,484        $              149,401


VI. ACCOUNTABILITY
The Secretary of the Treasury has delegated responsibility for addressing improper payments to the Assistant Secretary for
Management and Chief Financial Officer (ASM/CFO). Improper payments fall under the Department’s management and
internal control program. A major component of the internal control program is risk assessments, which are an extension of
each bureau’s annual improper payment elimination and recovery review process, as required under A-123, Appendix C. Under
Treasury Directive 40-04, Treasury Internal (Management) Control Program, executives and other managers are required to
have management control responsibilities as part of their annual performance plans. With oversight mechanisms such as the
Treasury CFO Council and the IRS’s Financial and Management Controls Executive Steering Committee (FMC ESC), managerial
responsibility and accountability in all management and internal control areas are visible and well-documented. Treasury has


                                                                            209
                                                                       U.S. Department of the Treasury | Fiscal Year 2012

identified executives who are responsible and accountable for reducing the level of EITC overclaims, while other senior and mid-
level officials have responsibility for monitoring progress in this area as bureau and program internal control officers.

VII. INFORMATION SYSTEMS AND OTHER INFRASTRUCTURE
Overall, Treasury has the internal controls, human capital, and information systems and other infrastructure it needs to reduce
improper payments to the targeted levels.

VIII. LIMITING STATUTORY AND REGULATORY BARRIERS
Treasury’s overall management assessment of IPERA did not uncover any limiting statutory or regulatory barriers with the
exception of the high-risk EITC program.

A number of factors continue to serve as barriers to reducing overclaims in the EITC program. These include:

        Complexity of the tax law (including the need for Congressional authorization of math error authority)

        Structure of the EITC

        Confusion among eligible claimants

        High turnover of eligible claimants

        Unscrupulous return preparers

        Fraud

No one of these factors can be considered the primary driver of program error. Furthermore, the interaction among the factors
makes addressing the credit’s erroneous claims rate, while balancing the need to ensure the credit makes its way to taxpayers
who are eligible, extremely difficult.

IX. ADDITIONAL COMMENTS
In fiscal year 2012, the OIG issued Report Number OIG-12-044, Treasury was Not in Compliance with IPERA for Fiscal Year
2011, which covered the IPERA program as presented in Treasury’s fiscal year 2011 Agency Financial Report. During fiscal year
2012, the Department partially implemented corrective actions to address the findings and recommendations in the OIG report.




                                                                210
                                                                                 U.S. Department of the Treasury | Fiscal Year 2012

SECTION F:
MATERIAL WEAKNESSES AND AUDIT FOLLOW-UP
This section provides detailed descriptions of Treasury’s material weakness inventory, including summaries of actions taken and
planned to resolve the weaknesses; tracking and follow-up activities related to Treasury’s GAO, OIG, TIGTA, and SIGTARP audit
inventory; an analysis of potential monetary benefits arising from audits performed by Treasury’s three IGs; and an update on
Treasury’s financial management systems framework.

I.     Treasury’s Material Weaknesses

Management may declare audit findings or internal situations as a material weakness whenever a condition exists that may
jeopardize the Treasury mission or continued operations. The FMFIA requires agency reporting on material weaknesses.

FMFIA and FFMIA

The FMFIA requires agencies to establish and maintain internal controls. The Secretary must evaluate and report annually on
the operations and financial reporting controls (FMFIA Section 2) and financial systems (FMFIA Section 4 and FFMIA) that
protect the integrity of federal programs. The requirements of the FMFIA serve as an umbrella under which other reviews,
evaluations, and audits should be coordinated and considered to support management’s assertion about the effectiveness of
internal control over operations, financial reporting, and compliance with laws and regulations.

As of September 30, 2012, Treasury had three material weaknesses under Section 2 of the FMFIA, summarized as follows:

Summary of FMFIA Material Weaknesses                                                    Section 2               Section 4                Total
Balance at the Beginning of FY 2012                                                         3                       0                      3
Closures/Downgrades during FY 2012                                                          0                       0                      0
Reassessed during FY 2012                                                                   0                       0                      0
New MW Declared during FY 2012                                                              0                       0                      0
Balance at the End of FY 2012                                                               3                       0                      3

Below are detailed descriptions of Treasury’s three material weaknesses:
Material Weakness Description
Internal Revenue Service – Unpaid Tax Assessments

The IRS needs to improve its internal control over Unpaid Assessments. Original key elements:
  Subsidiary ledger does not track and report one Trust Fund Recovery Penalty (TFRP) balance
  Untimely posting of TFRP assessments and untimely review of TFRP accounts
  IRS’ general ledger for its custodial activities does not use the standard federal accounting classification structure - closed
  General ledger cannot accurately report the Taxes Receivable balance without a statistical estimation process

                      Actions Completed in FY 2012                                                   What Remains to be Done

  Improved the financial classification of individual multi-                         Implement the financial classification of business multi-
   officer/multi-corporation accounts by splitting the account to a                    officer/multi-corporation accounts by splitting the account
   greater level of detail                                                             to a greater level of detail (2013)
  Improved financial classification of single assessments involving                  Implement single assessments involving multiple business
   multiple individual CSED balance due returns in Taxes Receivable,                   CSED balance due returns in Taxes Receivables, Compliance
   Compliance Assessments and Write-offs                                               Assessments and Write-offs (2013)
                                                                                      Perform “look-back” analysis on FY 2010 audit sampled
                                                                                       items to assess accuracy of the business rules for classifying
                                                                                       unpaid assessments (2013)
                                                                                      Determine process improvements for entering data into
                                                                                       IDRS to decrease errors posting to Master File (2013)
                                                                                      Target Downgrade/Closure: Fiscal year 2015




                                                                        211
                                                                              U.S. Department of the Treasury | Fiscal Year 2012

Material Weakness Description
Internal Revenue Service - Computer Security

The IRS has various computer security controls that need improvement. Original key elements:
  Adequately restrict electronic access to and within computer network operational components – closed
  Adequately ensure that access to key computer applications and systems is limited to authorized persons for authorized purposes
  Adequately configure system software to ensure the security and integrity of system programs, files, and data
  Appropriately delineate security roles and responsibilities within functional business operating and program units, per Federal Information
   Security Management Act (FISMA) - closed
  Appropriately segregate system administration and security administration responsibilities - closed
  Sufficiently plan or test the activities required to restore certain critical business systems where unexpected events occur
  Effectively monitor key networks and systems to identify unauthorized activities and inappropriate system configurations
  Provide sufficient technical, security-related training to key personnel - closed
  Certify and accredit 90 percent of all systems – closed
  Additional internal control testing to substantiate resolution of material weakness
                     Actions Completed in FY 2012                                                     What Remains to be Done

  Established and maintain metrics for system and computer                        Develop application monitoring capability for Release 2
   application - Access Control                                                     Supplement – Audit Trails
  Established and maintain metrics for security and integrity of system           Network and system monitoring for Release 3 – Audit Trails
   programs, files, and data – System Software Configuration                       Deployment of Release 3 – Audit Trails
  Established and maintain metrics for restoring critical business                Develop a centralized capability for External Entities for
   systems – IT Contingency Planning                                                Release 3 – Audit Trails
  Established Metrics Plan. Successfully measuring compliance of                  Enhance procedures for monitoring internal controls over
   each Top Level domain – Audit Trails                                             IRS automated systems identified as material to the
                                                                                    financial reporting process
                                                                                   Develop procedures for conducting internal controls
                                                                                    review of externally controlled financial systems providing
                                                                                    data identified as material to IRS financial statements
                                                                                   Target Downgrade/Closure: Fiscal year 2014

Material Weakness Description
Financial Management Service – Systems, Controls, and Procedures to Prepare the Government-wide Financial Statements

The government does not have adequate systems, controls, and procedures to properly prepare the Consolidated Government-wide Financial
Statements. Original key elements:
  The government lacks a process to obtain information to effectively reconcile the reported excess of net costs over revenue with the budget
    deficit, and when applicable, a reported excess of revenue over net costs with the budget surplus
  Weaknesses in financial reporting procedures in internal control over the process for preparing the Consolidated Financial Statements
                      Actions Completed in FY 2012                                                 What Remains to be Done

  Partially reconciled fiscal year 2011 budget deficit to agency financial        Complete timely reconciliation of annual budget deficit to
                                                                                    agency financial reporting
   reporting
                                                                                   Complete reciprocal category for the Treasury General Fund
  Refined analysis model for unreconciled transactions that affect the            Implement changes identified by the FASAB Reporting
   change in net position                                                           Entity Task Force once it completes its review and finalize
  Accounted for intra-governmental differences through formal                      procedures for inclusion of current non-reporting entities,
   consolidating and elimination accounting entries using all reciprocal            e.g., legislative and judicial branches
   fund categories including the General Fund                                      Implement the Treasury General Fund
  Completed closing package submitted to GAO by federal agencies                  Include all disclosures related to criminal debt and risk
                                                                                    assumed
  Developed an approach for implementation of the Treasury General
                                                                                   Include all loss contingencies related to treaties
   Fund and related General Ledger system                                          Targeted Downgrade/Closure: Fiscal year 2014
  Established traceability from agency financial statements and
   footnote disclosures to the Consolidated Financial Statements (CFS)
   for completeness

II.    Audit Follow-up Activities

During fiscal year 2012, Treasury continued to place emphasis on both the general administration of internal control issues
throughout the Department and the timely resolution of findings and recommendations identified by GAO, OIG, TIGTA,
SIGTARP, external auditors, and management. During the year, Treasury continued to implement enhancements to the tracking
system called the “Joint Audit Management Enterprise System” (JAMES). JAMES is a Department-wide, interactive, web-based
system accessible to management, OIG, TIGTA, SIGTARP, and others. The system tracks information on audit reports from
issuance through completion of all corrective actions required to address findings and recommendations contained in an audit
report. JAMES is the official system of record for Treasury’s audit follow-up program.
                                                                        212
                                                                                  U.S. Department of the Treasury | Fiscal Year 2012

 Potential Monetary Benefits

 The Inspector General Act of 1978, as amended, Public Law 95-452, requires the IGs and secretaries of executive agencies and
 departments to submit semiannual reports to the Congress on actions taken on audit reports issued that identify potential
 monetary benefits. The Department consolidates and analyzes all relevant information for inclusion in this report. The
 information contained in this section represents a consolidation of information provided separately by OIG, TIGTA, SIGTARP,
 and Treasury management.

 In the course of their audits, the IGs periodically identify questioned costs, recommend that funds be put to better use, and
 identify measures that demonstrate the value of audit recommendations to tax administration and business operations.
 “Questioned costs” include a:

           Cost that is questioned because of an alleged violation of a provision of a law, regulation, contract, or other requirement
            governing the expenditure of funds

           Finding, at the time of the audit, that such costs are not supported by adequate documentation (i.e., an unsupported
            cost)

           Finding that expenditure of funds for the intended purpose is unnecessary or unreasonable

 The Department regularly reviews progress made by the bureaus to realize potential monetary benefits identified in audit
 reports, and coordinates with the auditors as necessary to ensure the consistency and integrity of information on monetary
 benefit recommendations tracked in JAMES.

 The statistical data in the following summary tables represent audit report activity for the period from October 1, 2011 through
 September 30, 2012. The data reflect information on OIG, TIGTA, and SIGTARP reports that identified potential monetary
 benefits.

                                 Audit Report Activity With Potential Monetary Benefits
                                for Which Management Has Identified Corrective Actions
                                              (OIG, TIGTA, and SIGTARP)
                                      October 1, 2011 through September 30, 2012
                                                  (Dollars in Millions)
                                                             Funds Put to                   Revenue
                             Disallowed Costs                                                                                   Totals
                                                              Better Use                  Enhancements
                                                                                                                       Report             Total
                             Reports       Dollars      Reports         Dollars        Reports        Dollars
                                                                                                                        Total            Dollars
Beginning Balance                 10          $72.2           11          $9,905.2           8           $3,735.7             29           $13,713.1

New Reports                        7            10.0          12          22,066.6           8              327.4             27          22,404.0

Total                              17           82.2         23            31,971.8          16           4,063.1             56            36,117.1

Reports Closed                     3             2.1          12          22,672.1           8            2,015.5             23           24,689.7
  a. Realized or
                                   3             0.3           5               49.5           1                 3.1             9              52.9
     Actual1
  b. Unrealized or
                                    1            1.8         10           22,622.72          8           2,012.33             19           24,636.8
     Written off1
Ending Balance                    14          $80.1           11         $9,299.7            8         $2,047.6               33         $11,427.4

   1    Report numbers in categories a and b may not equal the Reports Closed. One report can be included in one or both categories.
   2    This figure includes six TIGTA reports, with $22.2 billion written off, for which IRS management did not concur with TIGTA’s projected
         benefits; and four TIGTA reports with $406.3 million written off, for which TIGTA does not agree with the IRS that the benefits have not
         been realized.
   3    This figure includes five TIGTA reports, with $1.6 billion written off, for which IRS management did not concur with TIGTA’s projected
         benefits; and two TIGTA reports, with $406.2 million written off, for which TIGTA does not agree with the IRS that the benefits have not
         been realized.



                                                                        213
                                                                            U.S. Department of the Treasury | Fiscal Year 2012

 The following table presents a summary of OIG, TIGTA, and SIGTARP audit reports with potential monetary benefits that were
 open for more than one year as of the end of fiscal years 2010, 2011, and 2012.


                              Number of Reports with Potential Monetary Benefits
                                        Open for More than One Year
                                            (Dollars In Millions)
                 PAR/AFR Report Year                                9/30/2010                             9/30/2011            9/30/2012
                 No. of Reports                                                   1                               0                          0
 OIG
                 $ Projected Benefits                                        $ 10.5                              $0                       $0
                 No. of Reports                                                  12                               11                        9
 TIGTA
                 $ Projected Benefits                                     $ 1,783.7                        $ 4,384.6                $10,018.5
                 No. of Reports                                                   0                                0                        2
 SIGTARP
                 $ Projected Benefits                                           $0                               $0                      $8.7

 The following table presents a summary of the audit reports containing potential monetary benefits, broken out by year of report
 issuance, on which management decisions were made on or before September 30, 2011, but the final actions had not been taken
 as of September 30, 2012.


                     Details of the Audit Reports with Potential Monetary Benefits
             on Which Management Decisions Were Made On or Before September 30, 2011,
                   But Final Actions Have Not Been Taken as of September 30, 2012
                                          (Dollars In Millions)
                                                                               Dis-           Funds         Revenue
                           Report
Bureau     Report No.                        Brief Description               allowed          Put to        Enhance-       Total         Due Date
                         Issue Date
                                                                              Costs         Better Use        ment
                                        The IRS Contracting Officer
                                        (CO) should use the results of
                                        the Defense Contract Audit
  IRS      2006-1c-142    9/25/2006                                             $ 32.4                -                -     $ 32.4      10/15/2012
                                        Agency (DCAA) report to fulfill
                                        his/her duties in awarding and
                                        administering contracts.
FY 2006         1                                                              $ 32.4                                       $ 32.4
FY 2007       N/A                                                                       -             -                -             -     N/A
FY 2008       N/A                                                                       -             -                -             -     N/A
                                        IRS should develop procedures
                                        requiring that workstation
                                        sharing levels are included in
                                        space needs assessments.
                                        When implementing these
  IRS      2009-10-107    7/24/2009     procedures, IRS should adjust                   -         30.0                 -      30.0       1/15/2014
                                        its space needs to reflect
                                        workstation sharing and take
                                        action to release any unneeded
                                        space identified, where
                                        appropriate.
                                        The IRS CO should use the
                                        results of the DCAA report to
  IRS      2009-1c-134    9/28/2009     fulfill his/her duties in                     0.1             -                -           0.1   10/15/2012
                                        awarding and administering
                                        contracts.
FY 2009         2                                                                $ 0.1          $ 30.0           $0          $30.1
                                        IRS should revise the criteria
                                        used to determine who will
                                        receive a notice to include
                                        individuals identified by the
                                        Duplicate TIN Use database
  IRS      2010-40-117    9/14/2010                                                     -       1,297.6                -    1,297.6      1/15/2013
                                        when (1) a TIN is used as a
                                        secondary taxpayer on one tax
                                        return and as a dependent
                                        and/or for the EITC on another
                                        tax return, and (2) a TIN is
                                                                   214
                                                                                U.S. Department of the Treasury | Fiscal Year 2012

                                                                             Dis-          Funds             Revenue
                            Report
 Bureau    Report No.                                                      allowed         Put to            Enhance-             Total         Due Date
                          Issue Date       Brief Description
                                                                            Costs        Better Use            ment

                                       used as a qualifying child for
                                       the child and dependent care
                                       credit, adoption credit,
                                       education credits, and child tax
                                       credit.
FY 2010          1                                                             $0         $ 1,297.6                 $0            $1,297.6
                                       IRS should use the DCAA audit
                                       report to fill his/her duties in
                                       awarding and administering
                                       contracts. When negotiations
  IRS       2011-1c-017   2/24/2011    are completed, the CO will               0.2                  -                  -                 0.2   2/24/2016
                                       provide the TIGTA a copy of the
                                       a
                                       Price Memorandum or other
                                       n
                                       documentation     of the actual
                                       d savings achieved.
                                       cost

                                       d IRS CO should use the
                                       The
                                       e
                                       DCAA   report in the
                                       t
                                       administration   of the contract
  IRS      2011-1c-080    8/23/2011    e                                        0.1                  -                  -                 0.1   8/31/2016
                                       and determine whether the
                                       r
                                       questioned   costs should be
                                       m
                                       recovered.
                                       i
                                       IRS
                                       n should revise the Form
                                       8863
                                       e     to require taxpayers to
                                       provide identifying information
  IRS      2011-41-083    9/16/2011    w the educational institution
                                       for                                           -      6,829.5                     -           6,829.5     1/15/2013
                                       h the student(s) being
                                       that
                                       e
                                       claimed  for the education
                                       t
                                       credits attended.
                                       h
                                       e should consider reducing
                                       IRS
  IRS      2011-30-112    9/26/2011    r time between each Master
                                       the                                           -               -          1,800.0            1,800.0      1/15/2013
                                       File notice by seven days.
                                       t
                                       h IRS CO should use the
                                       The
                                       e
                                       DCAA   report in the
                                       administration of the contract
  IRS       2011-1c-122   9/28/2011                                            28.6                  -                  -             28.6      9/30/2016
                                       and determine whether the
                                       questioned costs should be
                                       recovered.

  OFS     SIG-AR-11-                   OFS should review previously
          003                          paid legal fee bills to identify
                                       unreasonable or unallowable
                                       charges, and seek reimbursement           0.7                     -                  -              0.7 4/30/2013
                                       for those charges, as appropriate

                                       OFS should determine the
                                       allowability in questioned,
            SIG-AR-11-
   OF                     9/28/2011    unsupported legal fees and               8.1                  -                  -                 8.1   11/11/2012
               004
    S                                  expenses paid to specified law
                                       firms.

FY 2011          7                                                          $37.7        $6,829.5            $1,800.0           $8,667.2
 Total          11                                                          $70.2         $8,157.1           $1,800.0           $10,027.3




                                                                   215
                                                                    U.S. Department of the Treasury | Fiscal Year 2012

The following table provides a snapshot of OIG and TIGTA audit reports with significant recommendations reported in previous
semiannual reports for which corrective actions had not been completed as of September 30, 2011 and September 30, 2012,
respectively. OIG and TIGTA define “significant” as any recommendation open for more than one year. There were no
“Undecided Audit Recommendations” during the same periods.

                        Audit Reports with Significant Unimplemented Recommendations
                                         9/30/2011                            9/30/2012
                                  OIG               TIGTA               OIG                                  TIGTA
No. of Reports                     7                  12                 5                                     17
The following table provides a snapshot of the number of recommendations made in SIGTARP audit reports and quarterly
reports for which corrective actions had not been completed as of September 30, 2011 and September 30, 2012, respectively.
SIGTARP defines a recommendation as “unimplemented” if it is listed as “partially implemented,” “in process,” or “not
implemented” in SIGTARP’s quarterly report.

                                    Unimplemented SIGTARP Recommendations
                                         9/30/2011                                           9/30/2012
No. of Unimplemented
                                                12                                                25
Recommendations




                                                             216
                                                                        U.S. Department of the Treasury | Fiscal Year 2012

APPENDIX:
GLOSSARY OF ACRONYMS
Glossary of Acronyms                                                    Glossary of Acronyms

ABS               Asset-Backed Securities                               CPP               Capital Purchase Program
ACA               Patient Protection and Affordable Care Act            CRS               Centralized Receivables Services
ACH               Automated Clearing House                              DCAA              Defense Contract Audit Agency

AD                Audit Division                                        DCFO              Deputy Chief Financial Officer

AFR               Agency Financial Report                               DCP               Office of D.C. Pensions

AGI               Adjusted Gross Income                                 DIP               Debtor-in-Possession

AGP               Asset Guarantee Program                               DO                Departmental Offices

AIFP              Automotive Industry Financing Program                                   Dodd-Frank Wall Street Reform and Consumer
                                                                        Dodd-Frank Act
                                                                                          Protection Act of 2010
AIG               American International Group, Inc.
                                                                        DOL               Department of Labor
AML               Anti-money laundering
                                                                        EESA              Emergency Economic Stabilization Act of 2008
APG               Agency Priority Goal
                                                                        EFTPS             Electronic Federal Tax Payment System
AQC               Automated Questionable Credit
                                                                        EITC              Earned Income Tax Credit
ARC               Administrative Resource Center
                                                                        ESF               Exchange Stabilization Fund
                  Assistant Secretary for Management & Chief
ASM/CFO
                  Financial Officer                                     EU                European Union
AUR               Automated Underreporter                               Fannie Mae        Federal National Mortgage Association
BEA               Bank Enterprise Award                                 FARS              Financial Analysis and Reporting System
BEP               Bureau of Engraving and Printing                      FASAB             Federal Accounting Standards Advisory Board
BPD               Bureau of the Public Debt                             FATCA             Foreign Account Tax Compliance Act
BSA               Bank Secrecy Act                                      FCDA              Foreign Currency Denominated Assets
BYOD              Bring Your Own Device                                 FCRA              Federal Credit Reform Act
CADE 2            Customer Account Data Engine 2                        FDIC              Federal Deposit Insurance Corporation
CAP               Capital Assistance Program                            FECA              Federal Employees’ Compensation Act
CAP               Compliance Assurance Process                          FEHBP             Federal Employees Health Benefits Program

CDCI              Community Development Capital Initiative              FFB               Federal Financing Bank

CDD               Customer Due Diligence                                FFMIA             Federal Financial Management Improvement Act

                                                                        FHA               Federal Housing Administration
CDDB              Custodial Detail Database
                                                                        FHFA              Federal Housing Finance Agency
CDE               Community Development Entity
                                                                        FinCEN            Financial Crimes Enforcement Network
CDFI              Community Development Financial Institutions          FIO               Federal Insurance Office

CDLF              Community Development Loan Fund                       FMD               Financial Management Services/Miscellaneous

CDP               Collection Due Process                                FMFIA             Federal Managers’ Financial Integrity Act

                                                                        FMIS              Financial Management Information System
CE                Continuing Education
                  Committee on Foreign Investment in the United         FMS               Financial Management Service
CFIUS
                  States
                                                                        FMU               Financial Market Utilities
CFPB              Consumer Financial Protection Bureau
                                                                        FPA               Federal Program Activities
CFO               Chief Financial Officer
                                                                        FRB               Federal Reserve Bank
CFS               Consolidated Financial Statements
                  Council of Inspectors General on Financial            FRBNY             Federal Reserve Bank of New York
CIGFO
                  Oversight
                                                                        Freddie Mac       Federal Home Loan Mortgage Corporation
CMBS              Commercial Mortgage Backed Securities
                                                                        FSB               Financial Stability Board
CO                Contracting Officer
                                                                        FTO               Fine Troy Ounce
                  Committee of Sponsoring Organizations of the
COSO
                  Treadway Commission                                   FY                Fiscal Year
Council           Financial Stability Oversight Council                 G-7               Group of Seven


                                                                  217
                                                                             U.S. Department of the Treasury | Fiscal Year 2012

Glossary of Acronyms                                                         Glossary of Acronyms

G-20              Group of Twenty                                            NMTC              New Markets Tax Credit

GAAP              Generally Accepted Accounting Principles                   NRP               National Research Program

GAB               General Arrangement to Borrow                              NS/EP             National Security and Emergency Preparedness

GAFSP             Global Agriculture and Food Security Program               NTPI              Non-tax Paperless Initiative

GAO               Government Accountability Office                           NYSE              New York Stock Exchange

GM                General Motors Company                                     OAS               Office of International Affairs

GSA               General Services Administration                            OCC               Office of the Comptroller of the Currency

G-SIFI            Global Systematically Important Financial                  OFAC              Office of Foreign Assets Control
                  Institution
GSE               Government Sponsored Enterprise                            OFAS              Office of the Fiscal Assistant Secretary
                  Government-wide Treasury Account Symbol                    OFIT              Office of Financial Innovation and Transformation
GTAS
                  Adjusted Trial Balance System
                                                                             OFR               Office of Financial Research
GWA               Government-wide Accounting
                                                                             OFS               Office of Financial Stability
HAMP              Home Affordable Modification Program
HERA              Housing and Economic Recovery Act                          OIG               Office of Inspector General

HFA               Housing Finance Agency                                     OMB               Office of Management and Budget

HHF               Hardest Hit Fund                                           OPEB              Other Post-Employment Benefits

HHS               Department of Health and Human Services                    OPM               Office of Personnel Management

HUB               Historically Underutilized Business                        ORB               Other Retirement Benefits

HUD               Department of Housing and Urban Development                OTA               Office of Technical Assistance

IA                International Affairs                                      OTC               Over-the-Counter

IAIS              International Association of Insurance Supervisors         OTS               Office of Thrift Supervision

IG                Inspector General                                          PB                President’s Budget
                                                                             P.L.              Public Law
IMF               International Monetary Fund
                                                                             POC               Proof of Concept
                  Improper Payments Elimination and Recovery Act
IPERA                                                                        PP&E              Property, Plant, and Equipment
                  of 2010
IPIA              Improper Payments Information Act of 2002                  PPIF              Public-Private Investment Fund
IPP               Invoice Processing Platform
                                                                             PPIP              Public-Private Investment Program
IRC               Internal Revenue Code
                                                                             PTIN              Preparer Tax Identification Number
IRS               Internal Revenue Manual
                                                                             QFI               Qualified Financial Institution
IRS               Internal Revenue Service
                                                                             QRP               Questionable Refund Program
IT                Information Technology
                                                                             Recovery Act      American Recovery and Reinvestment Act of 2009
ITIN              Individual Tax Identification Number
                                                                             RMBS              Residential Mortgage Backed Securities
JAMES             Joint Audit Management Enterprise System
                                                                             RMLO              Regulatory Mortgage Lenders and Originators
LEI               Legal Entity Identifier
                                                                             RTRP              Registered Tax Return Preparer
LEP               Limited English Proficiency
                                                                             S&ED              Strategic and Economic Dialogue
LIBOR             London Interbank Offered Rate
                                                                             SAR               Suspicious Activity Report
LIC               Low-Income Community
                                                                             SBA               Small Business Administration
MBS               Mortgage-Backed Security
                                                                             SBLF              Small Business Lending Fund
MDB               Multilateral Development Bank
                                                                             SBR               Statement of Budgetary Resources
MeF               Modernized Electronic File
                                                                             SDR               Special Drawing Rights
MHA               Making Home Affordable Program
                                                                             SEC               Securities and Exchange Commission
MOU               Memorandum of Understanding

MRADR             Market Risk Adjusted Discount Rate                         SFFAC             Statement of Federal Financial Accounting Concepts

MSB               Money Services Businesses                                                    Statement of Federal Financial Accounting
                                                                             SFFAS
                                                                                               Standards
NAB               New Arrangement to Borrow
                                                                             SIG               Special Inspector General
                  Native American Community Development
NACA
                  Financial Institutions Assistance                          SIGTARP           Special Inspector General for TARP
NIBP              New Issue Bond Program                                     SOS               Statement of Spending

                                                                       218
                                                                             U.S. Department of the Treasury | Fiscal Year 2012

Glossary of Acronyms

SPSPA             Senior Preferred Stock Purchase Agreements

SPV               Special Purpose Vehicle

SSBCI             State Small Business Credit Initiative

SSC               Shared Services Council

SVC               Stored Value Card

TAA               Trade Adjustment Assistance

TAC               Taxpayer Assistance Center

TAIFF             Troubled Asset Insurance Finance Fund

TALF              Term Asset-Backed Securities Loan Facilities

TARP              Troubled Asset Relief Program

TCLP              Temporary Credit and Liquidity Program

TEFRA             Tax Equity and Fiscal Responsibility Act of 1982
                  Treasury Enterprise Identity Credential and Access
TEICAM
                  Management
TEOAF             Treasury Executive Office for Asset Forfeiture

TFF               Treasury Forfeiture Fund

TFI               Terrorism and Financial Intelligence

TFTP              Terrorist Finance Tracking Program

TGA               Treasury General Account

TIEA              Tax Information Exchange Agreement

TIER              Treasury Information Executive Repository

TIGTA             Treasury Inspector General for Tax Administration

TIPS              Treasury Inflation-Protected Securities

TNET              Treasury Network

TOP               Treasury Offset Program

TPU               Taxpayer Processing Unit

TRIA              Terrorism Risk Insurance Act

TST               Tier Structure Tool

TRuPS             Trust Preferred Securities

TTB               Alcohol and Tobacco Tax and Trade Bureau

UA                Unpaid Assessment

                  Uniting and Strengthening America by Providing
USA PATRIOT
                  Appropriate Tools Required to Intercept and
Act
                  Obstruct Terrorism Act of 2001

USDA              United States Department of Agriculture
USC               United States Code
USPS              United States Postal Service

USSGL             United States Standard General Ledger

VA                Department of Veterans Affairs

VSD               Virtual Service Delivery
                  Worker, Homeownership, and Business Assistance
WHBAA
                  Act of 2009
WMD               Weapons of Mass Destruction




                                                                       219
      U.S. Department of the Treasury | Fiscal Year 2012




220
      U.S. Department of the Treasury | Fiscal Year 2012




221
